<html>
<title> - HEARING TO REVIEW THE 2015 FIRE SEASON AND LONG-TERM TRENDS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


       HEARING TO REVIEW THE 2015 FIRE SEASON AND LONG-TERM TRENDS

=======================================================================

                                HEARING

                               BEFORE THE

               SUBCOMMITTEE ON CONSERVATION AND FORESTRY

                                 OF THE

                        COMMITTEE ON AGRICULTURE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 8, 2015

                               __________

                           Serial No. 114-30
                           
                           
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                           


          Printed for the use of the Committee on Agriculture
                         agriculture.house.gov


                               ____________
                               
                              
                         U.S. GOVERNMENT PUBLISHING OFFICE
97-183 PDF                    WASHINGTON : 2016                         
____________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6c0b1c032c0f191f180409001c420f030142">[email&#160;protected]</a>  




                        COMMITTEE ON AGRICULTURE

                  K. MICHAEL CONAWAY, Texas, Chairman

RANDY NEUGEBAUER, Texas,             COLLIN C. PETERSON, Minnesota, 
    Vice Chairman                    Ranking Minority Member
BOB GOODLATTE, Virginia              DAVID SCOTT, Georgia
FRANK D. LUCAS, Oklahoma             JIM COSTA, California
STEVE KING, Iowa                     TIMOTHY J. WALZ, Minnesota
MIKE ROGERS, Alabama                 MARCIA L. FUDGE, Ohio
GLENN THOMPSON, Pennsylvania         JAMES P. McGOVERN, Massachusetts
BOB GIBBS, Ohio                      SUZAN K. DelBENE, Washington
AUSTIN SCOTT, Georgia                FILEMON VELA, Texas
ERIC A. ``RICK'' CRAWFORD, Arkansas  MICHELLE LUJAN GRISHAM, New Mexico
SCOTT DesJARLAIS, Tennessee          ANN M. KUSTER, New Hampshire
CHRISTOPHER P. GIBSON, New York      RICHARD M. NOLAN, Minnesota
VICKY HARTZLER, Missouri             CHERI BUSTOS, Illinois
DAN BENISHEK, Michigan               SEAN PATRICK MALONEY, New York
JEFF DENHAM, California              ANN KIRKPATRICK, Arizona
DOUG LaMALFA, California             PETE AGUILAR, California
RODNEY DAVIS, Illinois               STACEY E. PLASKETT, Virgin Islands
TED S. YOHO, Florida                 ALMA S. ADAMS, North Carolina
JACKIE WALORSKI, Indiana             GWEN GRAHAM, Florida
RICK W. ALLEN, Georgia               BRAD ASHFORD, Nebraska
MIKE BOST, Illinois
DAVID ROUZER, North Carolina
RALPH LEE ABRAHAM, Louisiana
JOHN R. MOOLENAAR, Michigan
DAN NEWHOUSE, Washington
TRENT KELLY, Mississippi

                                 ______

                    Scott C. Graves, Staff Director

                Robert L. Larew, Minority Staff Director

                                 ______

               Subcommittee on Conservation and Forestry

                 GLENN THOMPSON, Pennsylvania, Chairman

FRANK D. LUCAS, Oklahoma             MICHELLE LUJAN GRISHAM, New 
STEVE KING, Iowa                     Mexico, Ranking Minority Member
SCOTT DesJARLAIS, Tennessee          ANN M. KUSTER, New Hampshire
CHRISTOPHER P. GIBSON, New York      RICHARD M. NOLAN, Minnesota
DAN BENISHEK, Michigan               SUZAN K. DelBENE, Washington
RICK W. ALLEN, Georgia               ANN KIRKPATRICK, Arizona
MIKE BOST, Illinois

                                  (ii)
                              
                              C O N T E N T S

                              ----------                              
                                                                   Page
DelBene, Hon. Suzan K., a Representative in Congress from 
  Washington, submitted report...................................    73
Lujan Grisham, Hon. Michelle, a Representative in Congress from 
  New Mexico, opening statement..................................     4
Newhouse, Hon. Dan, a Representative in Congress from Washington, 
  submitted letter...............................................    87
Thompson, Hon. Glenn, a Representative in Congress from 
  Pennsylvania, opening statement................................     1
    Prepared statement...........................................     3

                               Witnesses

Tidwell, Thomas L., Chief, U.S. Forest Service, U.S. Department 
  of Agriculture, Washington, D.C................................     6
    Prepared statement...........................................     7
    Submitted questions..........................................    88
Haeberle, Rod, Owner, Haeberle Ranch, Okanogan, WA...............    30
    Prepared statement...........................................    32
Topik, Ph.D., Christopher, Director, Restoring America's Forests, 
  North America Region, The Nature Conservancy, Arlington, VA....    44
    Prepared statement...........................................    46
Litzenberg, Erik J., Fire Chief, Santa Fe Fire Department, Santa 
  Fe, NM; on behalf of International Association of Fire Chiefs..    54
    Prepared statement...........................................    55
Priddy, (Ret.), COL Ronald N., Director of Government Affairs, 10 
  Tanker Air Carrier, Albuquerque, NM............................    58
    Prepared statement...........................................    59

 
      HEARING TO REVIEW THE 2015 FIRE SEASON AND LONG-TERM TRENDS

                              ----------                              


                       THURSDAY, OCTOBER 8, 2015

                  House of Representatives,
                 Subcommittee on Conservation and Forestry,
                                  Committee on Agriculture,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 1302 of the Longworth House Office Building, Hon. Glenn 
Thompson [Chairman of the Subcommittee] presiding.
    Members present: Representatives Thompson, Lucas, Benishek, 
Allen, Bost, Newhouse, Lujan Grisham, Kuster, Nolan, DelBene, 
Kirkpatrick, Costa, and Aguilar.
    Staff present: Haley Graves, Josh Maxwell, Mollie Wilken, 
Patricia Straughn, Skylar Sowder, Stephanie Addison, Faisal 
Siddiqui, Evan Jurkovich, Lisa Shelton, Liz Friedlander, 
Matthew MacKenzie, Nicole Scott, and Carly Reedholm

 OPENING STATEMENT OF HON. GLENN THOMPSON, A REPRESENTATIVE IN 
                   CONGRESS FROM PENNSYLVANIA

    The Chairman. Good morning, everyone. This hearing of the 
Subcommittee on Conservation and Forestry, to review the 2015 
fire season and long-term trends, will come to order. We will 
open with some opening statements.
    Good morning again, and welcome to today's hearing of the 
Conservation and Forestry Subcommittee to review the 2015 fire 
season and the long-term trends.
    This year, western states, including Alaska, have 
experienced yet another catastrophic fire season with over 9 
million acres burned to date. Now, this continues an alarming 
trend where the average number of acres burned each year has 
nearly doubled since the 1990s. As such, the amount that the 
government spends on suppressing these wildfires has also 
doubled, while the dollars Congress has allotted for fighting 
these fires have remained nearly the same.
    When the fire-suppression funding falls short, the 
financial burden falls on the Forest Service and the Department 
of the Interior to cover firefighting costs from their non-fire 
budgets. Now, these fire transfers are halting the programs and 
activities that promote forest health and hazardous fuels 
reduction, and it is impacting local Forest Service personnel 
nationwide. This year alone, over 50 percent of the Forest 
Service budget has gone towards wildfire suppression, and the 
USDA expects this figure to grow.
    To many, the solution seems simple: Congress should allot 
more funding for fire suppression. However, that is not 
necessarily the only solution. While the budget and the fire-
suppression funding are issues that must be addressed, we must 
also look at the culture of how we have been managing our 
National Forests. Forest Service decisions have significant 
consequences, and we must make sure that policies are in place 
to keep our forests healthy.
    Healthy forests require active management, in the form of 
mechanical thinning, prescribed fires, and other activities, to 
ensure that they do not become overgrown tinderboxes. Healthy 
National Forests are more sustainable for generations to come, 
due to decreased risk of catastrophic fires and invasive 
species outbreaks.
    Unfortunately, much of our National Forest System is 
unhealthy. In fact, Forest Service staff has identified up to 
\1/4\ of the 193 million acres of the National Forest System as 
``wildfire at risk.''
    As I mentioned earlier, it is true that the number of acres 
burned have doubled in recent years compared to the 1990s. 
However, over the same time, the number of forest fires has 
stayed constant, or in some years, even declined. Our National 
Forests are facing an epidemic of declining health, which is in 
direct correlation to the policies that have led to a dramatic 
decrease in managed acres. The Forest Service has drastically 
reduced timber harvest from almost 13 billion board feet in the 
late 1980s to only 3 billion board feet of timber in recent 
years. And it is no wonder that the number of acres affected by 
catastrophic wildfires has doubled. This loss of forestland 
could potentially increase, especially if we do not find a 
comprehensive solution to this problem.
    The Agricultural Act of 2014 provided the tools for the 
Forest Service to successfully manage our National Forests. 
These provisions allow for expedited planning for projects, and 
it reauthorizes programs to allow the Forest Service to 
streamline projects, such as timber sales and restoration 
projects, or projects across neighboring jurisdiction. To build 
on the efforts of the 2014 Farm Bill, the House recently passed 
H.R. 2647, the Resilient Federal Forests Act of 2015. Now, this 
legislation is an earnest attempt to give the Forest Service 
more authority and much-needed flexibility to address these 
challenges of process, funding, litigation, necessary timber 
harvesting, and essential active management.
    While the Administration has publicly opposed H.R. 2647 
because of a few provisions, there is much more from this 
legislation that will serve to reduce the catastrophic 
wildfires. There is not a single solution to solving the 
wildfire issue. I hope that today's hearing will allow us to 
continue a dialogue to identify comprehensive solutions. We are 
very fortunate to have Forest Service Chief Tidwell testify. 
Chief, you have been great before about working with this 
Committee and being here, and sharing your perspectives even 
between hearings. I want to thank you for your communication 
and your partnership on this as we deal with this challenging 
issue. I hope to hear from the Chief on his experience with 
wildfire issues and what tools he has at his disposal, and what 
tools he needs to further prevent and suppress wildfires. I 
also look forward to hearing the testimony of our distinguished 
witnesses on our second panel. These individuals will be able 
to speak firsthand about the consequences of catastrophic 
wildfires, and the need to find comprehensive solutions to 
address this issue.
    [The prepared statement of Mr. Thompson follows:]

Prepared Statement of Hon. Glenn Thompson, a Representative in Congress 
                           from Pennsylvania
    Good morning, and welcome to today's hearing of the Conservation 
and Forestry Subcommittee to review the 2015 fire season and long term 
trends.
    This year, western states, including Alaska, have experienced yet 
another catastrophic fire season with over 9 million acres burned to 
date.
    This continues an alarming trend where the average number of acres 
burned each year has nearly doubled since the 1990s.
    As such, the amount the government spends on suppressing these 
wildfires has also doubled, while the dollars Congress has allotted for 
fighting these fires have remained nearly the same.
    When fire suppression funding falls short, the financial burden 
falls on the Forest Service and Department of the Interior to cover 
firefighting costs from their non-fire budgets.
    These fire transfers are halting the programs and activities that 
promote forest health and hazardous fuels reduction, and it is 
impacting local Forest Service personnel nationwide. This year alone, 
over 50% of the Forest Service budget has gone towards wildfire 
suppression and USDA expects this figure to grow.
    To many, the solution seems simple--Congress should allot more 
funding for fire suppression.
    However, that is not necessarily the only solution. While the 
budget and fire suppression funding are issues that must be addressed, 
we must also look at the culture of how we have been managing our 
National Forests.
    Forest Service decisions have significant consequences, and we must 
make sure that policies are in place to keep our forests healthy.
    Healthy forests require active management--in the form of 
mechanical thinning, prescribed fires, and other activities--to ensure 
they do not become overgrown tinderboxes.
    Healthy National Forests are more sustainable for generations to 
come due to decreased risk of catastrophic fires and invasive species 
outbreaks.
    Unfortunately, much of our National Forest System is unhealthy. In 
fact, Forest Service staff has identified up to \1/4\ of the 193 
million acres of the National Forest System as ``wildfire at risk''.
    As I mentioned earlier, it is true that the number of acres burned 
have doubled in recent years compared to the 1990s. However, over the 
same time, the number of forest fires has stayed constant or in some 
years even declined.
    Our National Forests are facing an epidemic of declining health, 
which is in direct correlation to policies that have led to a dramatic 
decrease in managed acres.
    The Forest Service has drastically reduced timber harvest from 
almost 13 billion board feet in the late 1980's to only 3 billion board 
feet of timber in recent years.
    It is no wonder that the number of acres affected by catastrophic 
wildfire has doubled. This loss of forestland could potentially 
increase, especially if we do not find a comprehensive solution to this 
problem.
    The Agricultural Act of 2014 provided the tools for the Forest 
Service to successfully manage our National Forests. These provisions 
allow for expedited planning for projects, and it reauthorizes programs 
to allow the Forest Service to streamline projects, such as timber sale 
and restoration projects, or projects across neighboring jurisdictions.
    To build on the efforts of the 2014 Farm Bill, the House recently 
passed H.R. 2647, the Resilient Federal Forests Act of 2015. This 
legislation is an earnest attempt to give the Forest Service more 
authority and much needed flexibility to address these challenges of 
process, funding, litigation, necessary timber harvesting, and 
essential active management.
    While the Administration has publicly opposed H.R. 2647 because of 
a few provisions, there is much from this legislation that will serve 
to reduce catastrophic wildfires.
    There is not a single solution to solving wildfire issues. I hope 
that today's hearing will allow us to continue a dialogue to identify 
comprehensive solutions.
    We are very fortunate to have Forest Service Chief Tidwell testify 
before the Subcommittee today. I hope to hear from the Chief on his 
experience with wildfire issues and what tools he has at his disposal 
and what tools he needs to further prevent and suppress wildfires.
    I also look forward to hearing the testimony of our distinguished 
witnesses on our second panel. These individuals will be able to speak 
first-hand about the consequences of catastrophic wildfires and the 
need to find comprehensive solutions to address this issue.
    I now recognize the Ranking Member, Ms. Lujan Grisham, for her 
opening statement.

    The Chairman. I now am pleased to recognize the Ranking 
Member, Ms. Lujan Grisham, for her opening statement.

      OPENING STATEMENT OF HON. MICHELLE LUJAN GRISHAM, A 
           REPRESENTATIVE IN CONGRESS FROM NEW MEXICO

    Ms. Lujan Grisham. Thank you, Mr. Chairman, and I really 
appreciate your calling today's hearing to review the 2015 fire 
season and long-term wildfire trends.
    Although wildfires have occasionally been discussed in 
Committee hearings, it has, in fact, been more than 10 years 
since a wildfire-specific hearing has been held. In this time, 
the cost, the size, and the intensity of these fires have been 
dramatically increasing. This deserves our Committee's and 
Congress' attention, and this timely hearing allows us to 
discuss--I agree with the Chairman--a variety of ways that we 
can help mitigate, prevent, and fight wildfires.
    This year's wildfire season has devastated much of the 
western United States. Many Members on this Committee have 
either experienced devastation caused by wildfires in their 
states or districts this year, have experienced it in the past, 
or know that it might just be a matter of time before wildfires 
impact their constituents. This fire season has resulted in the 
Forest Service spending $1.7 billion fighting fires. We have 
seen more than 9 million acres burned, thousands of homes 
destroyed, and 13 firefighters have lost their lives in the 
line of duty.
    I am thankful and grateful that New Mexico avoided any big 
fires this year, but I know firsthand how devastating fires can 
be. For 3 years in a row, New Mexico endured some of the 
biggest fires the state had ever seen. The Whitewater Baldy 
Complex, Los Conchos, and the Gila fires devastated our land, 
our resources, and our communities.
    In this last fiscal year, Fiscal Year 2015, the Forest 
Service spent $700 million more than what Congress initially 
appropriated, and as a result, the agency had to transfer funds 
from non-fire programs to support the immediate emergency needs 
of fire suppression.
    I was pleased to see that we supported getting that $700 
million supplemental request in the CR, but fighting for those 
supplemental requests is not the best method to assure that we 
have the resources that we need to address wildfire.
    Unfortunately, this is becoming the norm and not the 
exception. Since 2004, the Forest Service has needed some eight 
supplemental appropriations, and this fire borrowing trend has 
been terribly disruptive to the Forest Service's ability to 
carry out its Congressional-mandated mission. Just this fire 
season, the Southwest region, which includes New Mexico and 
Arizona, lost more than $15 million to fire borrowing. This 
affected several important projects in New Mexico, and put on 
hold the Santa Fe National Forest Moya Oso Project, which is a 
wildland urban interface fuels reduction project; the El Medio 
Forest Renewal Project, which is a thinning project that would 
have harvested 315 acres in the Carson National Forest; and the 
riparian restoration at Three Pueblos Project, which is a 
forest restoration collaboration project among the pueblos of 
Ohkay Owingeh, Santa Clara, and Nambe.
    Unfortunately, these types of projects that are put on hold 
are exactly the kinds of projects that, in fact, prevent future 
wildfires. To make matters worse, fire borrowing is only part 
of the problem. The rising 10 year suppression cost average for 
wildfires means less funding is going to non-fire Forest 
Service employees and programs each year. Because of this, the 
Forest Service now has fewer resources for recreation, research 
and development, and road maintenance. There are also fewer 
resources to carry out NEPA analysis, timber contracts, timber 
salvage, controlled burns, and other Forest Service management 
activities.
    A number of factors contribute to the increase in size and 
intensity of wildfires, including drought, climate change, and 
poorly managed forests. But the Forest Service currently lacks 
the resources necessary to mitigate any of these factors.
    I am a cosponsor of H.R. 167, the Wildfire Funding Disaster 
Act. Now, this is the budget fix that the Forest Service needs. 
I am open to discussing how H.R. 167 can fit with other policy 
proposals to address our forest needs, but first and foremost, 
we must fix the wildfire budget so the Forest Service can do 
the work that everyone on this Committee expects it to do.
    Again, Mr. Chairman, I thank you for holding today's 
hearing, and I look forward to hearing from our witnesses.
    The Chairman. I thank the gentlelady, and I was not aware 
of the fact we were making history today together chairing this 
hearing, the first time in 10 years to address wildfires. Let's 
just hope at the end of this hearing we have made history by 
identifying some good potential solutions to deal with the 
problem.
    The chair would request that other Members submit their 
opening statements for the record so the witnesses may begin 
their testimony, to ensure that there is ample time for 
questions. The chair would like to remind Members that they 
will be recognized for questioning in order of seniority for 
Members who were present at the start of the hearing. After 
that, Members will be recognized in order of their arrival. I 
appreciate the Members' understanding.
    Witnesses are reminded to limit their oral presentations to 
5 minutes, and all written statements will be included in the 
record.
    Before I introduce our first panel, I would just ask that 
we all pause for a moment of silent prayer, remembering those 
brave heroes; those members of the United States Forest 
Service, our firefighters, who have lost their lives over the 
years, and particularly this last year. Amen.
    I am very pleased to welcome our first panel. Really, a 
gentleman that has been before this Committee a lot, and that 
is appreciated. Chief Tidwell, you are a great partner, and it 
is great to welcome you back again on an issue that I know is 
of significant concern to you, and something that you work 
diligently to try to come up with the right types of solutions. 
And we are looking forward to hearing some of that, so I am 
honored to welcome Mr. Tom Tidwell, Chief of the United States 
Forest Service.
    Chief Tidwell, please begin when you are ready.

  STATEMENT OF THOMAS L. TIDWELL, CHIEF, U.S. FOREST SERVICE, 
                U.S. DEPARTMENT OF AGRICULTURE,
                        WASHINGTON, D.C.

    Chief Tidwell. Mr. Chairman, Members of the Subcommittee, 
first of all, thank you for having the hearing, and also thank 
you for giving me the opportunity to present our thoughts about 
the 2015 fire season, and also what we have, the task in front 
of us.
    As predicted, this fire season, being hotter, dryer, and on 
average, 78 days longer, coupled with historic 4 year drought 
in California, record low snow packs in Oregon and Washington, 
we had a historic fire season. At one time, we had 27,000 
people out on fires. That is in addition to all the folks doing 
initial attack. We have never, ever had that level of resources 
out during any one fire season before.
    I will tell you, the men and women of the Forest Service, 
and all the Federal agencies, the state agencies, the county, 
local fire, our contractors, they just did an outstanding job, 
when I looked at what we were up against this year, and we all 
owe them a debt of gratitude for the work, the service that 
they provided.
    But once again, we had another tragic fire season. And I 
appreciate the recognition of the folks that we lost this year, 
not only the Forest Service, but other firefighters from other 
agencies.
    While we are going to continue to have large wildfires, we 
can change the consequences, we can change the level of fire 
severity, we can change the risk to our homes, to our 
firefighters, but we are going to need to act.
    So first of all, the things we are continuing to do, to 
have the resources to suppress fires. We continue this year, 
once again, 98, almost 99 percent of almost every fire we took 
initial attack on, we suppressed during initial attack. So we 
have the firefighters, we have the large air tankers that we 
need, we have the helicopters, we have the engines, and working 
together with all of our partners, we have really the best 
response in the world. It is a model for the rest of the world 
about how to suppress fires.
    The second part of it, we have to keep increasing the acres 
that we are treating to reduce the hazardous fuels. In 2014, 
4.6 million acres, by far the most we have ever treated in a 
given year to reduce the threat and restore our National 
Forests. We have also increased timber harvest by 18 percent 
since 2008. We have also reduced our unit cost by 26 percent. 
And we are doing this through our long-term stewardship 
contracts or our collaborative forest landscape restoration 
projects, using our new authorities--thank you for the Farm 
Bill of 2014. We are doing this, at the same time there is 39 
percent fewer Forest Service employees today than what we had 
15 years ago.
    And we are making steady progress, but it is not enough. We 
have to fix the funding issue. There is just no question. I 
want to thank you for the CR for repaying the money that we had 
to transfer. That will make a significant difference to our 
communities, to the public, to be able to get that work back 
online. But we also have to stop the erosion of the rest of our 
programs that occurs from having to increase the portion of our 
budget to fire suppression every year. Folks have seen our 
reports. In 1995, 16 percent of the Forest Service budget went 
into fire: 2015, it is 52 percent. We expect by 2025, it will 
be 67 percent. This has had a tremendous impact on our ability 
to carry out our mission to reduce fuels, but to also provide 
the recreational services, to have the road system, everything 
that the public relies on. So that is the second thing we have 
to address.
    Another couple of key points for you to think about. Since 
2003 to 2015, the cost of fire suppression went up $740 
million. Our budget didn't go up $740 million. In addition, 
between Fiscal Year 2015 and Fiscal Year 2017, with the last 
couple of fire seasons we have had, the 10 year average of cost 
for fires goes up another $239 million. And that is going to 
continue.
    Without our budget being able to go up at the same rate, 
which is not possible in these economic times, we have to find 
a fix to be able to first stop the transfer, and I appreciate 
the work that you have done to be able to recognize that, but 
that is just part of the problem. We also have to stop how we 
are eroding the rest of the programs because of the increased 
cost of fires.
    And I wish I could change the situation we have on the 
landscape. I wish our fire seasons were shorter, I wish we had 
more precip, I wish it was cooler, but I can't change that. The 
other thing I can't change is that 50+ million acres that you 
referenced, Mr. Chairman, it is at high risk. There are a lot 
of homes out there. It is another big cost-driver for us. And I 
understand why people want to live out there. I want to live 
there. I understand that. That is not going to change. But the 
reality of it, it increases the cost of fire suppression.
    So we have to do a combination. Fix the fire-funding issue, 
stop the erosion of the rest of our programs, and at the same 
time, we have to expand the work that we are doing. In our 
Fiscal Year 2016 budget, we had a proposal that would have 
significantly increased the amount of acres that we were 
treating, and including the amount of biomass, saw timber, that 
would come off of these lands.
    We can do this. And I really appreciate the work of this 
Committee. I want to thank you again for the 2014 Farm Bill. 
What you did there to add those additional authorities are 
going to really help us as we move forward. And I really 
appreciate the way you did that, because you did it in a way to 
give us additional authorities that maintain the public trust 
so that our collaboratives feel good about those authorities, 
and we can go out there and we are implementing that. In fact, 
we have 20 projects this year that are using those new 
authorities.
    So thank you very much, I appreciate letting me have an 
extra minute, and I look forward to your questions.
    [The prepared statement of Mr. Tidwell follows:]

 Prepared Statement of Thomas L. Tidwell, Chief, U.S. Forest Service, 
            U.S. Department of Agriculture, Washington, D.C.
    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to present the views of the Forest Service regarding the 
2015 fire season and long term trends. Increasingly severe fire seasons 
are one of the greatest challenges facing the nation's forests and 2015 
was no exception. Fire now consumes greater than 50 percent of the 
Forest Service budget and the agency needed to transfer funding from 
non-fire accounts to cover the cost of fire suppression again this 
year. To reduce the threat of wildland fire, the Forest Service is 
accelerating restoration and management of the National Forests through 
innovative approaches and increased collaboration, though it is clear 
that more work needs to be done.
    We are at a critical moment in the history of the Forest Service. 
Urgent action is needed in order to address the program disruption and 
associated deterioration of capacity to effectively manage our National 
Forests caused by the continually increasing percentage of our budget 
that is dedicated to wildfire suppression activities. We remain willing 
and ready to work with Congress to improve our tools to better manage 
our forests, but the most important action Congress can make now in 
advancing the pace and scale of forest restoration is to fix the fire 
funding problem.
Review of the 2015 Wildfire Season
    During this fire season, there were 24 days at National 
Preparedness Level 5--the highest level--meaning all available ground 
and air assets are committed to priority work. Severe drought across 
the West has increased fire severity in several states. Washington 
State among others, has recorded a record season of severe wildfires. 
Drought-ridden California has also experienced tremendous fire 
activity. The Forest Service, in coordination with our fire response 
partners, mobilized over 27,000 firefighters along with numerous 
airtankers, helicopters, fire engines and other assets through our 
integrated, interagency suppression efforts. Every state, Puerto Rico, 
and the Pacific Islands, along with the military and international 
support, has provided people and equipment this season to help manage 
over 50,000 wildfires.
    In total, over 9 million acres burned across the United States 
including over 5 million acres in Alaska. These fires destroyed over 
2,500 single residences; however, the greatest losses involved the 
fatalities of 13 wildland firefighters who made the ultimate sacrifice 
to protect the lives of others. Our thoughts and prayers will forever 
be with their family and friends.
    This year, fire funding represents 52% ($2.159 billion) of the 
agency's budget. Between last fiscal year and this year, for example, 
the suppression budget, using a rolling 10 year average, grew by $115 
million and non-fire programs were reduced by that amount, requiring 
the agency to forego opportunities to complete vital restoration work 
and meet public expectations for other services the agency provides 
such as outdoor recreation, facility maintenance, research and more.
    On Aug. 13th, the Forest Service projected that the agency would 
not have sufficient suppression funds to last through the end of the 
fiscal year. The only option available was to use the agency's transfer 
authority. The agency developed a strategy to transfer up to $450 
million from current year discretionary and permanent and trust 
balances. Upon implementation of the transfer strategy, it was 
determined that $450 million was insufficient to cover the suppression 
costs to the end of the fiscal year. Therefore, the Forest Service 
identified an additional $250 million to transfer from discretionary 
and permanent and trust fund balances to pay for suppression costs 
through the end of September. This year's transfer strategy has 
canceled or postponed several projects including critical bridge 
inspections, road repairs, prescribed burns and other restoration 
projects. In total, the Forest Service spent approximately $1.7 billion 
on fire suppression in Fiscal Year 2015 (FY 2015). At the height of the 
season, the cost of wildland fire suppression was as much as $243 
million in a week.
Long-Term Fire Trends and Budget Issues
    The Forest Service's fire budget is based on the 10 year average 
cost of fire suppression. When fighting fires in a given year costs 
more than Congress appropriates (as was the case in FY 2015), the 
agency is forced to transfer additional funds from already depleted 
non-fire programs. Fiscal Year 2015 marked the eighth time since FY 
2002 the Forest Service needed to transfer funds to pay for fire 
suppression. These transfers are highly disruptive to the planning and 
execution of numerous programs. When funding is transferred from other 
programs to support fire suppression operations, these programs are 
unable to accomplish priority work and achieve the overall mission of 
the agency. The ability of programs to achieve established targets are 
impacted as projects are often put on hold or canceled.
    The problem of fire transfer comes on top of an underlying budget 
shift. Over the past 2 decades, fires have increased in severity, 
intensity and cost as fire seasons have lasted more than 70 days 
longer, drought and increased temperatures contribute to dangerous 
conditions, and as more people have moved into fire-prone areas. These 
factors have led to a dramatic increase in the cost of the 10 year 
average. As documented in a recently released report,\1\ the cost of 
fire suppression has soared in the past 20 years and is having a 
debilitating impact on the Forest Service budget and non-suppression 
activities. In 1995, fire made up 16 percent of the Forest Service's 
annual appropriated budget--this year, for the first time ever, more 
than 50 percent of the budget will be dedicated to fire. Along with 
this shift in resources, there has been a corresponding shift in staff, 
with a 39 percent reduction in all non-fire personnel. Left unchecked, 
the share of the budget devoted to fire in 2025 could exceed 67 
percent.
---------------------------------------------------------------------------
    \1\ http://www.fs.fed.us/about-agency/budget-performance/cost-fire-
operations.
---------------------------------------------------------------------------
Yesterday, Today, and Tomorrow Wildland Fire Cost Consumes Forest 
        Service Budget
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
    This dramatic shift in funding and personnel to fire programs and 
away from non-fire programs has significant impacts on the ground. 
These impacts matter for communities across the country, east to west--
not just to the communities most impacted by fire. For example:

  <bullet> In FY 2013 and FY 2014, twenty-one facilities projects were 
        deferred to future years, including sewer system repairs, air 
        tanker base repairs, water system improvements, dam repairs and 
        wastewater system rehabilitation.

  <bullet> Three-quarters of Forest Service trails are not being 
        maintained to standard, with a range of negative effects; the 
        trails backlog was valued at $314 million in 2012--with other 
        recreation infrastructure needs, the backlog puts small 
        businesses and communities that depend on recreation jobs and 
        dollars at risk.

  <bullet> Funding for the Vegetation and Watershed Management program 
        has declined by 24 from FY 2001 to FY 2015 impacting the 
        ability to support resource restoration projects on the Nation 
        Forest System (NFS).

  <bullet> Other programs, like research and state and private 
        partnerships, are also impacted.

    We are again proposing a revised funding strategy for wildfire 
suppression. The FY 2016 President's Budget proposes discretionary 
funding for suppression at a level represented by 70 percent of the 10 
year average of fire suppression costs. This level of funding provides 
for suppression of 98 percent of the fires we fight. In addition, up to 
$855 million for the Forest Service, and $200 million for the 
Department of the Interior, would be made available under a disaster 
funding cap adjustment to meet funding needs for fire suppression above 
the base appropriation. This strategy would provide increased certainty 
in addressing growing needs for fire suppression funding while better 
protecting non-suppression programs from funding transfers that 
diminish their effectiveness. Moreover, it would allow us to stabilize 
the pace and scale of our investments in restoring forested landscapes, 
helping forests adapt to the growing effects of climate change, and 
better prepare communities in the wildland/urban interface for future 
wildfires.
Increasing the Pace and Scale of Restoration
    Fire plays a beneficial role in maintaining the ecological 
stability of many landscapes, and the Forest Service is working with 
partners to restore healthy, resilient, fire-adapted ecosystems. Our 
goal, especially near homes and communities, is to prepare forests and 
grasslands to resist stresses such as drought and recover from 
disturbances, including wildfires. Our large-scale restoration projects 
are designed in part to restore fire-adapted forest types across large 
landscapes, including the reintroduction of periodic wildland fire 
where safe and effective.
    The capacity to increase the pace and scale of landscape 
restoration can, over time, begin to check the growth of both wildfire 
cost and share of the Forest Service budget. The Forest Service, 
together with diverse partners, is making a difference through 
implementation of the Collaborative Forest Landscape Restoration 
Program, Watershed Condition Framework, Integrated Resource Restoration 
pilot projects, Western Bark Beetle Strategy, finalization of the 2012 
forest planning rule, efficiency improvements for the National 
Environmental Policy Act and timber and stewardship contract 
processing, prescribed burns and managed wildfire, and market support 
programs for forest products.
    The Forest Service has increased the impact and rate of restoration 
nationally. In 2014, the agency accomplished treatments on 4.6 million 
acres to restore watershed function on NFS land and to reduce the 
threat of fire in the wildland-urban interface on NFS and state and 
private lands. This represents an increase of nearly 400,000 acres 
(nine percent) compared to 2011 accomplishments despite mounting 
challenges such as record droughts, longer and drier wildfire seasons, 
a reduction in non-fire personnel to support the agency's mission, and 
a rapidly increasing percentage of the budget being spent on wildland 
fire management.
    We have achieved efficiencies by investing in collaborative 
approaches to forest restoration across the country as a way to develop 
better projects, to work across larger landscapes, to build public 
support for forest restoration and management, and to reduce the risk 
from litigation. Dozens of collaboratives across the country are 
enabling the Forest Service and our partners to get more work done. 
These collaboratives are locally led groups from local communities, 
environmental groups, forest industry, and others and are designing 
projects that address forest restoration, supply wood to local mills, 
conserve watersheds and provide a range of other benefits.
    In addition, the 2014 Farm Bill expanded current authorities and 
provided several new authorities to increase the pace and scale of 
restoration including:
Forest Restoration through Stewardship Contracting
    The farm bill provided permanent authority for stewardship 
contracting. Stewardship contracts help the Forest Service achieve land 
and natural resource management goals by funding forest health and 
restoration projects, stream restoration, hazardous fuel removal, and 
recreation improvements. In many areas, stewardship contracting will 
allow the agency to build larger projects, treating more acres, with 
broader public support. Since 2008, acres treated through stewardship 
contracts and agreements have nearly tripled.
    We are also working to improve the efficiency of planning timber 
sales and stewardship contracts. In 2014, we exceeded our targets by 
producing 2.8 billion board feet of timber. Our timber harvest has 
increased 14 percent since 2008. The agency is achieving these results 
despite the fact that since 1998, NFS staff was reduced by well over 
\1/3\. If the President's FY 2016 budget proposal were in place this 
year, approximately $300 million would be available for non-fire 
programs. Forest Service is estimating that would equate to 1 million 
additional acres treated and an increase of 300 million board feet.
Forest Restoration through Expanded Insect and Disease Designations
    The 2014 Farm Bill also added authority to the Healthy Forest 
Restoration Act to authorize designation of insect and disease 
treatment areas and provided categorical exclusions (CEs) for insect 
and disease projects on areas as large as 3,000 acres. The Forest 
Service received letters from 36 states requesting designations under 
the insect and disease provisions. In response, we designated 
approximately 46.7 million acres of National Forest System lands. 
Currently, 20 projects have been proposed under the provision; the 
Forest Service intends to use the CE provision for 16 of the projects 
and streamlined Environmental Assessments for the remaining four. The 
initial 16 projects will help the agency and its partners better 
understand and implement the new CE authority while additional projects 
are proposed, planned, and authorized. The Forest Service will expand 
planning and implementation of projects within designated areas in FY 
2016 and beyond.
Forest Restoration through Projects under the Good Neighbor Authority
    The Forest Service completed the requirements under the Paperwork 
Reduction Act to move forward with developing the new Good Neighbor 
Agreement templates necessary to carry out projects with the states. 
The Forest Service worked closely with states to collaboratively 
develop the new templates, which were approved by the Office of 
Management and Budget on June 24, 2015. Since then, the agency has 
entered into agreements with Pennsylvania, Utah, and Wisconsin to carry 
out forest, rangeland and watershed health activities on the National 
Forests in those states.
    On many of our National Forests, Burned Area Emergency Response, or 
BAER teams, are at work using their authorities to stabilize riverbanks 
and watersheds to prevent flooding and protect water supplies as a 
result of this year's fire activity. But that's not enough. Land 
managers lack the necessary funding to assist with the repair of 
thousands of miles of fire-damaged roads, to quickly remove the hazard 
trees that line those roads, and to restore trail-heads and campgrounds 
critical to rural recreation businesses.
    We remain interested in ideas that will help us pursue treatment at 
the landscape scale quickly, efficiently, and in a reasonable time to 
address problems before they can worsen. As a general matter, the 
Forest Service welcomes legislation that incentivizes collaboration and 
expands the toolset we can use to complete critical work on our 
nation's forests, without overriding environmental laws, mandating 
harvest levels, or requiring new layers of zoning on the NFS.
Conclusion
    The frequency and intensity of wildfire, the rising cost of 
resources needed to deploy for emergency response against the spread of 
wildfire, and the way that fire suppression is paid for all combine to 
constrain the agency's capacity to realize additional gains in land 
management and restoration through efficiencies and partnerships. 
Although the Forest Service has, in recent years, made great strides in 
the pursuit of efficiencies--we are treating more acres with fewer 
people, there is a limit to what the agency can achieve going forward 
unless Congress solves the wildfire budget challenge we face. We are at 
a critical moment in the history of the Forest Service. Urgent action 
is needed in order to ensure that that Forest Service does not become 
further hindered by the continually increasing percentage of our budget 
that is dedicated to wildfire suppression activities. The most 
important action Congress can make now in advancing the pace and scale 
of forest restoration is to fix the fire funding problem.

    The Chairman. Thank you very much. It is helpful if you 
turn that on.
    The request that you made, and what many of our Members 
outside of this Subcommittee, and certainly outside the 
Agriculture Committee, don't realize is if the Forest Service, 
if we allow them to do their job, you are a revenue producer. 
We don't need to be looking for other parts of the government 
for funding if we are getting the barriers out of your way. 
With the value of saw log timber alone, you look at the 
variance from where we were at the peak of harvesting in the 
1990s, late 1980s, and today, it is a 10 billion board feet 
difference, and look at the value of that. I think that is why 
I am excited about this hearing and the solutions that we are 
going to talk about today.
    My first question for you, Chief, is how has litigation 
affected the Forest Service's active forest management? Has it 
had an impact?
    Chief Tidwell. Well, this year, we had, out of 316 projects 
that would have resulted in saw timber and biomass, we had 16 
of those litigated. So there will be a slowdown of those 16 
projects.
    The biggest impact for this year was no bids. We had over 
50 of our sales that we received no bids on. Our folks had to 
go back, repackage those to be able to find a way in these very 
difficult markets to be able to move forward. But as I look 
at--and we are probably going to be at 97 percent of our target 
again this year, with the tremendous work that we did. As I 
looked at the big change this year, it was no bids. It is 
something we are going to have to address, be able to find some 
different ways to be able to move forward so that we can get 
folks out in the woods to be able to remove the saw timber, the 
biomass.
    The Chairman. Following up on that, because I agree, I mean 
when it comes to healthy forests, and I like to say then 
wealthy rural communities, or more wealthy rural communities, 
it is not just about looking at the barriers that we know we 
are dealing with, primarily probably in this hearing, but it is 
the market for our timber that helps to drive the active 
management, and it is the value of the timber. I know you have 
a lot of great people working under your leadership on the 
research side, the laboratory side. I am blessed in North 
Warren to have amazing scientists up there that are--and I have 
been down to the southeastern Pennsylvania, just a lot of good 
people. Of your team, what kind of things are we looking at in 
terms of influencing market and value?
    Chief Tidwell. Well, we have our research scientists to 
continue to do work to be able to find ways to increase using 
green building materials; wood, in buildings. Secretary 
Vilsack, he put out the competition to get a couple of 
companies to actually demonstrate how we can use wood in 
commercial buildings. So we are moving forward with that to be 
able to show that we can use wood to go maybe eight, ten, maybe 
even twelve stories, to be able to expand the markets. We also 
want to encourage more wood in buildings. It is a green 
building material. It takes less energy than steel and 
concrete. And we need to find more markets for the wood that 
needs to be removed, the small diameter material. Our wood--our 
Forest Products Lab developed a product called the cross-
laminated timber. It is stronger than natural wood, it is more 
heat-resistant, and it is the tool that we will be able to use 
to use in these tall commercial buildings.
    We also need to look at ways to make it economically viable 
to use biomass for energy production, to be able to remove that 
small diameter material, along with all the saw logs. We are 
also working to maintain the pellet industry in the Southeast. 
It is being challenged that it is not sustainable. So our 
scientists are working to be able to show that, yes, that is 
also a sustainable forestry practice, so that we can maintain 
those markets.
    So those are the thing that we are going to continue to 
work on. But it is essential that we be able to expand our 
current markets and look for new markets to be able to use the 
amount of biomass that needs to come off of not only the 
National Forests, but we also need to maintain our private-land 
forests. And I will tell you, without the markets, those are 
the forests that are probably even most at risk.
    The Chairman. Well, thank you, Chief. I am pleased to 
report I had a conversation with United States Trade Ambassador 
Froman----
    Chief Tidwell. Yes.
    The Chairman.--this past week, and obviously, my 
conversations have been about where--with the TPP there was 
just some recent announcements on, where were we in terms of 
forest products, from saw logs to those that have been cut, the 
furniture, pellets, and it was just good news. Currently today, 
there are like $800 million in tariffs that really hinder our 
ability to export what we are harvesting off our forests, and 
get made into something. We harvest it here, and we sell it 
there. Specifically, obviously, in the Asian countries with the 
TPP. And that was good news. Those are eliminated, at least 
with this current TPP proposal, and that speaks well for future 
markets.
    I am pleased to recognize the Ranking Member for 5 minutes 
of questioning.
    Ms. Lujan Grisham. Thank you, Mr. Chairman. And welcome, 
Chief Tidwell.
    I really want to just continue and, to the highest degree 
of maybe having some more specificity, that the Chairman has 
initiated with you.
    So we know that we have an insufficient budget, even if we 
weren't borrowing.
    The Chairman. Thanks to you too.
    Ms. Lujan Grisham. You are very welcome.
    So we know that if you weren't borrowing, we have an 
insufficient budget, because you mentioned that we have an 
incredible increased cost to deal with the fire suppression 
issues. So a stagnant budget isn't going to get us there. That, 
while we have an opportunity to have a resource-driven 
environment by taking fuel out of the forests, marketing those 
products, we have limitations with the current economy, our 
ability to engage in a global economy, that we don't have the 
infrastructure for in many places. Given the economic 
conditions in my state, we have lost workers that we would have 
to have investments to even replace those, which I would really 
encourage you to think about getting done in my state.
    So what are some specific approaches to front-loading the 
budget, having reliability and predictability about that 
budget, about spending enough time and energy to both reduce 
costs by knowing how you might do that more effectively, and 
control those costs, and then to create opportunities for a 
resource-driven investment right back into forest management 
and wildfire suppression? Can you give me some more specifics 
about how we might create an agenda that this Committee could 
launch in this Congress?
    Chief Tidwell. Well, it goes back to my opening comments 
about fixing our budget situation with fire suppression. I 
appreciate the recognition and support to stop the transfer, 
that very disruptive practice that, almost every year now, 
impacts our operations in August and September. And I cannot 
thank you enough for the $700 million in the continuing 
resolution, the additional money to pay back. But we lose a big 
part of the field season, and we have lost that forever. And 
so, yes, we will be able to continue to bring those projects 
back on-line, but we lost a field season. There are a lot of 
inefficiencies. The----
    Ms. Lujan Grisham. In fact, we spend more money in addition 
to the increased cost for fire suppression because of this sort 
of revolving borrowing environment that we----
    Chief Tidwell. We do. It not only slows down the work, but 
just imagine the disruption that occurs when we have to contact 
all of our offices to find out, okay, which projects can we 
postpone, which things are available, get them to stop their 
regular work and be able to work on just gathering up all this 
information and send it back to Washington, we make the choices 
about--and I tell you, we go to great lengths to minimize the 
impacts of having to transfer money, but there is no question 
there are significant impacts. So that is part of it.
    The second part of it, when it comes to the way that we 
budget for annual suppression is using the 10 year rolling 
average. And as I mentioned before, since 2003 it has gone up 
$740 million. Between 2015 and 2017, it will go up another $239 
million. And so under a constrained budget, all that--that 
money has to come from all the other programs, and many of 
those are the programs that we use to restore our forests, to 
provide the services that the public demands. So we need----
    Ms. Lujan Grisham. To mitigate fires.
    Chief Tidwell. Yes. So we need an approach that does both; 
stops the transfer, and then finds a way that we don't have to 
erode our programs. And that is one of the things why we were 
supportive of this idea of taking one or two percent of these 
very large fires, the ones that threaten our communities, and 
funding those like we fund a natural disaster. And so that the 
98 percent, 99 percent of all fires would still be covered 
under the Forest Service's budget, but it is that one to maybe 
two percent that, I will tell you from my personal view, when I 
look at these fires, when I see the pictures, when I talk to 
our firefighters, they are a natural disaster in every sense of 
the word. When I look at the devastation from tornadoes and 
hurricanes, and I see what happens with these few wildfires, 
they just need to be considered a natural disaster. And then if 
those could be funded under the proposed or under a cap 
adjustment, the way we fund other natural disasters, that would 
eliminate this growth of our 10 year average, allow us to 
continue to budget for 98, 99 percent of the fires, and then 
the other key part of it is that free-up about $300 million in 
our budget constraint. And that would give the flexibility for 
us to be proactive, to do more timber harvest, to do more 
hazardous fuels, to restore more watersheds, and we can 
actually get ahead of this. But we are making very good 
progress, and I am very proud of what our folks are doing, what 
they are accomplishing with all the challenges that they have. 
But we need to accelerate this. We need to be in a different 
place so that 10 years from now that we can look back and say, 
because of the decisions we made this year, we made a change. 
Ten years from now, we can change the fire regimes, we can 
reduce the threat, but it is going to take increasing our pace 
and scale. So we need to fix the budget.
    The second part of it, the toolkit that we have that was 
expanded with the 2014 Farm Bill, the good neighbor authority, 
to be able to use the Healthy Forest Restoration Act 
authorities on our large projects, the additional CE, the way 
it was constructed, very helpful tools that our folks are going 
to work with it. Our collaboratives find those very supportive. 
They want to expand on that. But I need to really stress, when 
we are talking about using categorical exclusions, it is a good 
tool for small projects, but we have to be thinking much 
larger: 3,000 acres of the farm bill, great CE, but we need to 
be looking at hundreds of thousands of acres at a time. The 
work that we have done in Arizona, the work that we have done 
up in the Black Hills in South Dakota, the work that we're 
doing in eastern Oregon, eastern Washington, I can go on and 
on. We need to be looking at areas like 100,000, 200,000 acres 
at a time, and that is the work that needs to be done. So the 
CE authorities are very helpful. It gives us that opportunity 
to do that short-term very, very, most urgent work, and at the 
same time for us to be able to look at these larger landscapes.
    Ms. Lujan Grisham. Thank you. I am way over time. I am very 
grateful for that thoughtful answer, and for the Chairman's 
support. Thank you.
    The Chairman. The gentlelady's time has expired.
    The gentleman from Illinois, Mr. Bost.
    Mr. Bost. Thank you, Mr. Chairman. And thank you, Chief.
    I have a couple of quick questions, if I can. And all 
politics, I guess, is local, but this is a national issue, but 
I live right on the edge of one of our smallest forests, the 
Shawnee.
    Chief Tidwell. Yes.
    Mr. Bost. And I have some specific concerns there to find 
out what is being done as far as fire suppression. I know that 
the Shawnee is one of the few forests that we don't allow 
recreational off-road vehicle use, for whatever reason. Does 
that stop the ability, when a fire breaks out, the ability to 
access our--when we look at the other forests around the 
nation, I am a little worried because we haven't had a forest 
fire in Shawnee for some time, but if something does break out, 
would that----
    Chief Tidwell. No, it would not.
    Mr. Bost. Okay.
    Chief Tidwell. When we have a fire breakout, we take 
whatever steps are necessary to deal with that, and if that 
means that is using off-road vehicles to be able to get 
firefighters to that, if it means bringing in bulldozers, 
helicopters, whatever it takes, we will do that.
    Mr. Bost. I know that the----
    Chief Tidwell. It is one of the----
    Mr. Bost.--the argument is----
    Chief Tidwell.--things that----
    Mr. Bost.--many people in the community believe that we 
should have that access, for hunting and everything else. I was 
just wondering as far as trails and things like that whether it 
would be--I know you would want--you would get there, I 
understand that----
    Chief Tidwell. Yes, we are--and on that issue, that is 
something that needs working through the local communities to 
be able to find the right mix of uses out there. And there is a 
lot of competition for--especially on your forest, people want 
to get out there for the recreation, and to be able to find 
that right mix. I also know there is a lot of equestrian 
activity, which is great country for folks to be able to go out 
and ride and stuff. And so those are issues that the local 
forest, working with the communities, they need to come to 
agreement to find that right balance of those uses. But when it 
comes to fire suppression, we are going to do what we need to 
do, and that is one of the reasons why we have such a high 
success rate.
    Mr. Bost. That is going to lead me to my other question 
when you start talking about locals, because being born and 
raised there all my life, and I have watched certain things 
occur, and I trust you and the Forest Service to be very wise 
in properly managing the forest; one, to protect it from fire, 
and two, to use it in the best possible way. I know that we 
have had our local community, some that were pass-through of 
our community, that have protested any time that you have tried 
to do select or clear-cutting to make the forest more viable, 
make it safer. Are you still dealing with that type of problem, 
or do you have that problem everywhere else in the United 
States, or is it just locally that we have that great problem?
    Chief Tidwell. That used to be a major problem for us 
across the country years ago, but that has changed----
    Mr. Bost. Okay.
    Chief Tidwell.--because we have been able to bring the 
science to the communities to be able to show the work that we 
are proposing to do on the National Forests is what is 
necessary to maintain the forest health, the forest resiliency, 
and that is what drives our work. It is driven by what the land 
needs, to be able to provide that full mix of benefits.
    When the public understands that, it is a lot easier for 
them to come together and to say, ``Okay, we understand why you 
need to do this, now let's talk about how and where and the 
timing of it.'' That is a lot easier discussion to have. But we 
have made great headway. I mean today, you think about it, we 
have many conservation groups and environmental groups that 
work with us on our collaboratives, that even stand up with us 
when we get sued in front of a judge, saying that, ``Yes, this 
project needs to go forward, this timber sale needs to go 
forward.'' That is how things have changed because of our 
collaborative work, and helping folks to understand we are 
doing what the land needs to be able to maintain the forest 
health, and yes, biomass needs to be removed. And if we can do 
it as saw timber and help cover the cost, that is a better way 
for all of us. The public benefits, everyone benefits. It also 
creates a tremendous number of jobs. And we need the industry. 
We need the jobs; we need the folks that do the work. So they 
have to make money, we want them to make money, and we want to 
be able to do more of it so we can expand those jobs.
    Mr. Bost. Thank you. And, Mr. Chairman, I yield back.
    The Chairman. The gentleman yields back.
    I am pleased to recognize the gentlelady from Washington 
State, Ms. DelBene, for 5 minutes.
    Ms. DelBene. Thank you, Mr. Chairman. And, Chief Tidwell, 
thank you so much for being here. I am very, very pleased that 
the Subcommittee called this hearing. It is long overdue. This 
is the first hearing solely on wildfires that the Agriculture 
Committee has held since 2003, and as it happens, I was working 
on a bipartisan letter with broad support, requesting a hearing 
on this very issue, when eventually we heard that a hearing was 
being called.
    This is one of the most crucial issues for my district, for 
my state, the State of Washington, and for many others. In 
fact, our region, as you know, has been severely impacted, and 
dedicated firefighters lost their lives. So it deserves our 
utmost attention.
    I spoke to folks at the Mt. Baker-Snoqualmie National 
Forest, and I wanted to give you an idea of some of the local 
impacts that fire funding has had. Dollars taken from non-fire 
programs put in jeopardy the very programs that reduce the 
threat of catastrophic fires, protect communities, and deliver 
a multitude of other benefits. This includes such initiatives 
as restoration work that would help prevent catastrophic fires, 
protecting watersheds and cultural resources, and providing the 
infrastructure and programming that supports thousands of 
recreation jobs and economic growth in rural communities.
    The largest initial transfers of funds to fire operations 
will come from the restoration fire salvage operations, grants 
to states, and upkeep of recreation facilities. The Mt. Baker-
Snoqualmie National Forest has been impacted by fire borrowing, 
funds scheduled to support forest road maintenance, aquatic 
organism passages for fish and other species, as well as 
recreation issues such as trail maintenance and sanitization 
projects, have been delayed or deferred.
    And so when we hear that feedback right in our region, I 
was wondering, Chief Tidwell, are you seeing those same impacts 
across the country with wildfire funding draining other 
accounts across the Forest Service?
    Chief Tidwell. Yes, and last year we put out a report on 
the fire impacts from Fiscal Year 2012 and Fiscal Year 2013. We 
will be pulling together that information again from the 
impacts of this fire season. And the thing that is so important 
to understand is, once again, we do go to great lengths to 
minimize the impact as much as we possibly can. However, just 
think about the roadwork. When we are not able to do the road 
maintenance that is needed, like when we are late in the field 
season, that is when we get impacts to the roads because, when 
it does rain, we do get snow, we get run-off, then we have 
impacts to those roads, and so it is a much greater cost 
because we weren't able to get out there and clear out the 
culverts before the wintertime.
    This is just one example of how disruptive this practice 
is, and no one is to blame. I am not putting any blame on 
anyone, it is just the system that we have had in place for 
budgeting, it doesn't work anymore. And so these are the things 
that--the accumulation of these impacts is incredible. When I 
think about having to move $700 million versus how much work we 
can get done with $700 million, it is tremendously significant, 
and we will be pulling together a list of more of the impacts 
to help folks really understand. But once again, with the 
proposal that came out of the last year's Congress with the 
Wildfire Disaster Funding Act, the Congressional Budget Office 
score is neutral. It doesn't create any more costs, it just 
stops this disruptive practice, and at the same time it 
provides less of an impact to the 10 year average on the rest 
of our programs.
    So there are some options there for us to be able to move 
forward and address this, but it is going to take both to stop 
the transfer, and we have to find a way to stop the erosion of 
the rest of the programs. Those are the things that we want to 
continue to work with this Committee to be able to find those 
solutions.
    Ms. DelBene. And I also want to point out that outdoor 
recreation as an industry is a huge economic driver in our 
state, and making sure access roads are available has a huge 
impact on many businesses and jobs in our region as well.
    You mentioned the Wildfire Disaster Funding Act, does the 
Administration support that----
    Chief Tidwell. Yes.
    Ms. DelBene.--and, if so, why?
    Chief Tidwell. The Administration supports it because it 
addresses both parts of the fire suppression issue; the 
transfer and then it slows down the growth of the 10 year 
average, and it also provides $300 million, or $400--excuse me, 
$400 million of flexibility under budget constraint for us to 
be able then to request additional funds to be proactive on 
these issues.
    Ms. DelBene. Thank you. Mr. Chairman, my time has expired, 
but I wanted to ask for unanimous consent to submit to the 
record the USDA report, The Rising Cost of Fire Operations: 
Effects on the Forest Service's Non-Fire Work.
    The Chairman. Without objection.
    [The information referred to is located on p. 73.]
    Ms. DelBene. Thank you so much----
    The Chairman. Thank you.
    Ms. DelBene.--and I yield back. Thank you.
    The Chairman. I am pleased to recognize Mr. Benishek, from 
Michigan, for 5 minutes of questioning.
    Mr. Benishek. Thank you, Mr. Chairman. Hi, good to have you 
here, Chief Tidwell.
    A couple of things that came up earlier, and I hope I 
didn't miss some questions on this, but you talked about the 
no-bid issue----
    Chief Tidwell. Yes.
    Mr. Benishek.--and from talking to the people that I talked 
to about harvesting in the forest, it is not about the market 
so much, it is about the procedure for getting a bid done in 
the Forest Service, and it is difficult for loggers to bid in 
the Federal forests because of the way the rules are. I mean 
the size of the cut----
    Chief Tidwell. Yes.
    Mr. Benishek.--the lengthy process, the lawsuits, that is 
the issue, not so much the market. You made it sound like it 
was the market. Well, believe me, we have a lot of mills in my 
district that need timber, but they have kind of given up on 
going to the Forest Service to get wood because it is too 
onerous.
    I understand the funding issue. We need to fix this fire-
funding issue.
    Chief Tidwell. Yes.
    Mr. Benishek. I mean that is going to be our responsibility 
to do that. I will get into that a little bit more later, but, 
the procedures--and this is one of the reasons why we have had 
this problem over the past 20 years. It has been more and more 
difficult to harvest out of the forest, and that is why we are 
in the situation we are now with the fires. So what can you do 
to streamline--what should we do to streamline the process of 
getting the timber out of the forests?
    Chief Tidwell. Well, you are fortunate in your part of the 
country there is still a fairly strong market. And we didn't 
have any--I don't think we had any no-bids from your part of 
the country. It came from other parts of the country. But we 
are constantly looking at how to improve our processes. That is 
one of the reasons we have been able to reduce our unit costs 
on our timber sales by 26 percent over the last few years.
    The other thing that we are looking at is making it easier 
for folks to not only bid, and to make sure that we are putting 
out offers of what they need. Part of the problem we had this 
time was some of the projects were too large, and our 
contractors and our purchasers, they weren't interested in that 
so we had to repackage it. So we have to do a better job to 
make sure that we are in sync with not only the market, but 
also what the purchasers----
    Mr. Benishek. What----
    Chief Tidwell.--need as far as the size of the----
    Mr. Benishek. What percentage of----
    Chief Tidwell.--sale.
    Mr. Benishek.--the sales are stopped by lawsuits?
    Chief Tidwell. Well, this year, out of 311, there were 16 
projects that were litigated this year and slowed down this 
year, and so that will have an impact on----
    Mr. Benishek. You are saying only 16 projects----
    Chief Tidwell.--on the----
    Mr. Benishek.--through the country were shut down by----
    Chief Tidwell. Sixteen out of the 311. These are projects 
for timber sales, stewardship, contracting projects.
    Mr. Benishek. All right, let me ask another question about 
this disaster harvesting.
    Chief Tidwell. Yes.
    Mr. Benishek. After Katrina, apparently, the Forest Service 
was able, in 60 days, to get the necessary permitting done to 
get the timber that was damaged by the hurricane ready to go. 
But now, apparently, that is not possible with a fire disaster. 
My information says, like over a year even to get that 
consideration, and then it is to the point where the wood is no 
good. So what can be done there to make an easier process to at 
least salvage some of the money that is laying on the ground, 
or potentially, to help you out? What can we do there?
    Chief Tidwell. Well, the reasons we were so successful with 
Katrina was a couple of things. We did salvage close to 300 
million board feet over a very large area; several states, and 
we were able to use our categorical exclusions to be able to 
cover those projects. I think it took a little bit longer than 
what you said, but we were very quick to be able to move that. 
The reason we were able to do that was, first of all, there was 
the public trust because it was very clear we needed to do this 
for public safety and for forest health, to be able to 
prevent----
    Mr. Benishek. Doesn't that same statement----
    Chief Tidwell.--a large----
    Mr. Benishek.--hold true in a fire situation?
    Chief Tidwell. Well, we have it in many places. The other 
thing we did in Katrina, we didn't spend a lot of time arguing 
about getting every single stick, every log out of there. 
Quickly, we said this is what we are going after. The areas of 
concern, like in riparian areas, we are just leaving that 
alone. Everybody was okay with that. So we didn't spend all 
those days having those discussions. And then the other thing 
that is so important, we had the staff. Katrina was 10 years 
ago? We had a lot more people, we had a lot more foresters out 
there. Today, we have 49 percent fewer foresters today than 
what we had in 2000. So we had the people that could quickly 
move.
    Now, if you look at what we did last year in California, or 
the year before, following the Rim Fire, we went after 300 
million acres----
    Mr. Benishek. Well, why----
    Chief Tidwell.--on one fire.
    Mr. Benishek.--why can't you use the categorical exclusion 
for fires?
    Chief Tidwell. Well, with the Rim Fire, we looked at 
treating a much larger area. So instead of removing 300 million 
board feet over several states, over multiple forests, we went 
for 300 million off of one forest, off of that one fire. We 
were able to move the roadside salvage rather quickly, and then 
we did the larger project that also included the restoration 
work, and we were able to get it done in a year, and then we 
struggled to be able to get anybody to take the material. And 
the reason for that is that the mills in that vicinity, they 
have a lot of private timberland. It burned too, and so there 
was just no market. They needed to remove their saw timber, 
which they did, but then there is all this additional saw 
timber. And if we were able to have moved that to a different 
part of the country, somehow had a transportation subsidy, or 
somehow to be able to move it to a different mill, we would 
have been able to sell more of it. But that has been the 
struggle. And so you get these big fires in one location, it 
just saturates the market. And we don't have the ability to be 
able to move that material to different parts, even to the 
West, and we would have been able to find a buyer for the rest 
of it. We are still working to try to get more of it done.
    But the difference is that, on these large-scale projects, 
when you are looking at 100,000, 200,000 acre restoration 
project, you need to take the time to involve the community, 
local officials, to be able to determine what needs to be done. 
And yes, it takes some time, but we were able to get that 
project done in a year, to be able to complete the EIS, but at 
the same time, without a stronger market, it is difficult for 
us, in that case, very difficult to be able to move the 
material.
    Mr. Benishek. So is there a minimum price you have to ask 
for the timber?
    Chief Tidwell. There is. There is a minimum price, and part 
of what we are looking at--we also have a system where we 
appraise the material. And so that is----
    Mr. Benishek. Okay, well, that doesn't seem to----
    Chief Tidwell. You base----
    Mr. Benishek.--you have to understand it is a fire sale. 
You are not going to get the same price going in the woods 
after a fire than you are going to get out of raw timber. I 
mean, come on.
    Chief Tidwell. Yes.
    Mr. Benishek. I mean it is a lot more work, it is more 
dangerous there is a lot of stuff going on.
    The Chairman. The gentleman's time has expired.
    Mr. Benishek. I am sorry.
    The Chairman. That is all right. Good questions. Good 
discussion.
    I am pleased to recognize for 5 minutes of questioning the 
gentlelady from Arizona, Mrs. Kirkpatrick.
    Mrs. Kirkpatrick. Thank you, Mr. Chairman, Ranking Member, 
and my colleague from Washington, for having this hearing.
    Chief Tidwell, I also want to thank you and your office for 
being so responsive and accessible to me about these forest 
issues. And I want to thank the Secretary and you for your 
support of the Four Forest Restoration project, which is a very 
collaborative, innovative forest health timber industry type of 
model that we believe can be used nationwide. But as you know 
from our discussions, I am very practical. I grew up in a 
timber community. We lost a generation of loggers and lumber 
mills and all of that knowledge, and trying to bring it back 
has been a little more difficult than we expected it to be 
because we just lost that knowledge. And I have always wanted 
to see those logging trucks back on the highway, and I saw them 
this summer. Not as many as I wish.
    I want to talk with you. I have been back in the forests on 
those roads and I have really seen a disintegration of the 
roads. And that is harming some of the logging companies to be 
able to get back into that forest and harvest those logs. And 
so do you have a budget specifically for roads? I am just 
trying to get an idea of what it would take from a very 
practical standpoint to bring those roads up to a standard 
where our trucks can get in there and harvest the wood.
    Chief Tidwell. We do have a budget line item for road 
maintenance. It is another one of the budget line items that 
has been significantly impacted over the years because of the 
cost of fires. And in the past, years, decades ago when the saw 
timber had a much higher value than it does today, it was able 
to cover a lot of the maintenance costs on those roads. But 
with the saw timber and the biomass that needs to be removed 
today, it is a part of the problem we have with our appraisal 
system. The market isn't strong enough to be able to cover the 
costs of that road maintenance work, plus to remove the timber. 
So it is one of the things we have had to look at to take out 
those costs to maintain the road. The problem with that is, 
after you put the log trucks across the road, they are going to 
impact those gravel roads, and if we aren't maintaining it, the 
next year, the public can't get in there either. Short-term it 
works for a year or 2, but long-term, we have to find a system 
so that we can maintain the road system for the public access, 
but at the same time to be able to access it for logging and 
biomass removal. So that is a good example of what has happened 
over time to our budget, is the loss of our road funding that 
has occurred, to be able to stay up with the maintenance to 
provide access for everyone.
    Mrs. Kirkpatrick. I really appreciate your thoughts on 
that, and I just want you to know that is a top priority of 
mine. I am also on the Committee on Transportation and 
Infrastructure and roads are so important to this whole idea of 
healthy forest management and fire prevention that I think we 
sometimes forget.
    The other thing, I really appreciated your comment about 
expanding the market for wood products. And I would like your 
thought about what kind of incentives we could put in place to 
actually help expand the market.
    Chief Tidwell. Well, we had the incentive in the farm bill 
that would subsidize the transportation of biomass that we were 
able to very effectively use in places to be able to really get 
that industry started. And there is some benefit to be able to 
have incentives when you are trying to create new industry, and 
so they can figure out the economics and stuff they need some 
assistance over, ideally, over the few years. That is one 
benefit that we have seen.
    I think another way is with our long-term stewardship 
contracts where we guarantee that there is going to be X amount 
of work for the next 10 years. The purchasers then can take 
that to the bank. They can borrow money on that contract, they 
can invest in equipment, the can invest in personnel, create 
more jobs, because they are guaranteed either they will have 
the work to do or we will then pay them. So either way, the 
banker is happy with it. That is another area we need to 
continue to be able to expand.
    The other is with our collaboratives. Like what you did 
with the farm bill, with the CE, where you required the 
collaborative effort, that is a tremendous incentive to bring 
people together to be able to use this new tool, to be more 
efficient, more effective, and be able to get some more 
projects moving forward.
    Also, when we look at the use of wood in this country, and 
it kind of got a bad name for years because people were so 
worried about why we were doing the work, and today, with the 
understanding that we need to use wood to be able to restore 
our forests, it is like it is a good thing to do; to use it for 
furniture in our buildings. And the more than we can find ways 
to help folks to understand that it saves energy, it is a green 
building material, and by doing that, it provides the economic 
activity so that we can restore our forests, reduce the 
hazards.
    So those are some of the things that we want to continue to 
work on.
    Mrs. Kirkpatrick. Thank you. My time has expired, but I 
look forward to working with you more about this, and again, I 
appreciate your testimony here today.
    I yield back.
    The Chairman. I am pleased to recognize the gentleman from 
Georgia, Mr. Allen, for 5 minutes.
    Mr. Allen. Thank you, Mr. Chairman. Did I turn it off? 
There we go. Sorry.
    As a small business owner and in the construction business, 
we elected to not do work with the Federal Government because 
of things like, for example, Davis-Bacon and other things----
    Chief Tidwell. Yes.
    Mr. Allen.--like that. Are you under the same requirements, 
Federal contracting, for loggers in the Forest Service as we 
are in the, say, with the General Services Administration and 
folks like that, like Davis-Bacon, are you required to 
implement Davis-Bacon?
    Chief Tidwell. When we are doing a service contract under 
the Federal acquisition regulations, we follow Davis-Bacon.
    Mr. Allen. Okay.
    Chief Tidwell. Under a timber sale, contract, we have some 
different flexibilities.
    Mr. Allen. Right. Right. Well, I guess what you probably 
should do is talk with some of these folks who are great 
contractors out there and maybe see what you can do to make 
that process a little more attractive; because, frankly, it is 
a lot easier to do work in the private-sector than it is for 
the government.
    Chief Tidwell. Yes.
    Mr. Allen. Going back to the collaboration effort, we are 
going to hear testimony from some of our ranchers here lately 
about their issues as far as being good neighbors. And I don't 
think the government has been a very good neighbor. We have 
created some real problems for our private landowners because 
we have not done some things--I mean we deal with the pine bark 
beetles down South. Can you tell me what can you do to 
collaborate with our neighbors and be more neighborly, and what 
restrains you from doing what they are doing--we have a 40 
percent sustainable rate in Georgia. We grow 40 percent more 
trees than we cut.
    Chief Tidwell. Yes.
    Mr. Allen. I mean we are doing a lot of really good things. 
Can you learn from them? Can you collaborate and say, hey, 
let's be good neighbors and we want to do some of the same, 
what is restraining you from doing that?
    Chief Tidwell. Yes, it goes back to our funding issue and 
the lack of staff. But the things we are doing is we are 
looking at large landscapes that include not only the private 
land, but also the public land to be able to look at what we 
can be doing by working together. Working with NRCS and using 
their authorities. We are doing these pilot projects, what we 
call our Two Chiefs Projects, where we bring NRCS authorities 
and their funding, along with the Forest Service's authorities, 
and work with the private landowner to be able to do work on 
their land and on the National Forest at the same time. It 
produces efficiencies with contracts, it allows us to address 
the issues over a much larger scale, whether it is something to 
deal with the Southern Bark Beetle, whether it is to deal with 
invasive, about improving overall watershed conditions, 
improving forage conditions. So it is an example that we want 
to continue to expand on. We want to be a better neighbor. With 
the good neighbor authority that we have with the 2014 Farm 
Bill, it expands our ability to be able to work across lines so 
that, when it comes to forest pest issues, they don't have a 
border, they don't stop when they hit a boundary on private 
ground or on National Forest.
    Mr. Allen. Well, so you say your only restraint is funding?
    Chief Tidwell. Well, there is no question that if we had 
the staffing that we had 15 years ago where we would have 40 
percent more employees out there, we could be doing a better 
job to be a good neighbor, to be able to be working with our 
adjacent landowners. There is no question about that. But that 
being the case, these are the other things we are working on.
    Mr. Allen. Well, obviously, the forestland belongs to the 
people----
    Chief Tidwell. Yes.
    Mr. Allen.--of this country, and we all have an interest in 
protecting that forestland. And public-private partnerships are 
working well everywhere because, like I said, we can get things 
done a lot faster and a lot quicker on the private side than, 
say, you are capable of doing. So I would ask you to 
investigate ways that we can manage our forests so that we 
don't have these problems.
    Obviously, the fires are a problem, and I am just about out 
of time, but what is the biggest thing that is keeping you from 
preventing forest fires, other than money?
    Chief Tidwell. It is the climate. Having hotter, dryer fire 
seasons that are now 78 days longer, on average, that when we 
get, say, 300, 500 lightning starts in one day, one night we 
will get 98, 99 percent of them, but there will be that one 
that gets away. And with the conditions that we have, how dry 
the fields are, when we are dealing with places like in 
southern California, where you have 4 years of extensive 
drought, that is the problem.
    So it is going to take a combination of continuing our 
suppression resources, our suppression efforts, but we also 
need to be able to expand thinning out these forests so that 
when we do get that start, it is a lot easier for the 
firefighters to be able to suppress that fire and reduce the 
threat to our communities. So it is kind of a twofold problem. 
We need the resources, we need to fix the budget, and then we 
need to expand the work that we are doing on the landscape.
    The work that we have done in the South, it is an example 
for the rest of the country about how people came together 
years ago, figured out what needed to be done on the landscape, 
and make the difference.
    Mr. Allen. Well, we want to work with you. My time is up 
and I yield back.
    The Chairman. The gentleman yields back.
    I am pleased to recognize the gentlelady from New Hampshire 
for 5 minutes of questioning.
    Ms. Kuster. Thank you very much, and thank you to our 
Chairman and Vice Chairman, and to Chief Tidwell for being with 
us today.
    I am going to start with just a very brief personal story 
because I come from New Hampshire, and I want to get into 
questions about how fighting fires in the West are reducing 
resources in the Northeast, but I had a personal experience 
this summer. We all went out to my niece's wedding in 
Washington State, beautiful cascades, 22 of us, had a wonderful 
time, really beautiful area. My brother moved out there 40 
years ago as a logger, and now he builds second homes for 
Dot.com millionaires, it is a really nice area. But the week 
after we came home, his town, not only the town but the road 
and the neighborhood where sadly, the three firefighters died 
in Twisp, Washington, and when I reached him on the phone that 
night and I said, ``Are you okay,'' he said, ``No, we have all 
been evacuated, my pregnant niece, my nephew, and it was a very 
harrowing few days.'' And I just want to thank you and all of 
the firefighters out there. It was a sheer miracle. He went 
back up to the house that he had left some sprinklers, and at 
midnight, 20 guys on a crew showed up and two tanker trucks and 
saved his home. And I am just incredibly grateful. And I want 
to go out to all the firefighters across the country, and I am 
so sorry for the family that lost their 21 year old son, headed 
back to college, and the three folks who died.
    So I want to start with that, that this is an issue that is 
impacting all of us across the country, but just to return to 
the impact on your budget and what this means for the rest of 
us, and I just want to weigh-in. I think my colleagues on both 
sides of the aisle want to solve this budgetary problem. I am 
interested in your approach of pulling off one or two percent 
of these very large catastrophic fires. And having been out 
there for a week, I can certainly say that all through the 
West, the dryness, the drought, and whole communities being 
lost. Our colleague, Mike Thompson, talks about the loss of 
homes, middle-class families that cannot afford to rebuild.
    So could you just comment, if you will, on the impact on 
lost timber sales, and you have gotten at it a little bit, but 
if we could go back to that, lost timber sales for us back 
east, and I am concerned if we run into a drought, we are going 
to be facing wildfires on both sides of the country. If you 
could get to that.
    Chief Tidwell. Well, one specific example of that on the 
Colville National Forest in eastern Washington, we had two or 
three of our collaborative forest landscape scale projects that 
were teed-up to get started on, and all three of those 
projects--all three of them were timber sales, all three of 
them did burn.
    Ms. Kuster. Geez.
    Chief Tidwell. So we lost the investment of all the 
planning to do the work. We will be able to get in there and do 
salvage and recovery on some of the material and stuff, and be 
able to accomplish many of the objectives, but, that is one 
specific example, on the other hand, I give our folks credit. 
They had planned the projects in the right place to make a 
difference----
    Ms. Kuster. Right.
    Chief Tidwell.--they were just a year--they needed one more 
year to get the work done. But we do lose every year. We lose 
some of our--actually, timber sales that are prepped, ready to 
go. In fact, they had fires that burned through active timber 
sales this year. We tried to get the folks back in there as 
quick as we can to be able to remove that material and stuff. 
But you have to remember that our timber sales are focused on 
improving the forest health, reducing hazardous fuels, because 
we do a lot of hazardous fuels reduction with our timber sales. 
Almost every single one of them provides that benefit, along 
with improving the forest health. So it has an impact on both. 
It also has an impact on our purchasers, our loggers, that we 
just have to be able to keep them in work so that they are 
around to be able to do the work. And so that is another 
consequence that I am also worried about is to being able to--
we need to increase the work that we are doing on a sustainable 
basis so folks can make the investments, expand their 
businesses to be able to do more of this work.
    Ms. Kuster. Well, on behalf of the rest of the country, I 
really want to emphasize that testimony and make sure that our 
colleagues on both sides of the aisle can work together. This 
is such a rare issue, can I say, where we have a solution. Many 
of our issues in Congress we don't have a solution, and we 
clearly have a solution in front of us, and I hope we can work 
together.
    And then just in closing, Mr. Chairman, if I could put in a 
shameless plug for our new biomass caucus, Bruce Westerman, 
Republican from Arkansas' 4th District, and I have just started 
a biomass caucus, and I want to invite my colleagues on both 
sides of the aisle because it is a wonderful solution to some 
of those timber products that aren't going to go into board 
feet. But thank you very much.
    The Chairman. No objection to shameless plugs.
    The gentlemen from California, Mr. Costa and Mr. Aguilar, 
are not Members of the Subcommittee but have joined us today, 
and pursuant to Committee Rule XI(e), I have consulted with the 
Ranking Member and we are pleased to welcome them to the 
questioning of witnesses. I am pleased to recognize, at this 
time, Mr. Costa, from California, for 5 minutes of questioning.
    Mr. Costa. Thank you very much, Mr. Chairman, and the 
Ranking Member for holding this important Subcommittee hearing. 
It is timely, and I hope that, on a bipartisan basis, we will 
come up with some efforts to try to deal with what is becoming 
not just a western states problem, but a national problem 
because of the impacts on the budget.
    I too support H.R. 167, and I have a number of questions, 
so I am going to get to the heart of the matter and I will 
submit the rest when time runs out.
    I think it is a misnomer now though to say the fire season, 
because it is no longer a season. With these drought 
conditions, we are really talking about, in places like 
California and certain areas, 365 days a year when you look at 
the impact. So let me just give you some quick examples. 
January 1 through September 26, which was a couple of weeks 
ago, we had 5,496 fires on California lands that burned 305,000 
acres. On Federal land, we had 1,869 fires that burned over 
501,000 acres. Combined, these fires, in a 9 month period, a 
total of 7,365 fires that have burned over 806,000 acres, and 
the year is not over. And obviously, a week ago we had 26 fires 
going on concurrently in California, thousands and thousands of 
people--and, of course, my heart also goes out to those 
firefighters and those that have lost their lives, and their 
families. The average last year was, to give you a comparison, 
we had 3,818 fires last year, for 190,000 acres. So it has 
become exponentially a real problem.
    Let me get to the questions quickly because of my time. As 
you said, Chief Tidwell, and we thank you for your service and 
your team, the budget that was authorized to be appropriated of 
a little over $1 billion. You are now up to $1.7 billion in 
expenditures. In that situation, what impact do you see these 
programs having on their funding being reappropriated?
    Chief Tidwell. Well, with the $700 million that we received 
in the CR to repay this, we will be able to go back and be able 
to implement a lot of that work this coming year. The thing 
that we have lost though is that field season, that 3 or 4, 5 
weeks that, even with the money now coming, to get the crews 
back out there, to do the road maintenance work, to do the sale 
prep for the next projects, to do the inventory and monitoring 
work that is so essential that--because without that data, we 
are not----
    Mr. Costa. Now, are we----
    Chief Tidwell.--able to----
    Mr. Costa. We have conversations----
    Chief Tidwell.--be able to move forward.
    Mr. Costa.--with the California Fire Chief, Ken Pimlott, 
who you work with, and he talked about the reductions of 
Federal expenditures and how it has serious impacts on local 
operations, and without a proper funding mechanism, it further 
complicates the efforts for the men and the women who are on 
the ground fighting the fires, both at the state and local 
levels. What can be done to provide the maximum amount of 
assistance to boots on the ground for our firefighters?
    Chief Tidwell. Well, stop the transfer, stop the erosion of 
our proactive programs so that we can create a safer 
environment for our firefighters so they are at less risk, to 
be able to protect communities and be able to suppress these 
fires.
    Mr. Costa. Right, and that is an important point, and the 
other Members and I concur with the comments that they have 
made previously. Because we are not able to do proper forest 
management and these fires, what we have now are fire behaviors 
that have changed. They previously burned with less intensity. 
Today, they are burning with more intensity, and they are 
staying under the tops of the trees. And in many cases being 
good forest restoration, we are seeing fires burning hotter and 
more extensive because we have more biomass out there. And then 
for California in drought conditions, it is further compounded 
because the water that normally would recharge into our aquifer 
is going to support this additional biomass that normally we 
would clean and move out of there. So it further complicates 
the efforts.
    Do you think, Chief Tidwell, we would be able to better 
manage the budget situation if we had a 10 year average cost of 
wildfire firefighting management budgeted?
    Chief Tidwell. If if we can budget for and cover the full 
cost of our fire season is--we have to find some solution. The 
problem with the 10 year average is the----
    Mr. Costa. But the change in the climate, we don't know 
what 10 year averages are anymore.
    Chief Tidwell. We can't----
    Mr. Costa. I get it.
    Chief Tidwell. Exactly, sir. We just----
    Mr. Costa. What can be better done to manage the forests in 
order to reduce the size and the intensity of these fires?
    Chief Tidwell. A combination of two things. Get out there 
and increase the acres that we are thinning, increase the 
forest resiliency through removal of biomass, and then also the 
use of prescribed fire in the back country. It is going to take 
all of the tools available to make a change in the fire regime.
    Mr. Costa. Well, my time has expired. Mr. Chairman, I 
appreciate the work of this Subcommittee, and I commit to 
working with all of you. You know that old definition of 
insanity is: ``Doing things the way you have always done them 
and expect different results,'' and this applies here and we 
need to come up and figure out a way to do it better.
    The Chairman. I thank the gentleman for joining us today.
    I am pleased to recognize the other gentleman from 
California, Mr. Aguilar, for 5 minutes.
    Mr. Aguilar. Thanks so much, Mr. Chairman. I appreciate the 
opportunity and the invitation to be here and to share some of 
the concerns and the questions that I have as well.
    Chief Tidwell, I represent San Bernardino County, which is 
just adjacent and includes the San Bernardino Mountains that 
are just north, and have caused considerable wildfire issues 
locally as well. Earlier this year, there was a fire that 
started June 17, and reached 90 percent containment on the 4th 
of July: 31,000 acres were burned and nearly $40 million in 
damages. And it is speculated, as you have discussed, that the 
prolonged amount of time that it burned was as a result of dead 
vegetation and other issues that had not been managed.
    If you could continue to kind of walk me through that 
piece. What role timber sales and controlled burns play in the 
prevention of fires, and how your budget continues to be 
crowded out because of the catastrophic fires in that top one 
percent. And specifically, what programs continue to be 
affected by that budgetary crowding out.
    Chief Tidwell. Well, first of all, we need to recognize 
that the conditions we face today are a result of the climate 
change that we are experiencing where, with these hotter, 
drier, longer fire seasons, we need to remove more of the 
biomass off of the landscape through a combination of 
mechanical treatments, timber sales, and also using prescribed 
fire to reduce the amount of biomass. The second part of it is 
that, when you look at these one percent of these large fires, 
there is no question they should be a--they are a natural 
disaster, and we ought to find a way to budget for it 
appropriately, and then free-up our ability to be proactive on 
the work.
    What has been impacting our programs that affect our 
ability is that, if you look at over time how much capacity we 
have lost with 39 percent fewer employees that are outside of 
our fire organization, they are the folks that would do the 
veg. work, vegetation management, the watershed improvement 
work, they are the folks that would be dealing with improving 
the roads, doing the road maintenance. They are also the folks 
that put the planning together so that we know what we need to 
do to be able to work with the communities. So it has had an 
overall impact on our ability to manage. And it is not just one 
program. By maintaining funding, say, in our forest management 
program, that in itself is not enough. The way that we work, 
everything is interrelated, and it is the way we go about our 
mission. And if you just have one program that you are able to 
maintain the funding at, you are still going to be impacting 
our ability to get all the work done. And that is the thing 
that folks need to understand. When it comes to forest health, 
it is not only forest products, it is not only haz fields 
funding, it is also our using salvage sale funding and choosing 
our KV funding, it is also using our road funding. It takes all 
of that to be able to manage these forests for the public.
    Mr. Aguilar. And it affects every other line item that you 
have within your budget, and that is clear----
    Chief Tidwell. It does.
    Mr. Aguilar.--as well as the fires in the West, as Mr. 
Costa mentioned, affecting some of the work that needs to be 
done out in the East as well.
    The definition of the top one percent of catastrophic 
fires, I understand from a budgetary standpoint that we would 
want to be cautious with that. How would you define that? Would 
it be by acreage, by damage, by manpower, what would rise to 
that level of that top one percent of catastrophic fires?
    Chief Tidwell. Well, there are several proposals out there, 
even going back to the language, it was in the FLAME Act that 
we are currently working under, and also in the Wildfire 
Disaster Funding Act, but really what they are are the fires 
that, because of the size, the complexity, and the threat. So 
if you look at just the top ten fires in Fiscal Year 2015 so 
far this year, those are the ones that CNN has covered, all the 
other networks, the news covers, just those top ten fires, $280 
million. That is just ten, and that is not even a fraction of--
I mean it is a fraction of one percent of all the fires that we 
deal with. Those are the type of fires that we believe should 
be considered a natural disaster. Those large-scale fires, the 
ones that burn for weeks, the ones that burn through the 
communities, those are the ones that we would look at--and we 
want to work with the Committee to be able to come up with the 
criteria and have a way to say, ``Yes, these are the fires that 
we want to fund this way.''
    Mr. Aguilar. In order to have that flexibility, I know that 
you need that flexibility in order to protect our communities, 
and it is something that we need to do.
    I appreciate your time. And thank you so much again, Mr. 
Chairman.
    The Chairman. The gentleman yields back.
    Chief, thank you so much for being here and for your 
testimony and for your leadership. It is very much appreciated.
    With that, I am pleased to call our next panel to the 
table. On the second panel we will have Mr. Rod Haeberle, owner 
of Haeberle Ranch in Okanagan, Washington. Hopefully I got that 
close, Rod. Okay. I am also pleased to welcome to the second 
panel Dr. Christopher Topik, Director of Restoring America's 
Forests at The Nature Conservancy. I would yield to the Ranking 
Member for introduction of the next two witnesses.
    Mr. Lujan Grisham. Thank you very much, Mr. Chairman.
    We have two New Mexicans here, and I am delighted that you 
are here to share your experiences. As you have heard in 
testimony by my colleagues and by myself, we all have personal 
experiences, unfortunately, with severe wildfires.
    And so, Mr. Chairman, I would like to welcome Chief Erik 
Litzenberg, and he is the Fire Chief for the Santa Fe Fire 
Department, and he is testifying today on behalf of the 
International Association of Fire Chiefs. So welcome, Chief. 
And I also want to welcome Colonel Ronald Priddy. He is the 
Director of Government Affairs for 10 Tanker Air Carrier from 
Albuquerque, which is, of course, the heart of my district. I 
want to thank you both for making the trip. And, Mr. Chairman, 
thank you for yielding to me.
    The Chairman. I thank the gentlelady. Welcome to the 
hearing. And we will get started.
    Sir, Mr. Haeberle, if you would go ahead and proceed with 
your 5 minutes of testimony.

 STATEMENT OF ROD HAEBERLE, OWNER, HAEBERLE RANCH, OKANOGAN, WA

    Mr. Haeberle. Thank you, Mr. Chairman, for allowing me to 
speak today.
    Log it, graze it, or watch it burn is the subject of my 
testimony to you today. In 1975, while I was working for Crown 
Zellerback lumber company, the Spotted Owl endangered species 
controversy began. Shortly thereafter, with no bonding or 
scientific proof, a 37 stamp on a letter of protest for each 
timber sale was enough to begin voiding the timber industry 
where I worked. The result was no logging, no resource to the 
mill, and the eventual closure and dismantling of the mill for 
scrap. Along with that, loggers and millworkers lost their 
jobs, merchants lost business in town, and the domino effect 
led to a tremendous downturn in the local economy.
    Since that time, logging has nearly diminished in the 
Okanogan Wenatchee National Forest in Washington State. The 
unintended consequences of the environmental movement that 
began 40 years ago in our forest is an ecosystem that has 
become densely overgrown. The canopy has completely closed in 
most places and underlying forage has been diminished by high 
volumes of underbrush and debris. These forest conditions have 
resulted in unhealthy forests that are prone to disease and 
wildfire.
    As a result, firefighting has become big business. The 2015 
fires in Okanogan County have scorched 509,739 acres and is 
still growing. It has cost an estimated $100 million.
    Firefighting practices over the last 40 years have also 
changed. Initial attack by smokejumpers, bulldozer hot-lining, 
and aircraft drops of water or retardant onto fires 
immediately, immediately after they are reported is a concept 
of days gone by. Today, hours and hours, sometimes days, pass 
before the fire is attacked properly. Too much time is wasted 
determining who has authority over the fire. Then resource 
division is notified and the priority authority orders the 
determined resources after they have gone through all of the 
channels. In the meantime, the fire gets away from them. One 
Blackhawk helicopter loaded with water should be available for 
immediate initial attack. Backed up by other resources as 
necessary, this could potentially extinguish nearly every fire 
before ever reaching any significant magnitude.
    Recently, back-burns have been used more extensively. The 
frequency and magnitude of their use has become the subject of 
a lot of controversy with local firefighters. This year, many 
of them were failures, resulting in huge economic losses of 
timber and grazing land.
    Fire briefings for firefighters and contractors are 
mandatory each morning at 6:00 a.m. They inform expected 
weather including humidity, temperature, wind, and dryness of 
fuels. Safety, radio channels, aerial programs, human 
resources, updates, sports updates, and fire-updated maps are 
provided. Division supervisors with their assigned personnel 
are included in these briefings. The break of daylight is the 
lowest temperature, highest humidity part of the day. 
Consequently, the early morning hours of the day will yield the 
most production on ground and aerial results. Again, these are 
opportunities that are wasted on a daily basis.
    Local personnel should be used in selecting dozer lines 
rather than out-of-area people. This year's fire had a large 
amount of out-of-state division supervisors who did not know 
old logging roads or areas where dozers could have been less 
jeopardized, and saved many more structures and acres from 
burning.
    Noxious weeds, after a fire, will germinate very 
prolifically with spring moisture, and do. If they are 
eradicated before going to seed, they will be eliminated or 
reduced significantly. If they are ignored and left to go to 
seed, they will take over large tracts of ground and eventually 
crowd out desired forage for wildlife and livestock. Noxious 
weed management should be a continued and ongoing effort.
    Fire in well-managed property can be used as a valuable 
tool in cleaning up low-lying ground fuels and stimulate forage 
growth without destroying valuable timber. These forests are a 
savings account for future generations, both in economic value 
and the health of our planet. Selective timber harvest, 
prescribed burning, reseeding, noxious weed control, and 
flexible grazing programs are key to reducing the fuel load 
that drive the magnitudes of these fires. Immediate initial 
response to wildfires by aggressive air attacks would come at 
an overall price savings.
    In my opinion, the continued neglect of our forests that 
leads to their eventual destruction and the loss of enormous 
savings of economic wealth and environmental stability should 
be a crime punishable by law. Let's make the commitment to 
spend a fraction of what we have spent fighting the fire, and 
spend it instead on proactive measures to sustain healthy 
forests. Hire people to selectively log appropriate densities 
of the trees, thinning underbrush and debris, and using low-
intensity fires in late fall and winter to clean the forest 
floor. Doing so will create an abundance of vegetation for 
wildlife and livestock grazing, which converts into edible 
protein and vitamins for humans.
    Log it, graze it, or watch it burn, and watch it burn we 
have. Let's pay it forward to the future generations by 
renewing our forests and rebuilding our economy in a 
partnership that honors best practices in the management of our 
natural resources.
    Thank you.
    [The prepared statement of Mr. Haeberle follows:]

Prepared Statement of Rod Haeberle, Owner, Haeberle Ranch, Okanogan, WA
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Okanogan Complex Fires Black Canyon and Squaw Creek Fires. 8-
        16-15.

    ``Log it, graze it, or watch it burn'' is the subject of my 
testimony to you today. In 1975, while working for Crown Zellerback 
lumber company, the Spotted Owl endangered species controversy began. 
Shortly thereafter, with no bonding or scientific proof, a 37 cent 
stamp on a letter of protest for each timber sale was enough to begin 
voiding the timber industry. The result was no logging, no resource to 
the mill and the eventual closure and dismantling of the mill for scrap 
prices. Along with that, loggers and mill workers lost their jobs. The 
merchants in town lost business. The domino effect led to a tremendous 
downturn in the local economy. Since that time, logging has nearly 
diminished on the Okanogan Wenatchee National Forest in Washington 
State. The unintended consequences of the environmental movement that 
began 40 years ago in our forest is an ecosystem that has become 
densely overgrown. The canopy has completely closed in most places and 
underlying forage has been diminished by high volumes of underbrush and 
debris. These forest conditions have resulted in unhealthy forests that 
are prone to disease and wildfire.
    As a result, fire fighting has become big business. The 2015 fires 
of Okanogan County have scorched 509,739 acres and is still growing. It 
has cost an estimated $100 million. Fire fighting practices over the 
last forty years have also changed. Initial attack by smoke jumpers, 
bulldozer hotlining and aircraft drops of water or retardant onto fires 
immediately after they are reported is a concept of days gone by. Today 
hours and hours, sometimes days pass before the fire is attacked 
properly. Too much time is wasted determining who has authority of the 
fire. Then resource division is notified and the priority authority 
orders the determined resources after they have gone through all of the 
channels. In the meantime the fire gets away from them. One Blackhawk 
helicopter loaded with water should be available for immediate initial 
attack. Backed up by other resources as necessary this could 
potentially extinguish nearly every fire before ever reaching any 
significant magnitude.
    Recently, backburns have been used more extensively. The frequency 
and magnitude of their use has become the subject of a lot of 
controversy with local firefighters. This year many of them were 
failures resulting in huge economic losses of timber and grazing land.
    Fire briefings for fire fighters and contractors are mandatory each 
morning at 6 o'clock a.m. They inform expected weather including 
humidity, temperature, wind and dryness of fuels. Safety, radio 
channels, aerial programs, human resources, updates, sports updates, 
and fire updated maps are provided. Division supervisors with their 
assigned personnel are included in the briefings. The break of daylight 
is the lowest temperature, highest humidity part of the day. 
Consequently the early morning hours of the day will yield the most 
productive on ground and aerial results. Again, these are opportunities 
that are wasted on a daily basis.
    Local personnel should be used in the selecting dozer lines rather 
than out of area people. This years fire had a large amount of out of 
state division supervisors who did not know old logging road or areas 
where dozers could have been less jeopardized and saved many more 
structures and acres from burning.
    Noxious weeds, after a fire will germinate very prolifically with 
spring moisture. If they are eradicated before going to seed they will 
be eliminated or reduced significantly. If they are ignored and left go 
to seed they will take over large tracts of ground and eventually crowd 
out desired forage for wildlife and livestock. Noxious weed management 
should be a continued ongoing program.
    Fire in well managed property can be used as a valuable tool in 
cleaning up low lying ground fuels and stimulate forage growth without 
destroying valuable timber. These forests are a savings account for 
future generations both in economic value and the health of our planet.
    Selective timber harvest, prescribed burning, reseeding, noxious 
weed control, and flexible grazing programs are key to reducing the 
fuel load that drive the magnitudes of these fires. Immediate initial 
response to wildfires by aggressive air attacks would come at an 
overall price savings.
    In my opinion, the continued neglect of our forests that leads to 
their eventual destruction and the loss of enormous savings of economic 
wealth and environmental stability should be a crime punishable by law. 
Let's make the commitment to spend a fraction of what we have spent 
fighting the fire and spend it instead on proactive measures to sustain 
healthy forests. Hire people to selectively log appropriate densities 
of trees, thinning underbrush and debris, and using low intensity fires 
in late fall and winter to clean the forest floor. Doing so will create 
an abundance of vegetation for wildlife and livestock grazing which 
converts into edible protein and vitamins for humans.
    ``Log it, graze it, or watch it burn!'' and watch it burn we have. 
Let's pay it forward to future generations by renewing our forests and 
rebuilding our economy in a partnership that honors best practices in 
the management of our natural resources.
                               Exhibit A
Okanogan County Complex Fire Daily Progression
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

          Light teal = carlton complex 2014--256,108 acres
          332 homes destroyed and 149 other structures
          Cost $60 million
          Lives lost = 2 (heart attack protecting home, complications 
        from fall fighting fire to protect home)
          Okanogan, tunk block and North Star Complex 2015--509,739 
        acres
          96 homes destroyed, 95 cabins and 38 other structures
          Cost estimated $100 million (fires still burning on north 
        star)
          Lives lost = 3 (Twisp River Fire all fire fighters)
                               Exhibit B
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

          Okanogan Wenatchee National Forest unmanaged and waiting for 
        a high intensity burn.
          Picture taken 10/01/2015.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
          Okanogan Wenatchee National Forest unmanaged and waiting for 
        a high intensity burn.
          Picture taken 8/24/2015.
                               Exhibit C
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

          Okanogan Wenatchee National Forest unmanaged and high 
        intensity burn.
          Picture taken 8/24/2015.
                               Exhibit D
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

          Washington State Department of Natural Resource Land that was 
        logged, thinned, prescriptively burned, and grazed by cattle.
          Picture taken 10/01/2015.
                               Exhibit E
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

          Tripod Fire 2006 burned approximately 240,000 acres.
          Picture taken 10/01/2015.
                               Exhibit F
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

          Cattle lead away from the fires.
       [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
        
          Cattle that were unable to escape.
        [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
        
                               Exhibit G
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

          Noxious weeds after the fires--regrowth after Carlton Complex 
        fires of 2014.
                               Exhibit H
    To Whom it may concern,

    I am writing this letter to bring some light to the events that 
have led to the largest wildfire that our beloved Washington State has 
ever experienced.
    There has been decades of mismanagement brought forth by special 
interest groups, whether or not anyone wants to acknowledge the fact 
that lobbyist control more of the government than the people that vote. 
Washington State Department of Fish and Wildlife, USFS, Dept. of 
Natural Resources, and BLM have historically shown a disregard for what 
an actual healthy forest or range consists of. It does not take more 
than a mile or 2 of driving, riding, or hiking through any of these 
agencies areas of responsibilities to see that we, as a nation, are in 
direct threat at any given moment of another devastating event, similar 
to the one that just passed. Whether it is an endangered bird, a 
threatened species of fish, or the newest addition, the re-introduction 
of the grey wolf, our governing agencies time and time again, have not, 
do not, nor have they shown, any equality when it comes to decision 
make about the health of our public lands. What better people to engage 
in the process of management than the people whose livelihood depends 
the very health and longevity of these lands. For everything that has 
been addressed in recent history, our voices have fallen on deaf ears. 
Only now, after the most devastating wildfire in states history, do we 
hold your attention?
    With that being said, there are some major issues regarding how 
catastrophes like this could be avoided. Time and time again throughout 
this incident, decisions were made miles from the actual fire line that 
had a direct deficit to the act of engaging the fire correctly and 
completion of that task. Miles of dozer line placed in locations where 
anyone with minimal fire behavior knowledge would have known better. 
Through treed thickets, when there was greatly more desirable ground 
that would be faster, more efficient, and have a greater impact on the 
control of this incident. Being treated like ``local idiots'' by agency 
officials only to be asked for information and direction after it was 
out of hand. To have multiple strike teams, engine crews, hand crews 
drive by active fire, threatening homes, farms, and ranches, manned by 
local people and have ``resource management'' personnel direct and 
effort worth the raising of the pyramids, drive past to a location to 
protect a group of ``homes'', when in reality the structures are all 
recreational and to no one's surprise, located on or near National 
Forest. Every owner of these ``homes'' has a roof over their head 
somewhere else, not so for the those that were passed by for 6 days. 
These are just a few of the things that I take issue with not only as a 
landowner, but as a former Washington State DNR firefighter.
    Time and time again, local ranchers, farmers, contractors and 
average people, pulled together to gain the upper hand. Only to be told 
``You're not doing it right'', or ``we don't do structure protection''. 
It is a testament to the hardiness of the residents of this county, to 
stand up and ignore the ignorance of the agencies involved and continue 
to help their neighbor. There needs to be an end to the arrogance of 
the controlling powers and some humbleness injected into the system 
that allows the desecration of land ``WE THE PEOPLE'' have built.
    Local resources need to be utilized, period. Too many times, locals 
engaged in initial attack, many on their own property, were told to 
pull off, go to the command center, and get ``checked in''. There are 
hundreds of combined years of wildfire knowledge imbedded within the 
residents of this county and to have that ignored is an atrocity. There 
needs to be a system in place that our local agency, without question, 
can call upon resources that are in the immediate area instead of out 
of state. The timeline for response MUST be drastically reduced. The 
phrase ``there just aren't any resources'' is an excuse, not the 
answer. There is too much ``technology'' involved in this process. A 
simple list of local loggers, construction contractors, farmers, and 
ranchers with equipment capable of aiding any effort, should be 
maintained by, and carried with, agency fire officials in their home 
area. A list in Wenatchee, 90 miles away, does no good to the forester 
that happens by a lightning strike near Conconully. Time is of the 
essence.
    Peter Goldmark, Commissioner of Public Lands, requested and 
received, millions of dollars to add to the firefighting readiness of 
our state. I now ask, where was that spent? After last year's Carlton 
Complex, promises were made, and broke less than 10 months later. 
``Fire managers'' is a term not to be used in one of the worst drought 
years in history. August is not the time of year to ``manage'' a fire, 
but to engage and stop. Policies and practices of letting fire run it's 
natural course is not a viable choice. It would be, if there were acts 
to actively reduce the ``Fuel loading'' in our forests. Grazing, 
logging, and thinning are just a few of the methods to be utilized.
    As I end this letter, I look out the window, to the land our family 
homesteaded before the 1900's, to realize that my son, will not live 
long enough, to see the scars of this tragedy, be healed and view this 
land as his ancestors once did. And that, brings true sorrow my soul.
            Sincerely,

Chad Stansbury,
Riverside, WA.
                               Exhibit I
October 3, 2015

  United States House of Representatives,
  Committee on Agriculture.

    We are a family of third, fourth and fifth generation cattle 
ranchers in the Okanogan Valley, having lived in the Scotch Creek area 
since 1945. The lightning strike Lime Belt fire started 10 miles 
northwest of our ranch and followed an almost direct path to our 
doorstep. The result was a major impact on our ranch and the ability to 
make a living.
    This fire started on United States Forest Service (USFS) ground but 
quickly spread to the 8,694 acre Scotch Creek Wildlife Area. It is 
owned by Washington Department Fish and Wildlife (WDFW) and was 
purchased in 1991 as a sharp-tail grouse habitat. Prior to the 
purchase, this land was a working cattle ranch and was largely grazed 
and cultivated. Wildlife thrived in that environment but, as a result 
of the programs introduced by the WDFW, they have been forced to find 
feed elsewhere due to much of the land being allowed to lie fallow. The 
lack of disturbance to the soils from practices such as grazing and 
farming allowed massive amounts of fire fuels to be added to this land 
which borders our 980 acre ranch both to the north and west. When the 
fire reached this land there was little fighting that could be done 
safely as it moved rapidly and with intense heat. If this property had 
been more aggressively managed and a fuels reduction program in use, 
this fire could have been possibly contained before it reached 
adjoining areas.
    Immediate and aggressive action on the part of the USFS and 
Washington State Department of Natural Resources (DNR) to control this 
fire would have produced a different outcome and losses most likely 
been negligible. It is rumored that DNR firefighters had to watch it 
burn as they had not been authorized to enter USFS lands. The time 
wasted waiting for the approval to fight the fire only helped fuel the 
ensuing firestorm. USFS, DNR, WDFW and local rural fire districts all 
worked hard to stop this fire but with little success as it rapidly 
reached the Scotch Creek Wildlife Area. These lands were a tinderbox 
waiting for the match and once lit, could not be contained.
    The fire went around or lightly scorched cultivated areas and 
burned hot through the undisturbed land and fence lines which border 
our property. The few areas WDFW had plowed and had allowed new weeds 
to grow were spared. The small portion of a dry land alfalfa field 
that, for the first time in many years had irrigation was not touched 
while the rest of the field had minor scorching. The majority of the 
Scotch Creek Wildlife area has been severely damaged. When the fire 
reached our ranch which has been grazed consistently, the fire still 
spread but without the intensity which was seen on WDFW lands.
    Our cattle were on a grazing permit we have with the USFS at the 
time of the fire. We lost almost 100% of our fall and spring grazing 
due to the fire. The majority of this is a 900 acre lease we have with 
the DNR. Their normal policy following a fire does not allow grazing to 
return for about 3 years. The remaining available land was scorched by 
the fire and at this time will provide no feed when cattle are shipped 
home from the mountains. We will have to begin supplementing with 
processed feed (baled alfalfa mostly) in mid to late October through 
June when they return to the permit in the mountains.
    Normally, the cattle would graze until the snow flies which is 
sometime between November and December. They are fed daily throughout 
the winter until the grass has grown enough to provide enough feed to 
allow grazing. This has created a burden of having to purchase extra 
feed to sustain the healthy condition of our animals. A ball park 
estimate of feed costs would be about $30,000 which breaks down to 150 
ton at $200.00 a ton. This is to feed 125 cow/calf pairs, six bulls and 
three horses for the additional 4 to 5 months that they would normally 
graze on the ranch.
    Not included in this is the feed that the many deer and other 
wildlife that have come to live in our alfalfa fields consume daily. In 
a normal year we often have up to ten deer in our alfalfa almost every 
night. That number is now more like 100 head. What the predators eat 
leaves less for the cattle.
    The number of predators has also increased. The burned skull and 
front quarters of a cougar has appeared in our yard and at least two 
cougars have attacked dogs just outside their owner's homes. One cougar 
approached a neighbor in her yard, and luckily she was able to get 
quickly into her home and shut the door. She has pictures of the cougar 
with its front feet on her door peering in. Predator and wildlife 
control should become a major part of any fire restoration program.
    Besides pasture loss, there is approximately 25 miles of fencing 
that will need to be repaired or replaced. Fifty-four tons of hay was 
burned as well, but we were luckier than many as it was insured. Our 
ranch will also need to look at reducing our cattle numbers to match 
available resources. Of concern with this possibility is the need to 
meet the quota set by the USFS for maintaining our permit. Many 
ranchers may be faced with this same issue and it would be advantageous 
to all concerned if the USFS could provide a temporary program to 
assist with these changing needs. Such as allowing earlier access to 
our permit and longer grazing periods if range readiness is met or a 
temporary reduction in the number of cattle needed to fill the permits.
    We are not alone in this disaster and other ranchers in our area 
are faced with these same issues as well as others such as loss of 
animals. Cattle is the second largest crop produced locally in the 
largest county in our state. The economic impact of this fire is 
devastating to ranchers and we need your assistance to get back up and 
going again.
            Sincerely,

Wade and Kevin Cunningham.
Jake and Kelsie Cunningham.
                               Exhibit J
October 2, 2015

  RE: Okanogan Complex Fires, Okanogan, WA 2015

    To Whom it may concern,

    I write this letter having just returned from a 60 mile drive 
through our region in north central Washington. Plumes of smoke still 
rise from the hillsides, many of which are ready to slough if and when 
the rains come, homes and property destroyed and black for as far as 
the eye can see.
    I think it is important to hear from individuals who choose to live 
in this area due to the beauty and wonderful outdoor opportunities, 
along with those who make a living working with and on the land.
    It is heartbreaking to see the devastation that has been caused by 
this summers wildland fires.
    I first want to commend the line troops who spent countless hours 
protecting land and property. The firefighters were courageous and 
dedicated to their mission.
    I was home when the lightning struck north of our home which was 
soon thereafter to become the Blue Lake/Limebelt Fire. The trees 
immediately smoldered and attempts were made by local ranchers to 
contain the fire.
    Over the next 4 days, the fire grew and broke several containment 
attempts, eventually consuming all of the Limebelt south to the north 
City limits of Omak.
    While forest/land management strategies can be discussed endlessly, 
there are a few strategies we believe will make a significant 
difference in future responses.

  1.  Pre-stage state and Federal Firefighting resources in areas of 
            high drought with the ability to promptly move resources as 
            the need arises with the intent that the fight is prompt 
            and intended to put the fire out as soon as possible when 
            near populated areas.

  2.  Remove any financial incentive to let fires grow.

  3.  Listen to and incorporate local fire departments as soon as 
            practicable. The local departments in this area are all 
            volunteer. The folks fighting the fire are fighting for 
            their livelihood and are knowledgeable as to local 
            resources, access routes and prompt strategies to address 
            the fire.

  4.  Remove the disincentive to put the fire out at the earliest 
            possible moment.

  5.  Work in the off season to address the communication and training 
            deficits. It is amazing to me that there are so many facets 
            of a fire response with very little in the way of common 
            goals and leadership. As a career law enforcement 
            professional, I cannot imagine nor should the community be 
            satisfied with officers handling a fast moving violent riot 
            with a variety of responders who cannot talk with each 
            other and do not have the same goals and mission. It is 
            inexcusable that in this day and age that communication and 
            command and control in a fast moving and potentially deadly 
            wildland fire remains a significant challenge.

  6.  Coordinate and fund land management strategies. The Blue Lake/
            Limebelt Fire quickly became out of control as it traveled 
            through the Washington State Department of Fish and 
            Wildlife Scotch Creek Wildlife Area. The Wildlife area had 
            acre after acre of tall, dry grass and sage, allowing the 
            fire to explode once it reached the area. This area was 
            reserved for Sharped Tail Grouse, which at this point will 
            be lucky to survive after the fire.

  7.  Develop a proactive strategy to anticipate the legal attacks 
            against active forest and land management. I cannot believe 
            the U.S. Court system is not nimble enough to allow safe 
            and realistic forest management strategies. It will take 
            creative lawyering and persistence that if not undertaken 
            will result in no forests and immeasurable loss. It is not 
            an acceptable strategy to wait until the cause of action is 
            filed before trying to implement a strategy. Forward 
            thinking and strong leadership is needed if we are to be 
            successful in addressing the quagmire currently in place.

    The loss to this area has yet to be fully appreciated. The drive 
today demonstrated we have significant issues in front of us as the 
years progress. Between the environmental challenges, housing 
challenges and continued economic viability of the region, there is 
much work ahead.
    I appreciate the opportunity to express my concerns and hope the 
information shared from this region is able to positively impact 
decisions and strategies important to all.
            Sincerely,
            [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
            
Linda Pierce,
Okanogan, WA.
                               Exhibit K
    To: House Agriculture Committee
    Re: H.R. 167--Wildfire Disaster Funding Act
    Date: October 1, 2015

    Recent wildfires have devastated almost \1/3\ of Okanogan County, 
including Federal, Tribal, state and private lands. The fires have 
burned through vast acreages of farmland, forestlands and shrub steppe 
habitats without regard to landownership or usage. Just as fires know 
no boundaries, noxious weeds do not respect fence lines or ownership, 
freely spreading to new areas, replacing desired crops, invading 
rangelands, and pristine wildlife habitats.
    Funding of noxious weed control programs within Federal agencies is 
already insufficient given the scope of landownership. The current 
funding mechanism for catastrophic wildfire suppression further 
decreases the already inadequate funding levels, when the remaining 
funds are pulled from noxious weed control programs to fund fire 
suppression efforts.
    Many noxious weeds, such as cheat grass, intensify fire activity 
and cycles, making those fires extreme and difficult to control. The 
more difficult the fire, the more funding pulled from controlling 
noxious weeds, increasing infestations of cheat grass and other weeds, 
and the process escalates.
    The Okanogan County Noxious Weed Control Board supports H.R. 167, 
the Wildfire Disaster Funding Act. This Act will make paying for fire 
suppression activities the same as other natural disasters and end the 
ineffective practice of ``fire borrowing''.
    H.R 167 will allow Federal noxious weed programs the ability to do 
what they were intended to do, namely control noxious weeds and provide 
the stewardship necessary of good Federal land managers.

Anna Lyon,
Manager,
Okanogan County Noxious Weed Control Board
                               Exhibit L
September 9, 2015

    Hon. Hal Rogers, Chairman, Hon. Nita Lowey, Ranking Minority 
    Member, House Appropriations Committee;
    Hon Thad Cochran, Chairman, Hon. Barbara Mikulski, Ranking Minority 
    Member, Senate Appropriations Committee;
    Hon. Ken Calvert, Chairman, Hon. Betty McCollum, Ranking Minority 
    Member, House Interior Appropriations Subcommittee;
    Hon. Lisa Murkowski, Chairwoman, Hon. Tom Udall, Ranking Minority 
    Member, Senate Interior Appropriations Subcommittee.

    Dear Chairman Rogers, Chairman Cochran, Chairman Calvert, Chairman 
Murkowski, Ranking Minority Member Lowey, Ranking Minority Member 
Mikulski, Ranking Minority Member McCollum, and Ranking Minority Member 
Udall:

    The catastrophic wildfires engulfing western states this summer are 
further proof of the need for Congress to support the management of our 
nation's forestlands in a collaborative effort of Federal agencies, 
industry and the local residents most directly affected by these fires.
    The National Association of Conservation Districts (NACD) 
represents the nation's 3,000 conservation districts and their 
governing boards. Established under state law, conservation districts 
are local units of government charged with carrying out natural 
resource management programs created or adjusted based on local needs. 
Conservation districts are directly connected to local populations and 
landowners.
    Conservation districts work with Federal, state, Tribal and other 
local agencies to provide technical assistance to landowners and other 
partners to address natural resource issues. With respect to forests 
and grasslands, conservation districts are involved in a wide range of 
activities, including non-industrial private forest management, 
wildfire prevention and fuels reduction, biomass production and 
utilization, forest pest management, wildlife habitat management and 
urban forestry.
    Recently, the Okanogan Conservation District proved to be an 
invaluable resource for assisting FEMA and state and Federal land 
management agencies for rapid emergency response during the 2014 
Carlton Complex Fire in Washington. The district assisted with the 
identification and evaluation of priority areas in need of immediate 
recovery, and provided conservation for both private and public lands. 
The 2015 fires far surpass the area burned in 2014 and conservation 
districts are already formulating plans to deal with the aftermath. The 
Emergency Watershed Protection Program (EWP) will be a crucial part of 
those plans and funding limitations must not stand in the way of 
program delivery.
    It is critical that Federal policies support the uninhibited flow 
of vital information between agencies and partners that will allow 
natural resource concerns to be addressed, private and public property 
protected and all life, especially human, fully cared for.
    Along with dozens of other forestry and conservation organizations, 
NACD has offered its support of the Wildfire Disaster Funding Act (H.R. 
167, S. 235, S. 1645), which aims to limit the impact wildfire spending 
can have on the funding of agency programs designed to improve forest 
health conditions. NACD fully supports increased funding for wildfire 
prevention, management and restoration of our public forests and 
rangelands; legislation that expedites analysis required by the 
National Environmental Policy Act; policies and budgets that allow 
conducting effective prescribed fire, pre-suppression activity and 
silvicultural treatments; and increased pre- and post-fire grazing on 
at-risk public lands.
    We ask for passage and full funding of the Wildfire Disaster 
Funding Act in addition to increased funding for programs that can be 
used to reduce fuels such as the Chiefs Joint Landscape Restoration 
Partnership, the Environmental Quality Incentives Program (EQIP) and 
the EWP. These programs are critical to providing the necessary 
resources to bring about significant change on a landscape level.
            Sincerely,
            [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
            
Lee McDaniel,
President,
National Association of Conservation Districts.
                              Supplemental
Washington Forest Management: Success Versus Federal Failure
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


    The Chairman. Thank you, sir.
    I am pleased to recognize Dr. Topik, for 5 minutes.

        STATEMENT OF CHRISTOPHER TOPIK, Ph.D., DIRECTOR,
 RESTORING AMERICA'S FORESTS, NORTH AMERICA REGION, THE NATURE 
                   CONSERVANCY, ARLINGTON, VA

    Dr. Topik. Thank you very much, Mr. Chairman, and Ranking 
Member. I greatly appreciate you having the hearing.
    The Nature Conservancy has a long and extensive history of 
working with both good and bad fire. We focus on science-based 
conservation action with many collaborators, to help make 
communities safer and fire-resilient.
    I believe that working together, we can turn around the 
current negative fire trends that put our communities, our 
infrastructure, lifelines, our clean water, our wildlife, and 
our great outdoors all at risk. It won't be easy and it won't 
be fast.
    I am going to talk about three things today. First, we need 
to fix the wildfire funding. Second, we need to expand 
opportunities for communities to become fire-adapted. We 
haven't talked about that enough. And we need to implement the 
National Cohesive Wildland Fire Management Strategy.
    So first, we need to fix the way Federal firefighting is 
funded. This should be done like other major disasters; not out 
of the operating accounts that we need to care for our lands 
and waters. And this can be done now with the Wildfire Disaster 
Funding Act, and it shouldn't be tied to other issues. Without 
success here, everything else is at risk. The Wildfire Disaster 
Funding Act is the one proposal that can access the disaster 
funding cap, it minimizes impacts from fire borrowing, and it 
addresses the increasing cost of emergency firefighting over 
time that the Chief talked so much about.
    The current Federal budgeting system is broken. It prevents 
decent business practices at our agencies. The uncertainty of 
funding and amounts, timing, and fund withdrawals has large 
impacts. The emergency fire funding shortfalls also harm key 
projects. Not to pander, but for instance, in the East about 56 
million board feet of timber was impacted by loss of marking 
contracts and agreements in Fiscal Year 2013. In Pennsylvania, 
road repair, invasive species treatment, timber stand 
improvement, wetland restoration, erosion control projects were 
canceled or delayed. And I just learned that on the Allegheny 
National Forest, certain specific Hemlock Woolly Adelgid 
protection projects were canceled, and some vital research on 
decline of black cherry was halted due to emergency fires 
sucking up the Federal resources. In New Mexico, we know that 
hazardous fuels management, road decommissioning, oil and gas 
trails, and land acquisition projects have all been canceled.
    Well, second, the most cost-effective and undervalued 
solution to harmful fire is structured engagement within and 
among the communities that are at risk. It is essential to help 
develop local skills and visions for communities to protect 
themselves and their surroundings. Different places will have 
different needs, and different cultures will generate different 
solutions. Very modest investment by Federal, states, Tribes, 
industries will yield much more fire-resilient communities. 
Community mitigation and homecare actions can have huge 
benefits. For example, the analysis of the Waldo Canyon fire in 
Colorado by the Insurance Institute for Business and Home 
Safety.
    I especially want to do a shout out for the relatively new 
but immensely promising Fire Adapted Communities Learning 
Network. In just 2 years, it is helping 17 places, ranging from 
small communities to huge cities like Austin. It helps local 
people figure out what they need to do to deal with fire, and 
its national network brings best practices and lessons learned 
to a wider application faster. Soon, this network will expand, 
and I hope it does a lot more.
    And finally, way too much discussion on the Hill is focused 
on timber harvest as the solution to the fire problem. We know 
that many of the most damaging fires have been in woodlands, 
brush chaparral, and areas that are not even suitable for 
commercial timber. For instance, the Valley fire destroyed 
1,958 structures in California last month, and cost close to 
$60 million to suppress. And many of the most deadly and 
impactful fires have been in southern California, chaparral and 
woodlands, where forestry is not relevant, but defensible space 
creation is essential.
    And forest thinning is certainly important in needed areas 
where it can reduce fire danger, especially when followed by 
controlled burns, but it is one of many solutions. There is a 
good plan that we should implement; that is, we all need to get 
the governments at all levels in the U.S., with industry and 
private sectors, to fund and implement the three legs of the 
Cohesive Strategy. First, that includes resilient landscapes, 
fire-adapted communities, and safe and effective fire response. 
But right now, fire response in America commands nearly all the 
available resources. As a nation, we don't seem to hesitate to 
respond in massive fashion during immediate emergencies, but we 
are not good at funding preparedness and mitigation that we all 
know has a great return on investment. I do, however, want to 
commend the U.S. Fire Administration and DHS for some exciting 
recent progress. But, however, the imbalance that we see 
prevents us from taking the community-based steps that are 
needed, and it doesn't allow us to properly manage forests, 
shrub lands, grasslands with good fire and good forestry. We 
need Federal investments in collaborative forest landscape 
restoration and other proactive land management projects, as 
well as investments in science to yield faster and more 
effective treatments.
    Greater Federal involvement in cost-share projects with 
states and Tribes, as well as county and local governments will 
yield greater results, and the shared decision-making reduces 
conflict.
    I hope this Committee will work with other Committees of 
jurisdiction to establish new ways of increasing community 
capacity to engage in this new collaborative stewardship.
    Again, please, three things. Pass the Wildfire Disaster 
Funding Act, implement and fund our National Cohesive Strategy 
that is 4 years in the making, and expand opportunities for our 
communities to be better adapted and durable to fire. We at the 
Conservancy are happy to work with the Committee and any others 
to help formulate new ways to incentivize partner investments 
for healthy forests and watersheds.
    Thank you very much.
    [The prepared statement of Dr. Topik follows:]

  Prepared Statement of Christopher Topik, Ph.D., Director, Restoring
    America's Forests, North America Region, The Nature Conservancy,
                             Arlington, VA
Using Natural Solutions and Community Engagement To Reduce Damaging 
        Impacts of Wildfire in the United States
    I am pleased to be here today to discuss the current fire season, 
and more importantly, what actions citizens and the Congress need to 
take to change the current outlook of damaging long-term trends. I want 
to thank Chairman Thompson and Ranking Member Lujan Grisham for 
inviting The Nature Conservancy (TNC) to participate in this hearing.
    Personal Background: My name is Christopher Topik; I am the 
Director of The Nature Conservancy's Restoring America's Forests 
Program. The Nature Conservancy is an international, nonprofit 
conservation organization working around the world to protect important 
lands and waters for people and nature. Our mission is to conserve the 
lands and waters upon which all life depends. I have been working on 
forest ecology, management and policy full time since 1980 and since 
1995 I have been deeply involved at the national level on fire 
management policy and funding issues. A key feature of my work on the 
Hill for 15 years involved fire issues, including efforts to enhance 
the hazardous fuels reduction, devise and implement the National Fire 
plan in 2001, the FLAME Act of 2009, the Joint Fire Science Program, 
and numerous oversight hearings and foster independent investigations 
on fire policy and practice.
    For the past 4 years I have had the honor and great experience of 
working for The Nature Conservancy throughout the United States. My 
specific project features thirteen large scale forest restoration 
partnership efforts with the USDA Forest Service and many others that 
touch down in 23 states. I have had the opportunity to visit all of 
these sites and to examine in some detail how collaborative methods can 
foster community engagement that provides the basis for forest 
restoration and accomplishments on the ground, benefiting people, water 
and wildlife. I also work closely with the Fire Learning Network, a 12 
year partnership led by The Nature Conservancy but including hundreds 
of partners, and the recent offspring, the Fire Adapted Communities 
Learning Network. Also of note to this hearing, for the past 3 years I 
have served on the USDA Federal Advisory Committee (FACA) for 
Implementation of the National Forest System Land Management Planning 
Rule as a conservation or watershed organization representative. I also 
have been involved with and deeply committed to the National Cohesive 
Wildland Fire Management Strategy, which I believe offers the greatest 
hope to get all levels of government to work together for a balanced, 
science driven cohesive effort to deal with good and destructive fire 
in the U.S.
    Introduction: No doubt others at today's hearing will discuss the 
damaging aspects of the current fire season and the projections for 
continued fire stresses in the future. We are already experiencing 
longer fire seasons, more frequent drought and extreme weather, heavy 
fuel loadings due to past over-zealous fire suppression, and the 
suburbanization of our wildlands putting more people and infrastructure 
at risk.
    I want to use my short time here today to discuss steps that can 
help turn around the current negative trends we are seeing that affect 
budgeting, community safety and the continued provision of clean water, 
wildlife and our outdoor open space. In short, I believe that citizens, 
society, and governments can foster greater use of natural solutions to 
learn to live with fire and to reduce catastrophic fire. But this takes 
commitment, including funding at all levels of government and industry, 
to perform strategic actions that make our communities and fire-prone 
lands fire resilient. I also am concerned that much of the previous 
discussion on the Hill has focused too much on timber harvest as the 
solution to the fire problem when we know that the tremendously 
damaging fires experienced have been largely in woodland, brush, and 
areas that are not suitable for commercial tree harvest, such as the 
Valley fire which destroyed 1,958 structures in California last month 
and cost close to $60 million to suppress.

  <bullet> Today I will begin by urging Congress to reform the way that 
        fire suppression is currently funded; absent that fix, other 
        actions will continue to be more challenging and less likely to 
        succeed.

  <bullet> Then I will discuss the need to fund and implement the 
        National Cohesive Wildland Fire Management Strategy by all 
        governmental levels, and the opportunities to engage more 
        sectors to devise innovative projects and support.

  <bullet> Finally, I will discuss administrative techniques to enhance 
        the efficiency and scale of fire risk reduction projects and 
        the need for the use of more ``good'' fire to reduce mega-fire 
        risk. This includes community engagement and investment in 
        proven techniques to network fire adapted communities.
I. Need for Fire Suppression Funding Fix
    Fire response is the only kind of natural disaster that consumes 
regular Federal agency appropriations thereby limiting operations on 
our vast Federal public lands. The current fire suppression funding 
model and cycle of transfers and repayments has negatively impacted the 
ability of Federal and state agencies to implement conservation 
activities. If we don't fix the current inadequate system for funding 
fire suppression, we will continue to have many barriers to the 
cooperative and cohesive work that is needed to make communities and 
lands safer and fire resilient.
    The USDA Forest Service (USFS) and Department of the Interior (DOI) 
are the two entities responsible for Federal fire suppression. Fire 
suppression funding levels are currently based on the previous 10 year 
average of suppression costs. The 10 year average includes early years 
when suppression levels were lower and recent years when suppression 
costs have been very high. For example, in Fiscal Year (FY) 2004, $597 
million was allocated to suppression by these two departments, and in 
FY 2015, $1.6 billion was allocated, but the Forest Service required an 
additional $700 million to cover emergency needs. State fire 
suppression expenditures doubled from 1998 to 2014 to $1.6 billion. And 
this does not include the additional $1.4 billion these Departments 
spent in FY 2015 in the preparedness accounts to support the fire staff 
and apparatus. The result is that (with ground conditions worsening, 
climate change, and increased populations moving closer to forests) the 
Federal 10 year average does not provide the levels necessary for 
actual emergency suppression needs. However, when suppression money 
runs out, both the USFS and DOI have authority to transfer funds (also 
known as `fire borrowing') from within their budgets to make up for the 
shortfalls, impacting non-suppression programs. Unfortunately, the cost 
of suppression has significantly increased, leading to transfers on an 
almost annual basis. The transfers lead to canceled and delayed 
projects impacting overall agency budgets and programs, including many 
conservation programs important to society and TNC. And even the 
common, seasonal threat that fire borrowing will occur impacts the 
efficiency of government actions and can halt partnering and shared 
fire risk reduction projects from happening during the small windows of 
time available.
    I do not advocate that we stop fire suppression activities. The 
values of nature and people deserve and require that we take 
appropriate fire suppression actions during fire emergencies. Certainly 
care needs to be exercised regarding fire suppression costs, but 
protecting life and property are the key requirement of government. I 
do think there is an unrealized opportunity to manage fire incidents so 
where safe, benefits of wildfire can accrue. This may or may not save 
immediate money on the suppression end, but it certainly will reduce 
costs of fuel treatments and also reduce future fire risk.
    Currently, the USFS and DOI are impacted in two ways, at the front 
end and back end of the fiscal year. As suppression costs continue to 
rise, USFS and DOI budgets remain relatively flat. Therefore as more 
funding is allocated to the 10 year average for suppression, less is 
allocated to all other areas of the USFS and DOI budgets. Programs are 
short-changed at the beginning of the budget process as more is 
allocated to suppression and less to the programs. As an example, the 
10 year average at the USFS increased $115 million from FY15 to FY16. 
That added funding comes out of the hides of other programs in the 
Interior and Related Agencies Appropriations budget. In 10 years, 
suppression is projected to increase another $700 million per year.
    And yet, as the 10 year average for suppression consumes more of 
the USFS and DOI budgets, it remains insufficient to fund suppression 
through the end of the fiscal year. As the USFS and DOI flex their 
transfer authorities, programs are hit again when their budgets are 
transferred from to make-up for the suppression shortfall. In many 
cases, even the threat of transfer has impacts--when the agency is 
directed to stop spending--can halt important agency activities. There 
are dozens and dozens of examples of the negative impacts of these fire 
transfers, for example:

  <bullet> In the East, approximately 56 million board feet of timber 
        was impacted by loss of marking contracts and agreements in FY 
        2013.

  <bullet> In Pennsylvania, roads repair, invasive species treatment, 
        timber stand improvement, wetland restoration, and erosion 
        control projects were canceled or delayed, and visitor requests 
        and needs were not met due to the delayed hiring of recreation 
        positions resulting in postponed planned recreation programs 
        and projects in FY 2012.

  <bullet> In New Mexico, hazardous fuels management, road 
        decommissioning, and land acquisition projects were canceled in 
        FY 2012. In FY 2013, oil and gas, Continental Divide trails, 
        and land acquisition projects were delayed or canceled.

    In most years, transfers are repaid through an emergency 
supplemental. However, oftentimes this does not translate into projects 
``picking up where they left off,'' and the repayments are often 
redirected to other projects. This past year the Forest Service had to 
transfer $700 million from non-suppression programs. I do thank the 
Congress for the recently enacted short-term Continuing Resolution for 
FY 2016 that includes an emergency supplemental repayment for those 
transfers.
    Emergency supplementals are not always used to repay transfers. 
Over $1 billion of transfers from FY 2012 and FY 2013, combined, came 
off the top of the following Fiscal Years' (FY 2013 and FY 2014) 
Interior appropriation bills, leaving less for the remaining agencies 
and programs funded by the Interior appropriations bill. What was a 
strain only to DOI and USFS became a strain on all agencies and 
programs funded through the Interior appropriations bill.
    This cycle of ineffective fire suppression funding is inefficient 
and unsustainable. I urge the Congress to pass the bipartisan Wildfire 
Disaster Funding Act (H.R. 167, S. 235, WDFA) to break this cycle and 
guarantee up-front funding for firefighters while reducing the need to 
transfer funds from non-suppression accounts.
    The solution to fire funding must be three-fold and include:

  1.  access disaster funding,

  2.  minimize impacts from transfers, and

  3.  address the increasing costs of suppression over time.

    The purpose of disaster funding is to provide assistance for 
``expected'' disasters, like hurricanes, floods, and tornados. Like for 
these types of disasters, there is an expectation for fire funding 
needs. The argument can therefore be made that fire response be funded 
similarly to other natural disasters in order to reduce inefficiencies 
within agency budgets. On a yearly basis, the USFS and DOI plan for a 
wildfire season that will require suppression funding. Unfortunately, 
there has not been room in their budgets to fully account for 
suppression because of the significant impacts to other agency 
programs, including the very ones--like restoration and hazardous fuels 
reduction--that would reduce the risk and cost of fire activities.
    The Wildfire Disaster Funding Act (WDFA) was introduced in the 
113th Congress and reintroduced at the very beginning of the new 114th 
Congress. It is the most bipartisan piece of legislation offered so far 
in this entire Congressional session and now has well over 100 
cosponsors in the House. WDFA aims to improve the fiscal planning for 
expected disasters by funding a portion of Federal firefighting through 
a budget cap adjustment to the Balanced Budget and Emergency Deficit 
Control Act of 1985, as amended by the Budget Control Act of 2011. This 
would relieve the USDA Forest Service (USFS) and Department of the 
Interior (DOI) from the increasing costs of suppression and the impacts 
that result from transfers when suppression funding is exhausted before 
the end of the fiscal year. WDFA provides the three-fold solution 
necessary to solve fire funding: (1) access disaster funding, (2) 
minimize impacts from transfers, and (3) address the increasing costs 
of suppression over time.
II. Need for Balanced Implementation of the Three Legs of the Cohesive 
        Strategy
    The National Cohesive Wildland Fire Management Strategy (Cohesive 
Strategy) is the most meaningful way to get all layers of government, 
finally, working together: including cities, counties, states, Tribes 
and our Federal Departments of Agriculture, Interior, Defense and 
Homeland Security. This is vital because impacts of fire affect most 
aspects of life in our country, including our water supplies, the air 
we breathe, the recreational open space that we cherish, our wildlife 
and fish, and vital wood products that are needed by society. The 
Nature Conservancy is deeply engaged in these issues at the national 
policy level. We are also engaged in many projects at the state and 
local levels that help get work done on the ground, and help train 
communities and broaden the constituency for conservation action.
    The Cohesive Strategy action plan was the result of an intense 4 
year, multi-government level collaboration that produced an action plan 
in April of 2014. All levels of government, especially Congress, need 
to provide resources and engagement to make this work. If implemented 
and supported, disaster cost will be reduced, while enhancing many 
other benefits to society and nature.
    The Cohesive Strategy has three goals:

  <bullet> resilient landscapes,

  <bullet> fire-adapted communities, and

  <bullet> safe and effective fire response.

    Currently, most governmental resources and attention go to fire 
response in the form of fire suppression. This work is vital to protect 
people and resources. Yet, as discussed above, these emergency actions 
have largely over-shadowed the need for the other two legs of the 
Cohesive Strategy stool. I fear the United States now has a very 
unstable programmatic `stool', with one very long leg for fire 
suppression and two very short legs for the vital work to make 
communities and landscapes more fire resilient and safer. Congress, the 
states, Tribes, counties and cities, working with citizens and using 
science, need to increase funding and attention to implement a more 
balanced approach to fire management in America.
    The work to restore and maintain resilient landscapes is at the 
heart and soul of The Nature Conservancy's activities. We've been 
performing controlled burns for more than 50 years on our properties. 
We have tremendous experience in this arena. Since 1988 The Conservancy 
has burned over 2 million acres safely. The Conservancy values fire as 
a conservation tool and as a means to reduce the risk of damaging fires 
and reduce the incidence of mega-fires. The Conservancy for over 12 
years has run the Fire Learning Network in cooperation with the Forest 
Service and the Department of the Interior (http://
www.conservationgateway.org/fln). The Fire Learning Network is a 
terrific program that helps bring together science and stakeholder 
engagement skills to create enabling conditions for the restoration of 
fire adapted ecosystems. Also, my project, ``Restoring America's 
Forests'' includes 13 major forest demonstration sites that touch down 
in parts of 23 states. We are working with local partners including the 
Forest Service and the Interior Bureaus to tackle, solve, and share 
methods on some of the prickliest issues in forest management. We also 
work hard on the Collaborative Forest Landscape Restoration Program, a 
key effort to implement new methods of forest and fire management with 
citizen involvement.
    The second part of the Cohesive Strategy, enhancing fire adapted 
communities, is also a vital area where we help withstand fire losses 
and help communities learn to live with fire. The stated goal of 
members of the Fire Adapted Communities Learning Network (http://
facnetwork.org) is ``to help society live safely with wildfire.'' This 
program is discussed in greater depth below.
    The third part of the Cohesive Strategy, fire response, means more 
than just better firefighting; it also means enhanced ability to manage 
wildfire to get beneficial result from events while protecting key 
infrastructure. It's also important for fire response that we and many 
others work with communities before emergencies, so they know what to 
expect when fire emergencies happen. This is a key part of community 
engagement. It's vital we all, including NGOs like TNC, stay engaged 
and help communities and help all the myriad layers of government work 
together. All taken together, this is what's needed for us to help 
accomplish common, locally based visions that will help protect 
communities, enhance our environment and habitats, and our watersheds 
to continue to provide natures bounties of water, air, wildlife, open 
space, and various products.
III. Innovative Funding at State and Local Levels for Risk Reduction 
        Projects
    The fire problem is an issue that needs much more than a Federal 
response. There are many opportunities for states, Tribes, counties, 
cities and the private sectors to increase their collaborative work to 
enhance both the wildlands that surround them as well as enhance 
community fire resistance and forest resilience. TNC is committed to 
partner and collaborate across the country to help build coalitions 
needed to create new state and local sustainable revenue streams to 
improve forest health and protect water supplies in order to meet 
society's growing demands for water. I believe the Wildland Fire 
Leadership Council, a formal body that includes all levels of 
government, has the ability to encourage and foster greater action that 
invests in projects, local building and community guidelines or codes, 
and pooled resources to reduce fire danger in the long term.
    Many industries are negatively impacted by fires and they should 
consider increasing their roles in risk reduction. For instance, just 
last week I participated in a disaster forum here in the House, 
sponsored by the Property Casualty Insurers Association. The insurance 
industry has a long history of successful involvement in various risk 
reduction actions. So it is encouraging that they are looking to 
increase their engagement in the wildfire issue. Similarly, there are 
great opportunities for tourism and recreation, and all industries and 
agriculture that require healthy, sustainable sources of fresh water. 
Banking and electric utilities are also threatened, let alone the 44 
million people at risk that live in wildland/urban interface and 
intermix. Currently, fire trends are a major stressor to water, 
especially in the arid regions of the West where water sources are in 
the forested mountains that are at risk of catastrophic fires.
    The Rio Grande Water Fund, discussed by our TNC staffer Laura 
McCarthy at this Committee's hearing on April 29, 2015, is another 
excellent way of creating partnerships to generate innovative solutions 
to prioritize work and deliver additional funding for fire risk 
reduction, forest improvement, and water security efforts.
IV. Efficient Forest and Fire Management
    There is a lot that can and must be done to increase efficiency at 
all levels of government action despite the shortage of funding and 
resources required to do fire risk reduction and community safety 
projects. I think we need careful analysis to see where forestry 
projects and other actions are needed and will have a greater return in 
investment to reduce fire risk. I believe that there are many areas 
where forest conditions are unhealthy, especially in the fire driven, 
lower elevation pine forests of the West, South and Southeast. The 
model of extensive forest thinning to reduce fire risk is appropriate 
in some places, but there are more areas, at higher risk of fire, where 
it is not applicable. We should not get too distracted from the need to 
provide defensible space and community safety as the best way to deal 
with fire in many areas, especially many highly populated ones.
    The Agricultural Act of 2014 included a provision to provide 
enhanced authorities for the Forest Service in areas where insects and 
disease may be a concern. I very much would like to see how that 
authority, and others, can foster larger scale and scope projects 
before we remove the public input and science based analysis currently 
required for forestry projects under the National Environmental Policy 
Act (NEPA).
    I also see a lot of opportunities to use existing authorities with 
much more intensity to foster more large, cross boundary projects. 
There may also be legislative opportunities to increase the use of 
large scale NEPA projects that provide the analysis and clearances for 
many projects over wide areas. This could act similar to programmatic 
NEPA in many areas where forest thinning, followed by controlled fire, 
is the necessary treatment. Similarly, I think that the categorical 
exclusion from detailed environmental analysis provision of the NEPA 
can be used more broadly where the landscape and impacts are well 
understood and previous and ongoing monitoring demonstrate the efficacy 
of the treatments. Categorical exclusions should not be given just for 
the good intent of project proponents; there needs to be clear and 
transparent triggers, including public involvement and sound science, 
before fast tracking projects. I think investment in monitoring would 
also lead to better future projects, informed by previous results, and 
this then can be used to foster faster, bigger and more effective work 
in the future, including the use of programmatic scale and categorical 
exclusion for routine work.
    My work on the USDA Federal Advisory Committee (FACA) sanctioned 
National Advisory Committee for Implementation of the National Forest 
System Land Management Planning Rule has shown me how the new forest 
planning regulation for the Forest Service can lead to better 
integration of projects and community needs for fire resistance. Forest 
plans guide all activities for at least 15 years, so they offer a 
direct way to involve the public in ascertaining where and when work 
needs to get done on the ground with the greatest impact to the broader 
landscape, including towns and watersheds. We need to encourage local 
governments, especially counties and Tribes, to engage in the forest 
planning process and use it to reduce fire risk to nature and 
communities.
    Climate change is exacerbating the fire problem as our forests are 
becoming warmer, drier and subject to both more extreme weather events 
and longer fire seasons. The Forest Service itself expects severe fires 
to double by 2050, according to the U.S. Global Change Research 
Program. The third biggest fire year since 1960 was in 2012, with 9.3 
million acres burned--the Forest Service is estimating 20 million acres 
to burn annually by 2050. This year so far over 9 million acres have 
burned and October historically has featured devastating fires in 
California. We are already seeing these impacts: the Four Corners 
region of the Southwest has documented temperature increases of 1.5-2 
Fahrenheit over the last 60 years.
    The recent comprehensive climate science synthesis for the U.S. 
Forest Sector suggests that, whereas currently forests sequester fully 
thirteen percent of the nation's fossil fuel carbon emissions, trends 
in forest cover loss due to fire, urbanization and other impacts will 
make forests a net emitter of carbon by the end of the century. This is 
another major reason why society should invest in keeping forests as 
forest. Besides all the historical and substantial benefits of forests 
mentioned above, maintaining forest cover is probably one of the most 
cost effective ways our nation has to mitigate climate change simply by 
helping forests adapt and become more resilient.
V. Learning To Live With Fire: Need for Better and More Use of Safe 
        Fire
    It is clear from most of the fire science and social science 
literature that fire is a key part of nature, and will continue to be 
such despite human efforts to stop it. Much of North America includes 
natural ecosystems where fire plays a necessary and normal role so 
species and the environment are fire adapted. As we occupy and alter 
more and more of the landscape, we also must learn to live with natural 
processes and use them for our benefits. Different ecosystems need 
different types of fire to remain healthy. Likewise, the human-created 
infrastructure in these varying types of wildlands require different 
strategies if they are to continue to coexist with nature.
    In those areas where the cultural use of fire was not lost or where 
it has been reestablished we have a much greater chance of minimizing 
destructive mega-fire: this includes some southern areas dominated by 
longleaf pine and increasingly, areas of shortleaf pine in places like 
Arkansas. Other pyrogenic landscapes, such as the chaparral or brush of 
extensive areas in California and surrounding states will most 
certainly burn at some time. And they can burn explosively. So 
defensible space, sufficient ingress/egress routes and burning during 
windows of safety are essential.
    There are also millions of acres of dry forests, especially in the 
western pine zone, where our previous over-zealous and successful fire 
suppression has led to extensive areas of overstocked forests that can 
burn explosively. Many of these areas would benefit from strategic 
forest thinning, followed by careful burning, to return them to the 
frequent, low intensity fire regimes that dominated for thousands of 
years before the 20th century and fire suppression. The Forest Service 
estimates that there are about 11 million acres in the National Forest 
System that are not in reserved areas or municipal watersheds that 
would benefit from strategic thinning and burning. I encourage those 
here today to focus on these areas that are a known priority rather 
than pursue more general demands to increase timber harvest everywhere, 
unless it is needed for other social or ecological needs.
    I also encourage the Committee to look at examples of successful 
programs that are teaching people how to live with fire while 
increasing community understanding and cohesion. The Fire Leaning 
Network (http://www.conservationgateway.org/fln) fosters collaboration 
for restoration and integrated fire management (with an emphasis on 
controlled burning) in landscapes across the country. This modest 
program helps stakeholders learn how to work with each other, while 
also benefiting from being in a national network that increases 
knowledge-sharing and generates new ways of doing business.
    Much of the discussion on the Hill lately has focused on big ticket 
ways to fight fire better, such as more airtankers, or on enhancing 
extensive forest treatments by decreasing or eliminating environmental 
or legal review. I firmly believe that greater investment and 
encouragement of these programs that enhance human interaction and 
understanding are much more cost-effective. This summer the Forest 
Service alone spent a record $243 million in a single week during the 
massive fire build up. This is probably 50 times the total annual 
investment made for social science guided efforts that help communities 
protect themselves. I suggest a more balanced portfolio would be cost 
effective and result in both healthier ecosystems and communities.
    Another well-understood need is the need for more controlled burns 
in fire-prone ecosystems. Almost everyone agrees that more healthy fire 
on the landscape, from grasslands, to brush lands, and to forests would 
be beneficial. There have been substantial increases in recent years, 
yet we are having a hard time making dramatic increases in acres 
treated. The scale of treatment is not even close to being commensurate 
with the need for restoration and maintenance. Besides the clear need 
for more controlled burns on all ownerships of fire-prone lands, we 
also need to be more aggressive about using wildfire events, where 
safe, to increase acres treated. Fire use is not without risks, but if 
leaders and society better understood the benefits, we could implement 
much more healthy and low impact burning. I am encouraged by the desire 
of the Wildland Fire Leadership Council to take on the issue of smoke 
management so that we can better understand the trade-offs between 
suffering from smoke during controlled conditions versus during 
catastrophic and enduring fire events.
VI. Need for Community Engagement
    The most cost effective and under-valued solution to harmful fire 
is structured engagement of communities at risk. It is essential to 
develop local skills and local visions for how communities should take 
action to protect themselves and their surrounding wildlands. Different 
places will have different needs and differing cultures will, and 
should, generate different solutions. As a nation we don't hesitate to 
respond in massive fashion during immediate emergencies, but we are not 
so good at funding the preparedness that we all know has a great return 
on investment. It is encouraging that the U.S. Fire Administration is 
taking a more holistic view of fire preparedness and hazard mitigation; 
other governmental bodies and industries should do the same.
    A relatively new example of a cost effective program is the Fire 
Adapted Communities Learning Network (http://facnetwork.org). This 
program is just 2 years old but it already involves 17 geographic 
sites, ranging from small communities in the wildland matrix to huge 
cities, like Austin, Texas. The purpose of the network is to 
significantly accelerate the spread and adoption of concepts and 
actions that will help communities help themselves become better 
adapted to fire.
    The values of the Fire Adapted Communities Learning Network are:

  <bullet> Adaptation is critical to a positive future.

  <bullet> Collaboration and partnerships are keys to successful 
        adaptation.

  <bullet> Investment in local-level capacity, partnerships and 
        responsibility yields the best outcomes.

  <bullet> Supporting the coordinating function within communities is 
        essential to leveraging the range of resources, institutions 
        and individuals necessary to build fire adapted communities.

  <bullet> Investing in learning across communities and geographies is 
        a strategy that works at multiple scales, including:

    <ctr-circle> Facilitating the adoption of best practices and 
            innovations;

    <ctr-circle> Building a community-of-practice to fuel inspiration 
            and innovation;

    <ctr-circle> Aggregating lessons learned to advise the design of 
            programs and policies in support of fire adapted 
            communities; and

    <ctr-circle> Leveraging lessons learned to inform policy and 
            resource allocation, as appropriate.
VII. Conclusion
    I want to first thank the Agriculture Committee for holding this 
hearing. This Committee serves as a model for how bipartisan, calm and 
rational discussion can lead to better legislation and results for 
Americans. I also want to call on this Committee to pass the Wildfire 
Disaster Funding Act. It is not useful to hold up passing this key 
budgetary solution because of the desire of some to link it to 
reductions in environmental review. I hope that Congress can enact the 
fire suppression budget fix that is widely supported (WDFA) and then 
figure out how to make communities more engaged and also facilitate 
bigger and better projects on the ground.
    There has been so much good work by multiple levels of government 
on the National Cohesive Wildland Fire Management Strategy that it is a 
shame that we don't figure out how to make its implementation more 
balanced. We know that the preparedness actions of making landscapes 
more fire resilient and helping make communities more fire adapted are 
cost effective and cheaper than the devastation of uncharacteristic 
wildfires. Direct engagement of communities, with assistance, will make 
the greatest difference.
    Our top three priorities for the Congress to reduce wildfire 
threats to nature and people:
1. The Wildfire Disaster Funding Act. (H.R. 167)
    The current system of funding fire preparedness and suppression at 
the expense of hazardous fuels and other key programs threatens to 
undermine--and eventually overtake--the vital management and 
conservation purposes for which the USDA Forest Service and Department 
of the Interior bureaus were established.
    The current wildfire suppression funding model and cycle of 
transfers and repayments has negatively impacted the ability to 
implement forest management activities. The agencies and first 
responders need a predictable, stable, and efficient budget structure 
to deliver their Congressionally directed land management missions.
    The Conservancy supports the bipartisan Wildfire Disaster Funding 
Act (H.R. 167), which would provide the Forest Service and the 
Department of the Interior with a funding structure similar to that 
used by other agencies that respond to natural disasters, through a 
disaster cap adjustment. This important change would free the agencies 
to reinvest in core activities which have been reduced in recent years 
due to a continued shift of limited resources to fund wildfire 
suppression, including the very programs that would help to decrease 
wildfire costs over time. Further, this change would significantly 
reduce the highly disruptive process of canceling and/or significantly 
delaying ongoing project work, most often at the time such work is 
being executed on the ground.
2. Investments in Forest and Watershed Risk Reduction
    It is essential that the Congress and the Administration increase 
Federal investments to reduce fire risk in a manner that makes forests 
more resilient and resistant to fire and other stressors. Strategic, 
proactive hazardous fuels treatments have proven to be a safe and cost-
effective way to reduce risks to communities and forests by removing 
overgrown brush and trees, leaving forests in a more natural condition 
resilient to wildfires. Similarly, investments in Collaborative Forest 
Landscape Restoration and associated proactive Federal land management 
programs, as well as investments in science will yield faster and more 
effective landscape forestry treatments. Strategic mechanical fuels 
reduction in wildlands, combined with controlled burning to reduce 
fuels across large areas, can significantly reduce the chance that 
mega-fires will adversely impact the water supply, utility 
infrastructure, recreational areas and rural economic opportunities on 
which communities depend.
3. State and Community Assistance and Incentives for Shared Work
    All levels of government need to work together with citizens and 
industries to achieve the kind of forest conditions that benefit all 
Americans. Greater Federal involvement in cost-share efforts with the 
states and Tribes, as well as with county and local government will 
yield much greater results than the sum of the parts and the shared 
decision making will reduce conflict and litigious delays. This 
Committee should work with the other Committees of jurisdiction to 
establish new ways of increasing community capacity to engage in this 
new, collaborative forestry. We would be happy to work with the 
Committee on formulating new, better ways of incentivizing partner 
investments in healthy forests and watersheds.

    The Chairman. I thank the gentleman.
    I am pleased now to recognize Chief Litzenberg for 5 
minutes of your testimony. Please go ahead and proceed, Chief.

  STATEMENT OF ERIK J. LITZENBERG, FIRE CHIEF, SANTA FE FIRE 
             DEPARTMENT, SANTA FE, NM; ON BEHALF OF
            INTERNATIONAL ASSOCIATION OF FIRE CHIEFS

    Mr. Litzenberg. Well, good morning, Chairman Thompson, 
Ranking Member Lujan Grisham, I bring my regards from New 
Mexico, and Members of the Subcommittee.
    Today, I am testifying on behalf of the International 
Association of Fire Chiefs, where I serve as the Chairman of 
the Wildland Fire Policy Committee. And I thank you for the 
opportunity to discuss the 2015 fire season, and the needs of 
America's fire departments.
    We have heard some statistics, which I won't recount, but I 
will bring some new ones to the table, and that is that local 
fire departments respond to almost all wildland fire incidents. 
For fires on Federal lands, they cooperate with the U.S. 
Department of the Interior and the U.S. Department of 
Agriculture's U.S. Forest Service. Local fire departments 
provide the initial attack for nearly 80 percent of all 
wildland fires. This assistance by local governments totals 
more than $36 billion per year, according to the U.S. Forest 
Service. On non-Federal property, local fire departments are 
the first to respond, and often the last to leave the incident.
    The IAFC has been a strong supporter of the Cohesive 
Strategy, which brought together local, tribal, state, Federal, 
and non-governmental partners, many of whom are in this room, 
to address the wildland fire problem. Through a multiyear, 
three-stage process, the Cohesive Strategy outlined a plan to 
tackle wildland fire through fire suppression, community 
preparedness, and land management. Similarly, the IAFC has 
several recommendations for Congress in these same areas. 
First, Congress must support the fire suppression efforts 
through effective funding and equipment procurement policies. 
The IAFC is greatly concerned about the practice known as fire 
borrowing, in which DOI and U.S. Forest Service are forced to 
shift funds from non-suppression accounts to suppression 
accounts, after expending their annual wildland fire 
suppression funding. This dangerous practice only serves to 
worsen the fire problem by limiting important prevention and 
mitigation projects. Congress must address this problem by 
developing a funding reform proposal that prohibits fire 
borrowing, and funds 100 percent of the 10 year average of 
suppression costs. Any costs above 100 percent of the 10 year 
average should be funded through an adjustment to the disaster 
relief cap. Additionally, any savings must be directly 
reinvested in wildland fire prevention and community 
preparedness programs.
    In addition to funding reform for the USDA and DOI, 
Congress must also address declining Federal support for local 
wildland fire operations. Since Fiscal Year 2010, Congress has 
reduced funding for the Volunteer Fire Assistance Grant Program 
by nearly 20 percent, from $16 million in 2010, to $13 million 
in 2015. Additionally, in Fiscal Year 2010, Congress eliminated 
the Rural Fire Assistance Grant Program which further helped 
budget-strapped fire departments obtain the equipment they 
need. In July, the House unanimously adopted an amendment to 
increase VFA grant funding to $14 million in Fiscal Year 2016. 
We encourage Congress to include this funding increase in any 
Fiscal Year 2016 appropriations bill.
    The IAFC also encourages Congress to support fire 
department preparedness by ensuring that we have the tools and 
equipment that we may need. The U.S. Department of Defense and 
USDA jointly run two programs which allow fire departments to 
utilize and, in many cases, purchase access vehicles and other 
equipment from the DOD. These programs were suspended by the 
DOD, and then restarted in 2014 over concerns about emission 
regulations. The IAFC strongly encourages Congress to protect 
these commonsense programs by passing H.R. 177, the Firefighter 
Equipment Protection Act.
    Number two, to assist in developing fire-adapted 
communities, the IAFC urges Congress to support outreach and 
education efforts. Since 2011, the IAFC has developed and 
expanded the Ready, Set, Go Program, which educates communities 
on a way to be ready for fires, set if the need for an 
evacuation arises, and go when it is time to evacuate. Ready, 
Set, Go has been implemented by more than 1,500 fire 
departments across the nation, and provides a strong platform 
for fire departments to engage with their communities to ensure 
they are prepared and knowledgeable about the dangers of 
wildland fires. Other organizations also are involved in 
actively implementing community preparedness and education 
programs, and we encourage Congress to support Ready, Set, Go, 
and other programs, to address this important aspect of 
wildland fire prevention and mitigation.
    And last, Congress must address land management issues as a 
long-term solution to the wildland fire problem. The 
dangerously dry conditions through the West and the Southwest 
states, prime wildland areas for fires, underscores the need to 
complete hazardous fuels removal projects and other land 
management programs. By improving the health of our lands, we 
can address some of the larger wildland fire factors. Congress 
also must pay particular attention to the watersheds where 
wildland fires can cause especially dangerous consequences for 
drinking water and surrounding communities as a whole. It is 
certainly something we recognize in all of the West.
    In addition to these land management policies, Congress 
also should pass H.R. 1009, the Wildfire Prevention Act of 
2015, which would permit recipients of fire management 
assistance grants to use up to 15 percent of the grant amount 
for post-wildland fire mitigation projects to prevent flooding, 
landslides, and other dangerous conditions caused by wildland 
fires.
    Thank you again for your continued attention to this 
important issue, and the opportunity to attend this hearing. 
Thanks again.
    [The prepared statement of Mr. Litzenberg follows:]

  Prepared Statement of Erik J. Litzenberg, Fire Chief, Santa Fe Fire
  Department, Santa Fe, NM; on Behalf of International Association of 
                              Fire Chiefs
    Good morning, Chairman Thompson, Ranking Member Lujan Grisham, and 
Members of the Subcommittee. I am Erik Litzenberg, Fire Chief for the 
Santa Fe, New Mexico, Fire Department. Today, I am testifying on behalf 
of the International Association of Fire Chiefs where I serve as chair 
of their Wildland Fire Policy Committee. Thank you for the opportunity 
to discuss the 2015 wildland fire season and the needs of America's 
fire departments.
    In 2014, wildland fires impacted every state in the nation. There 
were more than 63,000 wildland fires in the United States. They burned 
roughly 3.6 million acres. These fires cost the Federal Government over 
$3.9 billion to extinguish in Fiscal Year (FY) 2014.
    Local fire departments respond to all wildland fire incidents. For 
fires on Federal lands, they cooperate with the U.S. Department of the 
Interior (DOI) and the U.S. Department of Agriculture's (USDA) U.S. 
Forest Service (USFS). Local fire departments provide the initial 
attack for nearly 80% of all wildland fires. The USFS estimates that 
local fire departments provide more than $36 billion per year in 
wildland fire suppression assistance. On non-Federal property, local 
fire departments are the first to respond and the last to leave the 
scene.
    The IAFC has been a strong supporter of the National Cohesive 
Wildland Fire Management Strategy since it was first initiated several 
years ago. The Cohesive Strategy brings together all relevant local, 
state, Tribal, Federal, and non-government entities. These partners 
have worked together to release recommendations on addressing the 
wildland fire problem through three areas of focus: supporting fire 
suppression, developing fire-adapted communities, and establishing 
effective land management policies.
    Today I would like to discuss these focus areas from the 
perspective of a local fire department:

  (1)  Federal Fire Suppression Funding: The growing cost of wildland 
            fire suppression is an important issue which Congress and 
            the Administration must address. As you are likely well 
            aware, almost every year, the cost of wildland fire 
            suppression exceeds the appropriated amounts in the USDA's 
            and DOI's wildland fire management accounts. In 1995, fire 
            suppression made up 16% of the USFS' budget. In 2015 
            however, fire suppression has made up more than 50% of the 
            USFS' budget. The USFS estimates that if no action is 
            taken, fire suppression will make up more than 67% of its 
            budget in 2025.\1\
---------------------------------------------------------------------------
    \1\ U.S. Forest Service. The Rising Cost of Wildfire Operations. 
2015. http://www.fs.fed.us/sites/default/files/2015-Fire-Budget-
Report.pdf.

        As a result, the USDA and DOI are forced to undertake a 
            practice known as ``fire borrowing,'' where funds are 
            transferred from non-suppression accounts to fire 
            suppression accounts. The IAFC is greatly concerned that 
            this is a dangerous practice. Fire borrowing is a short-
            term solution with severe long-term consequences. 
            Mitigation projects such as hazardous fuels removal could 
            help address the wildland fire problem; however, these are 
            often the first to be cut when funds need to be 
            transferred.
        The IAFC encourages Congress to develop a bipartisan funding 
            reform proposal which will prohibit fire borrowing and fund 
            the USDA's and DOI's wildland fire suppression accounts at 
            100% of the 10 year average cost of wildland fire 
            suppression. Any suppression activities above the 10 year 
            average should be funded from an adjustment to the disaster 
            relief cap. Additionally, Congress must ensure than any 
            savings generated by this reform are directly re-invested 
            into wildland fire prevention and community preparedness 
            programs. We believe that these principles will ensure that 
            there is adequate funding for increases in fire suppression 
            operations in the future while not cannibalizing funding 
            from hazardous fuels removal and other programs that will 
            mitigate the risk of wildland fires.

  (2)  Declining Federal Support for Local Wildland Fire Operations: 
            While local fire departments play a major role in 
            responding to wildland fires, they must address the 
            challenge of responding to this growing threat with reduced 
            resources. For example, the National Fire Protection 
            Association released their most recent needs assessment of 
            the United States' fire service in 2011. This study found 
            that 68% of fire departments that are responsible for 
            wildland firefighting have not formally trained all their 
            personnel involved in wildland firefighting.

        Currently, the Federal Government operates just one grant 
            program to maintain training and equipment for all local 
            fire departments which respond to wildland fires. The VFA 
            program is administered by the USFS and provides funds 
            through the individual state foresters to organize, train, 
            and equip fire departments in rural communities with a 
            population of 10,000 or less. Fire departments receiving a 
            grant must pay for at least 50 percent of the project being 
            funded. The VFA also increases the opportunity for rural 
            fire departments to acquire equipment through the Federal 
            Excess Personal Property (FEPP) program. The VFA grants are 
            usually limited to a few thousand dollars per recipient in 
            order to assist the maximum number of fire departments.
        Congress has reduced funding for the VFA grant program by 
            nearly 20% from a high of $16 million in FY 2010 to $13 
            million in FY 2015. In July, the House unanimously adopted 
            an amendment to the FY 2016 Department of the Interior, 
            Environment, and Related Agencies Appropriations Act (H.R. 
            2822) to increase VFA funding to $14 million. While the 
            IAFC urges Congress to ultimately return VFA to its FY 2010 
            funding level of $16 million, the IAFC encourages Congress 
            to include this amendment into any Interior or omnibus 
            appropriations bills for FY 2016.
        Previously, the DOI operated another grant program known as the 
            Rural Fire Assistance (RFA) program. These grants provided 
            volunteer fire departments with grants of up to $20,000 for 
            training, equipment purchase, and prevention activities. 
            Fire departments receiving RFA grants would have had to 
            serve a community of less than 10,000 people near Federal 
            land; pay for at least ten percent of the project being 
            funded; and have had a mutual aid agreement with the local 
            DOI agency or with the state. The RFA grants generally were 
            funded at approximately $10 million per year, until 
            Congress eliminated the RFA grants in FY 2010. The 
            elimination of these grants placed a significant burden on 
            fire departments around the nation, because it eliminated a 
            major source of funding.

  (3)  Excess Equipment for Fire Departments: The U.S. Departments of 
            Defense (DOD), in cooperation with the USDA, operates two 
            programs which allow local fire departments to obtain and 
            utilize vehicles and equipment which the DOD deems to be in 
            excess. The FEPP program allows fire departments to 
            purchase a wide range of excess vehicles and equipment from 
            the DOD. Similarly, the Firefighter Property (FFP) program 
            allows fire departments to borrow a wide range of vehicles 
            and equipment to supplement their own resources. These 
            successful programs were suspended in 2014 due to concern 
            that the DOD exemption from vehicle emission standards did 
            not cover vehicles in the FEPP and FFP programs. These 
            programs were resumed several months later when it was 
            clarified that the vehicles maintain their exemption when 
            utilized under the FEPP and FFP programs. The IAFC urges 
            Congress to support the Firefighter Equipment Protection 
            Act (H.R. 177) which codifies the determination that FEPP 
            and FFP vehicles continue to be exempt from vehicle 
            emissions regulations.

        The IAFC also encourages Congress to protect the FEPP and FFP 
            programs while reviewing the various DOD programs which 
            place excess property with localities across the United 
            States. Vehicles and equipment sourced through the FEPP and 
            FFP programs can be found in fire departments in every 
            state.

  (4)  Supporting Fire-Adapted Communities: As more communities grow 
            and develop into the wildland urban interface (WUI), it 
            becomes all the more important that these communities are 
            knowledgeable and prepared for wildland fires. Since 2011, 
            the IAFC has developed and expanded the Ready, Set, Go 
            (RSG) program to teach communities how to be ``ready'' for 
            wildland fires, ``set'' if the need to evacuate arises, and 
            to know how to ``go'' when it is time to evacuate. RSG has 
            been implemented in more than 1,500 fire departments across 
            the United States and provides a strong platform for fire 
            departments to engage with their communities on the topic 
            of wildland fire preparedness.

        While RSG has been particularly effective, it is important to 
            note that other organizations also are involved in 
            community preparedness and education programs of their own. 
            Congress must continue to support these efforts to create 
            fire-adapted communities across the United States. 
            Preparing and educating communities will continue to be an 
            important aspect when addressing the larger wildland fire 
            problem.

  (5)  Developing Efficient Land Management Policies: Healthy lands are 
            much less susceptible to burning than overgrown lands with 
            hazardous fuels. If we do not develop and implement 
            effective solutions today, then the problem will become 
            even larger in the future. Forest health and dry land 
            conditions are two of the strongest contributing factors to 
            the growth of wildland fires. Congress must continue 
            supporting hazardous fuels removal and other forest health 
            projects. The continued drought and extreme heat throughout 
            the western and southwestern states further compounds this 
            problem and primes lands for wildland fires. The extremely 
            dry conditions underscore the importance of taking pre-
            emptive actions where possible to ensure properly 
            maintained lands.

        Special attention also must be given to address the importance 
            of implementing efficient land management policies in 
            watershed areas. Many watershed areas are at risk of 
            wildland fires which could present significant negative 
            impacts to the drinking water for surrounding communities 
            as well as placing those communities at risk of flooding 
            and other serious post-wildland fire emergencies.
        Congress also can strengthen communities by developing policies 
            to protect them from the dangers of post-wildland fire 
            emergencies. Following a wildland fire, the remaining soil 
            is left highly-susceptible to erosion, landslides, 
            flooding, and other natural hazards. The Federal Government 
            currently provides little funding to support community 
            efforts to protect against these hazards. The Federal 
            Emergency Management Agency's Fire Management Assistance 
            Grant (FMAG) program allows funding to support wildland 
            fire response. However, these funds are only available for 
            controlling and extinguishing fires.
        The IAFC supports modifying the FMAG program to support post-
            wildland fire mitigation efforts such as re-planting trees 
            and vegetation, installing flood barriers, and other 
            projects to mitigate dangerous post-wildland fire land 
            conditions. To accomplish these reforms, Congress should 
            pass the Wildfire Prevention Act of 2015 (H.R. 1009) which 
            would permit FMAG recipients to receive up to 15% of the 
            FMAG amount for post-wildland fire mitigation projects. 
            This language also was included in the FEMA Disaster 
            Assistance Reform Act of 2015 (H.R. 1471).

    Thank you again for the opportunity to attend this hearing and for 
your continued attention to this important issue. It is important to 
recognize that we have a national cohesive strategy for addressing the 
wildland fire problem, due to Congressional leadership. As part of that 
strategy, local fire departments continue to play an important role in 
our nation's response to wildland fire incidents. However, we need 
Congress to continue defending important programs that help fire 
departments obtain the funding and equipment to protect their 
communities. Congressional support for expanding community preparedness 
programs such as RSG and establishing land management policies also are 
important components to addressing the wildland fire problem. The IAFC 
looks forward to continuing to work with this Subcommittee on this 
critical issue.

    The Chairman. Chief, thank you so much for your testimony.
    Colonel Priddy, we are honored to have you here, and go 
ahead and proceed with your 5 minutes of testimony.

    STATEMENT OF COL RONALD N. PRIDDY, (RET.), DIRECTOR OF 
           GOVERNMENT AFFAIRS, 10 TANKER AIR CARRIER,
                        ALBUQUERQUE, NM

    Mr. Priddy. Thank you, Chairman, Ranking Member Lujan 
Grisham, and Members of the Committee.
    Let me personally start with thanks to Fire Chief Tidwell. 
The company, from its very thoughts of protecting the nation, 
if you will, from wildfires has worked with the Forest Service 
as partners, yes, we are contractors, but we are also partners, 
and partners with the troops on the ground as well.
    Thus far, in the 2015 fire season, 10 Tanker has flown more 
than 400 missions, delivering approximately 4\1/2\ million 
gallons of suppressant, sometimes called retardant, 
specifically where our ground commander requested, and also, as 
demonstrated by lead airplanes, for the most part we fly behind 
lead airplanes. We have flown on more than 80 wildfires.
    As has been discussed, the statistics are fairly well known 
and presented, by the way, nifc.gov as far as number of fires 
and things like that. But the impact on the nation goes far 
beyond that. Quality of air, water, homes destroyed, businesses 
destroyed, et cetera, et cetera.
    So while this research is ongoing, and it absolutely has to 
be well-funded, then we feel that our professional firefighters 
on the ground already know what works best in a given situation 
for the foreseeable future. For air tanker operation, that 
experience calls for suppressant and sufficient quantity, at 
the right place as directed, and at the time to support our 
ground troops, our firefighters, if you will.
    Now, as far as the future is concerned, we feel like 
suppression from fixed-wing aircraft is where improvement of 
equipment can occur. And I would point out, I agree, Forest 
Service needs many tools, helicopters were mentioned earlier 
on, but again, we are stressing fixed-wing and specifically 
large air tankers, such as the proposed newly manufactured C-
130J, but also the very large air tankers. And that is what we 
are designated because we fly four times as much suppressant in 
one mission as anyone else. And we have a designation by the 
Forest Service, and we are the only very large tanker out 
there.
    The Forest Service has funding and has put out an RFP for a 
newly manufactured air tanker, and because of the details in 
that, we are certain it will be a Lockheed C-130. I flew C-5s 
and 141s. I have great respect for Lockheed.
    Now, that concept will be government-owned, contractor-
operated. So what we have done recently is we have told our 
partners at Forest Service we believe that concept should be 
expanded to the C-130 because, while it is not a newly 
manufactured airplane, a thoroughly overhauled DC-10 air tanker 
can be delivered to the Forest Service very efficiently and in 
a timely manner, and be serviceable for decades to come, and at 
approximately \1/3\ the cost. Each will provide 3\1/2\, four 
times as much as a C-130J or any other tanker that is likely to 
come about in the future.
    More, sooner, safer, cheaper, that is what we bring to the 
defense of the nation, and we are very proud to do so.
    Thank you very much for letting us testify.
    [The prepared statement of COL Priddy follows:]

    Prepared Statement of COL Ronald N. Priddy, (Ret.), Director of 
       Government Affairs, 10 Tanker Air Carrier, Albuquerque, NM
1. Background
a. 10 Tanker Air Carrier Brief History
    In 2001, the founders of 10 Tanker Air Carrier (the Company) 
organized to explore the government's need to modernize the aerial 
wildfire fixed wing airtanker fleet. Over the 5 years that followed, 
the Company worked with the U.S. Forest Service (USFS) and the other 
agencies of the National Interagency Fire Center (NIFC) and commercial 
industry participants to both define and develop a better airtanker 
tool. Being private investors who had decades of experience in air 
carrier operations and aircraft modifications, the Company listened to 
the fire professionals and integrated that knowledge base into what was 
to become a model of fixed wing ``Next Gen'' specifications.
    Much of the discussions with USFS and others were focused on how to 
upgrade and improve aircraft known as Large Air Tankers (LATs) that 
could carry loads of up to 3,000 gallons of fire suppressant. It became 
clear that load capacity, aircraft performance, safety margins, and 
delivery consistency were paramount metrics.
    Why the DC-10? In exploring the issues with agencies of the NIFC, 
including the USFS and the Department of Interior (DOI), and others, 
the Company determined that under basic wildfire suppression concepts 
the need is for a more effective initial airtanker attack on small 
fires to preclude expansion into a large wildfire that threatens the 
nation's public and private lands. Of prime importance, there is a need 
to preclude large fires in the urban interface where private homes will 
be destroyed. Most fire agencies believe sufficient resources to gain 
early control is both effective and cost effective. That means more 
suppressant, and the sooner the better. The DC-10 fuselage is high 
enough above the ground to permit external tanks with an 11,600 gallon 
capacity--3.5-10 times the drop capacity of any other airtanker 
operating. The tanks deliver any liquid suppressant, including water, 
if retardant is not readily available or is not desired. With the drop 
tanks full of suppressant and the fuel tanks filled to permit 3 hours 
of airborne operations, the DC-10's superior power-to-weight ratio 
permits operations at all altitudes and in all terrain. The DC-10's 
performance assures safer flight operations, while its capacity 
requires fewer flights, further enhancing safety. Operating from 
established or temporary tanker bases, the 10 Tanker team can land, 
reload and get airborne for additional drops within 20 minutes, which 
coupled with jet speed is sooner to the fire with more suppressant to 
gain early control of the fire. Finally, once any smaller LAT on 
contract today or is likely to operate in the future is ordered to 
``load and return'', meaning a second flight by that smaller airtanker, 
the single flight of the 10 Tanker DC-10 with three-or-more times the 
capacity is far cheaper, thus less of a burden on the state and Federal 
budgets.
    As the italicized words above indicate, the Company developed the 
DC-10 airtankers to provide a wildfire response that is ``More, Sooner, 
Safer and Cheaper'' than any other large airtanker operating today or 
any that is likely to operate in the foreseeable future. After 
investing tens-of-millions of dollar of private capital on design, 
engineering, and aircraft modification, the Company received a Normal 
Category (not Restricted Category) supplemental type certificate (STC) 
from the Federal Aviation Administration (FAA) and also earned a FAA 
operating certificate under 14 CFR Part 137 in 2006. Subsequently, the 
Company demonstrated acceptable suppressant drop coverage for the USFS 
Laboratory in 2006. Upon receiving Interagency Air Tanker Board (IAB) 
approval the DC-10 was deemed by the USFS to be a capable airtanker and 
was labeled as a Very Large Air Tanker (VLAT).
b. 10 Tanker Air Carrier 2015 Operations
    Thus far in the 2015 fire season, 10 Tanker has operated more than 
400 missions on 80 or more fires in western states. It would have 
required approximately 1,500-2,000 missions by other LATs. In ten fire 
seasons, 10 Tanker has operated more than 1,700 missions on more than 
300 active wildfires. Thus, fire commanders are now well aware of our 
superior capabilities and are now specifically calling for the DC-10 
more often for its significant effectiveness.
c. 10 Tanker's Current Fleet
    10 Tanker currently operates three FAA and Forest Service certified 
DC-10-30 airtankers. In the first Next Generation Airtanker contract 
(NextGen 1.0) awarded in 2013, 10 Tanker was awarded a long-term 
``exclusive use'' contract for one DC-10 airtanker and was the first of 
the companies awarded to begin active suppression operations that year. 
In Sept. 2015, 10 Tanker was awarded a contract for an additional DC-10 
under the ``NextGen 2.0'' contract.
2. 10 Tanker Air Carrier Position on the 2015 Fire Season and Long-Term 
        Trends
a. The 2015 Fire Season
    In 10 Tanker's view, fire seasons are becoming longer, hotter and 
more dangerous than ever before. As the drought in western states 
continues, the deteriorating conditions of the trees and other plants 
are providing ideal fuels for large wildfires. Thus, the time to 
respond is growing shorter and shorter before an uncontrolled fire 
becomes a large or mega-wildfire. Fires are now out of control for 
weeks, not just days. Given even a moderate wind, even a spark on the 
grass may end up being a large wildfire out of control within just a 
few hours. That leaves very little time for local residents and 
government agencies to respond.
    As a result of these conditions, through September 25, almost 
49,000 wildfires have scorched more than 9 million acres. At this time 
in a fire season that is not over, the number of fires is the most 
since 2011. The acreage burned is the most since 2006. More than 2 
million acres were burned in August 2015 alone, the third worst 
destruction for that month in history. As noted above, 10 Tanker has 
flown more than 400 missions on more than 80 wildfires this season, 
whereas in a similar period in 2014 we flew only 234 missions on 59 
fires. Additionally, as a result of the current continuing spread of 
wildfires, 10 Tanker and other contracted airtanker operators are being 
kept on duty through the month of October.
b. Current and Future Wildfire Requirements
    Research is always a factor in looking towards the future. However, 
while there has been significant research in the past 10 years, much of 
the research that appears valid fails to be vetted with industry and is 
unlikely to be implemented. The Company is aware that the USFS has an 
on-going research effort to determine which aerial firefighting 
aircraft available now and in the foreseeable future is the most 
effective. The Company has asked USFS to share its findings with it and 
others as soon as possible.
    As numerous studies have seemingly failed to produce useable 
models, 10 Tanker believes that experience trumps quantification due to 
the many variables involved in controlling a large fire. Thus, the 
Company's position is that (1) detection, (2) command and control, and 
(3) suppression and containment are three distinct elements, each of 
which deserves the best training and equipment.
    On the suppression front the ``First Strike'' practice of bringing 
More resources Sooner to All fires to catch them Before they emerge 
should be rigorously adopted and enforced. When large fires are burning 
out of control, fire managers still need to provide tactical support to 
``point'' protection efforts. The quantity of retardant carried by the 
DC-10, and the quality of the line it produces, makes this a 
particularly good asset for All wildfires and for multiple drops on 
different corners of the fire on the same mission.

    Note: These assets require preemptive funding, not catch-up 
budgeting.

    10 Tanker agrees that the USFS and agencies of the NIFC need 
multiple tools. This should include helicopters, single engine air 
tankers (SEATs), large air tankers (LATs) and proven VLATs. Due to the 
worsening wildfire forecast, the More, Sooner, Safer, Cheaper concepts 
described above are the keys to supporting our ground forces in 
managing wildfires better in the future.
    The puzzle that the Federal Government partners have been 
struggling with is how to meet those essential concepts in a manner 
that is most effective, thus in the greatest public interest. At a 
meeting in February 2012, the USFS informed industry partners that they 
intended to contract or acquire approximately 30 next generation 
airtankers. Of those, the USFS clearly stated their intent to acquire 
7-10 newly manufactured aircraft to meet those needs. Subsequently, 
USFS has awarded two contracts to industry partners for 14 of the next 
generation air tankers and has issued a Request for Proposals (RFP) for 
a newly manufactured airtanker.
    Concerning the newly manufactured airtanker, in the FY 2015 
appropriation, the Forest Service requested funding for a newly 
manufactured airplane to be used in the aerial firefighting mission. 
Congress provided that, ``of the funds provided, $65,000,000 shall be 
available for the purpose of acquiring aircraft for the next-generation 
airtanker fleet to enhance firefighting mobility, effectiveness, 
efficiency, and safety, and such aircraft shall be suitable for 
contractor operation over the terrain and forested-ecosystems 
characteristic of National Forest System lands, as determined by the 
Chief of the Forest Service.'' Thus, the Forest Service issued an RFP 
for a newly manufactured aircraft that could meet the wildfire 
suppression capabilities for the future and to also meet a requirement 
to provide air mobility of cargo and/or passengers. The RFP also 
specifies a government owned, contractor operated (known as GOCO) 
concept. The USFS subsequently held an Industry Day meeting on August 
26, 2015, to explain the details of the RFP to interested companies; to 
clarify that the future contract would provide capability to increase 
the numbers of those new aircraft as evaluations and budgets permit; 
and they hosted individual company sessions to permit companies to 
comment.
    While 10 Tanker Air Carrier and other attendees do not represent 
the capability to produce a newly manufactured aircraft, the Company 
did receive an individual company session. While not objecting to the 
details of the RFP that would eliminate all others except the Lockheed 
C-130J, the Company did recommend to the USFS that newly manufactured 
Government-Owned, Contractor Operated (GOCO) aircraft should only be 
Part of the mix of future airtanker assets. For example, additional, 
thoroughly overhauled More, Sooner, Safer, Cheaper DC-10 airtankers, 
while not newly manufactured aircraft, could be delivered to USFS in a 
very efficient manner. More specifically, the costs incurred to acquire 
six (6) DC-10s modernized to complement the needs of future airtanker 
operations are approximately equal to that of two new 130Js. Each DC-10 
will bring more than three times the suppressant capability of a C-
130J, and each of the six DC-10 airtankers can be delivered in 6 month 
intervals. Production and delivery of these DC-10 airtankers can be via 
the GOCO concept. Thus, the Company believes that the needs of 
firefighters on the ground would be much better served by adding some 
highly effective DC-10's to get the Primary Mission (suppression) 
better accomplished. In so doing, the cost will be about \1/3\ that of 
any given number of newly manufactured airtankers, with an 
effectiveness that is 3.5 times or better.
    Of the four criteria stated in the RFP for the aircraft to be 
acquired--suppression, logistics, personnel transport, and use by other 
government agencies, the DC-10 would offer payload and range advantages 
to complement the new aircraft and provide a fleet of significantly 
greater value to the government and the public.
    Thank you for this opportunity to testify.

Ronald N. Priddy,
Director, Government Affairs,
10 Tanker Air Carrier.
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


    The Chairman. Colonel, thank you so much for your service 
and thank you for your testimony.
    Thanks to all the panelists for testifying. We are going to 
proceed with 5 minutes of questioning. And I am going to 
reserve my time, and so I would recognize Mr. Benishek, from 
Michigan, for 5 minutes.
    Mr. Benishek. Thank you, Mr. Chairman.
    I have a few questions. Let me start with the Fire Chief. 
Chief, how is the coordination between the Forest Service and 
the local fire people, I mean how does that work? Are you 
familiar with that?
    Mr. Litzenberg. If you are asking for an anecdotal answer, 
I will tell you that the fire service as a whole feels like the 
U.S. Forest Service is a good partner and that the coordination 
is relatively effective. Our mutual partnership comes from the 
fact that all of us have the same mission, which is the 
protection of our communities. And certainly, on a local level 
in Santa Fe and in New Mexico, I feel like we have a good 
relationship with our U.S. Forest Service partners, and, 
therefore, the communication is quite solid.
    Mr. Benishek. Okay, thanks.
    Dr. Topik, Mr. Haeberle talked about the Spotted Owl 
problem and the way it has changed the whole situation out 
West. Does the Endangered Species Act need to be revised, it 
seems to me that some of the things that he mentioned has led 
to overall degradation of the habitat. I don't know, there is a 
lot of controversy about that whole thing, but can you give us 
your perspective on this and what this one species has done to 
a bunch of other species?
    Can you kind of weigh-in on that for me because I am kind 
of curious?
    Dr. Topik. Yes, I will try. Sort of the curse of an 
ecologist, I was trained as a forest ecologist, is that you 
want to understand the specific ecology of the habitats, and 
when you are dealing with the Cascade Mountains, and I worked 
in the Cascades for many, many years, you have tremendous 
variation in climates, going from very, very dry areas to 
rainforests, sometimes in just 10 miles. And so that is 
something you have to remember. You are going from climates 
like from Canada to Mexico in just a small area.
    So the Northern Spotted Owl becomes a particular challenge 
on the fire issue when you get onto the eastside forests that 
Mr. Haeberle was talking about, on the Wenatchee side, where 
you do have areas that are very dense forests that used to be 
more sparse. They used to have the----
    Mr. Benishek. Yes.
    Dr. Topik.--fire model that we have heard about was more 
common. So there is a real challenge, what I see sort of as the 
short answer that could go into long, wonky answers, the short 
answer is that we need to balance the positive aspects of fire 
risk reduction from doing the kind of thinning that Mr. 
Haeberle talked about, versus the potential maybe short-term 
impact on a particular nest site. And so that is something that 
is real important that when we interact with these laws, that 
we balance the plus and the minuses.
    Mr. Benishek. I don't think it works quite that way though.
    Dr. Topik. I think there are more and more opportunities 
for that. And so that is what I would look for in guidance; to 
be able to suggest, for instance, if these things do get to 
courts, that we balance----
    Mr. Benishek. Okay. Well, let me go on to another question 
here. What could the Federal Government or the Forest Service 
do to help motivate more groups to partner and collaborate with 
the Forest Service on some of these stewardship issues?
    Dr. Topik. Well, there are a bunch of things, but one thing 
specifically. I believe that the ability of small amounts of 
money from the Forest Service, but also from industries and 
others, to help get community organizers and facilitators to 
figure out what is needed locally, the kind of stuff that our 
Fire Adapted Communities Learning Network is doing. You would 
see tremendous benefits because then that can be a way of 
bringing in resources and interests from lots of different 
people. I mean some of these areas where we have studied, for 
instance, in the Northern Sierras, the benefits of very guided 
thinning can have tremendous benefits to downstream water 
users, and have a big impact on agriculture, positive impact, 
and a big impact on----
    Mr. Benishek. One of the things that we talk about in 
Congress is making the local community more of a part of the 
Forest Service decision-making process. Would you be in favor 
of----
    Dr. Topik. Yes. I----
    Mr. Benishek.--something like that?
    Dr. Topik. That is what we believe in. And our group, The 
Nature Conservancy, is definitely engaged in that. And having 
the collaborative kind of model where the local community works 
together, and you have to remember that there are going to be 
downstream users that----
    Mr. Benishek. Right. Right.
    Dr. Topik.--in the Northwest, maybe water users 200 miles 
away, they can't be forgotten, and the recreation industries, 
places like the Northwest, huge recreation industries, those 
are important players too. But that is a key part; to have more 
people helping guide the actual projects, definitely.
    Mr. Benishek. And people from the area that the project is 
actually taking place in.
    Dr. Topik. Yes, the people from the area have to be key 
players, but it also, as a national resource, needs to take----
    Mr. Benishek. Does that occur now to some degree?
    Dr. Topik. Absolutely. The specific example mentioned is 
the Collaborative Forest Landscape Restoration Program, which 
has separate legislation, separate money; $40 million a year, I 
wish it was more, for 23 spots. And some of those are some 
pretty neat projects. We don't have any, unfortunately, in 
Michigan. We have some wonderful ones in Arkansas. It would be 
great if you could ever see those.
    Mr. Benishek. All right, I am out of time, sorry.
    The Chairman. The gentleman's time has expired.
    I am pleased to recognize the Ranking Member for 5 minutes.
    Ms. Lujan Grisham. Thank you, Mr. Chairman.
    I am going to go to Colonel Priddy. And I appreciate very 
much your description that we want all the tools, it is not one 
kind of fire suppression system over another, but recognizing 
that our fires are hotter and last longer, we are really 
dealing with mega-fires, mega-wildfires. And in that context, 
really being clear that we want every opportunity, and that has 
been the theme of every one of our expert witnesses, that we 
have to have a multimodel management aspect that moves us away 
from fire borrowing, and gives us the opportunity to manage at 
the front end and the back end.
    Can you elaborate just a little more about the benefits as 
part of the tools and resources, these large tanker 
opportunities, so that you can address these mega-fires?
    Mr. Priddy. Thank you. First of all, we would hope that 
initial attack works. And by the way, we have done initial 
attack a number of times. We can make multiple drops on the 
same mission, so we have literally surrounded four, five drops 
and taken care of the initial attack.
    We are most often called because of the process. We are 
most often called after a fire has expanded well beyond that. 
And I don't want to say large fire, because that is defined as 
100,000 acres or more, and we get called, obviously, before 
that. But the best way we can help after that is downwind and/
or uphill from the fire, have the ground commander place us in 
a retardant line, block the fire, not put it out, block the 
fire. We produce more than 50 wide, \3/4\ of a mile long. That 
is about four bulldozer's width, or something like that. And 
then that gives the ground forces the opportunity to bring 
those bulldozers or their other tools in there and expand that 
blockage, such that----
    Ms. Lujan Grisham. And----
    Mr. Priddy.--we now control----
    Ms. Lujan Grisham. And potentially put us in a position not 
only to manage those fires, but protect the men and women who 
are fighting those fires on the ground to a much higher degree.
    Mr. Priddy. Absolutely. That is our passion.
    Ms. Lujan Grisham. Thank you. I am going to my second 
question which is for Chris Topik. We have been talking a lot 
about the fire borrowing problem and the fact that, given the 
increased cost of fighting these fires, which are increasing in 
nature for a whole variety of reasons that we have discussed 
today, we can't keep up there, but it is not really an accurate 
reflection of the true cost of wildfires because we aren't 
really talking about the recovery aspect. And given your 
collaborative work, I would like this Committee to be really 
clear that in terms of protecting the watersheds and restoring 
these communities, and dealing with utilities and private 
property issues, that it is hundreds of millions of dollars 
across the country, and trying to do post-recovery work, but we 
don't really have a funding system to deal with that post-
recovery work.
    Can you talk a little bit about that and what some of your 
ideas are to make sure that we are addressing that as well?
    Dr. Topik. Yes, thank you very much, Congresswoman.
    Yes, a lot of the conversation often has dealt with the 
cost of fire suppression, which is very large, but we know that 
the actual impacts are huge. I was present at the fires in San 
Diego County in 2003. Very nice graphics presented there that 
show that the fire suppression costs for that fire are about 
four percent of the total negative impact, which was about $700 
million.
    Similarly, Ecological Restoration Institute in northern 
Arizona has done some very good work showing impacts across the 
board, losses of water, timber. And in New Mexico particularly, 
what we are very hopeful, and as you know, we had one of our 
staffers, Laura McCarthy, got to talk to this Committee----
    Ms. Lujan Grisham. Who, I will do a shout-out, is 
incredible in our state. We thank you.
    Dr. Topik. She is fabulous. But that work is something that 
The Nature Conservancy and 40 other collaborators, I mean this 
is including all kinds of industries, the states, the counties, 
and this is what we need. And so you have so much need to get 
the restoration work done, and so what they are doing is 
working across all these boundaries; Federal, state, the 
pueblos are so important in New Mexico, to figure out how we 
can merge pools of money, because we know it is going to have 
benefits, we know the incredible harm that was done to 
Albuquerque's water system, the place where people and money 
reside in New Mexico, and there is a lot that can be done to 
reduce those kind of impacts. And so they are working on a 
structured governance ability to have different parties, 
whether you are in the pueblo or the state or the county, or 
you are in an industry down in Albuquerque, to have an input to 
figure out where there is going to be return on investment, 
which kind of projects will have the biggest benefit.
    Ms. Lujan Grisham. I am out of time, and I am going to ask 
for the Committee's forgiveness. Could you follow up, not in 
your testimony but in writing to this Committee, about not only 
the productive impacts of the collaborations, which we all 
understand, but what some of those funding mechanism might be, 
including to maybe erode without creating other unforeseen 
consequences, the ability to move money in places, no more 
borrowing, but leverage it across departments who are part of 
these collaborations? I would be very interested in how we can 
leverage some of the resources we currently have to deal with 
these unrecovered costs. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. I thank the gentlelady.
    I now recognize the gentleman from Georgia, Congressman 
Allen, for 5 minutes.
    Mr. Allen. Thank you, Mr. Chairman. There we go. Got it. 
Thank you. This is a different room.
    Thank you all for being here today. And, of course, what I 
hear from my constituents is the horrible mismanagement of our 
forests and the contributing factor to not only disease, but 
also to forest fires.
    And I was interested on this Spotted Owl incident. 
Obviously, there was a lawsuit filed to stop the management of 
that forest area. Was it an injunction? Did the judge serve an 
injunction to stop management of the forest, or did the 
government quit managing it because there was a lawsuit? Does 
anybody know the answer to that question?
    Dr. Topik. Well, I used to live in Oregon so I was right in 
the middle of this overgrown issue in the 1980s. And so just in 
brief, and it is so involved it takes many pages to dictate all 
the different----
    Mr. Allen. Well, I don't have much----
    Dr. Topik.--combinations so----
    Mr. Allen.--time, so----
    Dr. Topik. No, you don't have that kind of time. So there 
were all kinds of different sorts of legal ramifications before 
the Northern Spotted Owl was listed, and in July of 1990 it was 
federally listed, and so then there were more activities after 
that that had both legal and administrative ramifications. So 
it is a very complicated history.
    Mr. Allen. Yes. Well, I was just wondering if you went 
ahead and managed the forest or were you actually breaking the 
law.
    And, Mr. Haeberle, I want to apologize to you for the 
destruction that you have had to deal with. And can you 
elaborate on that? In other words, why we couldn't continue on 
with the management of the forests? Has this thing been worked 
out in the court system? Yes, sir, Mr. Haeberle.
    Mr. Haeberle. I can't necessarily answer that question, but 
I would like to address the first part of your question.
    Mr. Allen. Okay.
    Mr. Haeberle. I was an accountant at Biles and Coleman 
Lumber Company when that issue first came up, and our mills 
consisted of three different sawmills that were highly 
dependent on National Forest Service timber, and there was an 
extremely good market for that timber, and had been for years 
and years and years. The Spotted Owl controversy reared its 
head, and those timber sales were addressed by 
environmentalists, if I could use that word, with 37 stamps on 
an envelope that just challenged that timber sale, and they 
were voided. They no longer put those out for the mill to even 
come and bid on. It instantly was over.
    Now, whether it was in a court action, I don't think so, 
but I think----
    Mr. Allen. It was a decision----
    Mr. Haeberle.--the Forest----
    Mr. Allen.--by the Forest Service not to--okay.
    Mr. Haeberle. That is what I believe.
    Mr. Allen. Okay. Well, that----
    Mr. Haeberle. Now, somebody else here may know way more 
than that, and I would like to research that----
    Mr. Allen. Right.
    Mr. Haeberle.--more to you----
    Mr. Allen. Yes, I think that is----
    Mr. Haeberle.--but that is----
    Mr. Allen.--that--I mean breaking the law is one thing, but 
doing the right thing despite the fact that you have somebody 
that doesn't agree with what you are doing is a whole other 
matter. And that is what we need to get to the bottom of here.
    Mr. Haeberle. Well, the point I am trying to make is the 
impact to the industry was immediate.
    Mr. Allen. Yes, right. Well, that is this top-down 
government approach. It is a problem for private industry.
    I was also interested that you lease--you do lease some 
Federal land?
    Mr. Haeberle. Yes.
    Mr. Allen. Is that working for you, are you able to manage 
that land without all these interferences, and is that maybe an 
answer to some of the collaboration we need to deal with as far 
as actually with the Forest Service not having the resources, 
should we lease more forestland?
    Mr. Haeberle. In my particular case, and I can speak for 
most of the lessees in Okanogan County, Forest Service leases 
are a very good thing. The only bad thing about them is the 
forest not being logged, not being thinned, not being cleaned 
for 40 years now has led to a canopy closure of the forest, 
reducing grass----
    Mr. Allen. I saw that.
    Mr. Haeberle.--and increasing fire fuels. And----
    Mr. Allen. So you are not able to manage the forests, 
although you are leasing the forests?
    Mr. Haeberle. Correct.
    Mr. Allen. Okay. Why would you sign a contract like that?
    Mr. Haeberle. Because I want to lease the forage that is on 
the forest.
    Mr. Allen. I got you.
    Mr. Haeberle. And through the years, that forage volume has 
disappeared because of the increase in the brush and the 
debris.
    Mr. Allen. Yes. So going back to collaboration, it would be 
good if we could have a meeting of the minds of those folks who 
lease the property on how properly to manage that forestland.
    Mr. Haeberle. Absolutely.
    Mr. Allen. That would be yes.
    Mr. Haeberle. Absolutely.
    Mr. Allen. That would be a solution?
    Mr. Haeberle. And I know I am prejudiced, but to me, 
grazing those lands is as critical as reducing the timber on 
those lands----
    Mr. Allen. Exactly.
    Mr. Haeberle.--because they both reduce combustible fuels.
    Mr. Allen. Well, you folks know how to do it. And like I 
say, we have a 40 percent sustainable rate in our forests, and 
I am proud of the job you all are doing. Thank you.
    Mr. Haeberle. Thank you.
    Mr. Allen. Hang in there.
    Mr. Haeberle. Thank you.
    The Chairman. The gentleman yields back.
    The gentleman from Washington, Mr. Newhouse, is not a 
Member of the Subcommittee but has joined us today. Pursuant to 
Committee Rule XI(e), I have consulted with the Ranking Member, 
and we are pleased to welcome him to join in the questioning of 
witnesses. Mr. Newhouse, you are recognized for 5 minutes for 
questioning.
    Mr. Newhouse. Well, thank you, Mr. Chairman, and Madam 
Ranking Member. I appreciate having the opportunity to sit here 
with you. I am a Member of the Agriculture Committee as well as 
the Natural Resources Committee, and as you can imagine, this 
very topic has been a big part of our discussions since 
January, and I am so happy to be here to learn more about what 
we can do to help the health of our forests.
    I did want to take a second, and I will submit some 
questions for the record, but just take a second to thank Chief 
Tidwell for visiting the State of Washington during the fire 
season, also for participating and being in attendance at the 
memorial in Wenatchee for the three firefighters that lost 
their lives. We as a state are still mourning their loss, and 
we appreciated your attendance there.
    I particularly wanted to welcome my constituent, Mr. 
Haeberle, for coming here this morning and enlightening us with 
your insight, your perspective, your experience of being part 
of a fifth generation ranch family in Okanogan County is 
invaluable for people here to listen to and to understand. I 
appreciate your doing that, taking the time with some of your 
colleagues of being here this morning.
    I would like to, in relation to that, Mr. Chairman, ask 
unanimous consent to submit for the record a letter I have from 
12 counties in the State of Washington that are part of what is 
called the Evergreen Forest County Group. In this, it includes 
solutions from their perspective on how to improve Federal 
forest management policy for----
    The Chairman. Without objection.
    [The information referred to is located on p. 87.]
    Mr. Newhouse. Thank you.
    So in the short time that we have, I would like to, Mr. 
Haeberle, ask you to expound a little bit on your testimony if 
you could. I lived through the Spotted Owl thing as well. I had 
family that lived on the Olympic Peninsula and saw the impact 
to many communities around the state. I think in your 
testimony--I did not know this, but we had over 90 sawmills in 
the State of Washington, now today we have about 30. You were 
involved in the forest industry at that time, so could you 
discuss a little bit, and you touched on it with Mr. Allen, 
some of the efforts to protect the Spotted Owl, the impact that 
that had on not only timber production but forest health, and 
in your estimation, how is current forest health compared to 
what it was 40 years ago?
    Mr. Haeberle. Well, in my opinion, most all of what we are 
talking about here today, as far as our concerns and trying to 
find cures, are the result of 40 years that I have watched of 
overreaction to a spotted owl, overreaction to repairing in 
areas, overreaction to what we call wetlands and defining as 
such today. Because if you look at the impact the Spotted Owl 
had, part of the reason I heard today that we haven't gotten a 
good sale for our National Forest timber is because we have 
lost 60 mills in the State of Washington that used to buy that 
timber. I will also say, with my experience with a fairly 
substantial size mill in Washington State at that time, we have 
to be concerned as we go down the road in the future that we 
don't over-harvest a renewable resource, which timber is. It is 
a crop, it is a plant, it grows. If we don't harvest it, it is 
going to overgrow, and it is going to do what we have seen, 
because we haven't harvested in Washington for 40 years.
    If we over-harvest it, we are going to create a problem 
just as big on the other side. And for stability in the timber 
industry, for us to be able to sell our National Forest timber, 
and one of the spokespeople here today said it, we have to 
create an environment for that sawmill that is stable, steady, 
reliable, they can count on it. They have to have that volume 
on a steady basis. It can't come and go. It can't come and go 
every time somebody decides there is another endangered 
species. And to me, that is the real, real big problem with the 
Endangered Species Act. All somebody has to do is wave their 
hand, something else is endangered, and then we overreact to it 
for 50 years. And we have done that with the Spotted Owl, 
without any question in my mind at all. Look at what it has 
destroyed. Everything we are talking about here today is what 
the results of that are.
    Have I answered your question?
    Mr. Newhouse. Yes. I appreciate that. Thank you.
    I see my time has already quickly expired, but I appreciate 
you being here. And it is my goal that we can actually 
accomplish something in this Congress that will help for the 
long run the health of our forests, so thank you very much.
    And thank you, Mr. Chairman. I yield back.
    The Chairman. I thank the gentleman for joining us today, 
and I appreciate his service on the Agriculture Committee.
    I am going to take the last 5 minutes.
    Mr. Haeberle, I appreciated the opportunity to read your 
testimony, to talk with you yesterday, we were able to meet 
briefly, and to hear about the wildfires you experienced 
firsthand, living with that situation over the past 40 years. 
And it was striking to me--I appreciate within your testimony 
which every Member has, we have a couple of pictures. Talk 
about compare and contrast.
    As we know, we are not going to stop fires, lightning 
strikes, the question is what burns and how quickly those fires 
are controlled. And we are not here to say we are going to stop 
wildfires; we just want to reduce the impact and make it 
something we can live with and we can afford.
    So my first question is for you, and given that wildfires 
are a reoccurring national crisis, it was striking that you had 
relayed to me anecdotal facts about a bulldozer or a CAT driver 
who was functioning either on state or private lands, and very 
successfully reduced the threat of the fire, but was stopped by 
Forest Service personnel because supposedly that person didn't 
have some certificate. And which brings to mind, are there 
tools that we need to be able to provide the Chief and the 
Service that would provide more of a safe harbor so that we can 
use these collaborations, these tools? Is our role for state 
primacy as well in terms of, when it is a national crisis, in 
terms of what rules get implemented, basically to eliminate any 
barriers that the Forest Service has during those times, that 
would be helpful?
    Mr. Haeberle. Last year, the Washington State Legislature, 
in reaction to having dealt with the previous year's largest 
fire in Washington State history, did pass a law that private 
contractors on state or private land can use their equipment 
without being held in harm. And that has been practiced this 
year, and it is a very successful program. I hope it expands.
    But one of the problems that we have in Washington State is 
that the U.S. Forest Service, if you are a contractor, and I am 
going to use a bulldozer as an example, but you could throw in 
a whole host of other equipment, but if you contract with the 
U.S. Forest Service with a bulldozer, you have to get on a 
computer, you have to go through a lot of hoops and jumps, and 
bulldozer operators that have logged in the forest and have 
been timber people don't necessarily connect with computers 
real well. So--and they are some of your most talented and very 
best firefighter people. So there is a little bit of a problem 
there. That is probably ``overcomeable''. But if you want to do 
a U.S. Forest Service contract, that is one thing. If you want 
to work for the Department of Natural Resources of the state, 
whole other computer program and another contract. The two do 
not coincide.
    So when we get these fires, they don't have any idea--a 
fire has no idea whether this is Federal land, state land, 
private land, Indian Reservation, they don't know. But as that 
fire moves, if it is National Forest, the National Forest wants 
you to have that contract. If it is state land, they want you 
to have that contract. Real problem there. And in Omak, 
Okanogan, and these complex fires the last couple of years, D-8 
bulldozers have gone out and successfully stopped this fire, 
have been held-up by National Forests when they hit their 
ground, and that is a big problem.
    We need to figure out how to marry all of these different 
contracts with different ownerships of land. The objective is 
to fight the fire not each other, and----
    The Chairman. Right.
    Mr. Haeberle.--and that needs to be solved.
    The Chairman. Well, having spent a lot of time with the 
employees within the Forest Service, who are good folks who 
really care and take seriously the responsibility, I could 
imagine just how frustrated they felt when they had to enforce 
this bureaucracy when they could see the benefits that were 
occurring on other adjoining lands, and yet because we haven't 
provided them the right tools, they couldn't let that CAT or 
bulldozer proceed. That is something we need to look at. I 
appreciate it.
    Dr. Topik, in your testimony, you mentioned that recent 
discussion on a solution for catastrophic wildfires has focused 
too much on timber harvest. Granted that a significant number 
of acreage is not forest, and noting that many damaging fires 
occurred in woodland brush and areas not suitable for 
commercial tree harvest. To me, these areas sound like great 
areas to graze livestock. Would that not have helped clear at 
least some of that hazardous fuels?
    Dr. Topik. Yes. I certainly agree that appropriate grazing 
is a good use of the landscape. I support what Mr. Haeberle 
said about that. It really depends on where you are at though. 
That is what I was trying to get at, that in terms of the fire 
problem itself, there is so much that is happening in and 
around communities, there is so much the communities can do. 
And as Mr. Haeberle said, the preparatory work, we know these 
fires are going to come, and so if we can have the communities 
be fire-adapted, and work together to figure out those kind of 
contracting snafus ahead of time, that is something we have 
seen in parts of California with the California Fire Safe 
Council, for instance, being able to serve as a clearinghouse 
to get people prepared. So that work at the community level, to 
make sure you have it in place, is vital. And in particular, in 
terms of the big damage, a lot of the worst fires this year 
have been right around towns and low elevation. Even in 
Washington State, many of the horrible, horrible fires have 
been down in the towns. And so there is a lot that needs to be 
done right there also. I mean that is a key part.
    The Chairman. My time has expired, not that I couldn't ask 
questions on this topic all day long, but we have a primary 
election we need to get to in terms of leadership. Or maybe 
they will have it figured out until we get there, Mr. Newhouse.
    With that said, I just want to thank all the panelists----
    Ms. Lujan Grisham. Mr. Chairman, do you need my help?
    The Chairman. This is one occasion I am not going to yield 
to the Ranking Member. But I will yield for any closing 
statements or remarks you might like to make.
    Ms. Lujan Grisham. I just want to sincerely thank you for 
holding this hearing. I want you to know that the Chairman and 
I, early in planning the year, talked about the opportunity, if 
we had them, to do field hearings. It is an area that the 
Chairman has gone above and beyond to make sure that the 
Committee has the right leadership, to think about ways to 
balance our investments, to add flexibility so that we are 
doing everything that we can, not only to protect the interests 
of the community, so thank you, Mr. Haeberle, but also looking 
at ways that affect directly firefighting. And I am very 
grateful for our two New Mexico experts. And I will tell you 
that the Fire Chief really does work diligently across 
incredible jurisdictional issues to make sure that we have 
enough men and women on the ground. And I am worried about 
those budgets as well. So there is plenty for us to do. And we 
appreciate your time and attention here today. Thank you.
    The Chairman. The gentlelady yields back.
    I want to take the opportunity to thank the panelists for 
your expertise. I think in a little over 2 hours, we have just 
gotten a tremendous amount of great information. They were very 
thorough for looking at--we have worked hard to try to provide 
some tools, whether it was through the continuing resolution, 
some of the other proposals that are out there, certainly H.R. 
2647 which really emphasizes collaboratives. I heard that word 
over and over again. And I want to thank Chief Tidwell. We 
frequently get folks in on the first panel who are 
representatives of the Administration, and they normally leave 
right after their testimony. Chief Tidwell has not. He cares. 
And I am not saying the others don't, but he demonstrates it by 
being here to listen to the testimony. And, Chief, that is 
always greatly appreciated.
    I heard a lot of good ideas here--comprehensive ideas. I 
would put them into five different categories. And I may have 
missed something because this was a pretty quick analysis of 
what we talked about today, but I heard about increasing 
markets. Obviously, getting the value up for our timber of all 
sides, from saw logs to that brush, finding markets for it, 
increasing value for it. Heard about, obviously, the funding 
needs. We get that. Heard about collaboratives and the role 
that that plays. Also heard about the impact of litigation, 
there are 16 forests that are more vulnerable today because of 
litigation, and we have to ask ourselves why is that occurring, 
is it unnecessary, is it abusive, but that is one of those 
things. I heard a lot about resources and tools, from the size 
of air tankers to tools to be able to compensate for the 49 
percent reduction in foresters. These are the people with the 
expertise in terms of making sure we can get the job done. Of 
the tools that we have identified, there are certainly some we 
need to look at. It is inexcusable that we would place on our 
Forest Service personnel an obligation to turn effective help 
away when it is at the boundary of the forest. And much more. 
And much more within this testimony. And it is just greatly 
appreciated.
    I want to thank everybody. I want to thank the staff for 
their expertise and their leadership in helping us on both 
sides of the aisle of bringing this together.
    Under the rules of the Committee, the record of today's 
hearing will remain open for 10 calendar days to receive 
additional material, and supplementary written responses from 
witnesses to any questions posed by a Member.
    This Subcommittee on Conservation and Forestry hearing is 
now adjourned.
    [Whereupon, at 12:18 p.m., the Subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
Submitted Report by Hon. Suzan K. DelBene, a Representative in Congress 
                            from Washington
The Rising Cost of Fire Operations: Effects on the Forest Service's 
        Non-Fire Work
U.S. Department of Agriculture, U.S. Forest Service
August 4, 2015
Overview
    Over 100 years ago, President Theodore Roosevelt established the 
U.S. Forest Service to manage America's 193 million acre National 
Forests and Grasslands for the benefit of all Americans. Today, that 
mission is being consumed by the ever-increasing costs of fighting 
fires.
    This report documents the growth over the past 20 years of the 
portion of the Forest Service's budget that is dedicated to fire, and 
the debilitating impact those rising costs are having on the 
recreation, restoration, planning, and other activities of the Forest 
Service.
    In 1995, fire made up 16 percent of the Forest Service's annual 
appropriated budget--this year, for the first time, more than 50 
percent of the Forest Service's annual budget will be dedicated to 
wildfire.\1\ Along with this shift in resources, there has also been a 
corresponding shift in staff, with a 39 percent reduction in all non-
fire personnel. Left unchecked, the share of the budget devoted to fire 
in 2025 could exceed 67 percent, equating to reductions of nearly $700 
million from non-fire programs compared to today's funding levels. That 
means that in just 10 years, $2 out of every $3 the Forest Service gets 
from Congress as part of its appropriated budget will be spent on fire 
programs.
---------------------------------------------------------------------------
    \1\ Preparedness, Suppression, FLAME, and related programs.
---------------------------------------------------------------------------
    As more and more of the agency's resources are spent each year to 
provide the firefighters, aircraft, and other assets necessary to 
protect lives, property, and natural resources from catastrophic 
wildfires, fewer and fewer funds and resources are available to support 
other agency work--including the very programs and restoration projects 
that reduce the fire threat.
    The depletion of non-fire programs to pay for the ever-increasing 
costs of fire has real implications, not only for the Forest Service's 
restoration work that would help prevent catastrophic fires, but also 
for the protection of watersheds and cultural resources, upkeep of 
programs and infrastructure that support thousands of recreation jobs 
and billions of dollars of economic growth in rural communities, and 
support for the range of multiple uses, benefits and ecosystem 
services, as well as research, technical assistance, and other programs 
that deliver value to the American public.
    The Forest Service has continually worked to do more with less, 
seeking to provide for the forests' multiple uses with fewer resources 
and staff. The Forest Service has also worked to appropriately allocate 
firefighting resources and improve risk management to use those 
resources safely and efficiently.
    However, the agency is at a tipping point.
    Climate change has led to fire seasons that are now on average 78 
days longer than in 1970. The U.S. burns twice as many acres as 3 
decades ago and Forest Service scientists believe the acreage burned 
may double again by mid-century. Increasing development in fire-prone 
areas also puts more stress on the Forest Service's suppression 
efforts.
    While the Forest Service and its firefighting partners are able to 
suppress or manage 98 percent of fires, catastrophic mega-fires burn 
through the agencies resources: 1-2 percent of fires consume 30 percent 
or more of annual costs. Last year, the Forest Service's ten largest 
fires cost more than $320 million dollars. The cost of fire suppression 
is predicted to increase to nearly $1.8 billion by 2025. This trend of 
rising fire suppression costs is predicted to continue as long as the 
10 year average serves as the funding model and presents a significant 
threat to the viability of all other services that support our National 
Forests.
    This unsustainable problem is made worse because in many years, 
fighting fires costs more than was planned for that year, requiring 
mid-season transfers of additional dollars from already depleted 
accounts to pay for firefighting: a practice referred to as ``fire 
transfer.'' In some cases, the agency is forced to divert money away 
from the same forest restoration projects that prevent or lessen the 
impacts of future wildfire. While Congress typically provides 
supplemental resources to replenish the Forest Service budget after 
fire transfers, transfers remain extremely problematic as they disrupt 
seasonal work, frustrate partners, and delay vital work.
The Escalating Cost of Fire Suppression
    Wildland fire suppression activities are currently funded entirely 
within the U.S. Forest Service budget, based on a 10 year rolling 
average. Using this model, the agency must average firefighting costs 
from the past 10 years to predict and request costs for the next year. 
When the average was stable, the agency was able to use this model to 
budget consistently for the annual costs associated with wildland fire 
suppression. Over the last few decades, however, wildland fire 
suppression costs have increased as fire seasons have grown longer and 
the frequency, size, and severity of wildland fires has increased.
    Changing climatic conditions across regions of the United States 
are driving increased temperatures--particularly in regions where fire 
has not been historically prominent. This change is causing variations 
and unpredictability in precipitation and is amplifying the effects and 
costs of wildfire. Related impacts are likely to continue to emerge in 
several key areas: limited water availability for fire suppression, 
accumulation at unprecedented levels of vegetative fuels that enable 
and sustain fires, changes in vegetation community composition that 
make them more fire prone, and an extension of the fire season to as 
many as 300 days in many parts of the country.
    These factors result in fires that increasingly exhibit extreme 
behavior and are more costly to manage. The six worst fire seasons 
since 1960 have all occurred since 2000. Moreover, since 2000, many 
western states have experienced the largest wildfires in their state's 
history.
    In addition, more and more development is taking place near 
forests--an area referred to as the Wildland-Urban Interface (WUI). 
Increasing densities of people and infrastructure in the WUI makes 
management more complex and requires more firefighting assets to ensure 
an appropriate, safe, and effective response that protects lives and 
property.
    Funding for non-fire programs has not kept pace with the increased 
cost of fighting fire. The growth in fire suppression costs has 
steadily consumed an ever-increasing portion of the agency's 
appropriated budget. Between last fiscal year and this year, for 
example, the suppression budget grew by $115 million and non-fire 
programs were reduced by that amount, requiring the agency to forego 
opportunities to complete vital restoration work and meet public 
expectations for services. Those non-fire activities are often those 
that improve the health and resilience of our forested landscapes and 
mitigate the potential for wildland fire in future years.
    Over the last few decades, wildfire costs have increased as a 
percent of the Forest Service's budget as fire seasons have grown 
longer and more costly. The projected continued growth in the 10 year 
average cost of fire suppression through 2025 is rising to nearly $1.8 
billion. This amounts to a nearly $700 million decrease in non-fire 
program funding in the next 10 years.
Figure 1: The Cost of Wildland Fire (Preparedness, Suppression, FLAME, 
        and Related Programs) as a Percentage of the Forest Service's 
        Annual Budget
Yesterday, Today, and Tomorrow Wildland Fire Cost Consumes Forest 
        Service Budget
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
Figure 2: Projected Growth of the 10 Year Average Cost of Fire 
        Suppression (in $1,000s) Through 2025 \2\
      
---------------------------------------------------------------------------
    \2\ This projection was developed by Forest Service researchers and 
is based on similar methodologies currently used for suppression cost 
expenditures that are required within FLAME Act provisions.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Impacts to Forest Service Program Areas and Staff
    The following charts show that from 1995 to 2015, the Wildland Fire 
Management appropriation Preparedness, Suppression, FLAME, and related 
programs) has more than tripled in its portion of the Forest Service 
budget from 16 percent to 52 percent, reducing National Forest System 
funding by nearly $475 million in 2015 dollars (32 percent reduction in 
real dollars), and also impacting other program areas.
Figure 3: Forest Service FY 1995 Appropriations by Fund
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Figure 4: Forest Service FY 2015 Appropriations by Fund
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    At the same time, increasing the portion of the budget dedicated to 
fire has reduced the Forest Service's ability to sustain staffing in 
vital non-fire program areas, which negatively impacts the Forest 
Service's ability to deliver work on the ground, including forest 
restoration and management, recreation, research, watershed protection, 
land conservation, and other activities.
    Since 1998, fire staffing within the Forest Service has increased 
114 percent, from around 5,700 employees in 1998 to over 12,000 in 
2015. Over the same period, staffing levels for those dedicated to 
managing National Forest System lands has decreased by 39 percent--from 
approximately 18,000 in 1998 to fewer than 11,000 in 2015.
Figure 5: Forest Service Staffing 1998 to 2015
Shifts in Forest Service Staffing Levels 1998-2015
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Image uses figures representing fire staff and all other 
        Forest Service staff to show changes in staffing from 1998 to 
        2015. Fire staffing has increased from 5,700 to 12,000 
        employees while other staffing has decreased from 18,000 to 
        11,000.*
---------------------------------------------------------------------------
    * Editor's note: the text inset under the graphic was set as a 
comment field in the original pdf.
---------------------------------------------------------------------------
Impacts on Individual Programs
    Funding trends for the past 15 years for individual programs used 
to manage the National Forest System are shown below.\3\ This section 
illustrates the significant declines in these programs and describes 
the resulting impacts as a result of the shift of financial and human 
resources away from management of the National Forest Systems and to 
the Wildland Fire Management accounts, within the agency's constrained 
annual budget.\4\
---------------------------------------------------------------------------
    \3\ These charts start at 2001 rather than 1995 because many of the 
programs (BLIs) have changed over the years, and FY 2001 to FY 20015 
represents a time period over which the following programs remained 
consistent and therefore provide for an analogous comparison year over 
year.
    \4\ Appropriation numbers were adjusted for inflation to constant 
FY 2015 dollars. The deflators are from the Office of Budget and 
Management Fiscal Year 2015 Historical Tables, Table 10.1 (http://
www.whitehouse.gov/sites/default/files/omb/budget/fy2015/assets/
hist.pdf).
---------------------------------------------------------------------------
Vegetation & Watershed Management_24% Reduction
Vegetation & Watershed Mgmt
Enacted Amounts in Inflation Adjusted 2015 Dollars. Dollars in 
        Thousands.
        [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
        
    The Vegetation and Watershed Management Program is the cornerstone 
for forest, rangeland, soil and water restoration and enhancement 
activities on National Forest System (NFS) lands and plays a key role 
in post-fire restoration. These programs are necessary for the agency 
to effectively support resource restoration projects that achieve 
multiple values, develop external partnerships to sustain healthy 
watersheds and ecological communities, and provide an array of benefits 
for current and future generations.
    Benefits include: improved water quality and quantity, healthy 
forests and rangelands that provide a variety of products, a reduction 
of risks associated with wildfires, and greater resistance to 
establishment and spread of invasive species.
    Reduced funding since 2001 has decreased the rate of restoration 
that the agency could have achieved across all NFS landscapes had 
funding levels been maintained. The agency has been less able to engage 
in watershed improvement activities as well as overall restoration 
activities occurring within priority watersheds. The reductions have 
limited the agency's ability to prevent and limit the spread of 
invasive species; to decrease the backlog of deforestation and young 
stand management needs; and to lessen the severity and extent of 
insect, disease, and fire-prone forest stands.
Capital Improvement and Maintenance
Enacted Amounts in Inflation Adjusted 2015 Dollars. Dollars in 
        Thousands.
     [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
        
Facilities--68% Reduction
    The facilities program supports maintenance and capital improvement 
on approximately 21,600 recreation sites and 23,100 research and other 
administrative buildings. More than \1/2\ of all administrative 
facilities need improvement, with approximately 41 percent in poor 
condition needing major repairs or renovation, approximately 12 percent 
in fair condition needing some minor repair, and 47 percent of the 
facilities in good condition.
    Due to the significant decrease in facilities funding, the agency 
has had to scale down or defer most decommissioning and disposal 
projects that would reduce our square footage. Projects that implement 
sustainability best practices to conserve energy and water have been 
deferred. Reduced funding has jeopardized the agency's ability to 
address basic facility operational and maintenance needs and many of 
our safety issues such as those associated with water and septic 
systems. The overall effect is an increase in public health and safety 
concerns, and liability for the Federal Government. The only action 
National Forests can take to reduce the government liability is to 
close recreation facilities, thereby impacting the outdoor recreation 
opportunities that drive many rural tourism economies.
    Because of a lack of funding, the Forest Service has lost 
opportunities for new office construction to replace administrative 
facilities at the end of their design life, resulting in office closure 
and moves into leased facilities. Deferred maintenance has increased 
resulting in more expensive future repairs or possible loss of facility 
investments. Projects to decommission buildings and reduce the square 
feet have been deferred. Projects that would have helped the agency 
make its buildings more sustainable and reduce the costs of maintaining 
recreation facilities have also been deferred.
    Concurrently, additional fire facilities have been added to meet 
increased suppression needs. This has required a shift in spending from 
capital improvements for national priority projects to projects 
critical for fire readiness. For example, Air Tanker Bases need 
pavement improvements to handle the newer aircraft which are being 
added to the fleet, these projects will be phased in over several 
years, increasing costs.
Roads--46% Reduction
    The National Forest Road System is an integral part of the rural 
transportation network. It provides access for recreational, 
administrative, resource management, and commercial purposes. It also 
provides access to and between rural and gateway communities, 
contributing to community vitality and economic development. 
Maintaining this system is necessary to continue to provide this 
access, to meet Highway Safety Act requirements, emergency response, 
and to protect the quality of critical water supplies provided by 
National Forest System lands to communities.
    As our transportation infrastructure ages or is damaged by natural 
events, some roads and bridges have become unsafe for public travel. 
The Forest Service has had to restrict traffic on or close those roads 
and bridges until funds are available for maintenance and repairs. 
Thirteen percent of our bridges are currently structurally deficient 
and the average age of all bridges is 50 years old. Without needed 
replacement or repairs, structurally deficient bridges would first be 
load-restricted and ultimately closed as deficiencies progress.
    Road restoration and decommissioning efforts, a critical component 
of watershed restoration, has progressed but not at the accelerated 
pace necessary to achieve watershed protection and other management 
objectives. Action to replace road and stream crossings for aquatic 
organism passage and to improve aquatic habitat and resilience to 
catastrophic natural disasters has also suffered. Reducing these 
activities increases the severity and frequency of environmental 
impacts like catastrophic failure from natural disasters, adverse 
effects to water quality, and deterioration of aquatic and terrestrial 
habitat. Our ability to support accelerated watershed restoration 
continues to be severely affected.
    As a lack of funds forces the Forest Service to delay needed 
maintenance and improvements on many roads and bridges, access will 
become more restricted, environmental impacts will increase rapidly, 
and vulnerability to catastrophic failure from natural disasters will 
greatly increase. It will become more difficult for the public to 
access communities reached only by traveling through NFS lands, as well 
as recreational areas, and other natural resource areas. Firefighting 
ability could also decline significantly as road access restrictions 
increase, putting our resources and the public at risk.
Deferred Maintenance--95% Reduction
    The Deferred Maintenance and Infrastructure Improvement program 
addresses serious public health and safety concerns associated with the 
agency's backlog in maintenance needs. This program funds high-priority 
national projects, focusing on areas that are heavily used by the 
public and agency employees. These projects include critical 
maintenance and repairs to dams; correcting health and safety 
deficiencies in buildings, campgrounds, and water and wastewater 
systems; and renovating recreation structures.
    In FY 2001, the Deferred Maintenance funding supported 
approximately 400 major projects. In FY 2014 the funding supported 
three major projects. In FY 2013 and FY 2014, 21 projects were deferred 
to future years, including sewer system repairs, water system 
improvements, dam repairs, and wastewater system rehabilitation.
    Forest Service assets currently have a deferred maintenance backlog 
of over $5.1 billion and many are 30 to 50 years old or more. The near 
elimination of funding for this program has prevented the Forest 
Service from making a dent in this backlog and has forced the agency to 
shift more of the deferred maintenance work to other capital 
improvement programs, further reducing our ability to improve the long-
term sustainability of our facilities, roads, and trails.
Recreation, Heritage and Wilderness_15% Reduction
Recreation, Heritage & Wilderness
Enacted Amounts in Inflation Adjusted 2015 Dollars. Dollars in 
        Thousands.
        [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
        
    The Recreation, Heritage and Wilderness programs offer a diverse 
range of recreational opportunities across NFS lands, connecting people 
with nature in an unmatched variety of settings and activities. The 
decrease in funding resulting from increased fire costs has limited the 
agency's ability to provide vital recreational opportunities on NFS 
lands, which jeopardizes the thousands of jobs that are part of a 
growing recreational economy.
    The agency has been unable to more fully implement sustainable 
Recreation, Heritage, Volunteer Services and Wilderness and Wild & 
Scenic Rivers programs to provide consistent, quality recreation 
opportunities to the public. Reductions in recreation funding have a 
direct impact on local economies supported by these activities, 
including many small outfitter and guide businesses that depend on 
recreation sites and programs on NFS lands. Additionally, the Forest 
Service's ability to leverage funds and implement projects with 
partners and volunteers is constrained by the reductions in funding and 
staff, substantially affecting services.
    The reductions in funding have also affected the Forest Service's 
capacity to manage the permits needed for outfitters and guides and 
other recreation-focused small businesses to use the public land. This 
impacts the presence and stability of permittees and small business in 
nearby tourism-oriented communities.
    Services to youth have also suffered. A higher sustained level of 
funding would increase the capability of the Forest Service to engage 
youth in the outdoors and support increased employment opportunities 
for youth and veterans through programs such as the 21st Century 
Conservation Service Corps.
Landownership Management_33% Reduction
Landownership Management
Enacted Amounts in Inflation Adjusted 2015 Dollars. Dollars in 
        Thousands.
        [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
        
    A 33 percent decrease in funding to Landownership Management has 
impaired the agency's ability to respond to demands that are growing in 
number and complexity in the lands special use permits program, which 
supports critical projects involving energy pipelines, geothermal, 
electric transmission, hydropower, telecommunication infrastructure, 
including cellular towers and traditional line service and broadband 
facilities.
    These special use projects provide community development and growth 
that directly supports job creation. Reductions in funding have limited 
the agency's ability to keep up with title claims and encroachments, 
each of which can cost the agency thousands of dollars to investigate 
and resolve, or can lead to even more costly lawsuits.
Wildlife & Fisheries Habitat Management_18% Reduction
Wildlife & Fisheries Habitat Mgmt
Enacted Amounts in Inflation Adjusted 2015 Dollars. Dollars in 
        Thousands.
      [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
        
    The reduction in funding to Wildlife and Fisheries compromises, for 
example, recovery efforts for threatened and endangered species (TES). 
The Forest Service has been unable to fulfill all of the required 
monitoring associated with previous Endangered Species Act (ESA) 
consultation commitments, reducing the agency's ability to implement 
projects in the future and jeopardizing current projects because ESA 
consultation requirements cannot be met. The agency has had to forego 
many projects critical to TES recovery and conservation efforts and 
offsetting the impacts of climate change.
    The reduction in operating funds has limited the agency's ability 
to support existing partnerships. These partnerships often bring in as 
much as four-to-one return in partner contributions. This has resulted 
in the loss of significant dollars that could have been leveraged and 
has further reduced the agency's impact on key restoration objectives.
Land Management Planning_64% Reduction
Land Management Planning
Enacted Amounts in Inflation Adjusted 2015 Dollars. Dollars in 
        Thousands.
        [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
        
    Reductions in Land Management Planning have had a significant 
impact on the Forest Service's ability to reduce the backlog of forest 
plans requiring revision. The National Forest Management Act requires 
that each unit of the NFS have a Land Management Plan (LMP) that is 
formally revised every 10 to 15 years to address changing conditions 
and new information related to natural resources, management goals, and 
public use. The agency has only been able to meet this revision 
requirement on about 46 percent of its 125 LMPs.
    The updated LMPs are essential for providing current, broad 
guidance for identifying, prioritizing, and implementing the programs 
and projects that move an NFS unit towards achieving desired conditions 
and achieving agency objectives. Reduced funding has had a significant 
effect on our ability to engage with the public and partners to address 
management issues and opportunities that have emerged since the 
original plans were developed. These efforts are essential for 
garnering public support and reducing appeals and litigations, which 
impacts our ability to implement key restoration efforts and increases 
implementation costs.
Inventory & Monitoring_35% Reduction
Inventory and Monitoring
Enacted Amounts in Inflation Adjusted 2015 Dollars. Dollars in 
        Thousands.
        [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
        
    Reductions in Inventory and Monitoring have reduced the agency's 
ability to collect essential inventory and monitoring information, 
which has further delayed our ability to revise forest management 
plans. This reduced funding has hampered the Forest Service's ability 
to plan and execute projects for adapting and mitigating the effects of 
changing climate conditions, including completing watershed condition 
assessments, developing strategies for addressing needs for specific 
wildlife species and roadless area evaluations, as well as ensuring 
abundant clean water, providing recreation opportunities, restoring and 
maintaining forest and rangeland ecosystems, and improving priority 
watersheds across larger landscapes. Without current and adequate 
planning and monitoring, our ability to effectively deliver restoration 
treatments, recreation and special use permitting, and other economic 
activities on NFS lands has been adversely affected.
Conclusion
    As documented in this report, the rising cost of fire suppression 
coupled with the current budgeting model is significantly impacting all 
non-fire program and staff areas.
    The dramatic underlying shift of funding and human capacity from 
non-fire programs to support fire programs has real implications on the 
ground, including for restoration work that would help prevent 
catastrophic fires, protect watersheds that provide clean drinking 
water to tens of millions of people, protect irreplaceable cultural 
resources, and provide the infrastructure and programming that supports 
the $646 billion outdoor recreation economy and jobs and economic 
growth in hundreds of rural communities.
    To solve this problem, we must change the way we pay for wildfire. 
Instead of treating catastrophic wildfires as a normal agency expense, 
we must treat them more like other natural disasters, such as tornadoes 
or hurricanes. And any solution must confront both parts of the funding 
quandary: it must limit or reverse the runaway growth of firefighting 
costs, and it must address the compounding disruption of fire 
transfers.
    Bipartisan legislation that offers a more rational approach to 
funding wildfire, the Wildfire Disaster Funding Act, has already been 
introduced in the House and Senate. It is mirrored by a similar option 
in the President's 2016 Budget. This proposal provides a fiscally 
responsible mechanism to treat wildfires more like other natural 
disasters, end transfers, and partially replenish agency capacity to 
restore resilient forests and protect against future fire outbreaks.
    USDA and the Forest Service look forward to working with Congress 
to take action to address the growth of fire costs that is crippling 
the agency's ability to conserve the nation's forests and grasslands 
and to provide the multiple uses and values for which the agency was 
created.
                                 ______
                                 
  Submitted Letter by Hon. Dan Newhouse, a Representative in Congress 
                            from Washington
Evergreen Forest County Group
Washington's National Forest Counties
October 5, 2015

  Hon. Dan Newhouse,
  U.S. House of Representatives,
  Washington, D.C.

    Dear Representative Newhouse:

    Washington State has just experienced another record, devastating 
fire season that has witnessed the loss of three firefighters, hundreds 
of homes and businesses in these fires, besides the loss of renewable 
natural resources, watersheds, and wildlife habitat. With this reality 
comes a once in a generation opportunity to put in place solutions that 
will prevent such devastation from recurring on such a large scale. As 
you consider proposals to improve Federal forest policies, we 
respectfully urge you to pass legislation that both:

  1.  Improves wildfire preparedness, response, and suppression funding 
            policies; and

  2.  Meaningfully reduces the risk of future fires by thinning forests 
            and restoring forest diversity and resiliency on Federal 
            forestlands across Washington State.

    The Federal Government controls nearly \1/2\ of Washington State's 
total forestland. The Forest Service is the largest land manager with 
over 8 million acres, or 37 percent of Washington's forestland. Over 
the last 2 decades, Federal regulations, lawsuits, and the resulting 
``analysis paralysis'' have caused a rapid decline in Federal forest 
management activities. Many Federal and Tribal forests have become 
unnaturally dense, overstocked and more vulnerable to insects, disease, 
and immense catastrophic wildfires.
    Harvest levels from National Forests are currently 14 percent of 
annual growth in eastern Washington and two percent of annual growth in 
western Washington. Today 97 percent of Washington State timber 
harvests come from non-Federal land, while only three percent comes 
from Federal forestlands. While this year's wildfires impacted both 
Federal and non-Federal lands, there is widespread recognition that we 
must increase the pace and scale of needed forest management to restore 
the health and resiliency of our forests and reduce the risk of future 
catastrophic fires on overstocked Federal lands.
    Restoring active management on Federal forests would not only 
create additional jobs in the forest products sector, it would also 
generate revenues for local counties, benefit the state's outdoors 
industry, hunting opportunities, and other sectors that depend on 
healthy, vibrant forests and watersheds. Reducing the future risk of 
catastrophic wildfires is also critically important to maintaining and 
growing the tourism economy in our rural communities where unemployment 
rates are typically 2-3 times King County's unemployment rate.
    The yearly summer trend of ``fire budget borrowing,'' lives lost to 
firefighting, and immense catastrophic fires will not end until 
Congress takes swift action on solutions that restore the health of our 
Federal forests and reform our approach to funding wildfire 
suppression. The House of Representatives recently passed comprehensive 
wildfire funding and forest management reform legislation that builds 
on bipartisan reforms included in the 2014 Farm Bill. It earned the 
support of over 170 organizations, including conservation, sportsmen, 
outdoor, counties and forestry groups that recognize the benefits of 
these reforms. There is also growing bipartisan support in the Senate 
for improving wildfire and forest management policies.
    Active forest management and restoration is one of the few 
effective, long-term solutions for improving the health of our forests 
and rural communities. The primary factor limiting active forest 
restoration on Federal lands is the time and cost required for the 
Forest Service to satisfy exhaustive analytic requirements driven by 
conflicting regulations and litigation. The Forest Service currently 
expends over $350 million annually on environmental reviews, limiting 
the money available for on-the-ground projects. Those reviews also take 
an average of 19-37 months to complete, delaying needed projects to 
restore forests or get ahead of the growing threat. Fortunately, it is 
possible to streamline the environmental review process to improve the 
pace and scale of projects without sacrificing conservation values.
    Thank you for your concern and interest in resolving this critical 
issue. We urge you to work together on a bipartisan basis to support 
the forest health reforms we need to effectively fight wildfires, 
rehabilitate burned forests, and actively manage our Federal forests to 
reduce the size and severity of future wildfires.
            Sincerely Washington's National Forest Counties,

Chelan County: Doug England, Keith Goehner, Ron Walter;
Ferry County: Mike Blankenship, Brad Miller, Nathan Davis;
Grays Harbor County: Wes Cormier, Frank Gordon, Vickie Raines;
Kittitas County: Gary Berndt, Paul Jewell, Obie Obrien;
Lewis County: Edna Fund, Bill Schulte, Gary Stamper;
Okanogan County: Ray Campbell, Jim Detro, Sheilah Kennedy;
Pend Oreille County: Steve Kiss, Mike Manus, Karen Skoog;
Skagit County: Ken Dahlstedt, Lisa Janicki, Ron Wesen;
Skamania County: Chris Brong, Bob Hamlin, Doug McKinzie;
Snohomish County: Ken Klein;
Stevens County: Don Dashiell, Wes McCart, Steve Parker;
Whatcom County: Jack Louws, County Executive.

CC:

The Honorable Patty Murray,
The Honorable Suzan K. DelBene,
The Honorable Rick Larsen,
The Honorable Jaime Herrera Beutler,
The Honorable Cathy McMorris Rodgers,
The Honorable Maria Cantwell,
The Honorable Derek Kilmer,
The Honorable Jim McDermott,
The Honorable Dave Reichert,
The Honorable Adam Smith,
The Honorable Denny Heck.
                                 ______
                                 
                          Submitted Questions
Response from Thomas L. Tidwell, Chief, U.S. Forest Service, U.S. 
        Department of Agriculture
Questions Submitted by Hon. Glenn Thompson, a Representative in 
        Congress from Pennsylvania
    Question 1. How many Forest Service timberland acres have burned 
over the last 10 years? How many of those acres have been salvaged? How 
does this compare to the 1990s?
    Answer.
    Nearly 15 million acres of National Forests and Grasslands burned 
in the last 10 years (2006-2015), according FIRESTAT, the agency's 
wildfire reporting application. The Forest Service national data 
reporting systems do not permit us to identify or summarize how many of 
those acres have been salvaged nationally.
    However, the agency reported in ``Harvest Trends on National Forest 
System Lands 1984-2015 on National Forest System Lands,'' that nearly 
400,000 acres of sanitation or salvage harvest was completed to capture 
imminent mortality or recover forest products from fire, insect, 
disease, wind, competition, or other causes from 2006-2015.
    In comparison, more than 5 million acres burned from 1990-1999 and 
nearly 1.7 million acres of sanitation or salvage harvest was completed 
for the same causes described previously. However, timber harvest on 
National Forest System lands hit a peak in 1990 and declined rapidly 
during that decade, including salvage. The average total acres 
harvested from 2006-2015 are less than 25% of the 1990 peak. See 
accompanying tables.

  Table 1. Salvage acres, total harvest acres, and wildfire acres 1990-
                                  1999
------------------------------------------------------------------------
                       All Salvage      Total Harvest
                          Acres             Acres        Wildfire Acres
------------------------------------------------------------------------
          1990             207,794           902,647           319,015
          1991             177,698           795,745           151,861
          1992             172,499           755,638           505,385
          1993             241,481           732,463           225,208
          1994             179,882           623,458         1,375,556
          1995             126,528           478,902           256,641
          1996             152,563           473,127         1,101,052
          1997             154,517           457,848           164,002
          1998             183,287           525,755           226,622
          1999              96,447           448,746           744,262
                   -----------------------------------------------------
  10 yr. avg......         169,270           619,433           506,960
------------------------------------------------------------------------


  Table 2. Salvage acres, total harvest acres, and wildfire acres 2006-
                                  2015
------------------------------------------------------------------------
                       All Salvage      Total Harvest
                          Acres             Acres        Wildfire Acres
------------------------------------------------------------------------
          2006             158,936           374,602         1,809,795
          2007              31,396           232,705         2,820,105
          2008              21,438           205,321         1,502,242
          2009              32,147           204,077           686,318
          2010              19,519           177,816           306,504
          2011              21,186           195,481         1,634,815
          2012              30,538           208,641         2,817,333
          2013              32,045           209,289         1,228,086
          2014              26,522           192,564           649,260
          2015              22,562           204,763         1,382,855
                   -----------------------------------------------------
  10 yr. avg......          39,629           220,526         1,483,731
------------------------------------------------------------------------


    Question 2. Following the devastating 2015 fire season, how many 
acres do you anticipate will be salvaged? How many acres will be 
restored or reforested?
    Answer. The staffs on many National Forests are still assessing the 
impacts of the wildfires to identify the potential acres for salvage 
treatments. Even when completed, that information is only available at 
the project level for each National Forest and is not summarized 
nationally. Priorities, funding, and operational capacity would 
determine how many of the potential acres are salvaged. As the figures 
in response to your first question illustrate, a relatively small 
proportion of burned acres are likely to be salvaged. From the 2015 
fire season we expect approximately 334,000 total acres will need to be 
reforested, of which approximately 194,000 acres are estimated to need 
planting and approximately 140,000 acres are expected to come back 
through natural regeneration but may need some site preparation and 
monitoring to ensure that they are re-establishing naturally. These are 
initial estimates and will be refined with additional analysis. Funding 
and operational capacity will determine how many of those needed acres 
will be reforested.

    Question 3. Fire transfers are obviously not a new problem, and 
they cause long-term consequences. When did we start to see more and 
more fire transfers happening? At that time, how much board feet of 
timber were we cutting? How much hazardous fuel were we removing from 
the forests?
    Answer. The Forest Service has been using the 10 year rolling 
average as a basis for suppression budgeting since the early 1990s. 
Because the cost of fire suppression continues to increase as fire 
seasons grow longer and hotter and because of the dramatic increase of 
development in the wildland urban interface, in most years, the 10 year 
average no longer accurately reflects the current total cost of fire 
suppression. This reality is reflected in the fact that since FY 2000, 
the Forest Service's fire suppression costs have exceeded amounts 
provided in annual appropriations in all but 2 years: FY 2001 and FY 
2010. The Forest Service is the only Federal agency that is required to 
pay for national disasters out of its regular constrained budget. Fully 
funding the ever-increasing 10 year average in a constrained budget 
results in the long-term erosion of funds from other Forest Service 
programs in the budget formulation process, often from the same 
programs that pre-emptively reduce risk and help improve the condition 
of the National Forest System before the next fires strike. In FY 2015 
alone, fire suppression accounted for over \1/2\ of the budget, with 
$115 million allocated away from non-fire programs such as restoration, 
recreation and watershed health programs. End-of-season transfers to 
cover suppression costs that exceed appropriated amounts compound the 
problem and create instability and uncertainty for both the agency and 
the public. In 2015, the Forest Service borrowed $700 million to cover 
suppression expenses.
    The Forest Service is at a tipping point. While the Forest Service 
has been able to meet its timber targets due to innovation, 
efficiencies, an increase in collaborative support, and a remarkable 
workforce, without a fix to the fire budget, additional gains will be 
increasingly difficult. In FY 2000, the Forest Service sold 1.7 billion 
board feet, compared with 2.9 billion board feet in FY 2015. We do not 
have an estimate of how much material removed from the National Forests 
was hazardous fuels, but approximately 4.6 million acres were treated 
using commercial thinning, prescribed burns and other treatments (see 
table in response to Question 12 below.

    Question 4. How can the Forest Service utilize more local expertise 
when responding to forest fires?
    Answer. The Forest Service works extensively with our state and 
local partners to support wildland fire management operations. These 
cooperators are essential to ensuring that every wildfire receives an 
appropriate, risk informed, and effective response regardless of the 
jurisdiction. For any response, the concept of nearest available asset 
is implemented. Depending on the situation, nearest available assets 
may be state and or local assets. Implementing these assets enables a 
more efficient and timely response than transporting a Forest Service-
owned asset from further distances.
    The Forest Service relies on states and other cooperators, and in 
turn, those cooperators rely on the Forest Service to meet their 
operational objectives. It is neither financially prudent nor 
operationally optimal for all entities to maintain exclusive and 
duplicative resources. Every fire season is unique. In some seasons the 
majority of fire activity occurs on Forest Service lands, in other 
seasons it occurs on state and local or private lands. Sometimes we are 
equally burdened. Across multiple years the costs of leveraging each 
other's assets is more financially and operationally effective than 
maintaining exclusive assets.
    In 2014, the Wildland Fire Leadership Council launched the National 
Cohesive Wildland Fire Management Strategy, which focuses on fire 
adapted communities, response to wildland fire, and restoring and 
maintaining landscapes. The Strategy is being implemented through 
various Federal, local, and Tribal efforts.

    Question 5. Wildfire suppression costs have skyrocketed. Obviously 
a large part of this is due to bigger, more catastrophic fires, but 
what other factors have further exacerbated the cost? Are there ways to 
reduce these costs?
    Answer. Over the last 20 years the increasing complexity and 
severity of wildfires is due to climate change, fuels buildup and the 
increased presence of homes in the wildland urban interface which has 
caused the cost of fire suppression to soar. These are the most 
significant factors contributing to increased suppression costs.
    The Forest Service uses a cost-effective approach to wildland 
firefighting. All wildfires receive an appropriate, risk informed and 
effective response. Using improved decision support tools, fire 
managers make risk-based assessments to decide when and where to 
suppress a fire--and when and where to use fire to achieve management 
goals for long-term ecosystem health and resilience. Our top priority 
is to ensure the safety of our firefighters and public while protecting 
homes and communities and other high value resources. We strive to 
deploy the right resources in the right place at the right time 
ensuring that the magnitude of our response is commensurate with the 
values at risk. Other less significant factors that do contribute to 
increased costs include increased fuel prices and increased human 
capital salary costs due to inflation; increased human capital benefits 
costs due to new policies affecting firefighters; and the need to 
update/modernize equipment and materials used on the fire line to keep 
pace with today's technology requirements. Most of these kinds of costs 
cannot be easily reduced, but the Forest Service makes every effort to 
be most effective and efficient in obtaining equipment and positioning 
assets as appropriate.

    Question 6. In response to questions for the Senate Energy and 
Natural Resources Committee, Under Secretary Bonnie stated that the 
Forest Service currently is taking increasing lengths of time for 
planning and environmental analysis of forest management projects. 
Specifically, the Forest Service is taking 6.2 months for a project 
that is categorically excluded from NEPA, 19.1 months for a project 
utilizing an environmental assessment, and 37.2 months for a project 
requiring an environmental impact statement. While we all agree that we 
need to address the fire borrowing issue, doesn't this lengthy process 
time seem to be at least as equally concerning in addressing our 
pressing need for more forestry management?
    Answer. The average timeframes for projects with these NEPA 
documents are based on the lapsed time from when the project is 
proposed to when it is decided. The timeframes are a result of many 
factors and do not represent the amount of time actually spent on a 
particular project and do not represent total time spent on NEPA 
compliance. A dominating factor is the reduced staff (including the 
experts needed to conduct NEPA analyses) and budget available for 
project planning as a result of the increasing share of the Agency's 
budget being devoted to fire suppression. It is very simple; fewer 
staff devoted to project development and implementation, generally 
results in longer time horizons.

    Question 7. In the Chief's written testimony, he cited the 
Administration's support for fire borrowing legislation that would only 
require funding 70% of the 10 year average in part because it would 
free $855 million for the agency.
    Can you explain how this number was determined?
    Answer. The proposal calls for funding 70 percent of the rolling 10 
year average, which for FY16 would be $788.4 million. The 
Administration proposes funding 70 percent of the 10 year average 
within the agency's discretionary funding because that amount provides 
for suppression of 98 percent of fires (non-catastrophic fires). 
Analysis has shown that 30 percent of the suppression costs come from 
just two percent of fires (catastrophic fires). The remainder of the 
funding needed to suppress wildfires would come from a newly-created 
``sub cap'' within the disaster cap adjustment in the Budget Control 
Act. The amount available from the disaster cap adjustment is 
calculated by using an out-year suppression forecasting model that 
predicts, within a 90 percent Confidence Interval, the lower, median, 
and upper forecasted spending amounts in future years. We use the upper 
forecasted amount to fully account for what may be needed from the 
disaster cap adjustment. In FY 2016 the upper forecasted amount that 
may be needed for fire suppression is $1.643 billion. So 70% of the 
rolling 10 year average would be allocated within the Forest Service's 
constrained, discretionary budget ($788.4 million for FY 2016), while 
the additional 30% of the rolling 10 year average, plus the amount 
above 100% of the rolling 10 year average that would otherwise need to 
be transferred mid-season from non-fire accounts, would come from the 
sub cap ($855 million is the upper forecast for this combined amount in 
FY 2016).
    The proposal would allow for approximately $300 million--the cost 
of the top 2% of fires that account for 30% of suppression costs--to be 
reallocated back to the other vital land management programs from which 
those dollars have been transferred over time because of the growth in 
the 10 year average. Partially restoring some of those eroded funds 
would allow us to stabilize the pace and scale of our investments in 
restoring forested landscapes, helping forests adapt to the growing 
effects of climate change, and better prepare communities in the 
wildland/urban interface for future wildfires.
    In addition the proposal would prevent the potential need for fire 
transfer later this season of up to $555 million, the scenario 
described above as the upper forecast for needed suppression dollars in 
FY 2016, with those dollars coming from the cap adjustment rather than 
being cannibalized from the authorized dollars for other programs. 
Importantly, this is not ``additional'' funding for the agency; it is 
the prevention of mid-season transfer from other accounts to pay for 
fire suppression.

    Question 7a. Is this number over a 10 year timeframe?
    Answer. The formula would be applied each fiscal year and the 
difference between 70 percent and the full amount of the rolling 10 
year average would change annually, as would the upper forecasted 
suppression amount (which typically exceeds 100% of the rolling 10 year 
average. Therefore, the amount requested from the cap adjustment 
funding would change each fiscal year.

    Question 7b. What safeguards are there to assure that this amount 
of funding would go to hazardous fuels reduction?
    Answer. Under the budget proposal for FY 2016, the Forest Service 
would maintain the substantial increase in funding for Hazardous Fuels 
provided by Congress in FY 2015. This increase would be largely due to 
the ``1% of fires'' funds--approximately $300 million, or 30% of the 10 
year average--that would be restored to non-fire accounts as part of 
this proposal. The agency also proposed an increase in funding for 
other key restoration programs like Landscape Scale Restoration, 
Integrated Resource Restoration and Collaborative Forest Landscape 
Restoration. This increased funding will not only maintain the momentum 
in the hazardous fuel reduction program, but also leverage the 
available funds to stabilize the pace and scale of our investments in 
restoring forested landscapes, help forests adapt to the growing 
effects of climate change, and better prepare communities in the 
wildland/urban interface for future wildfires. The rest of the 
potential funds that could come from the cap adjustment if implemented 
in FY 2016 would avoid the transfer of funds from non-fire accounts as 
allocated by Congress for Forest Service work during FY 2016. They 
would not be ``new'' dollars, rather, would allow the Forest Service to 
implement Congress's budgetary direction without major mid-year and 
end-of-year program disruption from fire transfers.

    Question 7c. What assurances do you have that Congress would 
appropriate this funding for hazardous fuels reductions?
    Answer. The Forest Service cannot guarantee funding for any 
programs but will continue to request necessary funding through the 
Presidential Budget process. It is the responsibility of House and 
Senate Appropriators to appropriate funds.

    Question 7d. Can you be certain that the Appropriators would 
distribute this funding to the Forest Service?
    Answer. The Forest Service cannot guarantee funding for any 
programs but will continue to request necessary funding through the 
Presidential Budget process It is the prerogative of House and Senate 
Appropriators to appropriate funds as they see fit.

    Question 7e. If the additional funding made its way to the Forest 
Service, what assurances can you provide us that this funding would be 
used to reduce future fire risk rather than for other agency 
priorities?
    Answer. The agency's FY 2016 Budget proposal requested substantial 
funding in the hazardous fuels program, as well as increased funding in 
restoration programs like Landscape Scale Restoration, Integrated 
Resource Restoration and Collaborative Forest Landscape Restoration. 
Again--these proposed increases would not increase the overall Forest 
Service budget--but would reinvest dollars within the budget in 
programs other than fire suppression. Mitigating wildfire risk, 
restoring fire adapted ecosystems and building fire adapted communities 
are core principles within the Forest Service's 2016-2020 Strategic 
Plan. We will continue to prioritize all efforts that achieve these 
principles including hazardous fuels treatment, Integrated Resource 
Restoration and other landscape restoration programs.

    Question 8. The approach taken by H.R. 2647 to fix fire-borrowing 
would allow the Secretaries of Agriculture and Interior to access the 
Disaster Relief Fund under FEMA and allow the worst wildfires to be 
treated like other natural disasters. Can you explain the 
Administration's opposition to the House approach?
    Answer. The Administration's fire funding proposal provides the 
necessary resources for the Forest Service and Department of the 
Interior to address wildland fire suppression and rehabilitation needs 
without resorting to detrimental shifts from other critical forest land 
landscape resilience priorities--preventing episodic transfers, and 
mitigating the impact of the annual growth in the rolling 10 year 
average. As described in the response to Question 7, the proposal also 
would ``free up'' an amount equal to 30% of the 10 year average for 
these critical priorities. While H.R. 2647 eliminates the need to 
transfer funds from non-fire programs when available suppression funds 
are exhausted, the requirement in H.R. 2647 to fully fund the rolling 
10 year average for wildland fire suppression would mean that 
significantly less funding is available each year in the agency's 
budget for other important programs, as the rolling 10 year average 
continues to grow while the Forest Service's budget remains 
constrained. As noted above, the chronic problem of fire programs 
increasingly crowding out non-fire programs is real; in FY 2015 alone, 
because of the rising 10 year average, more than $115 million that was 
available for other work in FY 2014 was permanently diverted to fire 
programs. That pattern repeats itself every year, and has resulted in 
the untenable growth of fire programs from consuming 16% of the Forest 
Service's budget to more than 52%--not counting mid-season transfers.

    Question 9. What are some areas where the Forest Service would 
benefit from having Categorical Exclusion authority to more quickly 
reduce the threat of catastrophic wildfire?
    Answer. The Forest Service is interested in further discussion 
about legislation that would authorize the categorical exclusion of 
certain types of forest management activities that are developed 
through a collaborative process, namely, those activities for which the 
primary purpose is the reduction of hazardous fuels in the wildland 
urban interface or in areas to protect municipal water supplies and 
other critical infrastructure.
    Consistent with the requirements of Section 8205 of the 2014 Farm 
Bill, we would not support Categorical Exclusions that contain harvest 
units that exceed 3,000 acres. Any new CE must be consistent with 
objectives found in the land and resource management plans, be based on 
best available science, protect old growth, prohibit permanent roads, 
and comply with other applicable laws, such as the Endangered Species 
Act, the National Historic Preservation Act, and the Clean Water Act.

    Question 10. You imply that fire has grown as a proportion of the 
Forest Service's budget, and it has crowded out funding for non-fire 
programs. Certainly, fire borrowing is disruptive and has to stop. 
However, to understand the impact of the problem, we need a better 
picture on the structure of the Forest Service budget and personnel 
make up. Please provide the Committee with the following:
    In inflation adjusted terms, the total discretionary spending for 
the last decade for non-fire accounts, including preparedness and 
suppression.
    Answer. Please see enclosed spreadsheet[s] with discretionary 
spending for the last decade, [see Attachment 1].

    Question 11. Please provide us with a chart summarizing non-fire 
FTE's at the Forest Service for the last decade. Also, please provide a 
chart showing the number of FTE's associated with the Forest Service 
Washington Office, including detached units, and the Albuquerque 
Service Center.
    Answer. Since 1998, fire staffing within the Forest Service has 
increased 114 percent, from around 5,700 employees in 1998 to over 
12,000 in 2015. Over the same period, staffing levels for those 
dedicated to managing National Forest System lands has decreased by 39 
percent--from approximately 18,000 in 1998 to fewer than 11,000 in 2015 
(see graphic below). The enclosed report, ``The Rising Cost of Wildfire 
Operations'' * shows the impact of rising suppression costs--separate 
from the problem of ``fire borrowing'' or transfer--on the agency's 
non-fire work.
---------------------------------------------------------------------------
     Editor's note: the report entitled, The Rising Cost of Wildfire 
Operations, was also submitted for the record by Hon. Suzan K. DelBene, 
a Representative in Congress from Washington and is located on p. 73.
---------------------------------------------------------------------------
Shifts in Forest Service Staffing Levels 1998-2015
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Image uses figures representing fire staff and all other 
        Forest Service staff to show changes in staffing from 1998 to 
        2015. Fire staffing has increased from 5,700 to 12,000 
        employees while other staffing has decreased from 18,000 to 
        11,000.*
---------------------------------------------------------------------------
    * Editor's note: the text inset under the graphic was set as a 
comment field in the original pdf.

    The Forest Service structure is different from many other large 
Federal agencies in that it has a relatively small Washington, D.C. 
presence. At the end of Calendar Year 2015, approximately 660 Forest 
Service employees had Washington, D.C. duty stations. Of these 
approximately 660 positions, 546 employees are dedicated to 
headquarters leadership roles (such as policy, oversight, and 
direction) and delivery of Forest Service programs. The remaining 114 
positions were assigned to traditional operational support functions 
(e.g., Acquisitions, Information Technology, Human Resources, and 
Budget and Finance) and are part of Forest Service's centralized 
services model implemented over the last decade to increase efficiency 
and streamline processes. Although associated with the Washington 
Office organizationally, the centralized services units are comprised 
of 2,221 employees located throughout the nation, including 991 located 
in Albuquerque.
Employee Data
(as of the end of CY 2015)
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Question 12. Written testimony at the hearing noted the Forest 
Service ``treated'' 4.6 million acres in Fiscal Year 2014. For that 
year and for Fiscal Year 2015 (when available), please provide the 
Committee with a summary of acres treated by the following categories:

  <bullet> Acres treated through the use of prescribed fires

  <bullet> Prescribed fires that took place in the context of wildfire 
        suppression actions, including back burns and jackpot burns.

  <bullet> Wildfires allowed to burn within prescription or to meet 
        resource objectives

  <bullet> Acres treated by mechanical means, including a total figure 
        and the following categories:

    <ctr-circle> Commercial thinning.

    <ctr-circle> Non-commercial or pre-commercial thinning.

    <ctr-circle> Mowing, dragging, mastication, or other means.

    <ctr-circle> Hand thinning without the removal of biomass.

  <bullet> Acres treated with herbicides to reduce noxious weeds

  <bullet> Other noxious weed control activities.

    Please do not include ``lake acres treated.''
    Answer. Please see the trailing table regarding the treatments in 
Fiscal Year 2014 and Fiscal Year 2015. Please note the acres reported 
in the table are a subset of the 4.6 million acres treated in FY 14. 
Treatments not included are: terrestrial acres treated, soil and water 
accomplishments, acres of range vegetation improved, portions of 
hazardous fuel accomplishments in and out of the Wildland Urban 
Interface, as well as other measures that make up total restoration 
accomplishments.

------------------------------------------------------------------------
                                                    2014         2015
------------------------------------------------------------------------
Acres treated through the use of prescribed       1,357,791    1,131,388
 fires
Prescribed fires that took place in the                 N/A          N/A
 context of wildfire suppression actions,
 including back burns and jackpot burns
Wildfires allowed to burn within prescription       246,018      436,090
 or to meet resource objectives
Acres of forestlands treated using timber           192,563      204,420
 sales (commercial thinning)
Acres of forestland vegetation improved (non-       123,266       98,937
 commercial or pre-commercial)
Mowing, dragging, mastication, or other means           N/A          N/A
Hand thinning without the removal of biomass            N/A          N/A
Acres treated for noxious weeds/invasive            229,587      229,482
 plants on NFS lands (incorporates herbicides
 and other)
------------------------------------------------------------------------

    Question 13. The Forest Service has said they are using the 
Categorical Exclusion provided for Insect & Disease Treatment Areas 
under the farm bill for 20 projects. Please provide the Committee with 
a list of those projects by Region and Forest, and the number of acres 
expected to be treated under each.
    Answer. See table below.

     Table: Projects Using Insect and Disease Categorical Exclusion
------------------------------------------------------------------------
                                     National    Project       Brief
               State     Region       Forest       Name     Description
------------------------------------------------------------------------
     1       Alabama           8   Alabama      Bank Head  Pine Thinning
                                                 2016
                                                 Forest
                                                 Health
                                                 project
     2       Arkansas          8   Ouachita     PCS FY16   1,689 acres
                                                 Farm       of thinning,
                                                 Bill       including
                                                 Thinning   Shortleaf
                                                            Pine
     3       Arkansas          8   Ouachita     Mena Oden  Thin
                                                 Farm       approximatel
                                                 Bill       y 810 acres
                                                 Thinning
     4       Californ          5   Shasta-      Pilgrim    Treat 555
              ia                    Trinity      Plantati   acres by
                                                 on         thinning
                                                            from below,
                                                            prescribed
                                                            burn, and
                                                            apply borax
                                                            fungicide
                                                            and site
                                                            prep and
                                                            plant as
                                                            needed.
     5       Colorado          2   Grand Mesa/  Grand      890 acres
                                    Uncompahgr   Mesa       salvage
                                    e            Resort
     6       Colorado          2   Medicine     Morrison   Timber
                                    Bow-Routt    II         salvage
     7       Georgia           8   Chattahooch  Oconee     Divide Forest
                                    ee                      Health
                                                            Thinning135
                                                            acres
                                                            Loblolly
                                                            salvage.
     8       Idaho             4   Boise        Williams   This project
                                                 Creek      proposes
                                                            1,457 acres
                                                            commercial
                                                            and 128
                                                            acres non-
                                                            commercial
                                                            thinning and
                                                            fuel
                                                            reduction
                                                            activities
                                                            to improve
                                                            forest
                                                            resiliency.
     9       Idaho             1   Idaho        Jasper     Commercial
                                    Panhandle    Mountain   harvest
                                                            1,961 acres
                                                            and
                                                            prescribed
                                                            burn 72
                                                            acres
    10       Idaho             1   Idaho        Halfway    480 acres
                                    Panhandle    Malin      prescribed
                                                            burn, 885
                                                            acres
                                                            commercial
                                                            harvest, 2
                                                            culvert
                                                            replacement,
                                                            logjam
                                                            removal and
                                                            road
                                                            decommission
                                                            ing.
    11       Idaho             1   Idaho        Bottom     2,293 acres
                                    Panhandle    Canyon     commercial
                                                            timber
                                                            harvest, 115
                                                            miles road
                                                            decommission
                                                            ing, 64
                                                            miles road
                                                            storage,
                                                            improve 11
                                                            culverts and
                                                            57 stream
                                                            crossings,
                                                            134 acres
                                                            prescribed
                                                            burn, 112
                                                            acres
                                                            mastication/
                                                            planting.
    12       Idaho             1   Nez Perce    Lowell     330 acres of
                                    Clearwater              timber
                                                            harvest.
    13       Idaho             4   Salmon-      Big Hill   600 acres
                                    Challis      Insect     thinning, 75
                                                 and        acres of
                                                 Disease    Sagebrush
                                                            improvement,
                                                            600 acres
                                                            prescribed
                                                            Burn.
    14       Idaho             4   Sawtooth     Redfish    3,000 acres
                                                 Road       prescribed
                                                 #210       burn, hand
                                                 Fuels      cut 592
                                                 Reductio   acres
                                                 n
    15       Montana           1   Beaverhead-  Boulder    1,913 acres
                                    Deerlodge    Lowlands   of timber
                                                            sales and
                                                            biomass
                                                            removal
    16       Montana           1   Flathead     Radnor     2,000 acres
                                                 Resource   of timber
                                                            sales and
                                                            prescribed
                                                            burn
    17       Montana           1   Kootenai     Helwick    635 acres of
                                                            timber
                                                            sales.
    18       Montana           1   Lolo         Little     131 acre
                                                 Eddy       timber sale
    19       Montana           1   Bitterroot   Westside   Commercial
                                                            timber
                                                            harvest and
                                                            thinning on
                                                            about 2,300
                                                            acres.
                                                            Project
                                                            includes
                                                            prescribed
                                                            burning,
                                                            forest
                                                            regeneration
                                                            , permanent
                                                            and
                                                            temporary
                                                            road
                                                            construction
                                                            , and bridge
                                                            installation
                                                            .
    20       Montana           1   Lewis and    Upper      Treat 1,914
                                    Clark        Sheep      acres with
                                                 Creek      commercial,
                                                 Veg.       noncommercia
                                                            l harvesting
                                                            and
                                                            prescribed
                                                            burning.
    21       New York          9   Green        Hemlock    2,971 acres
                                    Mountain/    Wooly      of soil
                                    Finger       Adelgid    treatment
                                    lakes                   and basal
                                                            spray
    22       North             8   NF in NC     Shortleaf  Under
              Carolin                            Pine       development
              a
    23       Oklahoma          8   Ouachita     Tiak       1,000 acres
                                                            thinning
    24       Oregon            6   Deschutes    Shield     Under
                                    NF           I&D        Development
    25       Utah              4   Uinta-       Western    1,872 acres
                                    Wasatch      Smiths     of Mountain
                                    Cache        Fork       Pine Beetle
                                                 Restorat   treatment
                                                 ion #
                                                 48074
    26       Utah              4   Dixie        Upper
                                                 Mammoth
                                                 Creek
    27       Wyoming           2   Medicine     North      5,500 acres
                                    Bow-Routt    Savery     of Lodge
                                                            pole salvage
                                                            and 1,000
                                                            acres of pre-
                                                            commercial
                                                            thinning.
------------------------------------------------------------------------


    Question 13a. Also, please provide any notices of intent to sue or 
lawsuits filed against any project being conducted under the Insect & 
Disease Treatment Areas authority, including CE's and other NEPA 
documents.
    Answer. The FS has no formal process by which it tracks Notices of 
Intent. The Agency is not aware of any such projects that have 
``Notices of Intent'' to sue or lawsuits filed.

    Question 14. Written testimony at the hearing noted the Forest 
Service is ``interested in ideas that will help us pursue treatment at 
the landscape scale quickly, efficiently, and in a reasonable time to 
address problems before they can worsen. As a general matter, the 
Forest Service welcomes legislation that incentivizes collaboration and 
expands the toolset we can use to complete critical work on our 
nation's forests, without overriding environmental laws, mandating 
harvest levels, or requiring new layers of zoning on the NFS.''
    H.R. 2647, which was approved by this Committee:

  <bullet> Incentivizes collaboration by providing streamlined NEPA 
        tools and protection from frivolous lawsuits for projects 
        developed by collaborative groups.

  <bullet> Expands the toolset the FS can use to complete critical work 
        by providing a series of targeted Categorical Exclusions for 
        certain projects.

  <bullet> Does not override environmental laws or mandate harvest 
        levels, and requires no new layers of zoning on the NFS.

    Without discussing fire borrowing, please provide the Committee 
with a list of specific provisions in H.R. 2647 which the Forest 
Service find objectionable.
    Answer. H.R. 2647 includes several provisions that will undermine 
collaborative, landscape-scale forest restoration by undermining public 
trust in forest management projects and by limiting public 
participation in decision-making. The Administration has substantial 
concerns with the design and scale of the categorical exclusions, 
provisions related to post-fire salvage and restoration (including 
unrealistic timelines for environmental assessments), and unrealistic 
targets for reforestation given current budgetary resources.
    The Administration has serious concerns with provisions in the bill 
related to the Resource Advisory Committees (RACs). The Administration 
opposes provisions that limit the discretion of RACs by requiring 50 
percent of Secure Rural Schools Act Title II funding be spent on timber 
management projects. H.R. 2647 also assumes RACs can fulfill the role 
of local forest collaboratives in designing forest restoration 
projects, though the RACs were not specially set up do this and in many 
cases may not have the breadth of stakeholder interest and expertise to 
do so effectively. Additionally, the Administration opposes 
restrictions in the bill on the membership of RACs.
    Furthermore, the Administration opposes provisions in the bill that 
require litigants to post a bond when challenging forest restoration 
projects. As the Forest Service has demonstrated, the best way to 
address concerns about litigation is to develop restoration projects in 
partnership with broad stakeholder interests through a transparent 
process informed by the best available science. Lastly, the bill should 
include stronger protections for ecologically sensitive areas, tribal 
sacred sites, and other important lands.

    Question 14a. Are their pieces of this legislation that the Forest 
Service would find helpful to prevent and suppress wildfires? If so, 
please provide that list.
    Answer. The Administration appreciates that there is bipartisan 
agreement that wildland fire management funding needs a legislative 
fix. We look forward to working with the committee to find an agreeable 
solution that addresses the rising 10 year average of suppression costs 
and stops the practice of transferring funds from non-fire accounts to 
pay for fire suppression.

    Question 15. During the hearing, Chief Tidwell said only 16 percent 
of projects receive any kind of administrative objection or are 
litigated. However, the Committee is aware that in 2014, in Region 1, 
74 percent of projects covered by either CE's or EIS, and fully 90 
percent of projects covered by EIS's, were either litigated or objected 
to. These objections and lawsuits covered more than \1/2\ of the acres 
the Forest Service proposed to manage. Can you provide, for the fiscal 
year just ended, a list of all CEs and EIS's completed, and whether the 
project received an administrative objection, notice of intent to sue, 
or an actual lawsuit?
    Answer. Direct year-to-year comparisons are difficult to make due 
to a number of variables, including budgetary concerns, decision 
timing, and local or regional conditions and events.
    Table 2 (below) shows data for FY 2015. In FY 2015, 36 lawsuits 
were filed against the Agency on land management decisions. Of these 36 
lawsuits, only 13 (36%) challenged project NEPA decisions made in FY 
2015. The remaining 23 lawsuits (64%) were either challenging project 
decisions from previous fiscal years (2009-2014), alleged violations of 
law, policy and regulation on non-NEPA decisions or plaintiffs simply 
claimed the Agency ``failed to act'' under the APA. Those 23 lawsuits 
that do not involve NEPA or were related to previous-year project 
decisions are not included in Table 2.
    Table 2 also shows the number of NEPA decisions for each 
administrative unit by Decision Memo, Decision Notice, and Record of 
Decision. These projects are summarized on the enclosed documents 
(2015DM--ByAdministrativeUnit.pdf [Attachment 2]; 2015DN--
ByAdministrativeUnit.pdf [Attachment 3]; 2015ROD--
ByAdministrativeUnit.pdf [Attachment 4]--Litigated projects are 
highlighted). Last, Table 2 summarizes the number of objections filed 
in FY 2015 (Total of 100). Approximately 30% of all decisions receive 
objections. A summary of those projects is also enclosed (20160108--
USFSProjectsWithObjections--FY2015.xls [Attachment 5]). The Forest 
Service does not track ``Notices of Intent'' to sue.

                                      Table 2: Summary of Litigation/Objections Filed on Forest Service Land Management Decisions in Fiscal Year (FY) 2015
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                             Litigation                                                                              Objections
                 -------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
 Administrative         Decision Memos            Decision Notices           Record of Decision
   Unit (USFS    ------------------------------------------------------------------------------------      Total                          % of
     Region)                    Litigation                 Litigation                    Litigation      Completed    Total Projects    Affected    Total  Completed   Objections    % Objected
                   Completed    Cases Filed   Completed    Cases Filed     Completed     Cases Filed   Decisions vi     Affected vii    Projects     Decisions viii       Filed          To
                   Decisions        ii        Decisions        iii       Decisions iv         v                                         Litigated
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
            1            170             0           23             0             10              3            203               4          1.9                33              25        75.8
            2            222             0           34             0             13              1            269               4          1.5                47              14        29.8
            3             94             0           15             0              4              1            113               1          0.9                19               8        42.1
            4            105             1           31             0              8              0            144               4          2.8                39               7        17.9
            5            179             0           38             2              6              1            223               3          1.3                44               7        15.9
            6            174             0           48             0              6              0            228               0          0.0                54              25        46.3
            8            208             0           41             0              2              0            251               0          0.0                43               6        13.9
            9            290             1           33             0              0              0            323               0          0.0                33               3         9.1
           10             51             0           16             1              2              0             69               1          1.4                18               5        27.8
     Other xi              1             0            0             0              0              0              1               1        100.0                 0               0         0.0
   Multiple x              0             0            0             0              0              2
                 -------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
  Totals........       1,494             2          279             3             51              8          1,824              18          1.0%              330             100        30.3%
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
i Data from Planning, Appeals and Litigation (PALs) and CARA. Management decisions analyzed through the NEPA process using a categorical exclusion, environmental assessment or environmental
  impact statement.
ii Not all filed cases result in court decisions. Plaintiffs may drop the case after filing and/or the Forest Service may settle through negotiations.
iii Not all filed cases result in court decisions. Plaintiffs may drop the case after filing and/or the Forest Service may settle through negotiations.
iv The ROD's include 2 Forest Plan Revisions in R1, 1 in R2, 2 in R3, 1 in R8.
v Not all filed cases result in court decisions. Plaintiffs may drop the case after filing and/or the Forest Service may settle through negotiations.
vi Total of all signed decisions documented by a Decision Memo, Decision Notice and Record of Decision.
vii Total number of documented projects in the PALs database affected by litigation filed in FY 2015. Data adjusted to reflect sage grouse lawsuits (Refer to endnote x).
viii Total number of projects eligible for objections--Only includes Decision Notices and Records of Decision (Categorical exclusions are excluded from the objection process as they have, by
  definition, non-significant environmental effects).
ix Decisions made by the Washington Office, Wood Products Lab and Research Stations.
x Litigation directly naming multiple projects across multiple administrative units (i.e., 2 lawsuits filed on Sage Grouse that impact one (1) project in R1, three (3) projects in R2, and four
  (4) projects in R4).

Questions Submitted by Hon. Dan Newhouse, a Representative in Congress 
        from Washington
    Question 1. Before I start I want to thank Chief Tidwell for 
visiting Washington State during this fire season. I also want to give 
my condolences to the Forest Service. The Forest Service and all the 
State of Washington continues to mourn Andrew, Rick, Tom, who we lost 
in the line of duty.
    Chief Tidwell, there are severe forest management deficiencies 
plaguing our Federal lands. What else is being done to promote 
resiliency and fire prevention in our National Forests? What other 
tools do you need?
    Answer. The Forest Service has increased the impact and rate of 
restoration nationally. In 2014, the agency accomplished treatments on 
4.6 million acres to restore watershed function on NFS land and to 
reduce the threat of fire in the wildland-urban interface on NFS and 
State and private lands. This represents an increase of nearly 400,000 
acres (9 percent) compared to 2011 despite mounting challenges such as 
record droughts, longer and drier wildfire seasons, a reduction in non-
fire personnel to support the agency's mission, and a rapidly 
increasing percentage of the budget being spent on wildland fire 
management.
    The number one factor influencing our ability to promote resiliency 
and health of our forests and grasslands is capacity, and the primary 
driver of capacity is the impact of fire costs on the agency budget. We 
appreciate the tools Congress provided such as the Collaborative Forest 
Landscape Restoration Program, Stewardship Contracting, and the 2014 
Farm Bill reforms such as Good Neighbor Authority, and Insect and 
Disease priority designations and as noted above, are implementing them 
as aggressively as capacity permits.

    Question 2. Chief Tidwell--one of the concerns raised by these 12 
counties composing the Evergreen Forest County Group--a letter from 
which was submitted for the record--is that of the state's timber 
sales, only 3% of timber comes from Federal lands and this overstocked 
Federal land is contributing to catastrophic fires. Do you agree with 
this assessment? If so what do steps will you take to reverse this 
trend?
    Answer. Overstocked forest conditions are common across all land 
jurisdictions, including federal lands and those conditions are one 
factor contributing to the size and severity of wildfires, especially 
in the West. The Forest Service is working to restore the structure and 
function of forest lands which will reduce the threat of 
uncharacteristically severe wildfires and provide forest products. We 
are doing this through the use of new initiatives and authorities, such 
as the Collaborative Forest Landscape Restoration Program, Stewardship 
Contracting, and the 2014 Farm Bill reforms such as Good Neighbor 
Authority, and Insect and Disease priority designations that allow us 
to plan and implement at landscape scales and increase our efficiency 
through strategic partnerships or streamlined planning processes. In FY 
2016, our goal is to increase timber volume sold by 10 percent over 
last year.

    Question 3. How has litigation affected the Forest Service's active 
forest management?
    Answer. When it occurs, litigation directly affects the Agency's 
program of work in several ways. First, litigation is costly to the 
Agency in terms of time and dollars spent in defending the case. The 
funding and personnel utilized on defending the case are not available 
to implement other projects. Second, once litigation is filed, it 
usually takes more than one year before a case is resolved, and 
projects are occasionally placed on hold under court order. At times, 
these delays can prevent implementation, where the value of the project 
is time sensitive (e.g., salvageable timber can only be sold if it 
maintains its value). Third, when litigation is on a rule, rather than 
projects or plans, it can throw a cloud of uncertainty over any plans 
or projects developed under the rules' direction, and an adverse 
decision can have broad impacts. Last, the threat of litigation can 
contribute to an increased workload by the amount of data collected and 
analyzed in order to lessen a perceived legal vulnerability.
    However, only a small percentage of projects are litigated, as 
detailed above: the vast majority of the agency's NEPA decisions do not 
draw litigation. The Forest Service strongly supports transparency in 
decision-making and does not support restricting public access to the 
courts. The Forest Service has placed an emphasis on collaboration over 
the last decade that has served us well. We have a number of 
collaborative projects and programs underway across the National Forest 
System that exemplify the success that can be achieved when diverse 
groups come together with a common cause of a healthy landscape. 
Through an emphasis on collaboration, the Forest Service has 
consistently increased both the number of acres treated annually to 
improve watershed resilience and timber production--increasing timber 
harvest by 18 percent since 2008. The pre-decision objection process is 
also helping to resolve differences prior to a decision being 
finalized.

    Question 4. A map of Washington State, submitted for the record,* 
was provided to me by the long-term fire recovery group in my district. 
This graphic that shows the success state and tribal forest management 
has had, compared with Federal land in the State of Washington. How can 
the Forest Service utilize more local expertise when responding to 
forest fires? Or employ similar management techniques that have shown 
to be successful in the state?
---------------------------------------------------------------------------
    * Editor's note: See, Supplemental graphic submitted by Rod 
Haeberle, Owner, Haeberle Ranch on page 44.
---------------------------------------------------------------------------
    Answer. The Forest Service works extensively with our state and 
local partners to support wildland fire management operations. These 
cooperators are essential to ensuring that every wildfire receives an 
appropriate, risk informed, and effective response regardless of the 
jurisdiction. For any response, the concept of nearest available asset 
is implemented. Depending on the situation, nearest available assets 
may be state and or local assets. Implementing these assets enables a 
more efficient and timely response than transporting a Forest Service-
owned asset from further distances.
    The Forest Service relies on states and other cooperators, and in 
turn, those cooperators rely on the Forest Service to meet their 
operational objectives. It is neither financially prudent nor 
operationally optimal for all entities to maintain exclusive and 
duplicative resources. Every fire season is unique. In some seasons the 
majority of fire activity occurs on Forest Service lands, in other 
seasons it occurs on state and local lands. Sometimes we are equally 
burdened. Across multiple years the costs of leveraging each other's 
assets is more financially and operationally effective than maintaining 
exclusive assets.
    The Forest Service is continually working to increase productivity 
and efficiency in forest management. The Good Neighbor Authority 
provided in the 2014 Farm Bill establishes a framework for increasing 
cooperation with states. Agreements with several states have already 
been executed and more are being developed. These agreements allow 
state management processes to be applied on Federal land when they meet 
Federal requirements. While we are excited about the potential of this 
authority, we will continue to look for and try new ideas to improve 
forest management on Forest Service lands.

    Question 5. Does the Forest Service need more authority from 
Congress to employ any new techniques demonstrated successful in 
Washington or other states?
    Answer. As mentioned in response to Question 1, more than new 
tools, the Forest Service requires a comprehensive fix to the fire 
budget that both ends fire transfer and addresses the chronic drain on 
non-fire programs.
                             [attachment 1]

                                           Fire vs. Non-Fire Bar Data
----------------------------------------------------------------------------------------------------------------
      Values               Fire             Non-Fire         Grand Total
----------------------------------------------------------------------------------------------------------------
       FY 1991             297,934          2,017,955          2,315,889              813%0              887%0
       FY 1992             298,000          2,051,934          2,349,934              813%0              887%0
       FY 1993             374,574          1,984,541          2,359,115              816%0              884%0
       FY 1994             564,290          2,008,609          2,572,899              822%0              878%0
     8FY 19950           8385,6380        81,972,0260        82,357,6640              816%0              884%0
       FY 1996             485,485          1,906,031          2,391,516
       FY 1997             830,016          1,830,497          2,660,513
       FY 1998             584,559          2,131,309          2,715,868
       FY 1999             560,176          2,088,541          2,648,717
       FY 2000             617,956          2,192,977          2,810,933
       FY 2001           1,376,370          2,507,400          3,883,770
       FY 2002           1,214,349          2,570,067          3,784,416
       FY 2003           1,370,968          2,604,609          3,975,577
       FY 2004           1,622,963          2,569,203          4,192,166
       FY 2005           1,703,016          2,535,104          4,238,120
       FY 2006           1,746,091          2,454,881          4,200,972
       FY 2007           1,823,603          2,504,193          4,327,796
       FY 2008           1,943,477          2,543,751          4,487,228
       FY 2009           2,131,630          2,630,936          4,762,566
       FY 2010           2,591,737          2,797,375          5,389,112
       FY 2011           2,458,460          2,638,286          5,096,746
       FT 2012           2,289,848          2,556,028          4,845,876
       FY 2013           2,167,762          2,384,707          4,552,469
       FY 2014           2,477,302          2,419,309          4,896,611              851%0              849%0
     8FY 20150         82,636,3580        82,436,8880        85,073,2460              852%0              848%0
----------------------------------------------------------------------------------------------------------------
8All WFM vs. All other mainheads.0


                     Fire vs. Non-Fire Bar Data (2)
------------------------------------------------------------------------
      Values              Fire            Non-Fire         Grand Total
------------------------------------------------------------------------
       FY 1995             385,638         1,972,026         2,357,664
       FY 1996             485,485         1,906,031         2,391,516
       FY 1997             830,016         1,830,497         2,660,513
       FY 1998             584,559         2,131,309         2,715,868
       FY 1999             560,176         2,088,541         2,648,717
       FY 2000             617,956         2,192,977         2,810,933
       FY 2001           1,376,370         2,507,400         3,883,770
       FY 2002           1,214,349         2,570,067         3,784,416
       FY 2003           1,370,968         2,604,609         3,975,577
       FY 2004           1,622,963         2,569,203         4,192,166
       FY 2005           1,703,016         2,535,104         4,238,120
       FY 2006           1,746,091         2,454,881         4,200,972
       FY 2007           1,823,603         2,504,193         4,327,796
       FY 2008           1,943,477         2,543,751         4,487,228
       FY 2009           2,131,630         2,630,936         4,762,566
       FY 2010           2,591,737         2,797,375         5,389,112
       FY 2011           2,458,460         2,638,286         5,096,746
       FT 2012           2,289,848         2,556,028         4,845,876
       FY 2013           2,167,762         2,384,707         4,552,469
       FY 2014           2,477,302         2,419,309         4,896,611
       FY 2015           2,636,358         2,436,888         5,073,246
------------------------------------------------------------------------


                                         Fire vs. Non-Fire Bar Data (3)
----------------------------------------------------------------------------------------------------------------
      Values                1                  2             Grand Total
----------------------------------------------------------------------------------------------------------------
       FY 1991             289,527          2,026,362          2,315,889              813%0              887%0
       FY 1992             290,281          2,059,653          2,349,934              812%0              888%0
       FY 1993             362,379          1,996,736          2,359,115              815%0              885%0
       FY 1994             551,594          2,021,305          2,572,899              821%0              879%0
       FY 1995           8369,2320        81,988,4320        82,357,6640              816%0              884%0
       FY 1996             485,485          1,906,031          2,391,516
       FY 1997             830,016          1,830,497          2,660,513
       FY 1998             584,559          2,131,309          2,715,868
       FY 1999             560,176          2,088,541          2,648,717
       FY 2000             617,656          2,193,277          2,810,933
       FY 2001             930,467          2,953,303          3,883,770
       FY 2002             877,939          2,906,477          3,784,416
       FY 2003           1,029,960          2,945,617          3,975,577
       FY 2004           1,268,751          2,923,415          4,192,166
       FY 2005           1,325,329          2,912,791          4,238,120
       FY 2006           1,350,891          2,850,081          4,200,972
       FY 2007           1,406,859          2,920,937          4,327,796
       FY 2008           1,511,439          2,975,789          4,487,228
       FY 2009           1,668,947          3,093,619          4,762,566
       FY 2010           2,085,505          3,303,607          5,389,112
       FY 2011           1,959,579          3,137,167          5,096,746
     [FY] 2012           1,857,681          2,988,195          4,845,876
       FY 2013           1,757,430          2,795,039          4,552,469
       FY 2014           2,053,068          2,843,543          4,896,611              842%0              858%0
       FY 2015           2,156,900        82,916,3460        85,073,2460              843%0              857%0
----------------------------------------------------------------------------------------------------------------
8\1\ Means Suppression, Preparedness, FLAME.0
8\2\ Means all other BLIs.0

Forest Service Approprations: Fire vs. Non-Fire
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                         Sum of FY 1999 Enacted
------------------------------------------------------------------------
 
------------------------------------------------------------------------
               Fire 13%                                   13%
           Non-Fire 87%                                   87%
                                     -----------------------------------
  Grand Total.......................                     100%
------------------------------------------------------------------------

FY 1999 Forest Service Appropriations: Fire vs. Non-Fire
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                                 FY 1999
------------------------------------------------------------------------
 
------------------------------------------------------------------------
 National Forest System                                   56%
Wildland Fire Management                                  13%
State and Private Forestry                                 8%
Capital Improvement and Maintenance                       12%
                       Land Acquisition, Special Acts &    4%
               Exchanges
Forest & Rangeland Research                                7%
                                     -----------------------------------
  Grand Total.......................                     100%
------------------------------------------------------------------------

Forest Service FY 1991 Appropriations by Fund
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                         Sum of FY 2015 Enacted
------------------------------------------------------------------------
 
------------------------------------------------------------------------
               Fire 52%                                   52%
           Non-Fire 48%                                   48%
                                     -----------------------------------
  Grand Total.......................                     100%
------------------------------------------------------------------------

FY 2015 Forest Service Appropriations: Fire vs. Non-Fire
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                                 FY 2015
------------------------------------------------------------------------
 
------------------------------------------------------------------------
 National Forest System                                   29%
Wildland Fire Management                                  52%
State and Private Forestry                                 5%
Capital Improvement and Maintenance                        7%
                       Land Acquisition, Special Acts &    1%
               Exchanges
Forest & Rangeland Research                                6%
                                     -----------------------------------
  Grand Total.......................                     100%
------------------------------------------------------------------------


 Forest Service Enacted Appropriations Fire vs. Non-Fire Real (Inflation
                      Adjusted) to FY 2015 Dollars
------------------------------------------------------------------------
                                   Fire                  Non-Fire
------------------------------------------------------------------------
             1990                   968,987               2,993,817
             1991                   499,875               3,385,734
             1992                   478,015               3,291,459
             1993                   581,187               3,079,202
             1994                   859,682               3,060,068
             1995                   571,047               2,920,146
             1996                   704,884               2,767,398
             1997                 1,180,252               2,602,899
             1998                   826,561               3,013,651
             1999                   783,696               2,921,904
             2000                   844,203               2,995,872
             2001                 1,835,105               3,343,100
             2002                 1,597,017               3,379,952
             2003                 1,765,537               3,354,224
             2004                 2,039,409               3,228,450
             2005                 2,074,692               3,088,380
             2006                 2,060,220               2,896,525
             2007                 2,098,789               2,882,081
             2008                 2,163,166               2,831,294
             2009                 2,365,470               2,919,550
             2010                 2,836,342               3,061,388
             2011                 2,636,151               2,828,975
             2012                 2,404,926               2,684,483
             2013                 2,240,236               2,464,434
             2014                 2,523,696               2,464,617
             2015                 2,636,358               2,436,888
------------------------------------------------------------------------
Inflators/Deflators: http://www.whitehouse.gov/sites/default/files/omb/
  budget/fy2015/assets/hist.pdf. Table 10.1.
Excludes Supplemental and Emergency Funding, Fire Transfers and
  Repayments, and Recissions (except FY 2012 the Recission was already
  included in the enacted appropriation.

Forest Service FY 2015 Appropriations by Fund
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                                                                                 FY 1990 to [FY] 2015 FS Funding
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                                                FY 1999
                           FY 1990      FY 1991      FY 1992      FY 1993      FY 1994      FY 1995      FY 1996      FY 1997      FY 1998     Enacted       FY 2000      FY 2001      FY 2002
                           Enacted      Enacted      Enacted      Enacted      Enacted      Enacted      Enacted      Enacted      Enacted                   Enacted      Enacted      Enacted
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                   Forest & Rangeland Research
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Forest & Rangeland           150,925      167,627      180,509      182,715      193,083      193,509      177,854      179,786      187,796      197,444      217,694      230,511      241,304
 Research
                        ------------------------------------------------------------------------------------------------------------------------------------------------------------------------
  Forest and Rangeland       150,925      167,627      180,509      182,715      193,083      193,509      177,854      179,786      187,796      197,444      217,694      230,511      241,304
   Research Total
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                   State and Private Forestry
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Landscape Scale
 Restoration
Forest Health                                                                                  27,097       25,165       33,165       37,032       37,325       40,303       41,292       43,304
 Management--Federal
 Lands
Forest Health                                                                    109,626        7,805        7,806       15,000       27,966       17,200       21,772       22,511       25,000
 Management--Cooperativ
 e Lands
Forest Health                                                                                  13,689       17,001       18,001       20,137
 Management--Cooperativ
 e Lands Fire Mgt
Forest Health                                                                                                                                                                12,472
 Management--Emergency
 Pest Mgt
Forest Management and         25,321       74,206       68,116       77,582       55,689
 Utilization
State Fire Assistance                                                                                                                              21,510       23,929       24,945       25,310
Volunteer Fire                                                                                                                                      2,000        3,240        4,989        5,053
 Assistance
Fire Protection               17,078       15,749       16,618       16,885
Forest Stewardship                                                                             25,908       23,378       23,378       32,303       28,830       29,833       32,782       33,171
Forest Legacy Program                                                                                        3,000        2,000        4,000        7,012       29,933       59,868       65,000
Community Forest & Open
 Space Conservation
Urban and Community                                                                            28,310       25,454       25,505       40,929       30,540       30,896       35,642       36,000
 Forestry
Economic Action                                                                   16,020       14,517       17,150       11,465       17,305       20,198       41,538       35,680
 Programs
Forest Resources Info &                                                                                                                                                       4,989        5,015
 Analysis
International Forestry                                                             6,996        4,987                                                                         4,989        5,263
Emergency Pest                                                       14,671       12,253       14,415       16,661
 Suppression Fund
Forest Pest Management        47,586       60,150       57,205       40,605
Stewardship Incentives                                                                         18,283        4,500        4,500       16,240                                               3,000
 Program
Pacific Northwest                                                                              17,066       16,012       16,762       14,985        9,000        7,856        9,579        9,425
 Assistance Prog
Special Projects              19,663       32,309       20,848       21,155
                        ------------------------------------------------------------------------------------------------------------------------------------------------------------------------
  State and Private          109,648      182,414      162,787      170,898      184,564      173,580      153,494      155,461      205,057      170,722      207,960      295,596      291,221
   Forestry Total
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                     National Forest System
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
IRR
Collaborative Forest
 Landscape Restoration
Restoration
 Partnerships
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------


                                                                                 FY 1990 to [FY] 2015 FS Funding
                                                                                           [Continued]
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                                                FY 2012
                           FY 2003      FY 2004      FY 2005      FY 2006      FY 2007      FY 2008      FY 2009      FY 2010      FY 2011     Enacted w/    FY 2013      FY 2014      FY 2015
                           Enacted      Enacted      Enacted      Enacted      Enacted      Enacted      Enacted      Enacted      Enacted     Recission     Enacted      Enacted      Enacted
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                   Forest & Rangeland Research
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Forest & Rangeland           250,049      266,387      276,384      277,711      280,488      285,926      296,380      312,012      306,637      295,300      279,854      292,805      296,000
 Research
                        ------------------------------------------------------------------------------------------------------------------------------------------------------------------------
  Forest and Rangeland       250,049      266,387      276,384      277,711      280,488      285,926      296,380      312,012      306,637      295,300      279,854      292,805      296,000
   Research Total
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                   State and Private Forestry
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Landscape Scale                                                                                                                                                              14,000       14,000
 Restoration
Forest Health                 50,047       53,829       54,236       53,163       53,963       54,110       54,110       57,282       56,737       47,425       44,944       58,922       58,922
 Management--Federal
 Lands
Forest Health                 30,836       44,741       47,629       46,904       47,104       44,542       46,292       48,573       48,821       39,999       36,894       45,655       45,655
 Management--Cooperativ
 e Lands
Forest Health
 Management--Cooperativ
 e Lands Fire Mgt
Forest Health
 Management--Emergency
 Pest Mgt
Forest Management and
 Utilization
State Fire Assistance         45,486       33,384       32,920       32,895       32,895       32,605       35,000       39,147       32,358       30,488       25,759
Volunteer Fire                 5,007        5,037        5,917        5,912        5,912        5,906        6,000        7,000        6,680        6,669        6,320
 Assistance
Fire Protection
Forest Stewardship            32,012       31,884       32,320       34,144       41,947       29,532       27,000       29,369       32,548       28,814       30,441       22,398       23,036
Forest Legacy Program         68,380       64,134       57,134       56,524       56,536       52,317       49,445       76,460       52,894       53,303       50,515       50,965       53,000
Community Forest & Open                                                                                                                1,000        1,997        1,892        2,000        2,000
 Space Conservation
Urban and Community           35,999       34,864       31,950       28,413       30,130       27,691       29,541       30,377       32,040       31,327       30,701       28,040       28,040
 Forestry
Economic Action               26,268       25,606       19,032        9,537                     4,206        4,973        5,000
 Programs
Forest Resources Info &        4,964        4,939        4,958        4,588        4,588        4,516        5,000        5,035        5,026        4,917        4,660
 Analysis
International Forestry         5,713        5,926        6,410        6,886        6,886        7,383        8,500        9,818        9,492        7,987        7,570        8,000        8,000
Emergency Pest
 Suppression Fund
Forest Pest Management
Stewardship Incentives
 Program
Pacific Northwest
 Assistance Prog
Special Projects
                        ------------------------------------------------------------------------------------------------------------------------------------------------------------------------
  State and Private          304,712      304,344      292,506      278,966      279,961      262,808      265,861      308,061      277,596      252,926      239,696      229,980      232,653
   Forestry Total
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                     National Forest System
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
IRR                                                                                                                                                                                            0
Collaborative Forest                                                                                                                  14,970       39,936       37,885       40,000       40,000
 Landscape Restoration
Restoration                                                                                                                                                                   2,000
 Partnerships
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------


                                                                             FY 1990 to [FY] 2015 FS Funding--Cont.
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                                                FY 1999
                           FY 1990      FY 1991      FY 1992      FY 1993      FY 1994      FY 1995      FY 1996      FY 1997      FY 1998     Enacted       FY 2000      FY 2001      FY 2002
                           Enacted      Enacted      Enacted      Enacted      Enacted      Enacted      Enacted      Enacted      Enacted                   Enacted      Enacted      Enacted
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Land Management                                                                  147,846      149,732      130,088      130,088
 Planning, Assessment &
 Monitoring
Land Management                                                                                                                       36,174       40,000       50,167       78,134       70,358
 Planning
Inventory and                                                                                                                         91,931       80,714      138,326      174,069      173,316
 Monitoring
Recreation, Heritage &                                                                                                                                         203,864      229,763      245,500
 Wilderness
Wildlife & Fisheries          82,559      106,625      112,500      116,364       83,736       93,182       85,561       85,811       96,768      100,376                   128,744      131,847
 Habitat Mgmt
Wildlife Habitat                                                                                                                                                36,097
 Management
Inland Fisheries                                                                                                                                                23,343
 Habitat Mgmt
Anadromous Fisheries                                                                                                                                            25,416
 Hab Mgmt
TE&S Species Mgmg                                                                                                                                               30,001
Grazing Management                                                                                                                                              32,831       33,782       34,775
Forest Products                                                                                                                                                237,891      255,281      266,340
Timber Sales Admin. and      251,796      263,133      263,745      219,033
 Mgmt.
Vegetation & Watershed                                                                                                                                         166,002      181,634      190,113
 Mgmt
Reforestation and Stand       68,346       71,959       66,521       62,213
 Improvement
Minerals & Geology            28,414       30,380       34,332       34,812       38,025       38,932       35,017       35,767       36,000       37,050       46,172       47,840       48,956
 Management
Landownership                                                                     61,384       61,566       57,053       57,053       61,987       61,139       82,565       86,418       88,434
 Management
Real Estate Management        25,973       31,192       35,430       36,024
Law Enforcement                                                      15,479       55,130       63,516       59,637       59,637       63,967       66,288       69,911       74,194       79,000
 Operations
Cooperative Law               11,082        8,546        8,377
 Enforcement
Drug Enforcement                            6,992        7,073
Valles Caldera National                                                                                                                                                         988        2,800
 Preserve
Recreation Use               153,613      198,817      216,396      229,742      213,817      220,136      211,151      211,151      218,260      187,587
Rangeland Management          32,966       39,473       43,153       44,443       16,367       18,473       27,012       38,012       45,314       57,050
Forestland Management                                                            251,538      237,174      240,409      251,768      274,580      285,200
Soil, Water & Air             61,612       72,153       76,243       72,325       36,250       48,282       42,014       42,114       51,196       56,097
 Management
Centennial of Service
 Challenge
Infrastructure                                                                   105,656      110,088      104,027      104,027      109,218       70,669
 Management
Maintenance of                21,142       24,866       26,283       26,495
 Facilities
Forest Road Maintenance       96,384       91,303       85,891       82,198
Forest Trail                  24,459       28,228       30,549       31,332
 Maintenance
Land Line Location            30,710       29,844       32,251       30,873
Quincy Library Group                                                                                                                                                          1,996
 Implementation
Tongass NF Timber                                                                                                                                                             4,989
 Pipeline
General Administration       272,154      292,333      303,786      305,941      298,174      296,982      263,698      259,353      261,888      255,264
Land Between the Lakes                                                                                                                                           5,365
 NRA
                        ------------------------------------------------------------------------------------------------------------------------------------------------------------------------
  National Forest        [a] 1,161,2  [b] 1,295,8  [c] 1,342,5    1,307,274    1,307,923    1,338,063    1,255,667    1,274,781    1,347,283    1,297,434    1,147,951    1,297,832    1,331,439
   System Total                   10           44           30
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                               Capital Improvement and Maintenance
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Facilities                    40,593       82,578       81,056       87,440      103,147       65,904       48,529       59,974       50,656       69,905      153,648      165,930      185,447
Roads                        164,356      173,072      168,988      140,586      149,655       98,185       94,942       93,000       88,064       98,009      219,634      235,029      229,666
Trails                        18,611       21,479       21,667                    27,233       32,448       20,009       22,000       27,295       29,554       62,361       66,578       70,075
Deferred Maintenance                                                                                                                                                         49,890       61,000
Legacy Roads & Trails
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------


                                                                             FY 1990 to [FY] 2015 FS Funding--Cont.
                                                                                           [Continued]
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                                                FY 2012
                           FY 2003      FY 2004      FY 2005      FY 2006      FY 2007      FY 2008      FY 2009      FY 2010      FY 2011     Enacted w/    FY 2013      FY 2014      FY 2015
                           Enacted      Enacted      Enacted      Enacted      Enacted      Enacted      Enacted      Enacted      Enacted     Recission     Enacted      Enacted      Enacted
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Land Management
 Planning, Assessment &
 Monitoring
Land Management               71,726       69,995       63,167       57,675       57,675       48,833       48,833       45,917       45,033       39,936       37,203       37,754       37,754
 Planning
Inventory and                174,216      169,659      167,302      166,638      166,638      166,580      167,580      170,502      167,219      161,721      150,652      151,019      151,019
 Monitoring
Recreation, Heritage &       252,542      255,050      257,343      258,797      258,797      262,635      277,635      285,117      281,627      281,176      261,932      261,719      261,719
 Wilderness
Wildlife & Fisheries         132,936      135,683      134,749      131,734      131,734      132,385      139,385      143,014      140,260      140,036      130,887      140,466      140,466
 Habitat Mgmt
Wildlife Habitat
 Management
Inland Fisheries
 Habitat Mgmt
Anadromous Fisheries
 Hab Mgmt
TE&S Species Mgmg
Grazing Management            40,584       45,899       48,034       47,826       47,826       48,163       50,000       50,714       49,738       55,356       51,568       55,356       55,356
Forest Products              263,628      265,013      273,247      277,583      319,614      322,503      332,666      336,722      336,049      335,511      318,280      339,130      339,130
Timber Sales Admin. and
 Mgmt.
Vegetation & Watershed       189,703      193,689      189,614      179,852      176,849      177,437      180,437      187,960      184,341      184,046      172,173      184,716      184,716
 Mgmt
Reforestation and Stand
 Improvement
Minerals & Geology            52,293       53,399       55,747       84,164       84,164       84,143       85,470       87,240       83,560       83,426       77,716       76,423       76,423
 Management
Landownership                 92,411       91,550       92,129       90,932       90,932       91,299       93,299       95,606       91,765       85,738       79,869       77,730       77,730
 Management
Real Estate Management
Law Enforcement               80,275       82,828       86,014      110,937      115,000      131,910      135,500      145,047      144,254      143,829      133,984      126,653      126,653
 Operations
Cooperative Law
 Enforcement
Drug Enforcement
Valles Caldera National        3,130        3,112        3,599        5,074        3,500        3,691        4,000        3,500        3,432        3,426        3,192        3,364        3,364
 Preserve
Recreation Use
Rangeland Management
Forestland Management
Soil, Water & Air
 Management
Centennial of Service                                    9,861        4,434
 Challenge
Maintenance of
 Facilities
Forest Road Maintenance
Forest Trail
 Maintenance
Land Line Location
Quincy Library Group
 Implementation
Tongass NF Timber
 Pipeline
General Administration
Land Between the Lakes
 NRA
                        ------------------------------------------------------------------------------------------------------------------------------------------------------------------------
  National Forest          1,353,444    1,365,877    1,380,806    1,415,646    1,452,729    1,469,579    1,514,805    1,551,339    1,542,248    1,554,137    1,455,341    1,496,330    1,494,330
   System Total
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                               Capital Improvement and Maintenance
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Facilities                   202,312      214,366      198,769      123,698      130,140      121,755      126,453      135,010      135,000       75,664       70,572       71,000       71,600
Roads                        231,344      234,538      226,396      220,688      223,798      227,924      228,825      236,521      195,195      182,525      165,959      166,000      168,094
Trails                        69,226       74,718       75,707       74,205       73,362       76,365       81,015       85,381       88,381       81,851       74,999       75,000       77,530
Deferred Maintenance          45,568       31,605       13,829       12,743        9,100        8,958        9,100        9,141        9,158        9,121        2,986        3,000        3,150
Legacy Roads & Trails                                                                          39,766       50,000       90,000       44,910       44,928       39,814       35,000       40,000
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------


                                                                             FY 1990 to [FY] 2015 FS Funding--Cont.
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                                                FY 1999
                           FY 1990      FY 1991      FY 1992      FY 1993      FY 1994      FY 1995      FY 1996      FY 1997      FY 1998     Enacted       FY 2000      FY 2001      FY 2002
                           Enacted      Enacted      Enacted      Enacted      Enacted      Enacted      Enacted      Enacted      Enacted                   Enacted      Enacted      Enacted
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Road Maintenance &                                                                                                                                 99,884
 Decommission
Land Between the Lakes                                                                                                                                           1,200
 NRA
                        ------------------------------------------------------------------------------------------------------------------------------------------------------------------------
  Capital Improvement        223,560      277,129  [d] 271,711      255,259      252,802      196,537      163,480      174,974      166,015      297,352      436,843      517,427      546,188
   and Maintenance
   Total
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                           Land Acquisition, Special Acts & Exchanges
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Land Acquisition              63,433       88,695       88,306       62,412       64,250       63,873       39,392       40,575      219,976      117,918      155,835      150,872      149,742
Land Acq, NF Special           1,054        1,097        1,134        1,180        1,212        1,247        1,069        1,048        1,069        1,069        1,068        1,067        1,069
 Acts
Complete Land Exchanges           13          105          154          151          212          794          341          364          210          210          234          233          234
                        ------------------------------------------------------------------------------------------------------------------------------------------------------------------------
  Land Acquisition,           64,500       89,897       89,594       63,743       65,674       65,914       40,802       41,987      221,255      119,197      157,137      152,172      151,045
   Special Acts &
   Exchanges Total
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                      Other Appropriations
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Range Betterment Fund          4,915        4,546        4,795        4,647        4,545        4,419        4,647        3,453        3,811        3,300        3,300        3,293        3,290
Gifts, Donations, and              3            1            8            5           18            4           87           55           92           92           92           92           92
 Bequests
Subsistence Management--                                                                                                                            3,000                     5,488        5,488
 Alaska
SE Alaska Economic                                                                                         110,000                                              22,000        4,989
 Assistance
Early Winters Land                            497
 Exchange
                        ------------------------------------------------------------------------------------------------------------------------------------------------------------------------
  Other Appropriations         4,918        5,044        4,803        4,652        4,563        4,423      114,734        3,508        3,903        6,392       25,392       13,862        8,870
   Total
                        ========================================================================================================================================================================
    Subtotal Non-Fire      1,714,761    2,017,955    2,051,934    1,984,541    2,008,609    1,972,026    1,906,031    1,830,497    2,131,309    2,088,541    2,192,977    2,507,400    2,570,067
     Discretionary
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                    Wildland Fire Management
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Preparedness             [e] 167,355      171,492      179,692      176,968      173,372      143,604      295,315      319,315      319,167      324,876      408,768      611,143      622,618
Suppression              [f] 378,812      118,035  [g] 110,589      185,411      378,222      225,628      190,170      510,701      265,392      235,300      208,888      319,324      255,321
Hazardous Fuels                                                                   12,696                                                                                    205,158      209,010
Rehabilitation and                                                                                                                                                          141,687        3,668
 Restoration
Fire Research and                                                                                                                                                            15,965       22,265
 Development
Joint Fire Sciences                                                                                                                                                                        8,000
 Program
National Fire Plan--                                                                                                                                                         11,974        6,982
 Forest Health
 Management--Federal
 Lands
NFP--Forest Health                                                                                                                                                                         4,992
 Management--Cooperativ
 e Lands
NFP--State Fire                                                                                                                                                              50,383       50,383
 Assistance
NFP--Volunteer Fire                                                                                                                                                           8,262        8,262
 Assistance
Collaborative Forest
 Landscape Restoration
 Fund
NFP--Economic Action                                                                                                                                                         12,474       12,472
 Programs
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------


                                                                             FY 1990 to [FY] 2015 FS Funding--Cont.
                                                                                           [Continued]
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                                                FY 2012
                           FY 2003      FY 2004      FY 2005      FY 2006      FY 2007      FY 2008      FY 2009      FY 2010      FY 2011     Enacted w/    FY 2013      FY 2014      FY 2015
                           Enacted      Enacted      Enacted      Enacted      Enacted      Enacted      Enacted      Enacted      Enacted     Recission     Enacted      Enacted      Enacted
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Road Maintenance &
 Decommission
Land Between the Lakes
 NRA
                        ------------------------------------------------------------------------------------------------------------------------------------------------------------------------
  Capital Improvement        548,450      555,227      514,701      431,334      436,400      474,768      495,393      556,053      472,644      394,089      354,330      350,000      360,374
   and Maintenance
   Total
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                           Land Acquisition, Special Acts & Exchanges
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Land Acquisition             132,945       66,363       61,007       41,772       41,936       41,827       49,775       63,522       32,934       52,521       49,762       43,525       47,500
Land Acq, NF Special           1,062        1,056        1,054        1,053        1,053        1,037        1,050        1,050        1,048          953          903          912          950
 Acts
Complete Land Exchanges        4,970        2,286          231          231        3,678          221           41          116                       227                       217          216
                        ------------------------------------------------------------------------------------------------------------------------------------------------------------------------
  Land Acquisition,          138,977       69,705       62,292       43,056       46,667       43,085       50,866       64,688       33,982       53,701       50,665       44,654       48,666
   Special Acts &
   Exchanges Total
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                      Other Appropriations
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Range Betterment Fund          3,380        2,106        2,472        3,130        2,876        2,556        2,581        2,590        2,552        3,257        2,338        3,000        2,320
Gifts, Donations, and             91           90           64           63           63           55           50           50           50           45           45           40           45
 Bequests
Subsistence Management--       5,506        5,467        5,879        4,975        5,009        4,974        5,000        2,582        2,577        2,573        2,438        2,500        2,500
 Alaska
SE Alaska Economic
 Assistance
Early Winters Land
 Exchange
                        ------------------------------------------------------------------------------------------------------------------------------------------------------------------------
  Other Appropriations         8,977        7,663        8,415        8,168        7,948        7,585        7,631        5,222        5,179        5,875        4,821        5,540        4,865
   Total
                        ========================================================================================================================================================================
    Subtotal Non-Fire      2,604,609    2,569,203    2,535,104    2,454,881    2,504,193    2,543,751    2,630,936    2,797,375    2,638,286    2,556,028    2,384,707    2,419,309    2,436,888
     Discretionary
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                    Wildland Fire Management
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Preparedness                 611,996      671,621      676,470      660,705      665,382      665,819      675,000      675,000      673,650    1,004,442      948,651    1,057,580    1,145,840
Suppression                  417,964      597,130      648,859      690,186      741,477      845,620      993,947      997,505      995,511      537,858      509,812      680,488      708,000
Hazardous Fuels              226,626      233,479      262,539      280,119      301,258      310,086      328,086      350,285      339,604      317,076      301,056      306,500      361,749
Rehabilitation and             7,078        6,914       12,819        6,189        6,189       10,828       11,500       11,600       11,477
 Restoration
Fire Research and             21,288       22,025       21,719       22,789       22,789       23,519       23,917       23,917       23,869       21,699       20,603       19,795       19,795
 Development
Joint Fire Sciences            7,948        7,901        7,889        7,882        7,882        7,875        8,000        8,000        7,984        7,250        6,884        6,914        6,914
 Program
National Fire Plan--           6,910       14,815       14,792       14,779       14,779       14,030       17,252       20,752       20,710       15,958       15,151
 Forest Health
 Management--Federal
 Lands
NFP--Forest Health             9,914        9,877        9,861        9,853        9,853        9,858        9,928       11,428       11,405        8,353        7,931
 Management--Cooperativ
 e Lands
NFP--State Fire               46,252       51,063       40,179       45,816       46,221       47,967       55,000       71,250       64,870       55,475       52,672       78,000       78,000
 Assistance
NFP--Volunteer Fire            8,186        8,138        7,889        7,773        7,773        7,875        9,000        9,000        8,982        6,356        6,035       13,025       13,000
 Assistance
Collaborative Forest                                                                                                                   9,980
 Landscape Restoration
 Fund
NFP--Economic Action           4,968
 Programs
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------


                                                                             FY 1990 to [FY] 2015 FS Funding--Cont.
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                                                FY 1999
                           FY 1990      FY 1991      FY 1992      FY 1993      FY 1994      FY 1995      FY 1996      FY 1997      FY 1998     Enacted       FY 2000      FY 2001      FY 2002
                           Enacted      Enacted      Enacted      Enacted      Enacted      Enacted      Enacted      Enacted      Enacted                   Enacted      Enacted      Enacted
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Fire Facilities                                                                                                                                                                           10,376
Land Between the Lakes                                                                                                                                             300
 NRA
Fuels Management               8,837        8,407        7,719       12,195                    16,406
                        ------------------------------------------------------------------------------------------------------------------------------------------------------------------------
  Wildland Fire          [h] 555,004      297,934      298,000      374,574      564,290      385,638      485,485      830,016      584,559      560,176      617,956    1,376,370    1,214,349
   Management Total
                        ------------------------------------------------------------------------------------------------------------------------------------------------------------------------
FLAME Wildfire
 Suppression Reserve
 Fund
  Subtotal Fire + FLAME      555,004      297,934      298,000      374,574      564,290      385,638      485,485      830,016      584,559      560,176      617,956    1,376,370    1,214,349
                        ========================================================================================================================================================================
    Total Discretionary    2,269,765    2,315,889    2,349,934    2,359,115    2,572,899    2,357,664    2,391,516    2,660,513    2,715,868    2,648,717    2,810,933    3,883,770    3,784,416
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                   Suppression Cap Adjustment
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Note: Discretionary funding only. Does not include fire borrowing or fire transfer repayment.            2,478,916    2,736,480
 
                                                                                                        ^2,391,516   ^2,660,513
 
                                                                                                            87,400       75,967
 
                                                                                                           ^87,400      ^75,967
 
                                                                                                                 0            0
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
[a] Does not include: FY89 Fire repayment 22,962; Reappropriation of unobligate balances 15,243; FY 89 Hugo transfer to fire protection 1,000.
 
[b] Does not include: Reappropration of unobligatde balances 5,351; Transfer from timber salvage sales 3,884.
 
[c] Does not include: Reappropriation of unobligated balances 104,528; Los Angeles Riots 4,640; 5 percent bonus 715; CFO transfer to USDA ^98; Exxon Valdez Oil Spill 2,739.
 
[d] Does not include: Los Angeles Riots 2,750; 5 percent bonus 56.
 
[e] Was really called ``Fire Presuppression.''
 
[f] Was called ``Fighting Forest Fires.''
 
[g] Does not include: Transfer from Forest Service Fire Protection 7,000.
 
[h] Does not include: Hurricane Hugo 900; Firefighting Supplemental 256,700; Repayment to FY89 NFS ^22,962.
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------


                                                                             FY 1990 to [FY] 2015 FS Funding--Cont.
                                                                                           [Continued]
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                                                FY 2012
                           FY 2003      FY 2004      FY 2005      FY 2006      FY 2007      FY 2008      FY 2009      FY 2010      FY 2011     Enacted w/    FY 2013      FY 2014      FY 2015
                           Enacted      Enacted      Enacted      Enacted      Enacted      Enacted      Enacted      Enacted      Enacted     Recission     Enacted      Enacted      Enacted
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Fire Facilities                1,838
Land Between the Lakes
 NRA
Fuels Management
                        ------------------------------------------------------------------------------------------------------------------------------------------------------------------------
  Wildland Fire            1,370,968    1,622,963    1,703,016    1,746,091    1,823,603    1,943,477    2,131,630    2,178,737    2,168,042    1,974,467    1,868,795    2,162,302    2,333,298
   Management Total
                        ------------------------------------------------------------------------------------------------------------------------------------------------------------------------
FLAME Wildfire                                                                                                          413,000      290,418      315,381      298,967      315,000      303,060
 Suppression Reserve
 Fund
                        ------------------------------------------------------------------------------------------------------------------------------------------------------------------------
  Subtotal Fire + FLAME    1,370,968    1,622,963    1,703,016    1,746,091    1,823,603    1,943,477    2,131,630    2,591,737    2,458,460    2,289,848    2,167,762    2,477,302    2,636,358
                        ========================================================================================================================================================================
    Total Discretionary    3,975,577    4,192,166    4,238,120    4,200,972    4,327,796    4,487,228    4,762,566    5,389,112    5,096,746    4,845,876    4,552,469    4,896,611    5,073,246
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------


                                                              FY 1990 to 2015 FS for Pivot
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                        FY 1990    FY 1991    FY 1992    FY 1993    FY 1994    FY 1995    FY 1996    FY 1997    FY 1998
 1/2     Approp.      Agency      Fund      Program      Enact.     Enact.     Enact.     Enact.     Enact.     Enact.     Enact.     Enact.     Enact.
--------------------------------------------------------------------------------------------------------------------------------------------------------
   2   Non-Fire     Forest      Forest &  Forest &       150,925    167,627    180,509    182,715    193,083    193,509    177,854    179,786    187,796
                     Service     Rangela   Rangeland
                                 nd        Research
                                 Researc
                                 h
   2   Non-Fire     Forest      State     Landscape
                     Service     and       Scale
                                 Private   Restoratio
                                 Forestr   n
                                 y
   2   Non-Fire     Forest      State     Forest                                                                 27,097     25,165     33,165     37,032
                     Service     and       Health
                                 Private   Management
                                 Forestr   -Federal
                                 y         Lands
   2   Non-Fire     Forest      State     Forest                                                     109,626      7,805      7,806     15,000     27,966
                     Service     and       Health
                                 Private   Management
                                 Forestr   -Cooperati
                                 y         ve Lands
   2   Non-Fire     Forest      State     Forest                                                                 13,689     17,001     18,001     20,137
                     Service     and       Health
                                 Private   Management
                                 Forestr   -Cooperati
                                 y         ve Lands
                                           Fire Mgt
   2   Non-Fire     Forest      State     Forest
                     Service     and       Health
                                 Private   Management
                                 Forestr   -Emergency
                                 y         Pest Mgt
   2   Non-Fire     Forest      State     Forest          25,321     74,206     68,116     77,582     55,689
                     Service     and       Management
                                 Private   and
                                 Forestr   Utilizatio
                                 y         n
   2   Non-Fire     Forest      State     State Fire
                     Service     and       Assistance
                                 Private
                                 Forestr
                                 y
   2   Non-Fire     Forest      State     Volunteer
                     Service     and       Fire
                                 Private   Assistance
                                 Forestr
                                 y
   2   Non-Fire     Forest      State     Fire            17,078     15,749     16,618     16,885
                     Service     and       Protection
                                 Private
                                 Forestr
                                 y
   2   Non-Fire     Forest      State     Forest                                                                 25,908     23,378     23,378     32,303
                     Service     and       Stewardshi
                                 Private   p
                                 Forestr
                                 y
   2   Non-Fire     Forest      State     Forest                                                                             3,000      2,000      4,000
                     Service     and       Legacy
                                 Private   Program
                                 Forestr
                                 y
   2   Non-Fire     Forest      State     Community
                     Service     and       Forest &
                                 Private   Open Space
                                 Forestr   Conservati
                                 y         on
   2   Non-Fire     Forest      State     Urban and                                                              28,310     25,454     25,505     40,929
                     Service     and       Community
                                 Private   Forestry
                                 Forestr
                                 y
   2   Non-Fire     Forest      State     Economic                                                               16,020     14,517     17,150     11,465
                     Service     and       Action
                                 Private   Programs
                                 Forestr
                                 y
   2   Non-Fire     Forest      State     Forest
                     Service     and       Resources
                                 Private   Info &
                                 Forestr   Analysis
                                 y
   2   Non-Fire     Forest      State     Internation                                                  6,996      4,987
                     Service     and       al
                                 Private   Forestry
                                 Forestr
                                 y
   2   Non-Fire     Forest      State     Emergency                                        14,671     12,253     14,415     16,661
                     Service     and       Pest
                                 Private   Suppressio
                                 Forestr   n Fund
                                 y
   2   Non-Fire     Forest      State     Forest Pest     47,586     60,150     57,205     40,605
                     Service     and       Management
                                 Private
                                 Forestr
                                 y
   2   Non-Fire     Forest      State     Stewardship                                                            18,283      4,500      4,500     16,240
                     Service     and       Incentives
                                 Private   Program
                                 Forestr
                                 y
   2   Non-Fire     Forest      State     Pacific                                                                17,066     16,012     16,762     14,985
                     Service     and       Northwest
                                 Private   Assistance
                                 Forestr   Prog
                                 y
   2   Non-Fire     Forest      State     Special         19,663     32,309     20,848     21,155
                     Service     and       Projects
                                 Private
                                 Forestr
                                 y
   2   Non-Fire     Forest      National  IRR
                     Service     Forest
                                 System
   2   Non-Fire     Forest      National  Collaborati
                     Service     Forest    ve Forest
                                 System    Landscape
                                           Restoratio
                                           n
   2   Non-Fire     Forest      National  Restoration
                     Service     Forest    Partnershi
                                 System    ps
   2   Non-Fire     Forest      National  Land                                                       147,846    149,732    130,088    130,088
                     Service     Forest    Management
                                 System    Planning,
                                           Assessment
                                           &
                                           Monitoring
   2   Non-Fire     Forest      National  Land                                                                                                    36,174
                     Service     Forest    Management
                                 System    Planning
   2   Non-Fire     Forest      National  Inventory                                                                                               91,931
                     Service     Forest    and
                                 System    Monitoring
   2   Non-Fire     Forest      National  Recreation,
                     Service     Forest    Heritage &
                                 System    Wilderness
   2   Non-Fire     Forest      National  Wildlife &      82,559    106,625    112,500    116,364     83,736     93,182     85,561     85,811     96,768
                     Service     Forest    Fisheries
                                 System    Habitat
                                           Mgmt
   2   Non-Fire     Forest      National  Wildlife
                     Service     Forest    Habitat
                                 System    Management
   2   Non-Fire     Forest      National  Inland
                     Service     Forest    Fisheries
                                 System    Habitat
                                           Mgmt
   2   Non-Fire     Forest      National  Anadromous
                     Service     Forest    Fisheries
                                 System    Hab Mgmt
   2   Non-Fire     Forest      National  TE&S
                     Service     Forest    Species
                                 System    Mgmg
   2   Non-Fire     Forest      National  Grazing
                     Service     Forest    Management
                                 System
   2   Non-Fire     Forest      National  Forest
                     Service     Forest    Products
                                 System
   2   Non-Fire     Forest      National  Timber         251,796    263,133    263,745    219,033
                     Service     Forest    Sales
                                 System    Admin. and
                                           Mgmt.
   2   Non-Fire     Forest      National  Vegetation
                     Service     Forest    &
                                 System    Watershed
                                           Mgmt
--------------------------------------------------------------------------------------------------------------------------------------------------------


                                                              FY 1990 to 2015 FS for Pivot
                                                                      [Continued 1]
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                        FY 1999    FY 2000    FY 2001    FY 2002    FY 2003    FY 2004    FY 2005    FY 2006    FY 2007
 1/2     Approp.      Agency      Fund      Program      Enact.     Enact.     Enact.     Enact.     Enact.     Enact.     Enact.     Enact.     Enact.
--------------------------------------------------------------------------------------------------------------------------------------------------------
   2   Non-Fire     Forest      Forest &  Forest &       197,444    217,694    230,511    241,304    250,049    266,387    276,384    277,711    280,488
                     Service     Rangela   Rangeland
                                 nd        Research
                                 Researc
                                 h
   2   Non-Fire     Forest      State     Landscape
                     Service     and       Scale
                                 Private   Restoratio
                                 Forestr   n
                                 y
   2   Non-Fire     Forest      State     Forest          37,325     40,303     41,292     43,304     50,047     53,829     54,236     53,163     53,963
                     Service     and       Health
                                 Private   Management
                                 Forestr   -Federal
                                 y         Lands
   2   Non-Fire     Forest      State     Forest          17,200     21,772     22,511     25,000     30,836     44,741     47,629     46,904     47,104
                     Service     and       Health
                                 Private   Management
                                 Forestr   -Cooperati
                                 y         ve Lands
   2   Non-Fire     Forest      State     Forest
                     Service     and       Health
                                 Private   Management
                                 Forestr   -Cooperati
                                 y         ve Lands
                                           Fire Mgt
   2   Non-Fire     Forest      State     Forest                                12,472
                     Service     and       Health
                                 Private   Management
                                 Forestr   -Emergency
                                 y         Pest Mgt
   2   Non-Fire     Forest      State     Forest
                     Service     and       Management
                                 Private   and
                                 Forestr   Utilizatio
                                 y         n
   2   Non-Fire     Forest      State     State Fire      21,510     23,929     24,945     25,310     45,486     33,384     32,920     32,895     32,895
                     Service     and       Assistance
                                 Private
                                 Forestr
                                 y
   2   Non-Fire     Forest      State     Volunteer        2,000      3,240      4,989      5,053      5,007      5,037      5,917      5,912      5,912
                     Service     and       Fire
                                 Private   Assistance
                                 Forestr
                                 y
   2   Non-Fire     Forest      State     Fire
                     Service     and       Protection
                                 Private
                                 Forestr
                                 y
   2   Non-Fire     Forest      State     Forest          28,830     29,833     32,782     33,171     32,012     31,884     32,320     34,144     41,947
                     Service     and       Stewardshi
                                 Private   p
                                 Forestr
                                 y
   2   Non-Fire     Forest      State     Forest           7,012     29,933     59,868     65,000     68,380     64,134     57,134     56,524     56,536
                     Service     and       Legacy
                                 Private   Program
                                 Forestr
                                 y
   2   Non-Fire     Forest      State     Community
                     Service     and       Forest &
                                 Private   Open Space
                                 Forestr   Conservati
                                 y         on
   2   Non-Fire     Forest      State     Urban and       30,540     30,896     35,642     36,000     35,999     34,864     31,950     28,413     30,130
                     Service     and       Community
                                 Private   Forestry
                                 Forestr
                                 y
   2   Non-Fire     Forest      State     Economic        17,305     20,198     41,538     35,680     26,268     25,606     19,032      9,537
                     Service     and       Action
                                 Private   Programs
                                 Forestr
                                 y
   2   Non-Fire     Forest      State     Forest                                            4,989      5,015      4,964      4,939      4,958      4,588
                     Service     and       Resources
                                 Private   Info &
                                 Forestr   Analysis
                                 y
   2   Non-Fire     Forest      State     Internation                            4,989      5,263      5,713      5,926      6,410      6,886      6,886
                     Service     and       al
                                 Private   Forestry
                                 Forestr
                                 y
   2   Non-Fire     Forest      State     Emergency
                     Service     and       Pest
                                 Private   Suppressio
                                 Forestr   n Fund
                                 y
   2   Non-Fire     Forest      State     Forest Pest
                     Service     and       Management
                                 Private
                                 Forestr
                                 y
   2   Non-Fire     Forest      State     Stewardship                                       3,000
                     Service     and       Incentives
                                 Private   Program
                                 Forestr
                                 y
   2   Non-Fire     Forest      State     Pacific          9,000      7,856      9,579      9,425
                     Service     and       Northwest
                                 Private   Assistance
                                 Forestr   Prog
                                 y
   2   Non-Fire     Forest      State     Special
                     Service     and       Projects
                                 Private
                                 Forestr
                                 y
   2   Non-Fire     Forest      National  IRR
                     Service     Forest
                                 System
   2   Non-Fire     Forest      National  Collaborati
                     Service     Forest    ve Forest
                                 System    Landscape
                                           Restoratio
                                           n
   2   Non-Fire     Forest      National  Restoration
                     Service     Forest    Partnershi
                                 System    ps
   2   Non-Fire     Forest      National  Land
                     Service     Forest    Management
                                 System    Planning,
                                           Assessment
                                           &
                                           Monitoring
   2   Non-Fire     Forest      National  Land            40,000     50,167     78,134     70,358     71,726     69,995     63,167     57,675     57,675
                     Service     Forest    Management
                                 System    Planning
   2   Non-Fire     Forest      National  Inventory       80,714    138,326    174,069    173,316    174,216    169,659    167,302    166,638    166,638
                     Service     Forest    and
                                 System    Monitoring
   2   Non-Fire     Forest      National  Recreation,               203,864    229,763    245,500    252,542    255,050    257,343    258,797    258,797
                     Service     Forest    Heritage &
                                 System    Wilderness
   2   Non-Fire     Forest      National  Wildlife &     100,376               128,744    131,847    132,936    135,683    134,749    131,734    131,734
                     Service     Forest    Fisheries
                                 System    Habitat
                                           Mgmt
   2   Non-Fire     Forest      National  Wildlife                   36,097
                     Service     Forest    Habitat
                                 System    Management
   2   Non-Fire     Forest      National  Inland                     23,343
                     Service     Forest    Fisheries
                                 System    Habitat
                                           Mgmt
   2   Non-Fire     Forest      National  Anadromous                 25,416
                     Service     Forest    Fisheries
                                 System    Hab Mgmt
   2   Non-Fire     Forest      National  TE&S                       30,001
                     Service     Forest    Species
                                 System    Mgmg
   2   Non-Fire     Forest      National  Grazing                    32,831     33,782     34,775     40,584     45,899     48,034     47,826     47,826
                     Service     Forest    Management
                                 System
   2   Non-Fire     Forest      National  Forest                    237,891    255,281    266,340    263,628    265,013    273,247    277,583    319,614
                     Service     Forest    Products
                                 System
   2   Non-Fire     Forest      National  Timber
                     Service     Forest    Sales
                                 System    Admin. and
                                           Mgmt.
   2   Non-Fire     Forest      National  Vegetation                166,002    181,634    190,113    189,703    193,689    189,614    179,852    176,849
                     Service     Forest    &
                                 System    Watershed
                                           Mgmt
--------------------------------------------------------------------------------------------------------------------------------------------------------


                                                           FY 1990 to 2015 FS for Pivot--Cont.
                                                                      [Continued 2]
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                    FY 2012
 1/2     Approp.      Agency      Fund      Program     FY 2008    FY 2009    FY 2010    FY 2011   Enact. w/   FY 2013    FY 2014    FY 2015    FY 2016
                                                         Enact.     Enact.     Enact.     Enact.   Recission    Enact.     Enact.     Enact.     Enact.
--------------------------------------------------------------------------------------------------------------------------------------------------------
   2   Non-Fire     Forest      Forest &  Forest &       285,926    296,380    312,012    306,637    295,300    279,854    292,805    296,000    291,000
                     Service     Rangela   Rangeland
                                 nd        Research
                                 Researc
                                 h
   2   Non-Fire     Forest      State     Landscape                                                                         14,000     14,000     14,000
                     Service     and       Scale
                                 Private   Restoratio
                                 Forestr   n
                                 y
   2   Non-Fire     Forest      State     Forest          54,110     54,110     57,282     56,737     47,425     44,944     58,922     58,922     58,922
                     Service     and       Health
                                 Private   Management
                                 Forestr   -Federal
                                 y         Lands
   2   Non-Fire     Forest      State     Forest          44,542     46,292     48,573     48,821     39,999     36,894     45,655     40,678     40,678
                     Service     and       Health
                                 Private   Management
                                 Forestr   -Cooperati
                                 y         ve Lands
   2   Non-Fire     Forest      State     Forest
                     Service     and       Health
                                 Private   Management
                                 Forestr   -Cooperati
                                 y         ve Lands
                                           Fire Mgt
   2   Non-Fire     Forest      State     Forest
                     Service     and       Health
                                 Private   Management
                                 Forestr   -Emergency
                                 y         Pest Mgt
   2   Non-Fire     Forest      State     Forest
                     Service     and       Management
                                 Private   and
                                 Forestr   Utilizatio
                                 y         n
   2   Non-Fire     Forest      State     State Fire      32,605     35,000     39,147     32,358     30,488     25,759
                     Service     and       Assistance
                                 Private
                                 Forestr
                                 y
   2   Non-Fire     Forest      State     Volunteer        5,906      6,000      7,000      6,680      6,669      6,320
                     Service     and       Fire
                                 Private   Assistance
                                 Forestr
                                 y
   2   Non-Fire     Forest      State     Fire
                     Service     and       Protection
                                 Private
                                 Forestr
                                 y
   2   Non-Fire     Forest      State     Forest          29,532     27,000     29,369     32,548     28,814     30,441     22,398     23,036     23,036
                     Service     and       Stewardshi
                                 Private   p
                                 Forestr
                                 y
   2   Non-Fire     Forest      State     Forest          52,317     49,445     76,460     52,894     53,303     50,515     50,965     53,000     62,347
                     Service     and       Legacy
                                 Private   Program
                                 Forestr
                                 y
   2   Non-Fire     Forest      State     Community                                         1,000      1,997      1,892      2,000      2,000      2,000
                     Service     and       Forest &
                                 Private   Open Space
                                 Forestr   Conservati
                                 y         on
   2   Non-Fire     Forest      State     Urban and       27,691     29,541     30,377     32,040     31,327     30,701     28,040     28,040     28,040
                     Service     and       Community
                                 Private   Forestry
                                 Forestr
                                 y
   2   Non-Fire     Forest      State     Economic         4,206      4,973      5,000
                     Service     and       Action
                                 Private   Programs
                                 Forestr
                                 y
   2   Non-Fire     Forest      State     Forest           4,588      4,516      5,000      5,035      5,026      4,917      4,660
                     Service     and       Resources
                                 Private   Info &
                                 Forestr   Analysis
                                 y
   2   Non-Fire     Forest      State     Internation      7,383      8,500      9,818      9,492      7,987      7,570      8,000      8,000      8,000
                     Service     and       al
                                 Private   Forestry
                                 Forestr
                                 y
   2   Non-Fire     Forest      State     Emergency
                     Service     and       Pest
                                 Private   Suppressio
                                 Forestr   n Fund
                                 y
   2   Non-Fire     Forest      State     Forest Pest
                     Service     and       Management
                                 Private
                                 Forestr
                                 y
   2   Non-Fire     Forest      State     Stewardship
                     Service     and       Incentives
                                 Private   Program
                                 Forestr
                                 y
   2   Non-Fire     Forest      State     Pacific
                     Service     and       Northwest
                                 Private   Assistance
                                 Forestr   Prog
                                 y
   2   Non-Fire     Forest      State     Special
                     Service     and       Projects
                                 Private
                                 Forestr
                                 y
   2   Non-Fire     Forest      National  IRR                                                                                               0
                     Service     Forest
                                 System
   2   Non-Fire     Forest      National  Collaborati                                      14,970     39,936     37,885     40,000     40,000     40,000
                     Service     Forest    ve Forest
                                 System    Landscape
                                           Restoratio
                                           n
   2   Non-Fire     Forest      National  Restoration                                                                        2,000
                     Service     Forest    Partnershi
                                 System    ps
   2   Non-Fire     Forest      National  Land
                     Service     Forest    Management
                                 System    Planning,
                                           Assessment
                                           &
                                           Monitoring
   2   Non-Fire     Forest      National  Land            48,833     48,833     45,917     45,033     39,936     37,203     37,754     37,754     36,998
                     Service     Forest    Management
                                 System    Planning
   2   Non-Fire     Forest      National  Inventory      166,580    167,580    170,502    167,219    161,721    150,652    151,019    151,019    147,998
                     Service     Forest    and
                                 System    Monitoring
   2   Non-Fire     Forest      National  Recreation,    262,635    277,635    285,117    281,627    281,176    261,932    261,719    261,719    261,719
                     Service     Forest    Heritage &
                                 System    Wilderness
   2   Non-Fire     Forest      National  Wildlife &     132,385    139,385    143,014    140,260    140,036    130,887    140,466    140,466    140,466
                     Service     Forest    Fisheries
                                 System    Habitat
                                           Mgmt
   2   Non-Fire     Forest      National  Wildlife
                     Service     Forest    Habitat
                                 System    Management
   2   Non-Fire     Forest      National  Inland
                     Service     Forest    Fisheries
                                 System    Habitat
                                           Mgmt
   2   Non-Fire     Forest      National  Anadromous
                     Service     Forest    Fisheries
                                 System    Hab Mgmt
   2   Non-Fire     Forest      National  TE&S
                     Service     Forest    Species
                                 System    Mgmg
   2   Non-Fire     Forest      National  Grazing         48,163     50,000     50,714     49,738     55,356     51,568     55,356     55,356     56,856
                     Service     Forest    Management
                                 System
   2   Non-Fire     Forest      National  Forest         322,503    332,666    336,722    336,049    335,511    318,280    339,130    339,130    359,805
                     Service     Forest    Products
                                 System
   2   Non-Fire     Forest      National  Timber
                     Service     Forest    Sales
                                 System    Admin. and
                                           Mgmt.
   2   Non-Fire     Forest      National  Vegetation     177,437    180,437    187,960    184,341    184,046    172,173    184,716    184,716    184,716
                     Service     Forest    &
                                 System    Watershed
                                           Mgmt
--------------------------------------------------------------------------------------------------------------------------------------------------------


                                                           FY 1990 to 2015 FS for Pivot--Cont.
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                FY 1990     FY 1991     FY 1992     FY 1993     FY 1994     FY 1995     FY 1996     FY 1997     FY 1998
 1/2    Approp.    Agency    Fund    Program    Enact.      Enact.      Enact.      Enact.      Enact.      Enact.      Enact.      Enact.      Enact.
--------------------------------------------------------------------------------------------------------------------------------------------------------
   2   Non-Fire   Forest    Nation  Reforest      68,346      71,959      66,521      62,213
                   Service   al      ation
                             Fores   and
                             t       Stand
                             Syste   Improve
                             m       ment
   2   Non-Fire   Forest    Nation  Minerals      28,414      30,380      34,332      34,812      38,025      38,932      35,017      35,767      36,000
                   Service   al      &
                             Fores   Geology
                             t       Managem
                             Syste   ent
                             m
   2   Non-Fire   Forest    Nation  Landowne                                                      61,384      61,566      57,053      57,053      61,987
                   Service   al      rship
                             Fores   Managem
                             t       ent
                             Syste
                             m
   2   Non-Fire   Forest    Nation  Real          25,973      31,192      35,430      36,024
                   Service   al      Estate
                             Fores   Managem
                             t       ent
                             Syste
                             m
   2   Non-Fire   Forest    Nation  Law                                               15,479      55,130      63,516      59,637      59,637      63,967
                   Service   al      Enforce
                             Fores   ment
                             t       Operati
                             Syste   ons
                             m
   2   Non-Fire   Forest    Nation  Cooperat      11,082       8,546       8,377
                   Service   al      ive Law
                             Fores   Enforce
                             t       ment
                             Syste
                             m
   2   Non-Fire   Forest    Nation  Drug                       6,992       7,073
                   Service   al      Enforce
                             Fores   ment
                             t
                             Syste
                             m
   2   Non-Fire   Forest    Nation  Valles
                   Service   al      Caldera
                             Fores   Nationa
                             t       l
                             Syste   Preserv
                             m       e
   2   Non-Fire   Forest    Nation  Recreati     153,613     198,817     216,396     229,742     213,817     220,136     211,151     211,151     218,260
                   Service   al      on Use
                             Fores
                             t
                             Syste
                             m
   2   Non-Fire   Forest    Nation  Rangelan      32,966      39,473      43,153      44,443      16,367      18,473      27,012      38,012      45,314
                   Service   al      d
                             Fores   Managem
                             t       ent
                             Syste
                             m
   2   Non-Fire   Forest    Nation  Forestla                                                     251,538     237,174     240,409     251,768     274,580
                   Service   al      nd
                             Fores   Managem
                             t       ent
                             Syste
                             m
   2   Non-Fire   Forest    Nation  Soil,         61,612      72,153      76,243      72,325      36,250      48,282      42,014      42,114      51,196
                   Service   al      Water &
                             Fores   Air
                             t       Managem
                             Syste   ent
                             m
   2   Non-Fire   Forest    Nation  Centenni
                   Service   al      al of
                             Fores   Service
                             t       Challen
                             Syste   ge
                             m
   2   Non-Fire   Forest    Nation  Infrastr                                                     105,656     110,088     104,027     104,027     109,218
                   Service   al      ucture
                             Fores   Managem
                             t       ent
                             Syste
                             m
   2   Non-Fire   Forest    Nation  Maintena      21,142      24,866      26,283      26,495
                   Service   al      nce of
                             Fores   Facilit
                             t       ies
                             Syste
                             m
   2   Non-Fire   Forest    Nation  Forest        96,384      91,303      85,891      82,198
                   Service   al      Road
                             Fores   Mainten
                             t       ance
                             Syste
                             m
   2   Non-Fire   Forest    Nation  Forest        24,459      28,228      30,549      31,332
                   Service   al      Trail
                             Fores   Mainten
                             t       ance
                             Syste
                             m
   2   Non-Fire   Forest    Nation  Land          30,710      29,844      32,251      30,873
                   Service   al      Line
                             Fores   Locatio
                             t       n
                             Syste
                             m
   2   Non-Fire   Forest    Nation  Quincy
                   Service   al      Library
                             Fores   Group
                             t       Impleme
                             Syste   ntation
                             m
   2   Non-Fire   Forest    Nation  Tongass
                   Service   al      NF
                             Fores   Timber
                             t       Pipelin
                             Syste   e
                             m
   2   Non-Fire   Forest    Nation  General      272,154     292,333     303,786     305,941     298,174     296,982     263,698     259,353     261,888
                   Service   al      Adminis
                             Fores   tration
                             t
                             Syste
                             m
   2   Non-Fire   Forest    Nation  Land
                   Service   al      Between
                             Fores   the
                             t       Lakes
                             Syste   NRA
                             m
   2   Non-Fire   Forest    Capita  Faciliti      40,593      82,578      81,056      87,440     103,147      65,904      48,529      59,974      50,656
                   Service   l       es
                             Impro
                             vemen
                             t and
                             Maint
                             enanc
                             e
   2   Non-Fire   Forest    Capita  Roads        164,356     173,072     168,988     140,586     149,655      98,185      94,942      93,000      88,064
                   Service   l
                             Impro
                             vemen
                             t and
                             Maint
                             enanc
                             e
   2   Non-Fire   Forest    Capita  Trails        18,611      21,479      21,667      27,233                  32,448      20,009      22,000      27,295
                   Service   l
                             Impro
                             vemen
                             t and
                             Maint
                             enanc
                             e
   2   Non-Fire   Forest    Capita  Deferred
                   Service   l       Mainten
                             Impro   ance
                             vemen
                             t and
                             Maint
                             enanc
                             e
   2   Non-Fire   Forest    Capita  Legacy
                   Service   l       Roads &
                             Impro   Trails
                             vemen
                             t and
                             Maint
                             enanc
                             e
   2   Non-Fire   Forest    Capita  Road
                   Service   l       Mainten
                             Impro   ance &
                             vemen   Decommi
                             t and   ssion
                             Maint
                             enanc
                             e
   2   Non-Fire   Forest    Capita  Land
                   Service   l       Between
                             Impro   the
                             vemen   Lakes
                             t and   NRA
                             Maint
                             enanc
                             e
   2   Non-Fire   Forest    Land    Land          63,433      88,695      88,306      62,412      64,250      63,873      39,392      40,575     219,976
                   Service   Acqui   Acquisi
                             sitio   tion
                             n,
                             Speci
                             al
                             Acts
                             &
                             Excha
                             nges
   2   Non-Fire   Forest    Land    Land           1,054       1,097       1,134       1,180       1,212       1,247       1,069       1,048       1,069
                   Service   Acqui   Acq.,
                             sitio   NF
                             n,      Special
                             Speci   Acts
                             al
                             Acts
                             &
                             Excha
                             nges
   2   Non-Fire   Forest    Land    Complete          13         105         154         151         212         794         341         364         210
                   Service   Acqui   Land
                             sitio   Exchang
                             n,      es
                             Speci
                             al
                             Acts
                             &
                             Excha
                             nges
   2   Non-Fire   Forest    Other   Range          4,915       4,546       4,795       4,647       4,545       4,419       4,647       3,453       3,811
                   Service   Appro   Betterm
                             priat   ent
                             ions    Fund
--------------------------------------------------------------------------------------------------------------------------------------------------------


                                                           FY 1990 to 2015 FS for Pivot--Cont.
                                                                      [Continued 1]
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                FY 1999     FY 2000     FY 2001     FY 2002     FY 2003     FY 2004     FY 2005     FY 2006     FY 2007
 1/2    Approp.    Agency    Fund    Program    Enact.      Enact.      Enact.      Enact.      Enact.      Enact.      Enact.      Enact.      Enact.
--------------------------------------------------------------------------------------------------------------------------------------------------------
   2   Non-Fire   Forest    Nation  Reforest
                   Service   al      ation
                             Fores   and
                             t       Stand
                             Syste   Improve
                             m       ment
   2   Non-Fire   Forest    Nation  Minerals      37,050      46,172      47,840      48,956      52,293      53,399      55,747      84,164      84,164
                   Service   al      &
                             Fores   Geology
                             t       Managem
                             Syste   ent
                             m
   2   Non-Fire   Forest    Nation  Landowne      61,139      82,565      86,418      88,434      92,411      91,550      92,129      90,932      90,932
                   Service   al      rship
                             Fores   Managem
                             t       ent
                             Syste
                             m
   2   Non-Fire   Forest    Nation  Real
                   Service   al      Estate
                             Fores   Managem
                             t       ent
                             Syste
                             m
   2   Non-Fire   Forest    Nation  Law           66,288      69,911      74,194      79,000      80,275      82,828      86,014     110,937     115,000
                   Service   al      Enforce
                             Fores   ment
                             t       Operati
                             Syste   ons
                             m
   2   Non-Fire   Forest    Nation  Cooperat
                   Service   al      ive Law
                             Fores   Enforce
                             t       ment
                             Syste
                             m
   2   Non-Fire   Forest    Nation  Drug
                   Service   al      Enforce
                             Fores   ment
                             t
                             Syste
                             m
   2   Non-Fire   Forest    Nation  Valles                                   988       2,800       3,130       3,112       3,599       5,074       3,500
                   Service   al      Caldera
                             Fores   Nationa
                             t       l
                             Syste   Preserv
                             m       e
   2   Non-Fire   Forest    Nation  Recreati     187,587
                   Service   al      on Use
                             Fores
                             t
                             Syste
                             m
   2   Non-Fire   Forest    Nation  Rangelan      57,050
                   Service   al      d
                             Fores   Managem
                             t       ent
                             Syste
                             m
   2   Non-Fire   Forest    Nation  Forestla     285,200
                   Service   al      nd
                             Fores   Managem
                             t       ent
                             Syste
                             m
   2   Non-Fire   Forest    Nation  Soil,         56,097
                   Service   al      Water &
                             Fores   Air
                             t       Managem
                             Syste   ent
                             m
   2   Non-Fire   Forest    Nation  Centenni                                                                               9,861       4,434
                   Service   al      al of
                             Fores   Service
                             t       Challen
                             Syste   ge
                             m
   2   Non-Fire   Forest    Nation  Infrastr      70,669
                   Service   al      ucture
                             Fores   Managem
                             t       ent
                             Syste
                             m
   2   Non-Fire   Forest    Nation  Maintena
                   Service   al      nce of
                             Fores   Facilit
                             t       ies
                             Syste
                             m
   2   Non-Fire   Forest    Nation  Forest
                   Service   al      Road
                             Fores   Mainten
                             t       ance
                             Syste
                             m
   2   Non-Fire   Forest    Nation  Forest
                   Service   al      Trail
                             Fores   Mainten
                             t       ance
                             Syste
                             m
   2   Non-Fire   Forest    Nation  Land
                   Service   al      Line
                             Fores   Locatio
                             t       n
                             Syste
                             m
   2   Non-Fire   Forest    Nation  Quincy                                 1,996
                   Service   al      Library
                             Fores   Group
                             t       Impleme
                             Syste   ntation
                             m
   2   Non-Fire   Forest    Nation  Tongass                                4,989
                   Service   al      NF
                             Fores   Timber
                             t       Pipelin
                             Syste   e
                             m
   2   Non-Fire   Forest    Nation  General      255,264
                   Service   al      Adminis
                             Fores   tration
                             t
                             Syste
                             m
   2   Non-Fire   Forest    Nation  Land                       5,365
                   Service   al      Between
                             Fores   the
                             t       Lakes
                             Syste   NRA
                             m
   2   Non-Fire   Forest    Capita  Faciliti      69,905     153,648     165,930     185,447     202,312     214,366     198,769     123,698     130,140
                   Service   l       es
                             Impro
                             vemen
                             t and
                             Maint
                             enanc
                             e
   2   Non-Fire   Forest    Capita  Roads         98,009     219,634     235,029     229,666     231,344     234,538     226,396     220,688     223,798
                   Service   l
                             Impro
                             vemen
                             t and
                             Maint
                             enanc
                             e
   2   Non-Fire   Forest    Capita  Trails        29,554      62,361      66,578      70,075      69,226      74,718      75,707      74,205      73,362
                   Service   l
                             Impro
                             vemen
                             t and
                             Maint
                             enanc
                             e
   2   Non-Fire   Forest    Capita  Deferred                              49,890      61,000      45,568      31,605      13,829      12,743       9,100
                   Service   l       Mainten
                             Impro   ance
                             vemen
                             t and
                             Maint
                             enanc
                             e
   2   Non-Fire   Forest    Capita  Legacy
                   Service   l       Roads &
                             Impro   Trails
                             vemen
                             t and
                             Maint
                             enanc
                             e
   2   Non-Fire   Forest    Capita  Road          99,884
                   Service   l       Mainten
                             Impro   ance &
                             vemen   Decommi
                             t and   ssion
                             Maint
                             enanc
                             e
   2   Non-Fire   Forest    Capita  Land                       1,200
                   Service   l       Between
                             Impro   the
                             vemen   Lakes
                             t and   NRA
                             Maint
                             enanc
                             e
   2   Non-Fire   Forest    Land    Land         117,918     155,835     150,872     149,742     132,945      66,363      61,007      41,772      41,936
                   Service   Acqui   Acquisi
                             sitio   tion
                             n,
                             Speci
                             al
                             Acts
                             &
                             Excha
                             nges
   2   Non-Fire   Forest    Land    Land           1,069       1,068       1,067       1,069       1,062       1,056       1,054       1,053       1,053
                   Service   Acqui   Acq.,
                             sitio   NF
                             n,      Special
                             Speci   Acts
                             al
                             Acts
                             &
                             Excha
                             nges
   2   Non-Fire   Forest    Land    Complete         210         234         233         234       4,970       2,286         231         231       3,678
                   Service   Acqui   Land
                             sitio   Exchang
                             n,      es
                             Speci
                             al
                             Acts
                             &
                             Excha
                             nges
   2   Non-Fire   Forest    Other   Range          3,300       3,300       3,293       3,290       3,380       2,106       2,472       3,130       2,876
                   Service   Appro   Betterm
                             priat   ent
                             ions    Fund
--------------------------------------------------------------------------------------------------------------------------------------------------------


                                                           FY 1990 to 2015 FS for Pivot--Cont.
                                                                      [Continued 2]
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                FY 2012
 1/2    Approp.    Agency    Fund    Program    FY 2008     FY 2009     FY 2010     FY 2011    Enact. w/    FY 2013     FY 2014     FY 2015     FY 2016
                                                Enact.      Enact.      Enact.      Enact.     Recission    Enact.      Enact.      Enact.      Enact.
--------------------------------------------------------------------------------------------------------------------------------------------------------
   2   Non-Fire   Forest    Nation  Reforest
                   Service   al      ation
                             Fores   and
                             t       Stand
                             Syste   Improve
                             m       ment
   2   Non-Fire   Forest    Nation  Minerals      84,143      85,470      87,240      83,560      83,426      77,716      76,423      76,423      76,423
                   Service   al      &
                             Fores   Geology
                             t       Managem
                             Syste   ent
                             m
   2   Non-Fire   Forest    Nation  Landowne      91,299      93,299      95,606      91,765      85,738      79,869      77,730      77,730      77,730
                   Service   al      rship
                             Fores   Managem
                             t       ent
                             Syste
                             m
   2   Non-Fire   Forest    Nation  Real
                   Service   al      Estate
                             Fores   Managem
                             t       ent
                             Syste
                             m
   2   Non-Fire   Forest    Nation  Law          131,910     135,500     145,047     144,254     143,829     133,984     126,653     126,653     126,653
                   Service   al      Enforce
                             Fores   ment
                             t       Operati
                             Syste   ons
                             m
   2   Non-Fire   Forest    Nation  Cooperat
                   Service   al      ive Law
                             Fores   Enforce
                             t       ment
                             Syste
                             m
   2   Non-Fire   Forest    Nation  Drug
                   Service   al      Enforce
                             Fores   ment
                             t
                             Syste
                             m
   2   Non-Fire   Forest    Nation  Valles         3,691       4,000       3,500       3,432       3,426       3,192       3,364       3,364
                   Service   al      Caldera
                             Fores   Nationa
                             t       l
                             Syste   Preserv
                             m       e
   2   Non-Fire   Forest    Nation  Recreati
                   Service   al      on Use
                             Fores
                             t
                             Syste
                             m
   2   Non-Fire   Forest    Nation  Rangelan
                   Service   al      d
                             Fores   Managem
                             t       ent
                             Syste
                             m
   2   Non-Fire   Forest    Nation  Forestla
                   Service   al      nd
                             Fores   Managem
                             t       ent
                             Syste
                             m
   2   Non-Fire   Forest    Nation  Soil,
                   Service   al      Water &
                             Fores   Air
                             t       Managem
                             Syste   ent
                             m
   2   Non-Fire   Forest    Nation  Centenni
                   Service   al      al of
                             Fores   Service
                             t       Challen
                             Syste   ge
                             m
   2   Non-Fire   Forest    Nation  Infrastr
                   Service   al      ucture
                             Fores   Managem
                             t       ent
                             Syste
                             m
   2   Non-Fire   Forest    Nation  Maintena
                   Service   al      nce of
                             Fores   Facilit
                             t       ies
                             Syste
                             m
   2   Non-Fire   Forest    Nation  Forest
                   Service   al      Road
                             Fores   Mainten
                             t       ance
                             Syste
                             m
   2   Non-Fire   Forest    Nation  Forest
                   Service   al      Trail
                             Fores   Mainten
                             t       ance
                             Syste
                             m
   2   Non-Fire   Forest    Nation  Land
                   Service   al      Line
                             Fores   Locatio
                             t       n
                             Syste
                             m
   2   Non-Fire   Forest    Nation  Quincy
                   Service   al      Library
                             Fores   Group
                             t       Impleme
                             Syste   ntation
                             m
   2   Non-Fire   Forest    Nation  Tongass
                   Service   al      NF
                             Fores   Timber
                             t       Pipelin
                             Syste   e
                             m
   2   Non-Fire   Forest    Nation  General
                   Service   al      Adminis
                             Fores   tration
                             t
                             Syste
                             m
   2   Non-Fire   Forest    Nation  Land
                   Service   al      Between
                             Fores   the
                             t       Lakes
                             Syste   NRA
                             m
   2   Non-Fire   Forest    Capita  Faciliti     121,755     126,453     135,010     135,000      75,664      70,572      71,000      71,600      71,390
                   Service   l       es
                             Impro
                             vemen
                             t and
                             Maint
                             enanc
                             e
   2   Non-Fire   Forest    Capita  Roads        227,924     228,825     236,521     195,195     182,525     165,959     166,000     168,094     172,094
                   Service   l
                             Impro
                             vemen
                             t and
                             Maint
                             enanc
                             e
   2   Non-Fire   Forest    Capita  Trails        76,365      81,015      85,381      88,381      81,851      74,999      75,000      77,530      77,530
                   Service   l
                             Impro
                             vemen
                             t and
                             Maint
                             enanc
                             e
   2   Non-Fire   Forest    Capita  Deferred       8,958       9,100       9,141       9,158       9,121       2,986       3,000       3,150       3,150
                   Service   l       Mainten
                             Impro   ance
                             vemen
                             t and
                             Maint
                             enanc
                             e
   2   Non-Fire   Forest    Capita  Legacy        39,766      50,000      90,000      44,910      44,928      39,814      35,000      40,000      40,000
                   Service   l       Roads &
                             Impro   Trails
                             vemen
                             t and
                             Maint
                             enanc
                             e
   2   Non-Fire   Forest    Capita  Road
                   Service   l       Mainten
                             Impro   ance &
                             vemen   Decommi
                             t and   ssion
                             Maint
                             enanc
                             e
   2   Non-Fire   Forest    Capita  Land
                   Service   l       Between
                             Impro   the
                             vemen   Lakes
                             t and   NRA
                             Maint
                             enanc
                             e
   2   Non-Fire   Forest    Land    Land          41,827      49,775      63,522      32,934      52,521      49,762      43,525      47,500      63,435
                   Service   Acqui   Acquisi
                             sitio   tion
                             n,
                             Speci
                             al
                             Acts
                             &
                             Excha
                             nges
   2   Non-Fire   Forest    Land    Land           1,037       1,050       1,050       1,048         953         903         912         950         950
                   Service   Acqui   Acq.,
                             sitio   NF
                             n,      Special
                             Speci   Acts
                             al
                             Acts
                             &
                             Excha
                             nges
   2   Non-Fire   Forest    Land    Complete         221          41                     116         227         217         216         216
                   Service   Acqui   Land
                             sitio   Exchang
                             n,      es
                             Speci
                             al
                             Acts
                             &
                             Excha
                             nges
   2   Non-Fire   Forest    Other   Range          2,556       2,581       2,590       2,552       3,257       2,338       3,000       2,320       2,320
                   Service   Appro   Betterm
                             priat   ent
                             ions    Fund
--------------------------------------------------------------------------------------------------------------------------------------------------------


                                                           FY 1990 to 2015 FS for Pivot--Cont.
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                FY 1990     FY 1991     FY 1992     FY 1993     FY 1994     FY 1995     FY 1996     FY 1997     FY 1998
 1/2    Approp.    Agency    Fund    Program    Enact.      Enact.      Enact.      Enact.      Enact.      Enact.      Enact.      Enact.      Enact.
--------------------------------------------------------------------------------------------------------------------------------------------------------
   2   Non-Fire   Forest    Other   Gifts,             3           1           8           5          18           4          87          55          92
                   Service   Appro   Donatio
                             priat   ns, and
                             ions    Bequest
                                     s
   2   Non-Fire   Forest    Other   Subsiste
                   Service   Appro   nce
                             priat   Managem
                             ions    ent--Al
                                     aska
   2   Non-Fire   Forest    Other   SE                                                                                   110,000
                   Service   Appro   Alaska
                             priat   Economi
                             ions    c
                                     Assista
                                     nce
   2   Non-Fire   Forest    Other   Early                        497
                   Service   Appro   Winters
                             priat   Land
                             ions    Exchang
                                     e
   1   Fire       Forest    Wildla  Prepared  [a] 167,35     171,492     179,692     176,968     173,372     143,604     295,315     319,315     319,167
                   Service   nd      ness              5
                             Fire
                             Manag
                             ement
   1   Fire       Forest    Wildla  Suppress  [b] 378,81     118,035  [c] 110,58     185,411     378,222     225,628     190,170     510,701     265,392
                   Service   nd      ion               2                       9
                             Fire
                             Manag
                             ement
   2   Fire       Forest    Wildla  Hazardou                                                      12,696
                   Service   nd      s Fuels
                             Fire
                             Manag
                             ement
   2   Fire       Forest    Wildla  Rehabili
                   Service   nd      tation
                             Fire    and
                             Manag   Restora
                             ement   tion
   2   Fire       Forest    Wildla  Fire
                   Service   nd      Researc
                             Fire    h and
                             Manag   Develop
                             ement   ment
   2   Fire       Forest    Wildla  Joint
                   Service   nd      Fire
                             Fire    Science
                             Manag   s
                             ement   Program
   2   Fire       Forest    Wildla  National
                   Service   nd      Fire
                             Fire    Plan--F
                             Manag   orest
                             ement   Health
                                     Managem
                                     ent--Fe
                                     deral
                                     Lands
   2   Fire       Forest    Wildla  NFP--For
                   Service   nd      est
                             Fire    Health
                             Manag   Managem
                             ement   ent--Co
                                     operati
                                     ve
                                     Lands
   2   Fire       Forest    Wildla  NFP--Sta
                   Service   nd      te Fire
                             Fire    Assista
                             Manag   nce
                             ement
   2   Fire       Forest    Wildla  NFP--Vol
                   Service   nd      unteer
                             Fire    Fire
                             Manag   Assista
                             ement   nce
   2   Fire       Forest    Wildla  Collabor
                   Service   nd      ative
                             Fire    Forest
                             Manag   Landsca
                             ement   pe
                                     Restora
                                     tion
                                     Fund
   2   Fire       Forest    Wildla  NFP--Eco
                   Service   nd      nomic
                             Fire    Action
                             Manag   Program
                             ement   s
   2   Fire       Forest    Wildla  Fire
                   Service   nd      Facilit
                             Fire    ies
                             Manag
                             ement
   2   Fire       Forest    Wildla  Land
                   Service   nd      Between
                             Fire    the
                             Manag   Lakes
                             ement   NRA
   2   Fire       Forest    Wildla  Fuels          8,837       8,407       7,719      12,195                  16,406
                   Service   nd      Managem
                             Fire    ent
                             Manag
                             ement
   1   Fire       Forest    Wildla  FLAME
                   Service   nd      Wildfir
                             Fire    e
                             Manag   Suppres
                             ement   sion
                                     Reserve
                                     Fund
      --------------------------------------------------------------------------------------------------------------------------------------------------
       Fire       NPS                                                                                         30,932      32,424      40,666      40,666
                                             -----------------------------------------------------------------------------------------------------------
       Non-Fire   NPS                                                                                      1,336,505   1,328,335   1,375,892   1,616,622
                                             ===========================================================================================================
       Total      NPS                                                                                      1,367,437   1,360,759   1,416,558   1,657,288
                                             ===========================================================================================================
       Fire       BLM                                                                                        126,000     135,513     144,890     151,503
                                             -----------------------------------------------------------------------------------------------------------
       Non-Fire   BLM                                                                                        874,000     678,020     689,012     699,930
                                             -----------------------------------------------------------------------------------------------------------
       Total      BLM                                                                                      1,000,000
--------------------------------------------------------------------------------------------------------------------------------------------------------


 
 
 
NPS Fire data 1995, 1996, 1997 are estimates from e-mail from Jeffrey Scott July 22, 2015.
BLM Fire and Total data 1995 from e-mail from Randall Eardley July 21, 2015.
NPS Total data 2007 to 2015 are from 10 year budget data posted on DOI public website.
BLM Total data 2007 to 2015 are from 10 year budget data posted on DOI public website.
NPS Fire data 1998 to 2015 from excel file received July 21, 2015 from Kimberly Salwasser. BLM and NPS Allocation Information. 1998-2015 YTD.xlsx.
BLM Fire data 1998 to 2015 from excel file received July 21, 2015 from Kimberly Salwasser. BLM and NPS Allocation Information. 1998-2015 YTD.xlsx.
Rows marked x in column A are data from Grant Beebe July 24 e-mail. He said they were a combination of appropriated and expended data. The other three
 rows compare the numbers with the other BLM numbers we have as described above.
BLM Total data 1996 to 2006 are data from Grant Beebe July 24.
[a] Was really called ``Fire Presuppression.''
[b] Was called ``Fighting Forest Fires.''
[c] Does not include: Transfer from Forest Service Fire Protection 7,000.
 


                                                           FY 1990 to 2015 FS for Pivot--Cont.
                                                                      [Continued 1]
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                FY 1999     FY 2000     FY 2001     FY 2002     FY 2003     FY 2004     FY 2005     FY 2006     FY 2007
 1/2    Approp.    Agency    Fund    Program    Enact.      Enact.      Enact.      Enact.      Enact.      Enact.      Enact.      Enact.      Enact.
--------------------------------------------------------------------------------------------------------------------------------------------------------
   2   Non-Fire   Forest    Other   Gifts,            92          92          92          92          91          90          64          63          63
                   Service   Appro   Donatio
                             priat   ns, and
                             ions    Bequest
                                     s
   2   Non-Fire   Forest    Other   Subsiste       3,000                   5,488       5,488       5,506       5,467       5,879       4,975       5,009
                   Service   Appro   nce
                             priat   Managem
                             ions    ent--Al
                                     aska
   2   Non-Fire   Forest    Other   SE                        22,000       4,989
                   Service   Appro   Alaska
                             priat   Economi
                             ions    c
                                     Assista
                                     nce
   2   Non-Fire   Forest    Other   Early
                   Service   Appro   Winters
                             priat   Land
                             ions    Exchang
                                     e
   1   Fire       Forest    Wildla  Prepared     324,876     408,768     611,143     622,618     611,996     671,621     676,470     660,705     665,382
                   Service   nd      ness
                             Fire
                             Manag
                             ement
   1   Fire       Forest    Wildla  Suppress     235,300     208,888     319,324     255,321     417,964     597,130     648,859     690,186     741,477
                   Service   nd      ion
                             Fire
                             Manag
                             ement
   2   Fire       Forest    Wildla  Hazardou                             205,158     209,010     226,626     233,479     262,539     280,119     301,258
                   Service   nd      s Fuels
                             Fire
                             Manag
                             ement
   2   Fire       Forest    Wildla  Rehabili                             141,687       3,668       7,078       6,914      12,819       6,189       6,189
                   Service   nd      tation
                             Fire    and
                             Manag   Restora
                             ement   tion
   2   Fire       Forest    Wildla  Fire                                  15,965      22,265      21,288      22,025      21,719      22,789      22,789
                   Service   nd      Researc
                             Fire    h and
                             Manag   Develop
                             ement   ment
   2   Fire       Forest    Wildla  Joint                                              8,000       7,948       7,901       7,889       7,882       7,882
                   Service   nd      Fire
                             Fire    Science
                             Manag   s
                             ement   Program
   2   Fire       Forest    Wildla  National                              11,974       6,982       6,910      14,815      14,792      14,779      14,779
                   Service   nd      Fire
                             Fire    Plan--F
                             Manag   orest
                             ement   Health
                                     Managem
                                     ent--Fe
                                     deral
                                     Lands
   2   Fire       Forest    Wildla  NFP--For                                           4,992       9,914       9,877       9,861       9,853       9,853
                   Service   nd      est
                             Fire    Health
                             Manag   Managem
                             ement   ent--Co
                                     operati
                                     ve
                                     Lands
   2   Fire       Forest    Wildla  NFP--Sta                              50,383      50,383      46,252      51,063      40,179      45,816      46,221
                   Service   nd      te Fire
                             Fire    Assista
                             Manag   nce
                             ement
   2   Fire       Forest    Wildla  NFP--Vol                               8,262       8,262       8,186       8,138       7,889       7,773       7,773
                   Service   nd      unteer
                             Fire    Fire
                             Manag   Assista
                             ement   nce
   2   Fire       Forest    Wildla  Collabor
                   Service   nd      ative
                             Fire    Forest
                             Manag   Landsca
                             ement   pe
                                     Restora
                                     tion
                                     Fund
   2   Fire       Forest    Wildla  NFP--Eco                              12,474      12,472       4,968
                   Service   nd      nomic
                             Fire    Action
                             Manag   Program
                             ement   s
   2   Fire       Forest    Wildla  Fire                                              10,376       1,838
                   Service   nd      Facilit
                             Fire    ies
                             Manag
                             ement
   2   Fire       Forest    Wildla  Land                         300
                   Service   nd      Between
                             Fire    the
                             Manag   Lakes
                             ement   NRA
   2   Fire       Forest    Wildla  Fuels
                   Service   nd      Managem
                             Fire    ent
                             Manag
                             ement
   1   Fire       Forest    Wildla  FLAME
                   Service   nd      Wildfir
                             Fire    e
                             Manag   Suppres
                             ement   sion
                                     Reserve
                                     Fund
      --------------------------------------------------------------------------------------------------------------------------------------------------
       Fire       NPS                             42,359      56,178     101,759      94,038      78,742      98,805     108,663      99,512     101,009
                                             -----------------------------------------------------------------------------------------------------------
       Non-Fire   NPS                          1,433,293   1,716,328   2,125,105   2,071,717   2,190,503   2,233,473   2,206,218   2,097,255   2,186,404
                                             ===========================================================================================================
       Total      NPS                          1,475,652   1,772,506   2,226,864   2,165,755   2,269,245   2,332,278   2,314,881   2,196,767   2,287,413
                                             ===========================================================================================================
       Fire       BLM                            151,907     271,777     459,315     363,865     352,096     371,795     386,730     455,241     449,408
                                             -----------------------------------------------------------------------------------------------------------
       Non-Fire   BLM                            737,345     776,868     856,783     880,797     918,623     945,201     944,323     956,083     556,879
                                             ===========================================================================================================
       Total      BLM                                                                                                                          1,006,287
--------------------------------------------------------------------------------------------------------------------------------------------------------


                                                           FY 1990 to 2015 FS for Pivot--Cont.
                                                                      [Continued 2]
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                FY 2012
 1/2    Approp.    Agency    Fund    Program    FY 2008     FY 2009     FY 2010     FY 2011    Enact. w/    FY 2013     FY 2014     FY 2015     FY 2016
                                                Enact.      Enact.      Enact.      Enact.     Recission    Enact.      Enact.      Enact.      Enact.
--------------------------------------------------------------------------------------------------------------------------------------------------------
   2   Non-Fire   Forest    Other   Gifts,            55          50          50          50          45          45          40          45          45
                   Service   Appro   Donatio
                             priat   ns, and
                             ions    Bequest
                                     s
   2   Non-Fire   Forest    Other   Subsiste       4,974       5,000       2,582       2,577       2,573       2,438       2,500       2,500       2,500
                   Service   Appro   nce
                             priat   Managem
                             ions    ent--Al
                                     aska
   2   Non-Fire   Forest    Other   SE
                   Service   Appro   Alaska
                             priat   Economi
                             ions    c
                                     Assista
                                     nce
   2   Non-Fire   Forest    Other   Early
                   Service   Appro   Winters
                             priat   Land
                             ions    Exchang
                                     e
   1   Fire       Forest    Wildla  Prepared     665,819     675,000     675,000     673,650   1,004,442     948,651   1,057,580   1,145,840   1,082,620
                   Service   nd      ness
                             Fire
                             Manag
                             ement
   1   Fire       Forest    Wildla  Suppress     845,620     993,947     997,505     995,511     537,858     509,812     680,488     708,000     811,000
                   Service   nd      ion
                             Fire
                             Manag
                             ement
   2   Fire       Forest    Wildla  Hazardou     310,086     328,086     350,285     339,604     317,076     301,056     306,500     361,749     375,000
                   Service   nd      s Fuels
                             Fire
                             Manag
                             ement
   2   Fire       Forest    Wildla  Rehabili      10,828      11,500      11,600      11,477
                   Service   nd      tation
                             Fire    and
                             Manag   Restora
                             ement   tion
   2   Fire       Forest    Wildla  Fire          23,519      23,917      23,917      23,869      21,699      20,603      19,795      19,795      19,795
                   Service   nd      Researc
                             Fire    h and
                             Manag   Develop
                             ement   ment
   2   Fire       Forest    Wildla  Joint          7,875       8,000       8,000       7,984       7,250       6,884       6,914       6,914       6,914
                   Service   nd      Fire
                             Fire    Science
                             Manag   s
                             ement   Program
   2   Fire       Forest    Wildla  National      14,030      17,252      20,752      20,710      15,958      15,151
                   Service   nd      Fire
                             Fire    Plan--F
                             Manag   orest
                             ement   Health
                                     Managem
                                     ent--Fe
                                     deral
                                     Lands
   2   Fire       Forest    Wildla  NFP--For       9,858       9,928      11,428      11,405       8,353       7,931
                   Service   nd      est
                             Fire    Health
                             Manag   Managem
                             ement   ent--Co
                                     operati
                                     ve
                                     Lands
   2   Fire       Forest    Wildla  NFP--Sta      47,967      55,000      71,250      64,870      55,475      52,672      78,000      78,000      78,000
                   Service   nd      te Fire
                             Fire    Assista
                             Manag   nce
                             ement
   2   Fire       Forest    Wildla  NFP--Vol       7,875       9,000       9,000       8,982       6,356       6,035      13,025      13,000      13,000
                   Service   nd      unteer
                             Fire    Fire
                             Manag   Assista
                             ement   nce
   2   Fire       Forest    Wildla  Collabor                                           9,980
                   Service   nd      ative
                             Fire    Forest
                             Manag   Landsca
                             ement   pe
                                     Restora
                                     tion
                                     Fund
   2   Fire       Forest    Wildla  NFP--Eco
                   Service   nd      nomic
                             Fire    Action
                             Manag   Program
                             ement   s
   2   Fire       Forest    Wildla  Fire
                   Service   nd      Facilit
                             Fire    ies
                             Manag
                             ement
   2   Fire       Forest    Wildla  Land
                   Service   nd      Between
                             Fire    the
                             Manag   Lakes
                             ement   NRA
   2   Fire       Forest    Wildla  Fuels
                   Service   nd      Managem
                             Fire    ent
                             Manag
                             ement
   1   Fire       Forest    Wildla  FLAME                                413,000     290,418     315,381     298,967     315,000     303,060     823,000
                   Service   nd      Wildfir
                             Fire    e
                             Manag   Suppres
                             ement   sion
                                     Reserve
                                     Fund
      --------------------------------------------------------------------------------------------------------------------------------------------------
       Fire       NPS                             94,799     103,006      93,615     119,606      70,181      92,111     120,902      86,878
                                             -----------------------------------------------------------------------------------------------------------
       Non-Fire   NPS                          2,356,710   2,422,599   2,655,715   2,491,536   2,493,939   2,300,013   2,455,977   2,527,911
                                             ===========================================================================================================
       Total      NPS                          2,451,509   2,525,605   2,749,330   2,611,142   2,564,120   2,392,124   2,576,879   2,614,789
                                             ===========================================================================================================
       Fire       BLM                            503,842     477,087     395,668     468,321     371,901     483,062     462,137     402,883
                                             -----------------------------------------------------------------------------------------------------------
       Non-Fire   BLM                            483,925     541,379     722,736     641,365     736,238     631,798     637,948     690,159
                                             ===========================================================================================================
       Total      BLM                            987,767   1,018,466   1,118,404   1,109,686   1,108,139   1,114,860   1,100,085   1,093,042
--------------------------------------------------------------------------------------------------------------------------------------------------------


                                                         FY 1990 to 2015 FS Real FY 2015 Dollars
                                                           [Note: Discretionary funding only]
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                              FY 2005      FY 2006      FY 2007      FY 2008      FY 2009      FY 2010
 1/2        Approp.            Agency           Fund           Program         Enact.       Enact.       Enact.       Enact.       Enact.       Enact.
--------------------------------------------------------------------------------------------------------------------------------------------------------
   2   Non-Fire           Forest Service   Forest &       Forest &              340,893      331,789      327,008      322,316      333,131      345,825
                                            Rangeland      Rangeland
                                            Research       Research
   2   Non-Fire           Forest Service   State and      Landscape Scale
                                            Private        Restoration
                                            Forestry
   2   Non-Fire           Forest Service   State and      Forest Health          66,895       63,515       62,913       60,997       60,820       63,490
                                            Private        Management--Fed
                                            Forestry       eral Lands
   2   Non-Fire           Forest Service   State and      Forest Health          58,746       56,038       54,916       50,211       52,032       53,837
                                            Private        Management--Coo
                                            Forestry       perative Lands
   2   Non-Fire           Forest Service   State and      Forest Health
                                            Private        Management--Coo
                                            Forestry       perative Lands
                                                           Fire Mgt
   2   Non-Fire           Forest Service   State and      Forest Health
                                            Private        Management--Eme
                                            Forestry       rgency Pest Mgt
   2   Non-Fire           Forest Service   State and      Forest
                                            Private        Management and
                                            Forestry       Utilization
   2   Non-Fire           Forest Service   State and      State Fire             40,604       39,301       38,351       36,755       39,340       43,389
                                            Private        Assistance
                                            Forestry
   2   Non-Fire           Forest Service   State and      Volunteer Fire          7,298        7,063        6,893        6,658        6,744        7,759
                                            Private        Assistance
                                            Forestry
   2   Non-Fire           Forest Service   State and      Fire Protection
                                            Private
                                            Forestry
   2   Non-Fire           Forest Service   State and      Forest                 39,864       40,793       48,904       33,291       30,348       32,552
                                            Private        Stewardship
                                            Forestry
   2   Non-Fire           Forest Service   State and      Forest Legacy          70,469       67,531       65,913       58,975       55,576       84,746
                                            Private        Program
                                            Forestry
   2   Non-Fire           Forest Service   State and      Community Forest
                                            Private        & Open Space
                                            Forestry       Conservation
   2   Non-Fire           Forest Service   State and      Urban and              39,407       33,946       35,127       31,215       33,204       33,669
                                            Private        Community
                                            Forestry       Forestry
   2   Non-Fire           Forest Service   State and      Economic Action        23,474       11,394                     4,741        5,590        5,542
                                            Private        Programs
                                            Forestry
   2   Non-Fire           Forest Service   State and      Forest Resources        6,115        5,481        5,349        5,091        5,620        5,581
                                            Private        Info & Analysis
                                            Forestry
   2   Non-Fire           Forest Service   State and      International           7,906        8,227        8,028        8,323        9,554       10,882
                                            Private        Forestry
                                            Forestry
   2   Non-Fire           Forest Service   State and      Emergency Pest
                                            Private        Suppression
                                            Forestry       Fund
   2   Non-Fire           Forest Service   State and      Forest Pest
                                            Private        Management
                                            Forestry
   2   Non-Fire           Forest Service   State and      Stewardship
                                            Private        Incentives
                                            Forestry       Program
   2   Non-Fire           Forest Service   State and      Pacific
                                            Private        Northwest
                                            Forestry       Assistance Prog
   2   Non-Fire           Forest Service   State and      Special Projects
                                            Private
                                            Forestry
   2   Non-Fire           Forest Service   National       IRR
                                            Forest
                                            System
   2   Non-Fire           Forest Service   National       Collaborative
                                            Forest         Forest
                                            System         Landscape
                                                           Restoration
   2   Non-Fire           Forest Service   National       Restoration
                                            Forest         Partnerships
                                            System
   2   Non-Fire           Forest Service   National       Land Management
                                            Forest         Planning,
                                            System         Assessment &
                                                           Monitoring
   2   Non-Fire           Forest Service   National       Land Management        77,910       68,906       67,241       55,048       54,888       50,893
                                            Forest         Planning
                                            System
--------------------------------------------------------------------------------------------------------------------------------------------------------


                                                         FY 1990 to 2015 FS Real FY 2015 Dollars
                                                                       [Continued]
                                                           [Note: Discretionary funding only]
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                           FY 2012
 1/2        Approp.            Agency           Fund           Program        FY 2011     Enact. w/     FY 2013      FY 2014      FY 2015      FY 2016
                                                                               Enact.     Recission      Enact.       Enact.       Enact.       Enact.
--------------------------------------------------------------------------------------------------------------------------------------------------------
   2   Non-Fire           Forest Service   Forest &       Forest &              332,973      314,107      293,156      302,132      301,581      291,000
                                            Rangeland      Rangeland
                                            Research       Research
   2   Non-Fire           Forest Service   State and      Landscape Scale                                               14,446       14,264       14,000
                                            Private        Restoration
                                            Forestry
   2   Non-Fire           Forest Service   State and      Forest Health          61,610       50,445       47,080       60,799       60,033       58,922
                                            Private        Management--Fed
                                            Forestry       eral Lands
   2   Non-Fire           Forest Service   State and      Forest Health          53,014       42,546       38,648       47,109       41,445       40,678
                                            Private        Management--Coo
                                            Forestry       perative Lands
   2   Non-Fire           Forest Service   State and      Forest Health
                                            Private        Management--Coo
                                            Forestry       perative Lands
                                                           Fire Mgt
   2   Non-Fire           Forest Service   State and      Forest Health
                                            Private        Management--Eme
                                            Forestry       rgency Pest Mgt
   2   Non-Fire           Forest Service   State and      Forest
                                            Private        Management and
                                            Forestry       Utilization
   2   Non-Fire           Forest Service   State and      State Fire             35,137       32,430       26,983
                                            Private        Assistance
                                            Forestry
   2   Non-Fire           Forest Service   State and      Volunteer Fire          7,254        7,094        6,620
                                            Private        Assistance
                                            Forestry
   2   Non-Fire           Forest Service   State and      Fire Protection
                                            Private
                                            Forestry
   2   Non-Fire           Forest Service   State and      Forest                 35,343       30,649       31,888       23,111       23,470       23,036
                                            Private        Stewardship
                                            Forestry
   2   Non-Fire           Forest Service   State and      Forest Legacy          57,437       56,698       52,916       52,589       53,999       62,347
                                            Private        Program
                                            Forestry
   2   Non-Fire           Forest Service   State and      Community Forest        1,086        2,124        1,982        2,064        2,038        2,000
                                            Private        & Open Space
                                            Forestry       Conservation
   2   Non-Fire           Forest Service   State and      Urban and              34,792       33,322       32,160       28,933       28,569       28,040
                                            Private        Community
                                            Forestry       Forestry
   2   Non-Fire           Forest Service   State and      Economic Action
                                            Private        Programs
                                            Forestry
   2   Non-Fire           Forest Service   State and      Forest Resources        5,458        5,230        4,881
                                            Private        Info & Analysis
                                            Forestry
   2   Non-Fire           Forest Service   State and      International          10,307        8,496        7,930        8,255        8,151        8,000
                                            Private        Forestry
                                            Forestry
   2   Non-Fire           Forest Service   State and      Emergency Pest
                                            Private        Suppression
                                            Forestry       Fund
   2   Non-Fire           Forest Service   State and      Forest Pest
                                            Private        Management
                                            Forestry
   2   Non-Fire           Forest Service   State and      Stewardship
                                            Private        Incentives
                                            Forestry       Program
   2   Non-Fire           Forest Service   State and      Pacific
                                            Private        Northwest
                                            Forestry       Assistance Prog
   2   Non-Fire           Forest Service   State and      Special Projects
                                            Private
                                            Forestry
   2   Non-Fire           Forest Service   National       IRR                                                                             0
                                            Forest
                                            System
   2   Non-Fire           Forest Service   National       Collaborative          16,256       42,479       39,686       41,274       40,754       40,000
                                            Forest         Forest
                                            System         Landscape
                                                           Restoration
   2   Non-Fire           Forest Service   National       Restoration                                                    2,064
                                            Forest         Partnerships
                                            System
   2   Non-Fire           Forest Service   National       Land Management
                                            Forest         Planning,
                                            System         Assessment &
                                                           Monitoring
   2   Non-Fire           Forest Service   National       Land Management        48,901       42,479       38,971       38,957       38,466       36,998
                                            Forest         Planning
                                            System
--------------------------------------------------------------------------------------------------------------------------------------------------------


                                                     FY 1990 to 2015 FS Real FY 2015 Dollars--Cont.
                                                           [Note: Discretionary funding only]
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                              FY 2005      FY 2006      FY 2007      FY 2008      FY 2009      FY 2010
 1/2        Approp.            Agency           Fund           Program         Enact.       Enact.       Enact.       Enact.       Enact.       Enact.
--------------------------------------------------------------------------------------------------------------------------------------------------------
   2   Non-Fire           Forest Service   National       Inventory and         206,351      199,087      194,276      187,780      188,360      188,980
                                            Forest         Monitoring
                                            System
   2   Non-Fire           Forest Service   National       Recreation,           317,408      309,192      301,720      296,060      312,062      316,016
                                            Forest         Heritage &
                                            System         Wilderness
   2   Non-Fire           Forest Service   National       Wildlife &            166,200      157,386      153,583      149,234      156,669      158,513
                                            Forest         Fisheries
                                            System         Habitat Mgmt
   2   Non-Fire           Forest Service   National       Wildlife Habitat
                                            Forest         Management
                                            System
   2   Non-Fire           Forest Service   National       Inland Fisheries
                                            Forest         Habitat Mgmt
                                            System
   2   Non-Fire           Forest Service   National       Anadromous
                                            Forest         Fisheries Hab
                                            System         Mgmt
   2   Non-Fire           Forest Service   National       TE&S Species
                                            Forest         Mgmg
                                            System
   2   Non-Fire           Forest Service   National       Grazing                59,245       57,139       55,758       54,293       56,200       56,210
                                            Forest         Management
                                            System
   2   Non-Fire           Forest Service   National       Forest Products       337,024      331,636      372,623      363,548      373,917      373,213
                                            Forest
                                            System
   2   Non-Fire           Forest Service   National       Timber Sales
                                            Forest         Admin. and
                                            System         Mgmt.
   2   Non-Fire           Forest Service   National       Vegetation &          233,870      214,874      206,180      200,019      202,811      208,330
                                            Forest         Watershed Mgmt
                                            System
   2   Non-Fire           Forest Service   National       Reforestation
                                            Forest         and Stand
                                            System         Improvement
   2   Non-Fire           Forest Service   National       Minerals &             68,759      100,553       98,123       94,852       96,068       96,694
                                            Forest         Geology
                                            System         Management
   2   Non-Fire           Forest Service   National       Landownership         113,632      108,639      106,013      102,919      104,868      105,967
                                            Forest         Management
                                            System
   2   Non-Fire           Forest Service   National       Real Estate
                                            Forest         Management
                                            System
   2   Non-Fire           Forest Service   National       Law Enforcement       106,090      132,540      134,073      148,698      152,302      160,766
                                            Forest         Operations
                                            System
   2   Non-Fire           Forest Service   National       Cooperative Law
                                            Forest         Enforcement
                                            System
   2   Non-Fire           Forest Service   National       Drug Enforcement
                                            Forest
                                            System
   2   Non-Fire           Forest Service   National       Valles Caldera          4,439        6,062        4,080        4,161        4,496        3,879
                                            Forest         National
                                            System         Preserve
   2   Non-Fire           Forest Service   National       Recreation Use
                                            Forest
                                            System
   2   Non-Fire           Forest Service   National       Rangeland
                                            Forest         Management
                                            System
   2   Non-Fire           Forest Service   National       Forestland
                                            Forest         Management
                                            System
   2   Non-Fire           Forest Service   National       Soil, Water &
                                            Forest         Air Management
                                            System
   2   Non-Fire           Forest Service   National       Centennial of          12,163        5,297
                                            Forest         Service
                                            System         Challenge
   2   Non-Fire           Forest Service   National       Infrastructure
                                            Forest         Management
                                            System
   2   Non-Fire           Forest Service   National       Maintenance of
                                            Forest         Facilities
                                            System
   2   Non-Fire           Forest Service   National       Forest Road
                                            Forest         Maintenance
                                            System
   2   Non-Fire           Forest Service   National       Forest Trail
                                            Forest         Maintenance
                                            System
   2   Non-Fire           Forest Service   National       Land Line
                                            Forest         Location
                                            System
   2   Non-Fire           Forest Service   National       Quincy Library
                                            Forest         Group
                                            System         Implementation
   2   Non-Fire           Forest Service   National       Tongass NF
                                            Forest         Timber Pipeline
                                            System
   2   Non-Fire           Forest Service   National       General
                                            Forest         Administration
                                            System
--------------------------------------------------------------------------------------------------------------------------------------------------------


                                                     FY 1990 to 2015 FS Real FY 2015 Dollars--Cont.
                                                                       [Continued]
                                                           [Note: Discretionary funding only]
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                           FY 2012
 1/2        Approp.            Agency           Fund           Program        FY 2011     Enact. w/     FY 2013      FY 2014      FY 2015      FY 2016
                                                                               Enact.     Recission      Enact.       Enact.       Enact.       Enact.
--------------------------------------------------------------------------------------------------------------------------------------------------------
   2   Non-Fire           Forest Service   National       Inventory and         181,581      172,021      157,813      155,830      153,866      147,998
                                            Forest         Monitoring
                                            System
   2   Non-Fire           Forest Service   National       Recreation,           305,815      299,084      274,382      270,056      266,654      261,719
                                            Forest         Heritage &
                                            System         Wilderness
   2   Non-Fire           Forest Service   National       Wildlife &            152,306      148,955      137,108      144,941      143,114      140,466
                                            Forest         Fisheries
                                            System         Habitat Mgmt
   2   Non-Fire           Forest Service   National       Wildlife Habitat
                                            Forest         Management
                                            System
   2   Non-Fire           Forest Service   National       Inland Fisheries
                                            Forest         Habitat Mgmt
                                            System
   2   Non-Fire           Forest Service   National       Anadromous
                                            Forest         Fisheries Hab
                                            System         Mgmt
   2   Non-Fire           Forest Service   National       TE&S Species
                                            Forest         Mgmg
                                            System
   2   Non-Fire           Forest Service   National       Grazing                54,010       58,882       54,019       57,119       56,400       56,856
                                            Forest         Management
                                            System
   2   Non-Fire           Forest Service   National       Forest Products       364,911      356,879      333,408      349,933      345,524      359,805
                                            Forest
                                            System
   2   Non-Fire           Forest Service   National       Timber Sales
                                            Forest         Admin. and
                                            System         Mgmt.
   2   Non-Fire           Forest Service   National       Vegetation &          200,173      195,768      180,356      190,600      188,199      184,716
                                            Forest         Watershed Mgmt
                                            System
   2   Non-Fire           Forest Service   National       Reforestation
                                            Forest         and Stand
                                            System         Improvement
   2   Non-Fire           Forest Service   National       Minerals &             90,737       88,739       81,410       78,857       77,864       76,423
                                            Forest         Geology
                                            System         Management
   2   Non-Fire           Forest Service   National       Landownership          99,646       91,199       83,665       80,206       79,196       77,730
                                            Forest         Management
                                            System
   2   Non-Fire           Forest Service   National       Real Estate
                                            Forest         Management
                                            System
   2   Non-Fire           Forest Service   National       Law Enforcement       156,643      152,989      140,352      130,688      129,041      126,653
                                            Forest         Operations
                                            System
   2   Non-Fire           Forest Service   National       Cooperative Law
                                            Forest         Enforcement
                                            System
   2   Non-Fire           Forest Service   National       Drug Enforcement
                                            Forest
                                            System
   2   Non-Fire           Forest Service   National       Valles Caldera          3,727        3,644        3,344        3,471        3,427
                                            Forest         National
                                            System         Preserve
   2   Non-Fire           Forest Service   National       Recreation Use
                                            Forest
                                            System
   2   Non-Fire           Forest Service   National       Rangeland
                                            Forest         Management
                                            System
   2   Non-Fire           Forest Service   National       Forestland
                                            Forest         Management
                                            System
   2   Non-Fire           Forest Service   National       Soil, Water &
                                            Forest         Air Management
                                            System
   2   Non-Fire           Forest Service   National       Centennial of
                                            Forest         Service
                                            System         Challenge
   2   Non-Fire           Forest Service   National       Infrastructure
                                            Forest         Management
                                            System
   2   Non-Fire           Forest Service   National       Maintenance of
                                            Forest         Facilities
                                            System
   2   Non-Fire           Forest Service   National       Forest Road
                                            Forest         Maintenance
                                            System
   2   Non-Fire           Forest Service   National       Forest Trail
                                            Forest         Maintenance
                                            System
   2   Non-Fire           Forest Service   National       Land Line
                                            Forest         Location
                                            System
   2   Non-Fire           Forest Service   National       Quincy Library
                                            Forest         Group
                                            System         Implementation
   2   Non-Fire           Forest Service   National       Tongass NF
                                            Forest         Timber Pipeline
                                            System
   2   Non-Fire           Forest Service   National       General
                                            Forest         Administration
                                            System
--------------------------------------------------------------------------------------------------------------------------------------------------------


                                                     FY 1990 to 2015 FS Real FY 2015 Dollars--Cont.
                                                           [Note: Discretionary funding only]
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                              FY 2005      FY 2006      FY 2007      FY 2008      FY 2009      FY 2010
 1/2        Approp.            Agency           Fund           Program         Enact.       Enact.       Enact.       Enact.       Enact.       Enact.
--------------------------------------------------------------------------------------------------------------------------------------------------------
   2   Non-Fire           Forest Service   National       Land Between the
                                            Forest         Lakes NRA
                                            System
   2   Non-Fire           Forest Service   Capital        Facilities            245,162      147,785      151,724      137,251      142,133      149,641
                                            Improvement
                                            and
                                            Maintenance
   2   Non-Fire           Forest Service   Capital        Roads                 279,237      263,662      260,916      256,932      257,199      262,153
                                            Improvement
                                            and
                                            Maintenance
   2   Non-Fire           Forest Service   Capital        Trails                 93,377       88,655       85,529       86,084       91,061       94,634
                                            Improvement
                                            and
                                            Maintenance
   2   Non-Fire           Forest Service   Capital        Deferred               17,057       15,224       10,609       10,098       10,228       10,132
                                            Improvement    Maintenance
                                            and
                                            Maintenance
   2   Non-Fire           Forest Service   Capital        Legacy Roads &                                                44,827       56,200       99,753
                                            Improvement    Trails
                                            and
                                            Maintenance
   2   Non-Fire           Forest Service   Capital        Road Maintenance
                                            Improvement    & Decommission
                                            and
                                            Maintenance
   2   Non-Fire           Forest Service   Capital        Land Between the
                                            Improvement    Lakes NRA
                                            and
                                            Maintenance
   2   Non-Fire           Forest Service   Land           Land Acquisition       75,246       49,906       48,891       47,150       55,947       70,406
                                            Acquisition,
                                            Special Acts
                                            & Exchanges
   2   Non-Fire           Forest Service   Land           Land Acq., NF           1,300        1,258        1,228        1,169        1,180        1,164
                                            Acquisition,   Special Acts
                                            Special Acts
                                            & Exchanges
   2   Non-Fire           Forest Service   Land           Complete Land             285          276        4,288          249           46          129
                                            Acquisition,   Exchanges
                                            Special Acts
                                            & Exchanges
   2   Non-Fire           Forest Service   Other          Range Betterment        3,049        3,739        3,353        2,881        2,901        2,871
                                            Appropriatio   Fund
                                            ns
   2   Non-Fire           Forest Service   Other          Gifts,                     79           75           73           62           56           55
                                            Appropriatio   Donations, and
                                            ns             Bequests
   2   Non-Fire           Forest Service   Other          Subsistence             7,251        5,944        5,840        5,607        5,620        2,862
                                            Appropriatio   Management--Ala
                                            ns             ska
   2   Non-Fire           Forest Service   Other          SE Alaska
                                            Appropriatio   Economic
                                            ns             Assistance
   2   Non-Fire           Forest Service   Other          Early Winters
                                            Appropriatio   Land Exchange
                                            ns
   1   Fire               Forest Service   Wildland Fire  Preparedness          834,360      789,363      775,738      750,557      758,700      748,151
                                            Management
   1   Fire               Forest Service   Wildland Fire  Suppression           800,305      824,584      864,454      953,241    1,117,196    1,105,607
                                            Management
   2   Fire               Forest Service   Wildland Fire  Hazardous Fuels       323,816      334,666      351,223      349,550      368,769      388,246
                                            Management
   2   Fire               Forest Service   Wildland Fire  Rehabilitation         15,811        7,394        7,215       12,206       12,926       12,857
                                            Management     and Restoration
   2   Fire               Forest Service   Wildland Fire  Fire Research          26,788       27,227       26,569       26,512       26,883       26,509
                                            Management     and Development
   2   Fire               Forest Service   Wildland Fire  Joint Fire              9,730        9,417        9,189        8,877        8,992        8,867
                                            Management     Sciences
                                                           Program
   2   Fire               Forest Service   Wildland Fire  National Fire          18,244       17,657       17,230       15,816       19,391       23,001
                                            Management     Plan--Forest
                                                           Health
                                                           Management--Fed
                                                           eral Lands
--------------------------------------------------------------------------------------------------------------------------------------------------------


                                                     FY 1990 to 2015 FS Real FY 2015 Dollars--Cont.
                                                                       [Continued]
                                                           [Note: Discretionary funding only]
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                           FY 2012
 1/2        Approp.            Agency           Fund           Program        FY 2011     Enact. w/     FY 2013      FY 2014      FY 2015      FY 2016
                                                                               Enact.     Recission      Enact.       Enact.       Enact.       Enact.
--------------------------------------------------------------------------------------------------------------------------------------------------------
   2   Non-Fire           Forest Service   National       Land Between the
                                            Forest         Lakes NRA
                                            System
   2   Non-Fire           Forest Service   Capital        Facilities            146,595       80,483       73,926       73,262       72,950       71,390
                                            Improvement
                                            and
                                            Maintenance
   2   Non-Fire           Forest Service   Capital        Roads                 211,959      194,150      173,847      171,288      171,263      172,094
                                            Improvement
                                            and
                                            Maintenance
   2   Non-Fire           Forest Service   Capital        Trails                 95,972       87,064       78,564       77,389       78,992       77,530
                                            Improvement
                                            and
                                            Maintenance
   2   Non-Fire           Forest Service   Capital        Deferred                9,945        9,702        3,128        3,096        3,209        3,150
                                            Improvement    Maintenance
                                            and
                                            Maintenance
   2   Non-Fire           Forest Service   Capital        Legacy Roads &         48,767       47,789       41,706       36,115       40,754       40,000
                                            Improvement    Trails
                                            and
                                            Maintenance
   2   Non-Fire           Forest Service   Capital        Road Maintenance
                                            Improvement    & Decommission
                                            and
                                            Maintenance
   2   Non-Fire           Forest Service   Capital        Land Between the
                                            Improvement    Lakes NRA
                                            and
                                            Maintenance
   2   Non-Fire           Forest Service   Land           Land Acquisition       35,763       55,866       52,127       44,912       48,396       63,435
                                            Acquisition,
                                            Special Acts
                                            & Exchanges
   2   Non-Fire           Forest Service   Land           Land Acq., NF           1,138        1,014          946          941          968          950
                                            Acquisition,   Special Acts
                                            Special Acts
                                            & Exchanges
   2   Non-Fire           Forest Service   Land           Complete Land                          241                       224          220          216
                                            Acquisition,   Exchanges
                                            Special Acts
                                            & Exchanges
   2   Non-Fire           Forest Service   Other          Range Betterment        2,771        3,464        2,449        3,096        2,364        2,320
                                            Appropriatio   Fund
                                            ns
   2   Non-Fire           Forest Service   Other          Gifts,                     54           48           47           41           46           45
                                            Appropriatio   Donations, and
                                            ns             Bequests
   2   Non-Fire           Forest Service   Other          Subsistence             2,798        2,737        2,554        2,580        2,547        2,500
                                            Appropriatio   Management--Ala
                                            ns             ska
   2   Non-Fire           Forest Service   Other          SE Alaska
                                            Appropriatio   Economic
                                            ns             Assistance
   2   Non-Fire           Forest Service   Other          Early Winters
                                            Appropriatio   Land Exchange
                                            ns
   1   Fire               Forest Service   Wildland Fire  Preparedness          731,507    1,068,414      993,741    1,091,270    1,167,444    1,082,620
                                            Management
   1   Fire               Forest Service   Wildland Fire  Suppression         1,081,011      572,114      534,044      702,165      721,349      811,000
                                            Management
   2   Fire               Forest Service   Wildland Fire  Hazardous Fuels       368,771      337,270      315,365      316,264      368,570      375,000
                                            Management
   2   Fire               Forest Service   Wildland Fire  Rehabilitation         12,463
                                            Management     and Restoration
   2   Fire               Forest Service   Wildland Fire  Fire Research          25,919       23,081       21,582       20,426       20,168       19,795
                                            Management     and Development
   2   Fire               Forest Service   Wildland Fire  Joint Fire              8,670        7,712        7,211        7,134        7,044        6,914
                                            Management     Sciences
                                                           Program
   2   Fire               Forest Service   Wildland Fire  National Fire          22,489       16,974       15,871
                                            Management     Plan--Forest
                                                           Health
                                                           Management--Fed
                                                           eral Lands
--------------------------------------------------------------------------------------------------------------------------------------------------------


                                                     FY 1990 to 2015 FS Real FY 2015 Dollars--Cont.
                                                           [Note: Discretionary funding only]
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                              FY 2005      FY 2006      FY 2007      FY 2008      FY 2009      FY 2010
 1/2        Approp.            Agency           Fund           Program         Enact.       Enact.       Enact.       Enact.       Enact.       Enact.
--------------------------------------------------------------------------------------------------------------------------------------------------------
   2   Fire               Forest Service   Wildland Fire  NFP--Forest            12,163       11,772       11,487       11,113       11,159       12,666
                                            Management     Health
                                                           Management--Coo
                                                           perative Lands
   2   Fire               Forest Service   Wildland Fire  NFP--State Fire        49,557       54,738       53,887       54,072       61,820       78,972
                                            Management     Assistance
   2   Fire               Forest Service   Wildland Fire  NFP--Volunteer          9,730        9,287        9,062        8,877       10,116        9,975
                                            Management     Fire Assistance
   2   Fire               Forest Service   Wildland Fire  Collaborative
                                            Management     Forest
                                                           Landscape
                                                           Restoration
                                                           Fund
   2   Fire               Forest Service   Wildland Fire  NFP--Economic
                                            Management     Action Programs
   2   Fire               Forest Service   Wildland Fire  Fire Facilities
                                            Management
   2   Fire               Forest Service   Wildland Fire  Land Between the
                                            Management     Lakes NRA
   2   Fire               Forest Service   Wildland Fire  Fuels Management
                                            Management
   1   Fire               Forest Service   Wildland Fire  FLAME Wildfire                                                                         457,758
                                            Management     Suppression
                                                           Reserve Fund
                         -------------------------------------------------------------------------------------------------------------------------------
       Fire               NPS                                                   134,025      118,890      117,762      106,864      115,779      103,760
                                                                           -----------------------------------------------------------------------------
       Non-Fire           NPS                                                 2,721,156    2,505,649    2,549,028    2,656,646    2,723,001    2,943,520
                                                                           =============================================================================
       Total              NPS                                                 2,855,181    2,624,539    2,666,790    2,763,510    2,838,780    3,047,280
                                                                           =============================================================================
       Fire               BLM                                                   476,994      543,889      523,944      567,966      536,246      438,547
                                                                           -----------------------------------------------------------------------------
       Non-Fire           BLM                                                 1,164,731    1,142,259      649,240      545,514      608,510      801,060
                                                                           =============================================================================
       Total              BLM                                                                           1,173,184    1,113,479    1,144,756    1,239,608
--------------------------------------------------------------------------------------------------------------------------------------------------------
NPS Fire data 1995, 1996, 1997 are estimates from e-mail from Jeffrey Scott July 22, 2015.
 
                                                                             BLM Fire and Total data 1995 from e-mail from Randall Eardley July 21, 2015.
 
NPS Total data 2007 to 2015 are from 10 year budget data posted on DOI public website.
 
                                                                             BLM Total data 2007 to 2015 are from 10 year budget data posted on DOI public website.
 
NPS Fire data 1998 to 2015 from excel file received July 21, 2015 from Kimberly Salwasser. BLM and NPS Allocation Information. 1998-2015 YTD.xlsx.
 
                                                                             BLM Fire data 1998 to 2015 from excel file received July 21, 2015 from Kimberly Salwasser. BLM and NPS Allocation Information. 1998-2015 YTD.xlsx.
 
Rows marked x in column A are data from Grant Beebe July 24 e-mail. He said they were a combination of appropriated and expended data.
 
                                                                             BLM Total data 1996 to 2006 I used data from Grant Beebe July 24.
 
--------------------------------------------------------------------------------------------------------------------------------------------------------


                                                     FY 1990 to 2015 FS Real FY 2015 Dollars--Cont.
                                                                       [Continued]
                                                           [Note: Discretionary funding only]
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                           FY 2012
 1/2        Approp.            Agency           Fund           Program        FY 2011     Enact. w/     FY 2013      FY 2014      FY 2015      FY 2016
                                                                               Enact.     Recission      Enact.       Enact.       Enact.       Enact.
--------------------------------------------------------------------------------------------------------------------------------------------------------
   2   Fire               Forest Service   Wildland Fire  NFP--Forest            12,385        8,885        8,308
                                            Management     Health
                                                           Management--Coo
                                                           perative Lands
   2   Fire               Forest Service   Wildland Fire  NFP--State Fire        70,441       59,008       55,176       80,485       79,471       78,000
                                            Management     Assistance
   2   Fire               Forest Service   Wildland Fire  NFP--Volunteer          9,753        6,761        6,322       13,440       13,245       13,000
                                            Management     Fire Assistance
   2   Fire               Forest Service   Wildland Fire  Collaborative          10,837
                                            Management     Forest
                                                           Landscape
                                                           Restoration
                                                           Fund
   2   Fire               Forest Service   Wildland Fire  NFP--Economic
                                            Management     Action Programs
   2   Fire               Forest Service   Wildland Fire  Fire Facilities
                                            Management
   2   Fire               Forest Service   Wildland Fire  Land Between the
                                            Management     Lakes NRA
   2   Fire               Forest Service   Wildland Fire  Fuels Management
                                            Management
   1   Fire               Forest Service   Wildland Fire  FLAME Wildfire        315,361      335,467      313,177      325,034      308,774      823,000
                                            Management     Suppression
                                                           Reserve Fund
                         -------------------------------------------------------------------------------------------------------------------------------
       Fire               NPS                                                   129,878       74,651       96,489      124,753       88,516
                                                                           -----------------------------------------------------------------------------
       Non-Fire           NPS                                                 2,705,523    2,652,775    2,409,333    2,534,213    2,575,573
                                                                           =============================================================================
       Total              NPS                                                 2,835,401    2,727,426    2,505,822    2,658,966    2,664,089
                                                                           =============================================================================
       Fire               BLM                                                   508,543      395,587      506,022      476,859      410,479
                                                                           -----------------------------------------------------------------------------
       Non-Fire           BLM                                                   696,449      783,128      661,828      658,270      703,171
                                                                           =============================================================================
       Total              BLM                                                 1,204,992    1,178,715    1,167,850    1,135,129    1,113,650
--------------------------------------------------------------------------------------------------------------------------------------------------------


                                         Line Graph Master w FS BLM NPS
----------------------------------------------------------------------------------------------------------------
                          Forest Service                        NPS                             BLM
     Values      -----------------------------------------------------------------------------------------------
                       Fire          Non-Fire          Fire          Non-Fire          Fire          Non-Fire
----------------------------------------------------------------------------------------------------------------
         1995           571,047       2,920,146          45,804       1,979,076         186,579       1,294,206
         1996           704,884       2,767,398          47,077       1,928,632         196,754         984,429
         1997         1,180,252       2,602,899          57,826       1,956,468         206,028         979,750
         1998           826,561       3,013,651          57,501       2,285,889         214,224         989,695
         1999           783,696       2,921,904          59,261       2,005,201         212,520       1,031,558
         2000           844,203       2,995,872          76,746       2,344,712         371,280       1,061,296
         2001         1,835,105       3,343,100         135,675       2,833,388         612,402       1,142,343
         2002         1,597,017       3,379,952         123,671       2,724,561         478,527       1,158,356
         2003         1,765,537       3,354,224         101,404       2,820,937         453,430       1,183,006
         2004         2,039,409       3,228,450         124,158       2,806,573         467,196       1,187,736
         2005         2,074,692       3,088,380         132,378       2,687,716         471,132       1,150,417
         2006         2,060,220       2,896,525         117,415       2,474,560         537,141       1,128,086
         2007         2,098,789       2,882,081         116,251       2,516,337         517,225         640,913
         2008         2,163,166       2,831,294         105,515       2,623,110         560,796         538,627
         2009         2,365,470       2,919,550         114,306       2,688,358         529,423         600,768
         2010         2,836,342       3,061,388         102,450       2,906,358         433,011         790,947
         2011         2,636,151       2,828,975         128,251       2,671,618         502,170         687,721
         2012         2,404,926       2,684,483          73,708       2,619,273         390,591         773,238
         2013         2,240,236       2,464,434          95,191       2,376,909         499,212         652,921
         2014         2,523,696       2,464,617         123,166       2,501,972         470,792         649,895
         2015         2,636,358       2,436,888          86,878       2,527,911         402,883         690,159
----------------------------------------------------------------------------------------------------------------

Fire vs. Non-Fire
Forest Service, National Park Service, Bureau of Land Management
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Enacted amounts in inflation adjusted 2015 dollars. Dollars 
        in thousands.

                                                                         NPS BLM
--------------------------------------------------------------------------------------------------------------------------------------------------------
                             BLM                        Forest Service                        NPS
  Values   --------------------------------------------------------------------------------------------------------   BLM Fire     BLM non-    BLM Total
                Fire       Non-Fire      Total         Fire       Non-Fire       Fire       Non-Fire      Total                      fire
--------------------------------------------------------------------------------------------------------------------------------------------------------
    1990             0            0            0      968,987    2,993,817            0            0            0
    1991             0            0            0      499,875    3,385,734            0            0            0
    1992             0            0            0      478,015    3,291,459            0            0            0
    1993             0            0            0      581,187    3,079,202            0            0            0
    1994             0            0            0      859,682    3,060,068            0            0            0
    1995       186,579    1,294,206    1,480,785      571,047    2,920,146       45,804      102,275      148,078      187,131    1,068,423    1,255,554
    1996             0      984,429            0      704,884    2,767,398       47,077            0            0      196,754      984,429    1,181,182
    1997             0      979,750            0    1,180,252    2,602,899       57,826            0            0      206,028      979,750    1,185,778
    1998       214,224      989,695            0      826,561    3,013,651       57,501            0            0      213,931      989,695    1,203,626
    1999       212,520    1,031,558            0      783,696    2,921,904       59,261            0            0      241,640    1,031,558    1,273,197
    2000       371,280    1,061,296            0      844,203    2,995,872       76,746            0            0      387,866    1,061,296    1,449,162
    2001       612,402    1,142,343            0    1,835,105    3,343,100      135,675            0            0      684,493    1,142,343    1,826,836
    2002       478,527    1,158,356            0    1,597,017    3,379,952      123,671            0            0      661,906    1,158,356    1,820,262
    2003       453,430    1,183,006            0    1,765,537    3,354,224      101,404            0            0      552,192    1,183,006    1,735,198
    2004       467,196    1,187,736            0    2,039,409    3,228,450      124,158            0            0      552,664    1,187,736    1,740,399
    2005       471,132    1,150,417            0    2,074,692    3,088,380      132,378            0            0      554,242    1,150,417    1,704,660
    2006       537,141    1,128,086            0    2,060,220    2,896,525      117,415            0            0      648,283    1,128,086    1,776,370
    2007       517,225      640,913    1,158,138    2,098,789    2,882,081      116,251    2,553,795    2,670,046      660,298    1,123,168    1,783,466
    2008       560,796      538,627    1,099,423    2,163,166    2,831,294      105,515    2,588,583    2,694,098      538,097    1,071,248    1,609,344
    2009       529,423      600,768    1,130,192    2,365,470    2,919,550      114,306    2,721,652    2,835,958      442,766    1,109,859    1,552,625
    2010       433,011      790,947    1,223,958    2,836,342    3,061,388      102,450    2,940,503    3,042,953      481,408    1,172,220    1,653,628
    2011       502,170      687,721    1,189,891    2,636,151    2,828,975      128,251    2,703,786    2,832,037      477,324    1,165,978    1,643,303
    2012       390,591      773,238    1,163,829    2,404,926    2,684,483       73,708    2,667,060    2,740,768      593,636    1,126,110    1,719,746
    2013       499,212      652,921    1,152,133    2,240,236    2,464,434       95,191    3,045,530    3,140,721      515,337    1,040,273    1,555,610
    2014       470,792      649,895    1,120,687    2,523,696    2,464,617      123,166    2,514,848    2,638,015      471,607    1,091,406    1,563,012
    2015       402,883      690,159    1,093,042    2,636,358    2,436,888       86,878    2,557,721    2,644,599      465,555    1,083,793    1,549,348
--------------------------------------------------------------------------------------------------------------------------------------------------------


                                                                                                           Inflators/Deflators
----------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
      Year            1990            1991            1992            1993            1994            1995            1996            1997           1998           1999           2000           2001           2002           2003
----------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
 GDP Inflator           0.6372          0.6630          0.6938          0.7172          0.7301          0.7512          0.7654         0.7818         0.7861         0.7944         0.8134         0.8334         0.8448         0.8632
   [2009=1.00]
 GDP Deflator         * 0.5669          0.5899          0.6173          0.6381          0.6496          0.6683          0.6810         0.6956         0.6994         0.7068         0.7237         0.7415         0.7516         0.7680
   [2015=1.00]
----------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
http://www.whitehouse.gov/sites/default/files/omb/budget/fy2015/assets/hist.pdf. Table 10.1.
* Editor's note: the formula to calculate the GDP Deflator: (ex. 1990 = 0.5899  0.6630  0.6372).


                                                                                       Inflators/Deflators
                                                                                           [Continued]
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
          Year               2004         2005         2006         2007         2008         2009         2010         2011         2012         2013         2014         2015         2016
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
GDP Inflator                  0.8838       0.9113       0.9408       0.9641       0.9971       1.0000       1.0141       1.0351       1.0567       1.0730       1.0893       1.1032       1.1240
 [2009=1.00]
GDP Deflator                  0.7863       0.8108       0.8370       0.8577       0.8871       0.8897       0.9022       0.9209       0.9401       0.9546       0.9691       0.9815            1
 [2015=1.00]
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

Program Name [BLM/FS/NPS]
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Enacted amounts in inflation adjusted 2015 dollars. Dollars 
        in thousands.

                [Forest Health Management--Federal Lands]
------------------------------------------------------------------------
                                      National Fire Plan--
                    Forest Health         Forest Health      Grand Total
                 Management--Federal   Management--Federal   S&PF + NFP
                        Lands                 Lands
------------------------------------------------------------------------
        1995              40,125                     0            40,125
        1996              36,537                     0            36,537
        1997              47,159                     0            47,159
        1998              52,363                     0            52,363
        1999              52,218                     0            52,218
        2000              55,059                     0            55,059
        2001              55,054                15,965            71,019
        2002              56,950                 9,182            66,132
        2003              64,451                 8,899            73,349
        2004              67,641                18,616            86,258
        2005              66,073                18,020            84,093
        2006              62,727                17,438            80,165
        2007              62,106                17,009            79,115
        2008              60,227                15,616            75,842
        2009              60,046                19,145            79,190
        2010              62,688                22,711            85,399
        2011              60,838                22,207            83,045
        2012              49,808                16,760            66,568
        2013              46,447                15,658            62,104
        2014              60,025                     0            60,025
        2015              58,922                     0            58,922
------------------------------------------------------------------------
Editor's note: this table is composed of three separate tables that
  included duplicative information.

Forest Health Management--Federal Lands
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Enacted amounts in inflation adjusted 2015 dollars. Dollars 
        in thousands.
[Forest Health Management vs. National Fire Plan]
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Enacted amounts in inflation adjusted 2015 dollars. Dollars 
        in thousands.
Forest Health Mgmt--Fed Lands
Total S&PF + NFP
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Enacted amounts in inflation adjusted 2015 dollars. Dollars 
        in thousands.

                                  [Forest Health Management--Cooperative Lands]
----------------------------------------------------------------------------------------------------------------
                     NFP--Forest Health      Forest Health Management-- Forest Health Management--
                   Management--Cooperative     Cooperative Lands Fire       Cooperative Lands       Grand Total
                            Lands                       Mgt
----------------------------------------------------------------------------------------------------------------
         1995                      0                     20,270                     11,558               31,828
         1996                      0                     24,684                     11,334               36,018
         1997                      0                     25,597                     21,329               46,926
         1998                      0                     28,474                     39,544               68,017
         1999                      0                          0                     24,063               24,063
         2000                      0                          0                     29,743               29,743
         2001                      0                          0                     30,014               30,014
         2002                  6,565                          0                     32,878               39,443
         2003                 12,767                          0                     39,711               52,478
         2004                 12,411                          0                     56,221               68,633
         2005                 12,013                          0                     58,024               70,037
         2006                 11,626                          0                     55,342               66,968
         2007                 11,340                          0                     54,212               65,552
         2008                 10,972                          0                     49,577               60,549
         2009                 11,017                          0                     51,370               62,387
         2010                 12,507                          0                     53,157               65,664
         2011                 12,229                          0                     52,350               64,579
         2012                  8,773                          0                     42,009               50,782
         2013                  8,196                          0                     38,127               46,324
         2014                      0                          0                     46,510               46,510
         2015                      0                          0                     45,655               45,655
----------------------------------------------------------------------------------------------------------------

Forest Health Management--Cooperative Lands
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Enacted amounts in inflation adjusted 2015 dollars. Dollars 
        in thousands.
[NPF Cooperative Lands vs. Cooperative Lands vs. Cooperative Lands Fire 
        Mgt]
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
          Enacted amounts in inflation adjusted 2015 dollars. Dollars 
        in thousands.
Forest Health Mgmt--Co-op Lands
Total S&PF + NFP + Fire Mgmt
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Enacted amounts in inflation adjusted 2015 dollars. Dollars 
        in thousands.

                          [Forest Stewardship]
------------------------------------------------------------------------
               Values                         Forest Stewardship
------------------------------------------------------------------------
                   1995                                38,364
                   1996                                33,943
                   1997                                33,243
                   1998                                45,676
                   1999                                40,334
                   2000                                40,755
                   2001                                43,708
                   2002                                43,624
                   2003                                41,225
                   2004                                40,065
                   2005                                39,374
                   2006                                40,287
                   2007                                48,277
                   2008                                32,870
                   2009                                29,962
                   2010                                32,141
                   2011                                34,900
                   2012                                30,262
                   2013                                31,459
                   2014                                22,817
                   2015                                23,036
------------------------------------------------------------------------

Forest Stewardship
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Enacted amounts in inflation adjusted 2015 dollars. Dollars 
        in thousands.

                         [Forest Legacy Program]
------------------------------------------------------------------------
               Values                        Forest Legacy Program
------------------------------------------------------------------------
                   1996                                 4,356
                   1997                                 2,844
                   1998                                 5,656
                   1999                                 9,810
                   2000                                40,892
                   2001                                79,822
                   2002                                85,483
                   2003                                88,060
                   2004                                80,591
                   2005                                69,603
                   2006                                66,693
                   2007                                65,067
                   2008                                58,231
                   2009                                54,869
                   2010                                83,676
                   2011                                56,717
                   2012                                55,982
                   2013                                52,204
                   2014                                51,919
                   2015                                53,000
------------------------------------------------------------------------

Forest Legacy Program
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Enacted amounts in inflation adjusted 2015 dollars. Dollars 
        in thousands.

                     [Urban and Community Forestry]
------------------------------------------------------------------------
               Values                    Urban and Community Forestry
------------------------------------------------------------------------
                   1995                                41,921
                   1996                                36,957
                   1997                                36,267
                   1998                                57,873
                   1999                                42,726
                   2000                                42,208
                   2001                                47,521
                   2002                                47,344
                   2003                                46,360
                   2004                                43,810
                   2005                                38,923
                   2006                                33,525
                   2007                                34,677
                   2008                                30,821
                   2009                                32,782
                   2010                                33,244
                   2011                                34,356
                   2012                                32,901
                   2013                                31,727
                   2014                                28,565
                   2015                                28,040
------------------------------------------------------------------------

Urban and Community Forestry
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Enacted amounts in inflation adjusted 2015 dollars. Dollars 
        in thousands.

                        [International Forestry]
------------------------------------------------------------------------
               Values                       International Forestry
------------------------------------------------------------------------
                   2001                                6,652
                   2002                                6,921
                   2003                                7,357
                   2004                                7,447
                   2005                                7,809
                   2006                                8,125
                   2007                                7,925
                   2008                                8,218
                   2009                                9,432
                   2010                               10,745
                   2011                               10,178
                   2012                                8,388
                   2013                                7,823
                   2014                                8,150
                   2015                                8,000
------------------------------------------------------------------------

International Forestry
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Enacted amounts in inflation adjusted 2015 dollars. Dollars 
        in thousands.

                      [Forest & Rangeland Research]
------------------------------------------------------------------------
                            Forest & Rangeland
         Values                  Research               Grand Total
------------------------------------------------------------------------
             1995                   286,545                 286,545
             1996                   258,229                 258,229
             1997                   255,649                 255,649
             1998                   265,542                 265,542
             1999                   276,227                 276,227
             2000                   297,396                 297,396
             2001                   307,339                 307,339
             2002                   317,344                 317,344
             2003                   322,014                 322,014
             2004                   334,741                 334,741
             2005                   336,704                 336,704
             2006                   327,672                 327,672
             2007                   322,814                 322,814
             2008                   318,247                 318,247
             2009                   328,893                 328,893
             2010                   341,459                 341,459
             2011                   328,800                 328,800
             2012                   310,140                 310,140
             2013                   289,210                 289,210
             2014                   298,289                 298,289
             2015                   296,000                 296,000
------------------------------------------------------------------------

Forest & Rangeland Research
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Enacted amounts in inflation adjusted 2015 dollars. Dollars 
        in thousands.
Forest & Rangeland Research plus Forest Resources Info & Analysis
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Enacted amounts in inflation adjusted 2015 dollars. Dollars 
        in thousands.

------------------------------------------------------------------------
                          Vegetation & Watershed
         Values                    Mgmt                 Grand Total
------------------------------------------------------------------------
FY 1990
FY 1991
FY 1992
FY 1993
FY 1994
FY 1995
FY 1996
FY 1997
FY 1998
FY 1999
          FY 2000                   166,002                 166,002
          FY 2001                   181,634                 181,634
          FY 2002                   190,113                 190,113
          FY 2003                   189,703                 189,703
          FY 2004                   193,689                 193,689
          FY 2005                   189,614                 189,614
          FY 2006                   179,852                 179,852
          FY 2007                   176,849                 176,849
          FY 2008                   177,437                 177,437
          FY 2009                   180,437                 180,437
          FY 2010                   187,960                 187,960
          FY 2011                   184,341                 184,341
          FT 2012                   184,046                 184,046
          FY 2013                   172,173                 172,173
          FY 2014                   184,716                 184,716
          FY 2015                   184,716                 184,716
------------------------------------------------------------------------

Vegetation & Watershed Mgmt
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                                                                         [Master Table]
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                      1990       1991       1992       1993       1994       1995       1996       1997       1998       1999       2000       2001       2002
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Anadromous Fisheries Hab Mgmt                              0          0          0          0          0          0          0          0          0          0     34,721          0          0
Centennial of Service Challenge                            0          0          0          0          0          0          0          0          0          0          0          0          0
Collaborative Forest Landscape Restoration                 0          0          0          0          0          0          0          0          0          0          0          0          0
Collaborative Forest Landscape Restoration Fund            0          0          0          0          0          0          0          0          0          0          0          0          0
Community Forest & Open Space Conservation                 0          0          0          0          0          0          0          0          0          0          0          0          0
Complete Land Exchanges                                   23        176        247        234        323      1,176        495        518        297        294        320        311        308
Cooperative Law Enforcement                           19,348     14,339     13,437          0          0          0          0          0          0          0          0          0          0
Deferred Maintenance                                       0          0          0          0          0          0          0          0          0          0          0     66,518     80,222
Drug Enforcement                                           0     11,731     11,346          0          0          0          0          0          0          0          0          0          0
Early Winters Land Exchange                                0        834          0          0          0          0          0          0          0          0          0          0          0
Economic Action Programs                                   0          0          0          0          0     23,722     21,077     24,387     16,211     24,210     27,593     55,382     46,924
Emergency Pest Suppression Fund                            0          0          0     22,763     18,667     21,346     24,190          0          0          0          0          0          0
Facilities                                            70,872    138,550    130,020    135,671    157,142     97,590     70,460     85,281     71,627     97,798    209,902    221,233    243,885
Fire Facilities                                            0          0          0          0          0          0          0          0          0          0          0          0     13,646
Fire Protection                                       29,817     26,424     26,657     26,199          0          0          0          0          0          0          0          0          0
Fire Research and Development                              0          0          0          0          0          0          0          0          0          0          0     21,286     29,281
FLAME Wildfire Suppression Reserve Fund                    0          0          0          0          0          0          0          0          0          0          0          0          0
Forest & Rangeland Research                          263,501    281,245    289,550    283,499    294,157    286,545    258,229    255,649    265,542    276,227    297,396    307,339    317,344
Forest Health Management--Cooperative Lands                0          0          0          0    167,013     11,558     11,334     21,329     39,544     24,063     29,743     30,014     32,878
Forest Health Management--Cooperative Lands Fire           0          0          0          0          0     20,270     24,684     25,597     28,474          0          0          0          0
 Mgt
Forest Health Management--Emergency Pest Mgt               0          0          0          0          0          0          0          0          0          0          0     16,629          0
Forest Health Management--Federal Lands                    0          0          0          0          0     40,125     36,537     47,159     52,363     52,218     55,059     55,054     56,950
Forest Legacy Program                                      0          0          0          0          0          0      4,356      2,844      5,656      9,810     40,892     79,822     85,483
Forest Management and Utilization                     44,208    124,503    109,263    120,376     84,841          0          0          0          0          0          0          0          0
Forest Pest Management                                83,081    100,920     91,761     63,002          0          0          0          0          0          0          0          0          0
Forest Products                                            0          0          0          0          0          0          0          0          0          0    324,988    340,364    350,270
Forest Resources Info & Analysis                           0          0          0          0          0          0          0          0          0          0          0      6,652      6,595
Forest Road Maintenance                              168,278    153,189    137,776    127,538          0          0          0          0          0          0          0          0          0
Forest Stewardship                                         0          0          0          0          0     38,364     33,943     33,243     45,676     40,334     40,755     43,708     43,624
Forest Trail Maintenance                              42,703     47,361     49,003     48,615          0          0          0          0          0          0          0          0          0
Forestland Management                                      0          0          0          0    383,212    351,204    349,054    358,005    388,254    399,000          0          0          0
Fuels Management                                      15,429     14,105     12,382     18,922          0     24,294          0          0          0          0          0          0          0
General Administration                               475,156    490,478    487,296    474,696    454,261    439,766    382,868    368,790    370,307    357,119          0          0          0
Gifts, Donations, and Bequests                             5          2         13          8         27          6        126         78        130        129        126        123        121
Grazing Management                                         0          0          0          0          0          0          0          0          0          0     44,851     45,041     45,733
Hazardous Fuels                                            0          0          0          0     19,342          0          0          0          0          0          0    273,536    274,874
Infrastructure Management                                  0          0          0          0    160,964    163,017    151,039    147,923    154,433     98,867          0          0          0
Inland Fisheries Habitat Mgmt                              0          0          0          0          0          0          0          0          0          0     31,889          0          0
International Forestry                                     0          0          0          0     10,658      7,385          0          0          0          0          0      6,652      6,921
Inventory and Monitoring                                   0          0          0          0          0          0          0          0    129,990    112,920    188,970    232,085    227,932
IRR                                                        0          0          0          0          0          0          0          0          0          0          0          0          0
Joint Fire Sciences Program                                0          0          0          0          0          0          0          0          0          0          0          0     10,521
Land Acq, NF Special Acts                              1,840      1,841      1,819      1,831      1,846      1,847      1,552      1,490      1,512      1,496      1,459      1,423      1,406
Land Acquisition                                     110,748    148,813    141,650     96,838     97,883     94,582     57,194     57,696    311,044    164,969    212,889    201,157    196,929
Land Between the Lakes NRA                                 0          0          0          0          0          0          0          0          0          0      9,378          0          0
Land Line Location                                    53,617     50,072     51,733     47,902          0          0          0          0          0          0          0          0          0
Land Management Planning                                   0          0          0          0          0          0          0          0     51,150     55,961     68,534    104,176     92,529
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------


                                                                                         [Master Table]
                                                                                           [Continued]
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                      2003       2004       2005       2006       2007       2008       2009       2010       2011       2012       2013       2014       2015
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Anadromous Fisheries Hab Mgmt                              0          0          0          0          0          0          0          0          0          0          0          0          0
Centennial of Service Challenge                            0          0     12,013      5,232          0          0          0          0          0          0          0          0          0
Collaborative Forest Landscape Restoration                 0          0          0          0          0          0          0          0     16,052     41,943     39,152     40,749     40,000
Collaborative Forest Landscape Restoration Fund            0          0          0          0          0          0          0          0     10,701          0          0          0          0
Community Forest & Open Space Conservation                 0          0          0          0          0          0          0          0      1,072      2,097      1,955      2,037      2,000
Complete Land Exchanges                                6,400      2,873        281        273      4,233        246         45        127          0        238          0        221        216
Cooperative Law Enforcement                                0          0          0          0          0          0          0          0          0          0          0          0          0
Deferred Maintenance                                  58,683     39,715     16,847     15,036     10,473      9,971     10,098     10,004      9,820      9,579      3,086      3,056      3,150
Drug Enforcement                                           0          0          0          0          0          0          0          0          0          0          0          0          0
Early Winters Land Exchange                                0          0          0          0          0          0          0          0          0          0          0          0          0
Economic Action Programs                              33,828     32,176     23,186     11,253          0      4,681      5,519      5,472          0          0          0          0          0
Emergency Pest Suppression Fund                            0          0          0          0          0          0          0          0          0          0          0          0          0
Facilities                                           260,538    269,371    242,149    145,952    149,778    135,518    140,325    147,752    144,757     79,467     72,931     72,330     71,600
Fire Facilities                                        2,367          0          0          0          0          0          0          0          0          0          0          0          0
Fire Protection                                            0          0          0          0          0          0          0          0          0          0          0          0          0
Fire Research and Development                         27,415     27,677     26,459     26,889     26,228     26,178     26,541     26,174     25,594     22,789     21,292     20,166     19,795
FLAME Wildfire Suppression Reserve Fund                    0          0          0          0          0          0          0    451,978    311,409    331,231    308,962    320,899    303,060
Forest & Rangeland Research                          322,014    334,741    336,704    327,672    322,814    318,247    328,893    341,459    328,800    310,140    289,210    298,289    296,000
Forest Health Management--Cooperative Lands           39,711     56,221     58,024     55,342     54,212     49,577     51,370     53,157     52,350     42,009     38,127     46,510     45,655
Forest Health Management--Cooperative Lands Fire           0          0          0          0          0          0          0          0          0          0          0          0          0
 Mgt
Forest Health Management--Emergency Pest Mgt               0          0          0          0          0          0          0          0          0          0          0          0          0
Forest Health Management--Federal Lands               64,451     67,641     66,073     62,727     62,106     60,227     60,046     62,688     60,838     49,808     46,447     60,025     58,922
Forest Legacy Program                                 88,060     80,591     69,603     66,693     65,067     58,231     54,869     83,676     56,717     55,982     52,204     51,919     53,000
Forest Management and Utilization                          0          0          0          0          0          0          0          0          0          0          0          0          0
Forest Pest Management                                     0          0          0          0          0          0          0          0          0          0          0          0          0
Forest Products                                      339,501    333,014    332,882    327,521    367,844    358,958    369,159    368,501    360,338    352,372    328,921    345,481    339,130
Forest Resources Info & Analysis                       6,393      6,206      6,040      5,413      5,280      5,026      5,549      5,510      5,389      5,164      4,816          0          0
Forest Road Maintenance                                    0          0          0          0          0          0          0          0          0          0          0          0          0
Forest Stewardship                                    41,225     40,065     39,374     40,287     48,277     32,870     29,962     32,141     34,900     30,262     31,459     22,817     23,036
Forest Trail Maintenance                                   0          0          0          0          0          0          0          0          0          0          0          0          0
Forestland Management                                      0          0          0          0          0          0          0          0          0          0          0          0          0
Fuels Management                                           0          0          0          0          0          0          0          0          0          0          0          0          0
General Administration                                     0          0          0          0          0          0          0          0          0          0          0          0          0
Gifts, Donations, and Bequests                           117        113         78         74         73         61         55         55         54         47         47         41         45
Grazing Management                                    52,264     57,677     58,517     56,430     55,043     53,607     55,485     55,500     53,333     58,138     53,292     56,393     55,356
Hazardous Fuels                                      291,850    293,389    319,837    330,514    346,719    345,138    364,077    383,344    364,150    333,011    311,121    312,240    361,749
Infrastructure Management                                  0          0          0          0          0          0          0          0          0          0          0          0          0
Inland Fisheries Habitat Mgmt                              0          0          0          0          0          0          0          0          0          0          0          0          0
International Forestry                                 7,357      7,447      7,809      8,125      7,925      8,218      9,432     10,745     10,178      8,388      7,823      8,150      8,000
Inventory and Monitoring                             224,356    213,193    203,815    196,617    191,784    185,410    185,964    186,594    179,305    169,848    155,689    153,847    151,019
IRR                                                        0          0          0          0          0          0          0          0          0          0          0          0          0
Joint Fire Sciences Program                           10,235      9,928      9,611      9,300      9,071      8,765      8,878      8,755      8,561      7,614      7,114      7,043      6,914
Land Acq, NF Special Acts                              1,368      1,327      1,284      1,242      1,212      1,154      1,165      1,149      1,124      1,001        933        929        950
Land Acquisition                                     171,207     83,391     74,322     49,287     48,264     46,555     55,235     69,517     35,314     55,160     51,426     44,340     47,500
Land Between the Lakes NRA                                 0          0          0          0          0          0          0          0          0          0          0          0          0
Land Line Location                                         0          0          0          0          0          0          0          0          0          0          0          0          0
Land Management Planning                              92,369     87,955     76,953     68,051     66,378     54,353     54,190     50,251     48,288     41,943     38,447     38,461     37,754
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------


                                                                                      [Master Table--Cont.]
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                      1990       1991       1992       1993       1994       1995       1996       1997       1998       1999       2000       2001       2002
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Land Management Planning, Assessment & Monitoring          0          0          0          0    225,240    221,721    188,877    184,980          0          0          0          0          0
Landownership Management                                   0          0          0          0     93,517     91,166     82,836     81,127     87,649     85,534    112,794    115,221    116,302
Landscape Scale Restoration                                0          0          0          0          0          0          0          0          0          0          0          0          0
Law Enforcement Operations                                 0          0          0     24,017     83,989     94,054     86,588     84,802     90,449     92,738     95,507     98,922    103,895
Legacy Roads & Trails                                      0          0          0          0          0          0          0          0          0          0          0          0          0
Maintenance of Facilities                             36,912     41,720     42,160     41,109          0          0          0          0          0          0          0          0          0
Minerals & Geology Management                         49,608     50,972     55,071     54,014     57,930     57,650     50,842     50,859     50,904     51,834     63,077     63,785     64,383
National Fire Plan--Forest Health Management--             0          0          0          0          0          0          0          0          0          0          0     15,965      9,182
 Federal Lands
NFP--Economic Action Programs                              0          0          0          0          0          0          0          0          0          0          0     16,632     16,402
NFP--Forest Health Management--Cooperative Lands           0          0          0          0          0          0          0          0          0          0          0          0      6,565
NFP--State Fire Assistance                                 0          0          0          0          0          0          0          0          0          0          0     67,175     66,260
NFP--Volunteer Fire Assistance                             0          0          0          0          0          0          0          0          0          0          0     11,016     10,866
Pacific Northwest Assistance Prog                          0          0          0          0          0     25,271     23,248     23,835     21,189     12,591     10,732     12,772     12,395
Preparedness                                         292,187    287,730    288,240    274,582    264,128    212,647    428,773    454,054    451,299    454,507    558,427    814,833    818,819
Quincy Library Group Implementation                        0          0          0          0          0          0          0          0          0          0          0      2,661          0
Range Betterment Fund                                  8,581      7,627      7,692      7,210      6,924      6,544      6,747      4,910      5,389      4,617      4,508      4,391      4,327
Rangeland Management                                  57,556     66,228     69,221     68,957     24,935     27,355     39,219     54,052     64,074     79,814          0          0          0
Real Estate Management                                45,347     52,334     56,832     55,895          0          0          0          0          0          0          0          0          0
Recreation Use                                       268,194    333,576    347,116    356,466    325,745    325,974    306,574    300,249    308,618    262,437          0          0          0
Recreation, Heritage & Wilderness                          0          0          0          0          0          0          0          0          0          0    278,503    306,341    322,862
Reforestation and Stand Improvement                  119,326    120,733    106,705     96,529          0          0          0          0          0          0          0          0          0
Rehabilitation and Restoration                             0          0          0          0          0          0          0          0          0          0          0    188,910      4,824
Restoration Partnerships                                   0          0          0          0          0          0          0          0          0          0          0          0          0
Road Maintenance & Decommission                            0          0          0          0          0          0          0          0          0    139,739          0          0          0
Roads                                                286,951    290,381    271,070    218,132    227,996    145,391    137,848    132,243    124,522    137,116    300,047    313,363    302,039
SE Alaska Economic Assistance                              0          0          0          0          0          0    159,711          0          0          0     30,055      6,652          0
Soil, Water & Air Management                         107,569    121,059    122,300    112,219     55,226     71,495     61,001     59,885     72,391     78,481          0          0          0
Special Projects                                      34,330     54,208     33,442     32,824          0          0          0          0          0          0          0          0          0
State Fire Assistance                                      0          0          0          0          0          0          0          0          0     30,093     32,690     33,259     33,286
Stewardship Incentives Program                             0          0          0          0          0     27,073      6,534      6,399     22,963          0          0          0      3,945
Subsistence Management--Alaska                             0          0          0          0          0          0          0          0          0      4,197          0      7,317      7,217
Suppression                                          661,371    198,040    177,393    287,683    576,212    334,106    276,111    726,198    375,262    329,189    285,366    425,753    335,778
TE&S Species Mgmg                                          0          0          0          0          0          0          0          0          0          0     40,985          0          0
Timber Sales Admin. and Mgmt                         439,613    441,486    423,067    339,850          0          0          0          0          0          0          0          0          0
Tongass NF Timber Pipeline                                 0          0          0          0          0          0          0          0          0          0          0      6,652          0
Trails                                                32,493     36,038     34,756     42,255          0     48,048     29,051     31,283     38,595     41,347     85,193     88,768     92,157
Urban and Community Forestry                               0          0          0          0          0     41,921     36,957     36,267     57,873     42,726     42,208     47,521     47,344
Valles Caldera National Preserve                           0          0          0          0          0          0          0          0          0          0          0      1,317      3,682
Vegetation & Watershed Mgmt                                0          0          0          0          0          0          0          0          0          0    226,779    242,171    250,022
Volunteer Fire Assistance0                                 0          0          0          0          0          0          0          0      2,798      4,426      6,652      6,645      6,448
Wildlife & Fisheries Habitat Mgmt                    144,141    178,896    180,459    180,550    127,570    137,982    124,227    122,020    136,829    140,428          0    171,654    173,395
Wildlife Habitat Management                                0          0          0          0          0          0          0          0          0          0     49,313          0          0
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Editor's note: the format of this table has been altered to accommodate publishing in the hearing, no data was altered.


                                                                                      [Master Table--Cont.]
                                                                                           [Continued]
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                      2003       2004       2005       2006       2007       2008       2009       2010       2011       2012       2013       2014       2015
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Land Management Planning, Assessment & Monitoring          0          0          0          0          0          0          0          0          0          0          0          0          0
Landownership Management                             119,007    115,041    112,236    107,291    104,654    101,619    103,534    104,629     98,398     90,047     82,539     79,186     77,730
Landscape Scale Restoration                                0          0          0          0          0          0          0          0          0          0          0     14,262     14,000
Law Enforcement Operations                           103,378    104,081    104,786    130,895    132,354    146,821    150,364    158,736    154,680    151,057    138,463    129,025    126,653
Legacy Roads & Trails                                      0          0          0          0          0     44,261     55,485     98,494     48,156     47,186     41,145     35,655     40,000
Maintenance of Facilities                                  0          0          0          0          0          0          0          0          0          0          0          0          0
Minerals & Geology Management                         67,343     67,101     67,914     99,305     96,865     93,654     94,846     95,474     89,600     87,619     80,314     77,854     76,423
National Fire Plan--Forest Health Management--         8,899     18,616     18,020     17,438     17,009     15,616     19,145     22,711     22,207     16,760     15,658          0          0
 Federal Lands
NFP--Economic Action Programs                          6,398          0          0          0          0          0          0          0          0          0          0          0          0
NFP--Forest Health Management--Cooperative Lands      12,767     12,411     12,013     11,626     11,340     10,972     11,017     12,507     12,229      8,773      8,196          0          0
NFP--State Fire Assistance                            59,563     64,166     48,948     54,058     53,196     53,389     61,034     77,974     69,559     58,263     54,433     79,461     78,000
NFP--Volunteer Fire Assistance                        10,542     10,226      9,611      9,171      8,946      8,765      9,987      9,849      9,631      6,675      6,237     13,269     13,000
Pacific Northwest Assistance Prog                          0          0          0          0          0          0          0          0          0          0          0          0          0
Preparedness                                         788,130    843,956    824,107    779,569    765,790    741,083    749,048    738,706    722,340  1,054,921    980,367  1,077,386  1,145,840
Quincy Library Group Implementation                        0          0          0          0          0          0          0          0          0          0          0          0          0
Range Betterment Fund                                  4,353      2,646      3,012      3,693      3,310      2,845      2,864      2,834      2,736      3,421      2,416      3,056      2,320
Rangeland Management                                       0          0          0          0          0          0          0          0          0          0          0          0          0
Real Estate Management                                     0          0          0          0          0          0          0          0          0          0          0          0          0
Recreation Use                                             0          0          0          0          0          0          0          0          0          0          0          0          0
Recreation, Heritage & Wilderness                    325,224    320,495    313,507    305,356    297,850    292,323    308,092    312,026    301,982    295,307    270,689    266,620    261,719
Reforestation and Stand Improvement                        0          0          0          0          0          0          0          0          0          0          0          0          0
Rehabilitation and Restoration                         9,115      8,688     15,617      7,302      7,123     12,052     12,762     12,695     12,307          0          0          0          0
Restoration Partnerships                                   0          0          0          0          0          0          0          0          0          0          0      2,037          0
Road Maintenance & Decommission                            0          0          0          0          0          0          0          0          0          0          0          0          0
Roads                                                297,926    294,720    275,806    260,391    257,570    253,688    253,927    258,844    209,303    191,698    171,507    169,109    168,094
SE Alaska Economic Assistance                              0          0          0          0          0          0          0          0          0          0          0          0          0
Soil, Water & Air Management                               0          0          0          0          0          0          0          0          0          0          0          0          0
Special Projects                                           0          0          0          0          0          0          0          0          0          0          0          0          0
State Fire Assistance                                 58,577     41,950     40,105     38,813     37,859     36,291     38,840     42,842     34,697     32,020     26,620          0          0
Stewardship Incentives Program                             0          0          0          0          0          0          0          0          0          0          0          0          0
Subsistence Management--Alaska                         7,091      6,870      7,162      5,870      5,765      5,536      5,549      2,826      2,763      2,702      2,520      2,547      2,500
Suppression                                          538,255    750,351    790,470    814,353    853,368    941,208  1,102,983  1,091,648  1,067,464    564,888    526,856    693,232    708,000
TE&S Species Mgmg                                          0          0          0          0          0          0          0          0          0          0          0          0          0
Timber Sales Admin. and Mgmt                               0          0          0          0          0          0          0          0          0          0          0          0          0
Tongass NF Timber Pipeline                                 0          0          0          0          0          0          0          0          0          0          0          0          0
Trails                                                89,149     93,890     92,230     87,555     84,432     84,997     89,902     93,439     94,769     85,964     77,506     76,405     77,530
Urban and Community Forestry                          46,360     43,810     38,923     33,525     34,677     30,821     32,782     33,244     34,356     32,901     31,727     28,565     28,040
Valles Caldera National Preserve                       4,031      3,911      4,384      5,987      4,028      4,108      4,439      3,830      3,680      3,598      3,299      3,427      3,364
Vegetation & Watershed Mgmt                          244,300    243,389    230,996    212,208    203,536    197,494    200,231    205,699    197,665    193,295    177,929    188,175    184,716
Volunteer Fire Assistance0                             6,329      7,208      6,976      6,804      6,574      6,658      7,661      7,163      7,004      6,531          0          0
Wildlife & Fisheries Habitat Mgmt                    171,195    170,499    164,157    155,434    151,613    147,350    154,676    156,511    150,398    147,074    135,263    143,097    140,466
Wildlife Habitat Management                                0          0          0          0          0          0          0          0          0          0          0          0          0
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

[Master Table] Program Name
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Enacted amounts in inflation adjusted 2015 dollars. Dollars 
        in thousands.
          Editor's note: the format of the chart has been altered to 
        accommodate publishing in the hearing, no data was altered.
                             [attachment 2]

                       Project Search Constraints
   (This report contains the best available information at the time the
                          data was published.)
------------------------------------------------------------------------
  Project                                                 Overall NEPA
    No.         Project Name     Lead Management Unit    Process Status
------------------------------------------------------------------------
                   Region: R1--Northern Region (1101)
                          Decision Doc Type: DM
     NEPA Decision Signed Date Range: 10/01/2014 through 09/30/2015
                          Project Simple Format
                           Projects Found: 170
------------------------------------------------------------------------
    46205   2014 Libby District  Kootenai National     Completed
             Special Use          Forest All Units
             Renewals             (11011400)
    47752   3 Rivers             Belt Creek Ranger     Completed
             Communication        District (11011503)
             Showdown Fiber
             Optic
    46828   4th of July Park     Red River Ranger      Completed
             (Final Phase) SUP    District (11011705)
    45594   Abayance Bay Marina  Rexford Ranger        Completed
             and Campground       District (11011401)
             Improvements
    46105   Adams Creek AOP      Salmon River Ranger   Completed
             Culvert              District (11011701)
    45381   Adamson Private      Sandpoint Ranger      Completed
             Access Road          District (11010406)
             Special Use Permit
    45131   Alkire Culvert       Lochsa/Powell Ranger  Completed
             Replacement          District (11011755)
    45780   Allotment 066        Medora Ranger         Completed
             Replacement Range    District (11011807)
             Water Developments
    47571   Allotment 271        Medora Ranger         Completed
             Replacement Range    District (11011807)
             Water Developments
    43998   Anna Creek Cabin     Hungry Horse Ranger   Completed
             Rental Project       District (11011006)
    46477   Atkerson Private     Butte Ranger          Completed
             Road Special Use     District (11010204)
             Permit
    32804   Authorization of     Priest Lake Ranger    Completed
             Frontier             District (11010408)
             Communication's
             Existing Telephone
             and Fiber Optic
             Lines
    46395   Avista Lakeview 343  Sandpoint Ranger      Completed
             Overhead to          District (11010406)
             Underground
             Project
    42910   Beartooth            Beartooth Ranger      Completed
             Recreational         District (11010802)
             Trails Assoc.
             Winter Trail
             Grooming
    46661   Beartooth            Beartooth Ranger      Completed
             Recreational         District (11010802)
             Trails Association
             2015 Special Use
             Permit for
             Grooming West Fork
             Road #2071
    46008   Belle Fourche        Medora Ranger         Completed
             Pipeline             District (11011807)
    45730   Big Creek Trail 44   St. Maries Ranger     Completed
             Reroute              District (11010404)
    46366   Big M Outfitter &    Beaverhead-Deerlodge  Completed
             Guide Special Use    National Forest All
             Permit               Units (11010200)
    44753   Big Mountain         Tally Lake Ranger     Completed
             Communications       District (11011008)
             Site Plan
             Amendment Project
    46427   Big Mountain Summit  Tally Lake Ranger     Completed
             Project              District (11011008)
    46368   Black Pine Ridge     Pintler Ranger        Completed
             BLM Repeater         District (11010208)
    47414   Blacktail County     Medora Ranger         Completed
             Road 719 Repair      District (11011807)
    45691   Blacktail            Butte Ranger          Completed
             Headwaters Project   District (11010204)
    45857   Blacktail Wild Bill  Swan Lake Ranger      Completed
             ORV Special Use      District (11011001)
             Permit Proposal
    44592   Bonner County Dock   Idaho Panhandle       Completed
             Permits              National Forest All
                                  Units (11010400)
    46351   Bridger Pipeline     Medora Ranger         Completed
             Special-use          District (11011807)
             Application
    46464   Britton Amateur      Jefferson Ranger      Completed
             Radio Repeater       District (11010207)
    46761   Broschat             Medora Ranger         Completed
             Engineering Road     District (11011807)
             Reclamation
    43970   Browns Canyon        Dillon Ranger         Completed
             Allotment Water      District (11010201)
             Improvements
    46220   Butte Lookout        Lolo National Forest  Completed
             Project              All Units
                                  (11011600)
    44428   Calvert Mine         Wise River Ranger     Completed
             Exploration          District (11010202)
             Project
    46952   Camp Rotary Cabin    Belt Creek Ranger     Completed
             Replacement          District (11011503)
    46312   Cataract Creek--     Madison Ranger        Completed
             Mountain Meadow      District (11010206)
             Plan of Operations
    46182   Cedar Creek Road/    Superior Ranger       Completed
             Stream Interface     District (11011607)
             Project
    47754   Charter              Judith Ranger         Completed
             Communication SUP    District (11011504)
             Re-Issue
    45785   Clarke Mountain OHV  North Fork Ranger     Completed
             Trail                District (11011753)
    44198   Clear Ridge Non-     Nez Perce-Clearwater  Completed
             system Road          National Forest All
             Decommissioning      Units (11011700)
             Project
    46160   Cochran and Nolan    Belt Creek Ranger     Completed
             Special Use Road     District (11011503)
             Permits
    39465   Crazy M Ranch        Musselshell Ranger    Completed
             Irrigation Ditch     District (11011506)
    38222   Croff Reciprocal     Lewis And Clark       Completed
             Access Exchange      National Forest All
                                  Units (11011500)
    44642   Dahlman Pipeline     Townsend Ranger       Completed
             and Tank Project     District (11011201)
    45744   Dalrymple Access     Helena National       Completed
                                  Forest All Units
                                  (11011200)
    46089   Deception OHV Trail  North Fork Ranger     Completed
             Relocation           District (11011753)
    41131   Deep Rock Ecosystem  Superior Ranger       Completed
             Maintenance          District (11011607)
             Burning
    46928   Diorite Stock Tank   Townsend Ranger       Completed
                                  District (11011201)
    46479   Ditch Saddle Trail   Butte Ranger          Completed
             #4143 Maintenance    District (11010204)
             and Construction
             Project
    45960   Down South Blowdown  Three Rivers Ranger   Completed
             Salvage              District (11011404)
    46250   Dry Pole ATV Trail   Judith Ranger         Completed
             Construction         District (11011504)
    44648   Dry Range Pipeline   Townsend Ranger       Completed
             Extension            District (11011201)
    44425   Edwards Special Use  Beaverhead-Deerlodge  Completed
             Permit               National Forest All
                                  Units (11010200)
    46164   Elk and Montgomery   Lewis And Clark       Completed
             Site Reclamation     National Forest All
             2015                 Units (11011500)
    41604   Elkins Resort        Idaho Panhandle       Completed
             Permit Renewal       National Forest All
                                  Units (11010400)
    46315   Eureka Fire          Madison Ranger        Completed
             Whitebark Pine       District (11010206)
             Planting Project
    46183   Fat Bike Winter      Custer Gallatin       Completed
             Trails               National Forest All
                                  Units (11011100)
    45732   Firecracker Annie    Superior Ranger       Completed
                                  District (11011607)
    45183   Fryxell Private      Plains/Thompson       Completed
             Land Access SUP      Falls Ranger
             Request              District (11011605)
    44417   Fun For a Day        Idaho Panhandle       Completed
                                  National Forest All
                                  Units (11010400)
    46783   Game Range           Plains/Thompson       Completed
             Prescribed Burning   Falls Ranger
                                  District (11011605)
    46792   Goat Events          Sandpoint Ranger      Completed
                                  District (11010406)
    47083   Golden Anchor        Helena Ranger         Completed
             Bridge Replacement   District (11011202)
    46827   Golden Jubilee       Pintler Ranger        Completed
             Drilling             District (11010208)
             Exploration
             Project
    39408   Goldenwest Electric  Medora Ranger         Completed
             Lines Bell Lake      District (11011807)
             Area
    47504   Granite Butte CDNST  Lincoln Ranger        Completed
             Trail Reroute        District (11011204)
    45856   Grouse Creek Large   Idaho Panhandle       Completed
             Wood Replenishment   National Forest All
             Project              Units (11010400)
    45623   Hall Lake Trail and  Swan Lake Ranger      Completed
             Trailhead            District (11011001)
             Construction
             Project
    45876   Harbor Marina        Sandpoint Ranger      Completed
             Partners Road        District (11010406)
             Relocation at
             Garfield Bay
    44975   Hellgate Amateur     Superior Ranger       Completed
             Radio Club Special   District (11011607)
             Use Permit
    44537   Hill Reservoir Dam   Madison Ranger        Completed
             Breeching Project    District (11010206)
    44615   Hughes Creek         West Fork Ranger      Completed
             Firewood Sale        District (11010304)
    45218   Idaho Department of  Lochsa/Powell Ranger  Completed
             Fish and Game Fish   District (11011755)
             Creek Weir Special
             Use Permit Renewal
    46796   IDT Maintenance      Lochsa/Powell Ranger  Completed
             Site Additions SUP   District (11011755)
    39275   Illi Allen Peak      Kootenai National     Completed
             Access               Forest All Units
                                  (11011400)
    44593   Inland Empire Sled   Idaho Panhandle       Completed
             Dog Association      National Forest All
             Race                 Units (11010400)
    45020   Jasper Mountain      Priest Lake Ranger    Completed
                                  District (11010408)
    46946   Jefferson            Belt Creek Ranger     Completed
             Chamberlain Road     District (11011503)
             Obliteration
    47005   Jefferson Creek      Belt Creek Ranger     Completed
             Unauthorized Trail   District (11011503)
             Obliteration
    46135   JM-(BAR)Outfitters   Missoula Ranger       Completed
             10 Year Special      District (11011603)
             Use Permit for
             Outfitting &
             Guiding Re-
             issuance
    39467   John Fletcher Suber  Judith Ranger         Completed
             Special Use Road     District (11011504)
             Permit
    43523   Johnson-Slowey       Superior Ranger       Completed
             Aspen Enhancement    District (11011607)
    46831   Lemhi Bar Waterline  Salmon River Ranger   Completed
             SUP Renewal          District (11011701)
    45135   Little Boulder Post  Palouse Ranger        Completed
             and Pole             District (11010502)
    45604   Little Eddy          Plains/Thompson       Completed
                                  Falls Ranger
                                  District (11011605)
    44534   Lower Branham Lake   Madison Ranger        Completed
             Dam Removal          District (11010206)
    45743   Mac Pass Beacon      Helena National       Completed
             Permit Re-issuance   Forest All Units
                                  (11011200)
    46314   Madison Ranger       Madison Ranger        Completed
             District Road        District (11010206)
             Decommissioning as
             Identified in the
             Madison MVUM
             Decision
    46666   Main Boulder         Custer Gallatin       Completed
             Station Volunteer    National Forest All
             Host Sites           Units (11011100)
    45731   Marble Creek Trail   St. Maries Ranger     Completed
             261 Reroute          District (11010404)
    47305   Midstate Telephone   Medora Ranger         Completed
             Company Fiber        District (11011807)
             Optic Lines
    47368   Mikes Creek Road     Medora Ranger         Completed
             Repair and County    District (11011807)
             Easement Issuance
    38978   Miller Bingham       White Sulphur         Completed
             Project              Springs Ranger
                                  District (11011507)
    45000   Missoula Electric    Swan Lake Ranger      Completed
             Co-op Line Burial    District (11011001)
             Project
    42329   Monitor Project      Idaho Panhandle       Completed
                                  National Forest All
                                  Units (11010400)
    46986   Montgomery Lode AML  Belt Creek Ranger     Completed
                                  District (11011503)
    43610   Murfitt Radio        Helena Ranger         Completed
             Special Use Permit   District (11011202)
             Reissuance
    46326   Mustang Fire Tree    West Fork Ranger      Completed
             Planting             District (11010304)
    46204   Nez Daly Railroad    Bitterroot National   Completed
             Riparian             Forest All Units
             Restoration          (11010300)
             Project
    45119   NFS Road 100 Slides  Lochsa/Powell Ranger  Completed
                                  District (11011755)
    46554   North Zone Aquatic   Bonners Ferry Ranger  Completed
             Organism Passage     District (11010407)
             Improvement
             Project
    43828   Northern Lights,     Idaho Panhandle       Completed
             Inc. Power Line      National Forest All
             Special Use Permit   Units (11010400)
             Reissuance
    47051   Northwest Energy     Helena National       Completed
             Master Special Use   Forest All Units
             Permit               (11011200)
    41681   Nut Pine Lode LLC    Pintler Ranger        Completed
             Road Access          District (11010208)
    46159   October 14 SUP       Lewis And Clark       Completed
             reissuance           National Forest All
                                  Units (11011500)
    47062   Olsen Livestock      Wisdom Ranger         Completed
             Area Special Use     District (11010203)
             Permit
             Reauthorization
    47164   Oneok Gas Pipeline   Medora Ranger         Completed
             Reroute at Franks    District (11011807)
             Creek
    42036   Orogrande 2013       Red River Ranger      Completed
                                  District (11011705)
    45875   Outlet Bay Water     Priest Lake Ranger    Completed
             Association Well/    District (11010408)
             Road Addition and
             Permit Reissuance
    44475   Palouse Divide Ski   Palouse Ranger        Completed
             Trails Maintenance   District (11010502)
    45710   Permit               Cabinet Ranger        Completed
             Authorization for    District (11011407)
             Niemier Water
             Diversion and
             Conveyance System
    24923   Permit Reissuance    Musselshell Ranger    Completed
             for 6 Pastures and   District (11011506)
             1 Fenceline--
             Castle, Crazy, and
             Big Snowies
    25423   Permit Reissuance    Musselshell Ranger    Completed
             for 8 pastures &     District (11011506)
             new issues for 1
             pasture, Little
             Belt Mtns
    46929   Phoenix Project      Ashland Ranger        Completed
                                  District (11011184)
    45001   Piper 2 Pit          Swan Lake Ranger      Completed
             Development          District (11011001)
             Project
    44608   Placid Lake Cost     Lolo National Forest  Completed
             Share Supplement     All Units
                                  (11011600)
    46091   Pocket Gopher        Palouse Ranger        Completed
             Baiting              District (11011752)
    38899   Power-line Access    Beartooth Ranger      Completed
             Road Project         District (11011182)
             (formerly
             identified as the
             Pryor Mountain
             Access Road
             project)
    46793   Prater Mountain      Priest Lake Ranger    Completed
             Endurance            District (11010408)
             Equestrian Ride
    46082   Pre-Commercial       Nez Perce-Clearwater  Completed
             Thinning--2015       National Forest All
                                  Units (11011700)
    46193   Prescribed Burning   Ninemile Ranger       Completed
             in the Proposed      District (11011604)
             Great Burn
             Wilderness and
             Clearwater
             Crossing
    46794   Priest Lake          Priest Lake Ranger    Completed
             Multisports          District (11010408)
    44499   Priest Lake          Priest Lake Ranger    Completed
             Translator           District (11010408)
             District Backup
             Generator and Fuel
             Storage
    39677   Prospecting Duke     Fernan Ranger         Completed
                                  District (11010403)
    45133   Race Creek Culverts  Moose Creek Ranger    Completed
                                  District (11011706)
    47941   Rambo Right-of-Way   Kootenai National     Completed
             Clearing             Forest All Units
                                  (11011400)
    46011   Rebel Claims         Pintler Ranger        Completed
             Exploration          District (11010208)
             Project
    42016   Relocation on        West Fork Ranger      Completed
             Divide North Trail   District (11010304)
             #16
    42011   Reroute on Hell's    West Fork Ranger      Completed
             Half Mountain        District (11010304)
             Trail #8
    42019   Reroute on the       West Fork Ranger      Completed
             Saint Joe Trail      District (11010304)
             #392
    42013   Reroutes on Shoup-   West Fork Ranger
             Elk City Trail #19   District
                                  (11010304)Completed
    43648   Road 108 Re-         Lochsa/Powell Ranger  Completed
             Alignment and        District (11011755)
             Woody Debris
             Project (two
             stages)
    46720   Roadside Hazard      Dillon Ranger         Completed
             Tree Removal #8      District (11010201)
    47178   Roughrider Electric  Medora Ranger         Completed
             Installation of      District (11011807)
             Electric Lines to
             two Williston
             Exploration Oil
             Wells
    46367   Royal Tine           Beaverhead-Deerlodge  Completed
             Outfitter & Guide    National Forest All
             Permit Renewal       Units (11010200)
    45145   Salmon River Rural   Salmon River Ranger   Completed
             Fire Department      District (11011701)
             Permit Renewal
    43649   Sauerkraut Creek     Lincoln Ranger        Completed
             Restoration          District (11011204)
    46766   Sheep Creek Culvert  West Fork Ranger      Completed
             Replacement          District (11010304)
    46103   Sheep Creek Trail    Red River Ranger      Completed
             Reroute              District (11011705)
    45508   Shields River Fish   Yellowstone Ranger    Completed
             Barrier              District (11011104)
    47007   Showdown             White Sulphur         Completed
             Communication        Springs Ranger
             Lease                District (11011507)
    46664   Sioux Ranger         Custer Gallatin       Completed
             District Outfitter/  National Forest All
             Guide Permit         Units (11011100)
             Renewals
    46316   Smith Lake Fish      Madison Ranger        Completed
             Screen Project       District (11010206)
    43642   Snowbowl Zipline     Missoula Ranger       Completed
             Project              District (11011603)
    44702   St. Joe Outfitter    Avery Ranger          Completed
             and Guide Permit     District (11010402)
             Renewals
    43651   Stonewall Creek      Lincoln Ranger        Completed
             Restoration          District (11011204)
    44550   Stony Creek          Pintler Ranger        Completed
             Diversion            District (11010208)
             Reconstruction and
             Fish Screen
             Project
    43747   Telecommunications   Grand River Ranger    Completed
             Cable Projects       District (11011806)
    46229   Tenmile and Priest   Helena National       Completed
             Pass Restoration     Forest All Units
             Project              (11011200)
    47627   Theodore Roosevelt   Medora Ranger         Completed
             Medora Foundation    District (11011807)
             Reissuance of
             Existing Master
             Private Road
             Special Use Permit
    47528   Thompson Falls       Plains/Thompson       Completed
             Water Line           Falls Ranger
             Replacement          District (11011605)
    44974   Trawick Amateur      Plains/Thompson       Completed
             Radio Repeater       Falls Ranger
             Special Use Permit   District (11011605)
    46336   TSI 2015             St. Maries Ranger     Completed
                                  District (11010404)
    46916   Upper Landers Trail  Lincoln Ranger        Completed
             Restoration          District (11011204)
    45684   Upper Missouri G&T   Medora Ranger         Completed
             Cooperative Access   District (11011807)
             Road
    44146   Upper Wilson Creek   Beaverhead-Deerlodge  Completed
             Stream Restoration   National Forest All
             and Water            Units (11010200)
             Developement
    45380   US Border Patrol     Bonners Ferry Ranger  Completed
             Communication        District (11010407)
             Facility Additions
    44488   Van Houten Lake      Wisdom Ranger         Completed
             Fish Barrier         District (11010203)
             Project
    44324   Vigilante Electric   Helena Ranger         Completed
             Cooperative          District (11011202)
             Special Use Permit
    46930   Warm Springs         Helena Ranger         Completed
             Ponderosa Pine       District (11011202)
             Planting
    43113   West Fork Corral     Palouse Ranger        Completed
             Creek Meadow         District (11011752)
             Restoration
    46052   Westslope Cutthroat  Hebgen Lake Ranger    Completed
             Trout Barrier        District (11011107)
             Blasting Projects
             (Beaver and Tepee
             Creeks)
    47755   White Sulphur        White Sulphur         Completed
             Springs City Water   Springs Ranger
             Access SUP
             District
             (11011507)
    44770   Wild and Scenic      Hungry Horse Ranger   Completed
             River Outfitter      District (11011006)
             and Guide Permit
             Reissuance
    46051   Wildhorse Creek      Bozeman Ranger        Completed
             Westslope            District (11011106)
             Cutthroat Trout
             Barrier Blasting
             Projects
    47748   Wilkinson-McKee      Musselshell Ranger    Completed
             Special Use Roads    District (11011506)
    46488   Wisdom and Wise      Wise River Ranger
             River                District
             Communication        (11010202)Completed
             Sites Project
    45990   Yaak Highside        Three Rivers Ranger   Completed
             Blowdown Salvage     District (11011404)
    45992   Yaak River           Three Rivers Ranger   Completed
             Campground           District (11011404)
             Blowdown Salvage
    46931   York Gulch Tiddy     Helena National       Completed
             Property             Forest All Units
             Restoration          (11011200)
             Project
    45185   Young Creek Non-     Plains/Thompson       Completed
             Cost Share Road      Falls Ranger
             Project              District (11011605)
    46206   Young Pipe Creek     Kootenai National     Completed
             access               Forest All Units
                                  (11011400)
    45233   Yurt Ski Outfitter   Seeley Lake Ranger    Completed
             and Guide Permit     District (11011606)
             Re-issue
------------------------------------------------------------------------
                Region: R2--Rocky Mountain Region (1102)
                          Decision Doc Type: DM
     NEPA Decision Signed Date Range: 10/01/2014 through 09/30/2015
                          Project Simple Format
                           Projects Found: 222
------------------------------------------------------------------------
    46033   ``10 Year Outfitter  Yampa Ranger          Completed
             Guide permit re-     District (11020601)
             issuance J.C.
             Trujillo''
    45552   2 Bars 7 Ranch       Canyon Lakes Ranger   Completed
             Special Use          District (11021005)
             Authorization
    46838   2015 Bicycle Tours   White River National  Completed
             of Colorado          Forest All Units
                                  (11021500)
    46927   2015 Outfitter and   Mystic Ranger         Completed
             Guide Special Use    District (11020306)
             Permit Renewal
    46853   2015 Xcel            Leadville Ranger      Completed
             Vegetation Mgmt--    District (11021201)
             Line Clearing
    45279   Access to the        East Zone/Dillon      Completed
             Tailor Lode          Ranger District
                                  (11021510)
    46263   Amazonite Plan of    Pike and San Isabel   Completed
             Operations           National Forests
                                  and Cimarron and
                                  Comanche National
                                  Grasslands All
                                  Units (11021200)
    45722   Arkansas River       Leadville Ranger      Completed
             Placer Property      District (11021201)
             Permit/Easement
    45885   Ballard Petroleum    Douglas and Thunder   Completed
             Road Use Permit      Basin Ranger
             for NFSR910C         District (11020609)
    44812   Barr Water           Gunnison Ranger       Completed
             Development SUP      District (11020407)
             Reissuance
    43680   Bates Creek Aspen    Douglas and Thunder   Completed
             Restoration          Basin Ranger
             Project              District (11020609)
    45362   Beacon Landing       Sulphur Ranger        Completed
             Marina Sale          District (11021008)
    41956   Berenergy Corp.      Douglas and Thunder   Completed
             Road                 Basin Ranger
             Reconstruction       District (11020609)
    47157   Black Thunder Mine   Douglas and Thunder   Completed
             SUP Consolidation    Basin Ranger
             (DGL401) and         District (11020609)
             Acreage Adjustment
    43626   Blanco Ranger        West Zone/Blanco      Completed
             District Outfitter/  Ranger District
             Guide Permit         (11021502)
             Reissuances
    45349   Blue Creek Bighorn   Clear Creek Ranger    Completed
             Sheep Habitat        District (11021007)
             Improvement
             Project
    46852   Bonsai Tree          Douglas and Thunder   Completed
             Collection           Basin Ranger
                                  District (11020609)
    46168   Boy Scouts of        Grand Mesa            Completed
             America Recreation   Uncompahgre and
             Event--5 Year        Gunnison National
                                  Forest All Units
                                  (11020400)
    46519   Calamity Basin Pine  Grand Valley Ranger   Completed
             restoration and      District (11020402)
             mastication
    46875   Cannon USA, Inc.     Grand Valley Ranger   Completed
             Fall color           District (11020402)
             photography
             Outfitter & Guide
             Permit Issuance
    44454   Cayton Ranger        White River National  Completed
             Station Outhouse     Forest All Units
             Repalcement          (11021500)
    45303   CBMR Mountain Bike   Gunnison Ranger       Completed
             Trail Additions      District (11020407)
    45348   CDOT Avalanche       Clear Creek Ranger    Completed
             Mitigation System,   District (11021007)
             7 Sisters
             Avalanche Paths
             Special Use Permit
    45660   Cedar Mountain Cell  Wapiti Ranger         Completed
             Tower Co-Location    District (11021404)
    46584   Centennial Trail     Northern Hills        Completed
             Reroute              Ranger District
                                  (11020308)
    44434   Charger Resources,   Douglas and Thunder   Completed
             LLC--Special Use     Basin Ranger
             Permit.              District (11020609)
    31098   Cheley Camps         Canyon Lakes Ranger   Completed
             Special Use          District (11021005)
             Authorization
    45558   Cherokee Park Ranch  Canyon Lakes Ranger   Completed
             Special Use          District (11021005)
             Authorization
    45841   CIM99 Linn           R2--Rocky Mt. Region  In Progress
             Operating Inc.       All Units
             (3.14 mile           (11020000)
             saltwater
             pipeline)
    42898   Clover Mist          Clarks Fork Ranger    Completed
             Hazardous Fuel       District (11021401)
             Reduction and
             Planting Project
    45199   Colorado Interstate  R2--Rocky Mt. Region  Completed
             Gas Co.--CIM58       All Units
             Amend#2              (11020000)
    45201   Colorado Interstate  R2--Rocky Mt. Region  Completed
             Gas Co--CIM58        All Units
             Amend#3              (11020000)
    44873   Colorado Outward     White River National  Completed
             Bound School         Forest All Units
             Special Use Permit   (11021500)
             Reissuance
    45398   Colorado State       Comanche Ranger       Completed
             University (COM      District (11021206)
             100)
    47736   COM 111--Colorado    Comanche Ranger       Completed
             Partners in          District (11021206)
             Amphibians &
             Reptile
             Conservation SUP
    45557   Comanche Wilderness  Canyon Lakes Ranger   Completed
             Outfitters Special   District (11021005)
             Use Authorization
    46364   Coon Creek and       Brush Creek/Hayden    Completed
             Upper East Fork      Ranger District
             Encampment River     (11020602)
             Weir Removal
    44814   Cranor, Hillerton    Gunnison Ranger       Completed
             Ranch, Special Use   District (11020407)
             Permit Reissuance
    44277   Creekside Resort     Wapiti Ranger         Completed
             Permit Issuance      District (11021404)
    47530   Crystal River        West Zone/Sopris      Completed
             Broadband LLC--      Ranger District
             Town of Marble       (11021503)
             Fiber optics Line
    45762   Custer County and    Black Hills National  Completed
             South Dakota State   Forest All Units
             DOT Hazard Tree      (11020300)
             Removal Project
    46757   Dayton Gulch         Tongue Ranger         Completed
             Outfitters Special   District (11020206)
             Use Permit
             Proposal
    46922   Designated           South Platte Ranger   Completed
             Dispersed Camping    District (11021211)
             and Parking
    46152   Devon Energy Sor     Douglas and Thunder   Completed
             Kraken 3D Seismic    Basin Ranger
             Survey               District (11020609)
    45657   Dickey Ranch Water   Shoshone National     Completed
             Improvements         Forest All Units
                                  (11021400)
    46988   Dodd--Private Road   White River National  Completed
             Easement             Forest All Units
                                  (11021500)
    46544   Downy Gentian Pine   Mystic Ranger         Completed
             Encroachment--Nort   District (11020306)
             h
    46545   Downy Gentian Pine   Mystic Ranger         Completed
             Encroachment--Sout   District (11020306)
             h
    47374   DP204 Crude Oil      Arapaho and           Completed
             Pipeline Project     Roosevelt National
                                  Forests All Units
                                  (11021000)
    44921   Dunton FLPMA         Pikes Peak Ranger     Completed
             Private Road         District (11021209)
             Permit
    45737   Dyers Creek          Divide Ranger         Completed
             Integrated           District (11020904)
             Vegetation Project
    41503   Eagle Lake Camp      Pikes Peak Ranger     Completed
             Communication        District (11021209)
             Restoration
             Project
    45564   Eagle-Holy Cross     White River National  Completed
             transitional         Forest All Units
             priority special     (11021500)
             use
             reclassification
    44721   EagleGarfield AML    White River National  Completed
             Safety Closures      Forest All Units
                                  (11021500)
    39311   Echo-Beaver Fuels    South Park Ranger     Completed
             Treatment Project    District (11021210)
    46642   Estes Valley Land    Boulder Ranger        Completed
             Trust access         District (11021001)
             request
    45070   Finley Ditches #1 &  West Zone/Sopris      Completed
             #4 Special Use       Ranger District
             Permit               (11021503)
    46585   Flat Top Mountain    Gunnison Ranger       Completed
             Riparian             District (11020407)
             Restoration--Gunni
             son Sage-Grouse
             Habitat
             Improvement
    46523   Forest Health--      Mancos/Dolores        Completed
             Boggy Draw Pre-      Ranger District
             commercial           (11021305)
             Thinning Project
    44108   Forest Health--      Pagosa Ranger         Completed
             Laughlin Jackson     District (11021306)
             project
    44793   Forest Health--      Columbine Ranger      Completed
             Vallecito            District (11021308)
             Reforestation
    48289   Forest Road Permit-- East Zone/Dillon      Completed
             Yellow Brick Road    Ranger District
             Access To Friday     (11021510)
             Lode Claim (MS
             17668)
    44305   Friends University   Pikes Peak Ranger     Completed
             FLPMA Private Road   District (11021209)
             Permit
    46973   Fuels--634I Fuels    Pagosa Ranger         Completed
             Reduction Project    District (11021306)
    46972   Fuels--Dunagan       Pagosa Ranger         Completed
             Canyon and           District (11021306)
             Brockover Mesa
             Fuels Reduction
             Project
    44848   Funks Floodwater     Gunnison Ranger       Completed
             Ditch                District (11020407)
    47054   Gold Creek           Gunnison Ranger       Completed
             Allotment NEPA       District (11020407)
             Sufficiency Review
             and Finding
    45767   Gold Rush Gravel     Northern Hills        Completed
             Grinder Amendment    Ranger District
                                  (11020308)
    45373   Grand Adventures     Sulphur Ranger        Completed
             Permit Reissuance    District (11021008)
    41650   Grand County         Sulphur Ranger        Completed
             Sheriff's            District (11021008)
             Department
             Communications
             Equipment
    45385   Grand Lake Winter    Sulphur Ranger        Completed
             Trail System--       District (11021008)
             Grooming;
             Outfitter/Guide
             and Snowmobile
             Testing Uses
    46882   Grand Mesa           Grand Valley Ranger   Completed
             Adventures, INC.,    District (11020402)
             Summer Outfitter
             Guide Permit
             Issuance
    46879   Grand Mesa Bowmen--  Grand Valley Ranger   Completed
             Recreation Event     District (11020402)
             Permit Reissuance
    46859   Grand Mesa Resort    Grand Valley Ranger   Completed
             Project              District (11020402)
    47183   Granite Creek/Route  Bighorn National      Completed
             No. 301116 Stream    Forest All Units
             Crossing Removal     (11020200)
    45822   Gray Head            Grand Mesa            Completed
             Communications       Uncompahgre and
             Site Permit          Gunnison National
             Reissuance           Forest All Units
                                  (11020400)
    45709   Green Mountain       South Platte Ranger   Completed
             Repeater Site        District (11021211)
    10666   Harris Park Land     Douglas and Thunder   Completed
             Exchange             Basin Ranger
                                  District (11020609)
    47426   Heede Pasture Water  White River National  Completed
             Improvement          Forest All Units
             Project              (11021500)
    47159   Hiland Crude Road    Douglas and Thunder   Completed
             Use Permit NFSR      Basin Ranger
             1501                 District (11020609)
    45664   Hillside of          Grand Mesa            Completed
             Telluride HOA        Uncompahgre and
             Permit Renewal       Gunnison National
                                  Forest All Units
                                  (11020400)
    46620   Holy Cross Energy--  West Zone/Sopris      Completed
             Ski Sunlight--New    Ranger District
             Underground          (11021503)
             Powerline
    45702   Holy Cross Energy    West Zone/Sopris      Completed
             King Cabin--         Ranger District
             Obermeyer--Powerli   (11021503)
             ne Authorization
             Amendment to
             Master Permit
             ASP55
    45898   Holy Cross Energy    West Zone/Sopris      Completed
             renewal of expired   Ranger District
             permit powerline     (11021503)
             in Castle Creek.
    47082   Hoot Owl Camp        White River National  Completed
             Building             Forest All Units
             Replacement          (11021500)
    47218   Hot Springs Trail    Medicine Bow-Routt    Completed
             Reconstruction       National Forest All
                                  Units (11020600)
    45285   HPBE MVUM Changes    Hahns Peak/Bears      Completed
             Black Mountain       Ears Ranger
             Road and Other       District (11020603)
             Minor Changes
    42977   Hy Brook Thinning    Pikes Peak Ranger     Completed
             Project              District (11021209)
    46586   Implementation of    Gunnison Ranger       Completed
             the 2010 Gunnison    District (11020407)
             Basin Federal
             Lands Travel
             Management Plan on
             the Gunnison RD
    45671   Independence Pass    West Zone/Sopris      Completed
             Winter Gate          Ranger District
             Project              (11021503)
    47651   Installation of      Sulphur Ranger        Completed
             propane tank         District (11021008)
             adjacent to Broome
             Hut
    45017   IREA Buffalo Creek   South Platte Ranger   Completed
             to Foxton Road       District (11021211)
             Powerline Rebuild
    45676   IREA Cheesman        South Platte Ranger   Completed
             Reservoir to Lost    District (11021211)
             Valley Ranch
             Powerline Rebuild
    37410   IREA Powerline       Pikes Peak Ranger     Completed
             Permit Renewal       District (11021209)
    44269   IREA West Creek to   Pikes Peak Ranger     Completed
             Trout Creek Ranch    District (11021209)
             7.2 kV Powerline
             Rebuild
    46898   Issuance of 10 Year  Sulphur Ranger        Completed
             Priority             District (11021008)
             Recreation Special
             Use Permits on
             Sulphur Ranger
             District
    46483   Johnson County       Bighorn National      Completed
             Search and Rescue    Forest All Units
             Special Use Permit   (11020200)
             for communications
             equipment at
             Hunter Mesa
    42776   Kelly Land Exchange  Nebraska National     Completed
                                  Forest All Units
                                  (11020700)
    42919   Kenosha Pass         South Platte Ranger   Completed
             Communication Site   District (11021211)
             Lease
    46123   Keystone Stables 10  East Zone/Dillon      Completed
             Year Permit          Ranger District
             Reissuance           (11021510)
    44787   Krauss Spring        Yampa Ranger          Completed
             Development          District (11020601)
             Reissue
    40875   Laramie              Laramie Ranger        Completed
             Precommercial        District (11020605)
             Thinning Analysis
             2013
    45556   Laramie River Guest  Canyon Lakes Ranger   Completed
             Ranch Special Use    District (11021005)
             Authorization
    46334   Larson Outfitter/    Northern Hills        Completed
             Guide Permit         Ranger District
                                  (11020308)
    47377   Lawrence Berkeley    Gunnison Ranger       Completed
             National             District (11020407)
             Laboratory
             Groundwater
             Research Special
             Use Permit
    45080   Lincoln Mountain     Clear Creek Ranger    Completed
             Easement Access      District (11021007)
             HOA
    45405   Little Spearfish     Northern Hills        Completed
             Trail Crossing       Ranger District
             Installation         (11020308)
    46582   Little Spearfish     Northern Hills        Completed
             Trail Reroute        Ranger District
                                  (11020308)
    46861   Litzel Ranch LLC     Fall River Ranger     Completed
             Stock Water          District (11020705)
             Pipeline Special
             Use Permit
             Modification
    47595   Long Draw Changed    Gunnison Ranger       Completed
             Condition Analysis   District (11020407)
    46200   Lovell Gulch         Pikes Peak Ranger     Completed
             Trailhead            District (11021209)
             Relocation Project
    46264   Macanite Plan of     Pike and San Isabel   Completed
             Operations           National Forests
                                  and Cimarron and
                                  Comanche National
                                  Grasslands All
                                  Units (11021200)
    44604   Manhattan Project    Canyon Lakes Ranger   Completed
                                  District (11021005)
    45792   Matterhorn and       Norwood Ranger        Completed
             Trout Lake Nordic    District (11020405)
             Parking Projects
    46935   Matterhorn and       Norwood Ranger        Completed
             Trout Lake Nordic    District (11020405)
             Ski Trail Proposal
    46810   Mayo Snowmobile      Norwood Ranger        Completed
             Parking Special      District (11020405)
             Use Permit
    45211   Merit Energy--       R2--Rocky Mt. Region  Completed
             Electrical Cable     All Units
             replacement SERU 9-  (11020000)
             6 & SERU 9-2
    43912   Mesa Point Fuels     Grand Valley Ranger   Completed
             Reduction            District (11020402)
    13526   Mika Ag FLPMA        Grand Valley Ranger   Completed
             Private Road         District (11020402)
             Special Use Permit
    38658   Moore Forest Road    Canyon Lakes Ranger   Completed
             Authorization        District (11021005)
    45277   Mountain Bike Trail  East Zone/Dillon      Completed
             at Copper Mountain   Ranger District
                                  (11021510)
    45367   Mtn. Parks Elec.,    Sulphur Ranger        Completed
             Inc. Replace         District (11021008)
             Granby Dam
             Powerline &
             Provide Service to
             Hydroelectric
             Facility
    44813   Murdie Homeowners    Gunnison Ranger       Completed
             Association Spring   District (11020407)
             Development and
             Waterline
    43540   MWPR Ranger          Medicine Wheel        Completed
             District outfitter   Ranger District
             and guide permit     (11020203)
             issuances,
             modifications, and
             re-issuance.
    46616   National Forest      Douglas and Thunder   Completed
             System Road 909      Basin Ranger
             Special Use Permit   District (11020609)
    41760   National Outdoor     Washakie Ranger       Completed
             Leadership Sschool   District (11021403)
             (NOLS) Permit
             Reissuance EA
    34879   Naturita Fuels       Norwood Ranger        Completed
             Management Project   District (11020405)
    46873   North American       Grand Valley Ranger   Completed
             Trail Ride           District (11020402)
             Conference
             (NATRC)--Recreatio
             n Event Permit
             Reissuance
    47141   North Bill Disposal  Douglas and Thunder   Completed
             Powerline            Basin Ranger
                                  District (11020609)
    45554   Northern Colorado    Pawnee Ranger         Completed
             Rocketry Special     District (11021006)
             Use Authorization
    45419   NRCS SNOTEL Sites    Shoshone National     Completed
             Permit Renewal       Forest All Units
                                  (11021400)
    44076   NWCC--Sheridan       Tongue Ranger         Completed
             College Outfitter    District (11020206)
             Guide Permit
             Proposal
    46485   Paradise Ranch       Bighorn National      Completed
             Company Special      Forest All Units
             Use Permit           (11020200)
             Reissuance
    44844   Partch Water         Gunnison Ranger       Completed
             Development          District (11020407)
             Special Use Permit
             Reissuance
    25720   Pikes Peak RD 10     Pikes Peak Ranger     Completed
             Year Priority        District (11021209)
             Outfitter & Guide
             Permits
    46343   Piney Race Start     Leadville Ranger      Completed
             Building, Ski        District (11021201)
             Cooper
    43212   Pole Hill Re-route   Grand Valley Ranger   Completed
             on Long Canyon       District (11020402)
             Trail #621
    43621   Poughkeepsie         Ouray Ranger          Completed
             inactive mine        District (11020406)
             safety closure
             project.
    44647   Powder River Ranger  Powder River Ranger   Completed
             District Outfitter   District (11020201)
             and Guide Permit
             Conversion to 10
             Year Term
    46765   Quail Habitat        R2--Rocky Mt. Region  Completed
             Improvement 2015     All Units
                                  (11020000)
    46265   Quist Mining Plan    Pike and San Isabel   Completed
             of Operations        National Forests
                                  and Cimarron and
                                  Comanche National
                                  Grasslands All
                                  Units (11021200)
    38640   Qwest (CenturyLink)  Clear Creek Ranger    Completed
             Communication Site   District (11021007)
             Lease
    45365   Rampart Reservoir    Pikes Peak Ranger     Completed
             Mastication          District (11021209)
             Project
    45278   Range--East Creek    Columbine Ranger      Completed
             Corral               District (11021308)
    46749   Range--Hershey On-   Pagosa Ranger         Completed
             Off Permit           District (11021306)
    46750   Range--Schutz On-    Pagosa Ranger         Completed
             Off Permit           District (11021306)
    46013   Recreation--2015     Pagosa Ranger         Completed
             Outfitter and        District (11021306)
             Guide Permit
             Reissuance on
             Pagosa District
             (Fish Creek
             Outfitters)
    46812   Recreation--2015     Pagosa Ranger         Completed
             Outfitter Guide      District (11021306)
             Permit Reissuance
             on Pagosa Disrict
             (3rd Generation
             Outfitters)
    47644   Recreation--2015     Pagosa Ranger         Completed
             Outfitter Guide      District (11021306)
             Permit Reissuance
             on Pagosa District
             (Bugle 'em Up
             Outfitting)
    46815   Recreation--2015     Pagosa Ranger         Completed
             Outfitter Guide      District (11021306)
             Permit Reissuance
             on Pagosa District
             (Highlands
             Unlimited)
    45458   Recreation--Logchut  Columbine Ranger      Completed
             es Loops Trail       District (11021308)
    45103   Recreation--Outfitt  Pagosa Ranger         Completed
             er Guide Permit      District (11021306)
             Reissuance (guided
             snowmobile tours)
    46791   Recreation--Outfitt  Pagosa Ranger         Completed
             er Guide Permit      District (11021306)
             Reissuance
             (Wilderness
             Adventures Inc.)
    46297   Recreation--Outfitt  Pagosa Ranger         Completed
             er Guide Permit      District (11021306)
             Reissuance on
             Pagosa Ranger
             District (Step
             Outdoors)
    47409   Recreation Special   South Park Ranger     Completed
             Uses--Transition     District (11021210)
             to Priority
             Permits
    44815   Reissue Brush Creek  Gunnison Ranger       Completed
             SUP for a            District (11020407)
             livestock area
    46299   Reissue five         East Zone/Holy Cross  Completed
             expiring priority    Ranger District
             use O/G Permits on   (11021507)
             the Eagle-Holy
             Cross District
    37040   Reynolds FLPMA       Mystic Ranger         Completed
             Private Road         District (11020306)
             Easement
    46625   RMBL Special Use     Gunnison Ranger       Completed
             Permit Reissuance    District (11020407)
    46687   Roberts Creek Water  Grand Mesa            Completed
             Conveyance System    Uncompahgre and
                                  Gunnison National
                                  Forest All Units
                                  (11020400)
    42771   Rochford Road        Northern Hills        Completed
             Meadow Enhancement   Ranger District
                                  (11020308)
    45819   Rock Creek Native    South Park Ranger     Completed
             Cutthroat Trout      District (11021210)
             Reintroduction
    46825   Rocky Mountain       Grand Mesa            Completed
             Biological           Uncompahgre and
             Laboratory (RMBL)    Gunnison National
             Permit Renewal and   Forest All Units
             Combination          (11020400)
    46167   Rocky Mountain Sled  Grand Valley Ranger   Completed
             Dog Recreation       District (11020402)
             Event--5 Years
    45253   Samson and Finley    Douglas and Thunder   Completed
             Road                 Basin Ranger
             Reconstruction off   District (11020609)
             Jenney Trail
    43504   Samson Powerline     Douglas and Thunder   Completed
                                  Basin Ranger
                                  District (11020609)
    43833   Sand Creek Russian   Pine Ridge Ranger     Completed
             Olive Project        District (11020702)
    47458   Sawmill Gulch Non    Leadville Ranger      Completed
             system route         District (11021201)
             closure
    47394   Sheep Salvage        White River National  Completed
             Timber Sale          Forest All Units
                                  (11021500)
    47286   Sheridan College     Bighorn National      Completed
             Weather Tower        Forest All Units
                                  (11020200)
    46260   Silent Hill Mining   Pike and San Isabel   Completed
             Plan of Operations   National Forests
                                  and Cimarron and
                                  Comanche National
                                  Grasslands All
                                  Units (11021200)
    46422   Silver Pick Winter   Grand Mesa            Completed
             Route                Uncompahgre and
                                  Gunnison National
                                  Forest All Units
                                  (11020400)
    43631   Slate Creek Quarry   Black Hills National  Completed
                                  Forest All Units
                                  (11020300)
    45307   Snowmobile Grooming  West Zone/Rifle       Completed
             Permit--Flattopper   Ranger District
             s and Rifle          (11021508)
             Snowmobile Clubs
    44971   Snowy Range Ski      Laramie Ranger        Completed
             Area 2014 Projects   District (11020605)
    46754   Soda Butte Creek     Clarks Fork Ranger    Completed
             Yellowstone          District (11021401)
             Cutthroat Trout
             Restoration
             Project
    46876   Solihull Society--   Grand Valley Ranger   Completed
             Land Rover Rally     District (11020402)
    45849   Southwest Colorado   Grand Mesa            Completed
             Television           Uncompahgre and
             Translator Assoc.    Gunnison National
             Permit Reissuance    Forest All Units
                                  (11020400)
    45729   Special Use Permit   Black Hills National  Completed
             for Mountain         Forest All Units
             Sucker Research      (11020300)
    45116   Special Use Permit   White River National  Completed
             Reissuance for       Forest All Units
             Fifteen Outfitter/   (11021500)
             Guide Priority Use
             Permits.
    44871   Special Use Permit   West Zone/Sopris      Completed
             Reissuance for       Ranger District
             Seven Transitional   (11021503)
             Priority Use
             Permits.
    46255   Special Uses--2014/  Mancos/Dolores        Completed
             2015 Outfitter/      Ranger District
             Guide Permit         (11021305)
             Renewals
    45924   Special Uses--Ditch  Columbine Ranger      Completed
             Bill Easement,       District (11021308)
             Steward No. 3
             Ditch to Mark
             Condiotti
    45481   Special Uses--Leche  Pagosa Ranger         Completed
             Creek Road Access    District (11021306)
    44509   Special Uses--PAWSD  Pagosa Ranger         Completed
             (Pagosa Area Water   District (11021306)
             & San.)Permit
             Reissuance for all
             water lines on
             Pagosa Dist.
    46370   Special Uses--Smith  Pagosa Ranger         Completed
             Treasure Hunting     District (11021306)
             Permit
    46371   Special Uses--Three  Pagosa Ranger         Completed
             Meadows Ranch Sign   District (11021306)
    47552   State of Colorado--  West Zone/Sopris      Completed
             2013 Sunlight Peak   Ranger District
             Communication Site   (11021503)
             Tower Rebuild and
             Lease Renewal
    46358   Sturgis BAM          Northern Hills        Completed
             Amendment            Ranger District
                                  (11020308)
    45788   Summer Construction  East Zone/Dillon      Completed
             Projects at          Ranger District
             Breckenridge         (11021510)
    46737   Summer Construction  East Zone/Dillon      Completed
             projects at          Ranger District
             Keystone             (11021510)
    46262   The Bank Plan of     Pike and San Isabel   Completed
             Operations           National Forests
                                  and Cimarron and
                                  Comanche National
                                  Grasslands All
                                  Units (11021200)
    46881   Thunder Mountain     Grand Valley Ranger   Completed
             Lodge Resort         District (11020402)
             Permit Reissuance
    45614   Tie City Multi-use   Laramie Ranger        Completed
             Trail Development    District (11020605)
    45674   Toe Gulch #2 Placer  Hell Canyon Ranger    Completed
             Mining               District (11020303)
    42085   Tomaha Ridge         Black Hills National  Completed
             Sanitary District    Forest All Units
             PAH537               (11020300)
    46359   Touch the Sky        Northern Hills        Completed
             Rockclimbing         Ranger District
                                  (11020308)
    46622   Town of Crested      Gunnison Ranger       Completed
             Butte Special Use    District (11020407)
             Permit Reissuance
    45319   Town of Telluride    Norwood Ranger        Completed
             Water Storage and    District (11020405)
             Treatment
             Facilities
    44792   Town of Yampa Water  Yampa Ranger          Completed
             Pipeline             District (11020601)
             Installation.
    44538   TSG Ski & Golf Fen   Grand Mesa            Completed
             Monitoring Sites     Uncompahgre and
                                  Gunnison National
                                  Forest All Units
                                  (11020400)
    44758   Tunnel Water         Canyon Lakes Ranger   Completed
             Company              District (11021005)
             Maintenance Site
    36326   Tuscarora Road       Boulder Ranger        Completed
             Association          District (11021001)
    46210   Vail and Beaver      White River National  Completed
             Creek Summer         Forest All Units
             Construction CE      (11021500)
    43712   Wall Prescribe Burn  Wall Ranger District  Completed
             Complex              (11020706)
    47660   Washington Carver    West Zone/Aspen       Completed
             LLC and Jason        Ranger District
             Gregg--Land Access   (11021501)
             Permits on
             Richmond Ridge
    45341   Washington Gulch     Gunnison Ranger       Completed
             Winter Recreation    District (11020407)
             Management
    46322   Watershed--Redburn   Mancos/Dolores        Completed
             Ditch Riparian       Ranger District
             Project              (11021305)
    44843   Watson Forest Road   Gunnison Ranger       Completed
             SUP Renewal          District (11020407)
    45081   West Ash Fire        Pine Ridge Ranger     Completed
             Reforestation        District (11020702)
             Project
    46564   West Carter          Parks Ranger          Completed
             Allotment Water      District (11020604)
             Development Repair/
              Relocation
    47664   West Fork Fire       Divide Ranger         Completed
             Complex Tree         District (11020904)
             Planting
    46143   West Hell            Hell Canyon Ranger    Completed
             Reforestation        District (11020303)
             Project
    43795   West Pinos Salvage   Divide Ranger         Completed
                                  District (11020904)
    43520   Williams Private     Grand Mesa            Completed
             Road Easement        Uncompahgre and
                                  Gunnison National
                                  Forest All Units
                                  (11020400)
    46954   Willow Creek Bridge  Gunnison Ranger       Completed
             #1 and #2            District (11020407)
             Replacements
    47112   Wolf Creek Hazard    West Zone/Sopris      Completed
             Tree Removal for     Ranger District
             Site Protection      (11021503)
    46458   Wood River Outhouse  Greybull Ranger       Completed
                                  District (11021402)
    45801   Wyoming Department   Bighorn National      Completed
             of Transportation    Forest All Units
             Burgess Junction     (11020200)
             Maintenance Camp
             Special Use Permit
             Reissuance
    47302   Wyoming Department   Bighorn National      Completed
             of Transportation    Forest All Units
             Waterline            (11020200)
    45712   Wyoming Game and     Tongue Ranger         Completed
             Fish Commission      District (11020206)
             Snow Lake Cabin
    47259   Young Life Hiking    Sulphur Ranger        Completed
             Permit               District (11021008)
------------------------------------------------------------------------
                 Region: R3--Southwestern Region (1103)
                          Decision Doc Type: DM
     NEPA Decision Signed Date Range: 10/01/2014 through 09/30/2015
                          Project Simple Format
                           Projects Found: 94
------------------------------------------------------------------------
    47357   2 Year Permit        Santa Catalina        Completed
             Issuance for         Ranger District
             Sabino Canyon        (11030505)
             Tours
    45894   2015 Green Fuelwood  Camino Real Ranger    Completed
             Areas                District (11030204)
    47107   Anita Allotment      Tusayan Ranger        Completed
             Fence Modification   District (11030704)
             Project
    45113   Apache Unit 71       Black Kettle          Completed
             Triple Well          National Grassland
                                  (11030306)
    47115   APS Mt. Elden        Flagstaff Ranger      Completed
             Distribution Line    District (11030408)
             Reconstruction
             Project
    40888   Arizona Balloon      Verde Ranger          Completed
             Works, Inc.          District (11030905)
             Special Use Permit
             Reissue
    46688   Arizona Trail Gate   Mogollon Rim Ranger   Completed
             Improvement          District (11030407)
             Project
    46781   Arnold Mesa          Verde Ranger          Completed
             Wildlife Water       District (11030905)
             Development
    48092   ATV Tours Outfitter  Verde Ranger          Completed
             Guide Priority SUP   District (11030905)
    44976   Aven Associates,     Gila National Forest  Completed
             LLC Plan of          All Units
             Operations July      (11030600)
             2014
    46319   Baker Butte          Mogollon Rim Ranger   Completed
             Coconino County      District (11030407)
             Sheriff's
             Communication
             Lease
    46888   Bar X Tanks          Pleasant Valley       Completed
                                  Ranger District
                                  (11031205)
    45251   Bartlett Lake        Cave Creek Ranger     Completed
             Marina Permit        District (11031201)
             Reissuance
    45981   Bear Canyon Bark     Santa Catalina        Completed
             Beetle Sanitation    Ranger District
             Project              (11030505)
    42403   Big Horn Mountain /  Tres Piedras Ranger   Completed
             Stateline            District (11030206)
    46226   Board Tree Saddle    Pleasant Valley       Completed
             Mineral Material     Ranger District
             Source               (11031205)
    46546   Bradshaw Ranch       Coconino National     Completed
             Climate Change       Forest All Units
             Experimental         (11030400)
             Garden Array
             Research Permit
    46207   Bulldog Canyon Area  Tonto National        Completed
             Unauthorized         Forest All Units
             Uninventoried        (11031200)
             Route Obliteration
             Project
    46782   Carlota Copper       Tonto National        Completed
             Company Solar        Forest All Units
             Photo Voltaic        (11031200)
             Permit Application
    45574   Cave Creek Flooding  Douglas Ranger        Completed
             Emergency Response   District (11030501)
    46313   Chambers Road        Tres Piedras Ranger   Completed
             Association          District (11030206)
             Proposal
    44157   Cloudriders          Sacramento Ranger     Completed
             Snowmobile Club      District (11030802)
             Shelter
    45054   Collection of        Gila National Forest  Completed
             Baseline             All Units
             Geotechnical Data    (11030600)
             along the Gila
             River for
             Potential Project
             Feasibility
    45577   Columbus Electric    Coronado National     Completed
             Co-op Cave Creek     Forest All Units
             Line Repair, Phase   (11030500)
             One, Non 404
             Permit Repairs
    45045   Communication Site   Bradshaw Ranger       Completed
             Use Reissues on      District (11030903)
             Towers Mtn. and
             Mt. Frances
    46227   Connor Canyon        Pleasant Valley       Completed
             Mineral Material     Ranger District
             Source               (11031205)
    45051   Construction of the  Gila National Forest  Completed
             Verizon Wireless     All Units
             Cellular             (11030600)
             Communications
             Facility on San
             Francisco Divide
             Mtn.
    46976   Copper Falls Trail   Verde Ranger          Completed
             and OHV Reroutes     District (11030905)
    48401   Copper Falls Trail   Verde Ranger          Completed
             and OHV Trail        District (11030905)
             Reroutes
    24903   Dahl FLPMA Private   Flagstaff Ranger      Completed
             Road Special Use     District (11030408)
             Permit
    45902   Deer Creek Complex   Questa Ranger         Completed
             Allotment Drift      District (11030207)
             Fence
    45665   El Paso Natural Gas  Flagstaff Ranger      Completed
             Company Standby      District (11030408)
             Generator
             Installation
    47024   Firescape Barboot    Douglas Ranger        Completed
             Canyon Watershed     District (11030501)
             Restoration
    47044   Firescape Tex        Douglas Ranger        Completed
             Canyon Watershed     District (11030501)
             Restoration
    44706   Fish Barrier         Wilderness Ranger     Completed
             Maintenance          District (11030605)
    46184   Fish Creek Mineral   Mesa Ranger District  Completed
             Material Borrow      (11031203)
             Source
    45075   Flagstaff Ranger     Flagstaff Ranger      Completed
             District 2014        District (11030408)
             Special Use Permit
             Reissuances
    45423   Forest-wide Filming  Tonto National        Completed
             and Photography      Forest All Units
             Permit Reissuances   (11031200)
    47378   Forest-wide          Glenwood Ranger       Completed
             Wildflower           District (11030604)
             Planting for
             Pollinators and
             Traditional Uses
    45640   Forestwide planting  Coronado National     Completed
             for traditional      Forest All Units
             uses and             (11030500)
             pollinators on the
             Coronado National
             Forest
    45202   Forestwide PNF Big   Prescott National     Completed
             Chino Guide          Forest All Units
             Outiftter/Guide      (11030900)
             Special Use Permit
    45205   Forestwide PNF       Prescott National     Completed
             Starr Guide          Forest All Units
             Service Outfitter/   (11030900)
             Guide Special Use
             Permit
    47608   GovNet Porter        Lakeside Ranger       Completed
             Mountain             District (11030107)
             Telecommunication
             Facility Project
    46389   Greater Prescott     Bradshaw Ranger       Completed
             Trails #1--Short     District (11030903)
             Term Projects
    44263   Greaterville         Nogales Ranger        Completed
             Abandoned Mine       District (11030502)
             Lands (AML) Safety
             Remediation
    46774   Gust Spring &        Springerville Ranger  Completed
             Reservoir            District (11030106)
             Protection Project
    46340   House Pond Liner     Sierra Vista Ranger   Completed
             Installation         District (11030503)
    46918   Install Buck Trick   Lincoln National      Completed
             Tank                 Forest All Units
                                  (11030800)
    46021   Kit Carson Electric  Camino Real Ranger    Completed
             Cooperative Palo     District (11030204)
             Flechado Pass
             Fiber Optic
             Installation
    46109   Lynx Lake Fish       Bradshaw Ranger       Completed
             Habitat              District (11030903)
             Improvement
             Project
    46129   Maintenance of 260   Mesa Ranger District  Completed
             Trail                (11031203)
    46128   McDougal Flat        Williams Ranger       Completed
             Grassland            District (11030701)
             Restoration
             Project
    47034   Mingus Mtn.          Verde Ranger          Completed
             Wildlife Water       District (11030905)
             Developments
    46197   Miss Cindy Pasture   Red Rock Ranger       Completed
             Fence Realignment    District (11030406)
    42984   Mogollon Rim         Mogollon Rim Ranger   Completed
             Christmas Tree       District (11030407)
             Cutting Project,
             Wildcat Springs
             Area
    46126   Mogollon Rim Ranger  Mogollon Rim Ranger   Completed
             District 2015        District (11030407)
             Special Use Permit
             Reauthorizations
    44899   Mt. Hopkins Re-      Nogales Ranger        Completed
             Entry Thinning       District (11030502)
             Project
    46634   National Park        Flagstaff Ranger      Completed
             Service and Other    District (11030408)
             Federal Users At
             Mt. Elden
             Communication Site
    46889   New Dutchman Well    Pleasant Valley       Completed
                                  Ranger District
                                  (11031205)
    46890   New Soldier Camp     Pleasant Valley       Completed
             Tanks                Ranger District
                                  (11031205)
    46223   Newtown Avenue       Bradshaw Ranger       Completed
             Trailhead            District (11030903)
    44234   NKRD Eastside        North Kaibab Ranger   Completed
             Wildlife Water       District (11030703)
             Development and
             Redevelopment
             Project
    45324   Parallel Prescribed  Pleasant Valley       Completed
             Burn                 Ranger District
                                  (11031205)
    45347   Permit Reissue for   Coronado National     Completed
             Archaeology          Forest All Units
             Investigating        (11030500)
             Companies
    46650   Placitas & Piedra    Sandia Ranger         Completed
             Lisa Trail Project   District (11030305)
    36219   Plan of Operation,   Sierra Vista Ranger   Completed
             Sunnyside Minerals   District (11030503)
             Exploration in
             Humboldt Canyon
    45156   Pronghorn Fence      Flagstaff Ranger      Completed
             Modification         District (11030408)
             Project--Phase II
    46867   PS and Grandfather   Alpine Ranger         Completed
             Allotment New        District (11030101)
             Mexico Meadow
             Jumping Mouse
             Fence Exclosures
             Project
    41793   Red Rock RD 2013     Coconino National     Completed
             Permit               Forest All Units
             Reauthorizations     (11030400)
    43876   Red Rock Trails      Red Rock Ranger       Completed
             Phase IV             District (11030406)
    38557   Reissuance of        Red Rock Ranger       Completed
             Outfitter/Guide      District (11030406)
             Use in Broken
             Arrow
    47003   Rio Verde Fuels      Cave Creek Ranger     Completed
             Reduction Project    District (11031201)
    45700   Road Permit for El   Lincoln National      Completed
             Capitan Precious     Forest All Units
             Metals, Inc.         (11030800)
    45250   Saguaro Lake Marina  Mesa Ranger District  Completed
             Permit Reissuance    (11031203)
    46940   Silver Creek #7--    Black Range Ranger    Completed
             Plan of Operation    District (11030602)
    46775   Sipapu Ski & Summer  Camino Real Ranger    Completed
             Resort 2015 Trail    District (11030204)
             Improvement
             Projects
    45783   Ski Santa Fe         Espanola Ranger       Completed
             Improvement          District (11031006)
             Project Water Tank
    46338   Smuggler Cove        Douglas Ranger        Completed
             Weather Station      District (11030501)
    45393   Special Use Permit   Coronado National     Completed
             Outfitter Guide      Forest All Units
             Renewals             (11030500)
    45641   SRP/Maricopa County  Tonto National        Completed
             Humboldt Mountain    Forest All Units
             Communication Site   (11031200)
             Rebuild
    47242   Sunset Crater        Flagstaff Ranger      Completed
             National Monument    District (11030408)
             Waterline
             Replacement
    44652   Sunset Crater        Flagstaff Ranger      Completed
             Volcano National     District (11030408)
             Monument Trails
    35136   Superior Wildlife    Globe Ranger          Completed
             Water Catchments     District (11031202)
    47213   Taos Ski Valley      Questa Ranger         Completed
             Sutton Place         District (11030207)
             Utility
             Installation and
             Culvert
             Replacement
    45219   TDS Telecom Mormon   Flagstaff Ranger      Completed
             Mountain             District (11030408)
             Communication Site
             Buried Fiber Optic
             Cable
    47215   Telecommunications   Mount Taylor Ranger   Completed
             Site Renewals        District (11030302)
    43194   Three Mile Lake and  Williams Ranger       Completed
             Horse Lake Fencing   District (11030701)
             Project
    44233   Trailside Rest Area  Apache-Sitgreaves     Completed
             on the Meadow        National Forests
             Trail                All Units
                                  (11030100)
    46066   Upper Rio San        Tres Piedras Ranger   Completed
             Antonio              District (11030206)
    46177   Vigil Springs        Glenwood Ranger       Completed
             Wetland              District (11030604)
             Restoration and
             Riparian Habitat
             Improvement
             Project
    47220   Weather Stations     Cibola National       Completed
             Project              Forest All Units
                                  (11030300)
    47058   Wildlife Water       Cave Creek Ranger     Completed
             Catchments           District (11031201)
    44429   Wildlife Water       Safford Ranger        Completed
             Improvement          District (11030504)
             Projects--Galiuro
             Mountains
    35304   Zirkle & Darnell     Gila National Forest  Completed
             Special Use Road     All Units
             Access               (11030600)
------------------------------------------------------------------------
                 Region: R4--Intermountain Region (1104)
                          Decision Doc Type: DM
     NEPA Decision Signed Date Range: 10/01/2014 through 09/30/2015
                          Project Simple Format
                           Projects Found: 105
------------------------------------------------------------------------
    42107   2015 Radio System    Minidoka Ranger       Completed
             Improvements         District (11041401)
    46925   2015 Range           New Meadows Ranger    Completed
             Improvements         District (11041203)
    42507   Allred Adventures    Lowman Ranger         Completed
             special use permit   District (11040205)
             renewal
    46459   Alta 2015 Summer     Salt Lake Ranger      Completed
             Projects             District (11041901)
    44931   Alta Ski Area        Salt Lake Ranger      Completed
             Avalanche            District (11041901)
             Mitigation Permit
    46499   ATC Communications   Westside Ranger       Completed
             Juniper to           District (11041557)
             Holbrook Fiber
             Optic Line
    46559   Bald Mountain        Mountain Home Ranger  Completed
             Repeater Site        District (11040201)
    45627   Bear River Project   Logan Ranger          Completed
             GeoExplore           District (11041907)
    45647   Beef Pasture         Heber-Kamas Ranger    Completed
             Pipeline             District (11041903)
    43411   Big Springs Gold     Mountain City Ranger  Completed
             Exploration          District (11041706)
             Project
    46251   Butterfly Lake       Heber-Kamas Ranger    Completed
             Trail                District (11041903)
    41500   C and W Placer       Idaho City Ranger     Completed
             Exploration          District (11040203)
    46355   Canyon Creek Stream  Leadore Ranger        Completed
             Restoration          District (11041308)
             Project
    44080   Challis Municipal    Challis-Yankee Fork   Completed
             Fuels Reduction      Ranger District
             Thinning Project     (11041302)
    45198   Citizens Telecom.    New Meadows Ranger    Completed
             Co. of Idaho dba     District (11041203)
             Frontier
             Communications
             Alpine Meadows
             Burried Copper
             Phone Line
    45188   Citizens             New Meadows Ranger    Completed
             Telecomunications    District (11041203)
             Co. of Idaho dba
             Frontier
             Communications
             Ecks Flat Fiber
             Optic Line SUP.
    43615   Climbing Areas       Salt Lake Ranger      Completed
             Stabilization        District (11041901)
             projects
    38901   Cold Springs         Santa Rosa Ranger     Completed
             Watershed and        District (11041710)
             Stream Habitat
             Restoration Phase
             II
    47098   Cottonwood Lake Dam  Greys River Ranger    Completed
             Spillway             District (11040303)
    41502   Daltons Delight      Idaho City Ranger     Completed
             Placer Exploration   District (11040203)
    46494   Darby Church Camp    Teton Basin Ranger    Completed
             Improvements         District (11041556)
    47223   Deadline Ridge Lot   Minidoka Ranger       Completed
             9 Cabin              District (11041401)
             Improvements
    44422   Dry Wash Wildlife    Ferron Ranger         Completed
             Project              District (11041002)
    46508   8East Boulder        Salmon-Cobalt Ranger  Completed
             Placer Exploration   District (11041301)
             Project0
    43370   Elk Post-Fire        Mountain Home Ranger  Completed
             Restoration          District (11040201)
             Reforestation
             Project
    46574   Etca White--         Jackson Ranger        Completed
             reauthorization of   District (11040304)
             3 permits
    45760   Expansion of Winter  Greys River Ranger    Completed
             Parking in Alpine    District (11040303)
    40245   FAA Shed Fuel        Cascade Ranger        Completed
             Reduction            District (11040204)
    47280   Fall River Electric  Ashton/Island Park    Completed
             Special Use          (11041552)
             Amendment Boot
             Jack Buried
             Powerline
    44465   Feather River Post-  Mountain Home Ranger  Completed
             Fire Restoration     District (11040201)
             Reforestation
             Project
    44171   Fish Creek           Palisades Ranger      Completed
             Watershed            District (11041554)
             Improvement
             Project
    45181   Forgy Water System   New Meadows Ranger    Completed
             Special Use          District (11041203)
             Authorization
             Reissuance
    34851   Greater Snow King    Jackson Ranger        Completed
             Area Trails          District (11040304)
             (formerly Skyline
             Trail/Putt Putt
             Extension)
    44507   Greendale Water      Flaming Gorge Ranger  Completed
             Company Facility     District (11040101)
             Upgrade Project
    47167   Hades Creek Bridge   Duchesne Ranger       Completed
             Replacement          District (11040104)
             Project
    45668   Harmening Road       Jackson Ranger        Completed
             right-of-way         District (11040304)
             reauthorization
    45296   Hawkeye Gulch        Salmon-Cobalt Ranger  Completed
             Exploration          District (11041301)
             Trenching Project
    45999   Hazard Tree Removal  Spring Mountains      Completed
             Project              National Recreation
                                  Area (11041705)
    46872   Hoback Campground    Jackson Ranger        Completed
             Host Site--          District (11040304)
             installation of
             electrical cabling
    45265   Hope Valley          Carson Ranger         Completed
             Restoration          District (11041701)
    44895   Idaho Department of  Sawtooth National     Completed
             Fish and Game        Recreation Area
             Administrative       (11041404)
             Site Special Use
             Permit
    47222   Idaho Military       Minidoka Ranger       Completed
             Division             District (11041401)
             Improvements
    45186   Idaho Power Company  New Meadows Ranger    Completed
             McCall-New Meadows   District (11041203)
             138kV Transmission
             Line Special Use
             Permit
    44431   Idaho Power SUA      Council Ranger        Completed
             Reissue--Evergreen   District (11041201)
             Distribution Line
    46532   Idaho Pride Plan of  Idaho City Ranger     Completed
             Operations           District (11040203)
    46919   Indianhead           Weiser Ranger         Completed
             Bowhunters           District (11041202)
             Recreation Event
             Special Use Permit
             Reissue
    39513   Issuing New Permits  Salmon-Challis        Completed
             for Expired          National Forest All
             Outfitter & Guide    Units (11041300)
             Permits
    43602   Jackson Creek Trail  McCall Ranger         Completed
             (#116) Re-route      District (11041204)
             Project
    42074   Keegan Driveway      Bridgeport Ranger     Completed
             Access               District (11041702)
    46902   Kenya's Quest        Duchesne Ranger       Completed
             Exploratory          District (11040104)
             Drilling
    44317   Kingston Vegetation  Austin Ranger         Completed
             Restoration          District (11041703)
             Project
    45648   Lagoon Pipeline      Heber-Kamas Ranger    Completed
                                  District (11041903)
    44017   Lake Creek Riparian  Ketchum Ranger        Completed
             and Stream           District (11041403)
             Enhancement
             Project
    44933   LDS Brighton Girls   Salt Lake Ranger      Completed
             Camp Building        District (11041901)
             Upgrades
    46174   Little Res II        Beaver Ranger         Completed
                                  District (11040803)
    45679   Logan Ranger         Logan Ranger          Completed
             District Office      District (11041907)
             Acquisition
    46563   Mammoth Creek Fish   Dixie National        Completed
             Barriers             Forest All Units
                                  (11040700)
    41533   McFarland Canyon     Spring Mountains      Completed
             Fence Project        National Recreation
                                  Area (11041705)
    45088   Monitor Valley-      Austin Ranger         Completed
             Little Fishlake,     District (11041703)
             Pasco and Toiyabe
             Bench Pinyon--
             Juniper Removal
             Project
    45649   Mud Creek Pipeline   Heber-Kamas Ranger    Completed
                                  District (11041903)
    46323   Mustang Ridge        Ashley National       Completed
             Wildlife Water       Forest All Units
             Guzzler              (11040100)
    47515   Navajo Cinder Pit    Dixie National        Completed
             Reclamation          Forest All Units
             Project              (11040700)
    40851   Old China Placer     Idaho City Ranger     Completed
             Exploration          District (11040203)
    45757   Pahsimeroi           Challis-Yankee Fork   Completed
             Allotment Spring     Ranger District
             Rehabilitation       (11041302)
    44180   Pebble Creek         Westside Ranger       Completed
             Diversion Project    District (11041557)
    44950   Pelican Beach        Ogden Ranger          Completed
             Parking Expansion    District (11041906)
    44437   Pine Telephone       Council Ranger        Completed
             Fiber Optic Cable    District (11041201)
             SUA Reissue--Hells
             Canyon
    42920   Pine Valley          Pine Valley Ranger    Completed
             Eastside Trails      District (11040701)
             Enhancement
    45927   Provo Warehouse      Pleasant Grove        Completed
             Conveyance           Ranger District
                                  (11041902)
    45093   Quantum Jarbidge     Jarbidge Ranger       Completed
             Exploration          District (11041708)
             Project
    45157   Rainbow Canyon       Spring Mountains      Completed
             Diversion            National Recreation
             Structure            Area (11041705)
    45469   Redfish--Road #210   Sawtooth National     Completed
             Post-Insect          Recreation Area
             Outbreak Fuels       (11041404)
             Project
    45659   Rocky Mountain       Ogden Ranger          Completed
             Power Structure      District (11041906)
             Install,
             Replacement, Phase
             Raising
    44854   Royal Vacation       Palisades Ranger      Completed
             Homes Water          District (11041554)
             Association
             Special Use Permit
             Reissuance
    43897   Santaquin WUI        Spanish Fork Ranger   Completed
                                  District (11041908)
    43106   Silver Lake          Salt Lake Ranger      Completed
             Boardwalk            District (11041901)
             replacement
    45798   Snow King Mountain   Jackson Ranger        Completed
             Rafferty Lift        District (11040304)
             Replacement and
             Ski Trail
             Construction
    44958   Snowbasin Resort     Ogden Ranger          Completed
             Water Impoundment    District (11041906)
    46707   Snowbird Mineral     Uinta-Wasatch-Cache   Completed
             Basin Howitzer       All Units
             mount                (11041900)
    46704   Snowbird Path to     Uinta-Wasatch-Cache   Completed
             Paradise ski run     All Units
             modification         (11041900)
    44285   SnowKing Mountain    Jackson Ranger        Completed
             Aerial Adventure     District (11040304)
             Course
    44930   Solitude Summit      Salt Lake Ranger      Completed
             Lift Upgrade/        District (11041901)
             Relocation
    46253   South Fork Fish      Cascade Ranger        Completed
             Weir SUP Project     District (11040204)
    45941   South Grove Creek    Teton Basin Ranger    Completed
             Trail (237)          District (11041556)
             Reroute
    45651   South Streeper       Heber-Kamas Ranger    Completed
             Corral Pipeline      District (11041903)
    45777   Spring Gulch         Challis-Yankee Fork   Completed
             Grazing Allotment    Ranger District
             Fencing Project      (11041302)
    46101   Stanley Cemetery     Sawtooth National     Completed
             Special Use Permit   Recreation Area
                                  (11041404)
    33117   Star Valley Front    Greys River Ranger    Completed
             Vegetation           District (11040303)
             Management
    45079   Strawberry Marina    Heber-Kamas Ranger    Completed
             Outfitter and        District (11041903)
             Guide Permit
             Reissuance,
             Operations
    45078   Strawberry Marina    Heber-Kamas Ranger    Completed
             Outfitter and        District (11041903)
             Guide Permit
             Reissuance,
             Property
    46421   Sun Valley Super     Ketchum Ranger        Completed
             Enduro & Cross-      District (11041403)
             Country Mountain
             Bike Race SUP
    46504   Table Mountain       Lowman Ranger         Completed
             Outfitters Special   District (11040205)
             Use Permit Renewal
    46146   Temple Fork Juniper  Logan Ranger          Completed
             Treatment Project    District (11041907)
    45697   Teton Village Water  Jackson Ranger        Completed
             & Sewer--            District (11040304)
             reauthorization of
             sewer transmission
             line
    45645   Tibble Fork          Pleasant Grove        Completed
             Communications       Ranger District
                                  (11041902)
    45704   Trail Construction/  Greys River Ranger    Completed
             Reconstruction       District (11040303)
             near Star Valley
             Ranch
    47279   University of Utah   Ashton/Island Park    Completed
             Special Use Permit   (11041552)
             Moose Creek
             Seismograph
             Station
    43282   Vantage 2014 Oil     Ashley National       Completed
             and Gas Project      Forest All Units
                                  (11040100)
    42899   Warren Meadow        McCall Ranger         Completed
             Placer               District (11041204)
    45823   Warren Water         Payette National      Completed
             Systems              Forest All Units
                                  (11041200)
    46145   Water Transmission   Jackson Ranger        Completed
             Line                 District (11040304)
             Authorization--Awv
             e
    45989   West Fork            Challis-Yankee Fork   Completed
             Confluence Stream    Ranger District
             Restoration          (11041302)
             Project
    41751   West Pine Creek      Palisades Ranger      Completed
             Stream Restoration   District (11041554)
    45705   Williams Creek       Emmett Ranger         Completed
             Project              District (11040206)
    25665   Williams             Salmon-Cobalt Ranger  Completed
             Restoration          District (11041301)
------------------------------------------------------------------------
               Region: R5--Pacific Southwest Region (1105)
                          Decision Doc Type: DM
     NEPA Decision Signed Date Range: 10/01/2014 through 09/30/2015
                          Project Simple Format
                           Projects Found: 179
------------------------------------------------------------------------
    45847   Beasore Rd (5S07)/   Bass Lake Ranger      Completed
             Cold Springs         District (11051551)
             Summit parking OSV
             Winter Mtnce
    44777   5 Year Enduro        Grindstone Ranger     Completed
                                  District (11050853)
    47281   Alder Creek          Truckee Ranger        Completed
             Commemorative        District (11051757)
             Overland Emigrant
             Trail Project
    44776   Alder Springs        Grindstone Ranger     Completed
             Valley View          District (11050853)
             Conservation Camp
             Special Use Permit
    45427   Alta Sierra Mutual   Kern River Ranger     Completed
             Water Company        District (11051354)
             Special Use Permit
             Renewal
    46214   Antelope Plains      Devils Garden Ranger  Completed
             Sage Steppe          District (11050955)
             Restoration
    43629   Barry Point South    Devils Garden Ranger  Completed
             2015 Reforestation   District (11050955)
    45158   Big Creek community  High Sierra Ranger    Completed
             Fuel Break           District (11051552)
    44574   Big Grizzly Creek    Beckwourth Ranger     Completed
             Rehabilitation       District (11051101)
             Project (Prop50)
    45726   Big Pine Fire        Mount Whitney Ranger  Completed
             Department           District (11050454)
             Westgard
             Communication
             Tower
    46739   Blodgett Forest      Eldorado National     Completed
             Sign Special Use     Forest All Units
             Permit               (11050300)
    45227   Bogard Well          Eagle Lake Ranger     Completed
                                  District (11050658)
    45854   Bucks Lake Phone     Mt. Hough Ranger      Completed
             Line Project         District (11051102)
    46759   Bud's Alley          Eldorado National     Completed
             Widening             Forest All Units
                                  (11050300)
    46738   Bunker Hill Road     Eldorado National     Completed
             Use Permit           Forest All Units
                                  (11050300)
    47346   Cal Trans Chips      Mt. Hough Ranger      Completed
             Creek Mineral        District (11051102)
             Materials Permit
    45883   Cal-Trans Highway    Hat Creek Ranger      Completed
             89 Hazard Tree       District (11050653)
             Removal
    44825   Camp Richardson      Lake Tahoe Basin Mgt  Completed
             Corral Permit        Unit (11051900)
             Reissuance
    46760   Chair 11 Slope       Eldorado National     Completed
             Stabilization        Forest All Units
                                  (11050300)
    47247   Challenge            Feather River Ranger  Completed
             Substation Salvage   District (11051103)
    44113   Childs Meadow Fence  Almanor Ranger        Completed
             Project              District (11050651)
    46236   City of Portola      Beckwourth Ranger     Completed
             Water Line           District (11051101)
             Replacement
    36594   Cow Creek Permanent  Beckwourth Ranger     Completed
             Fence Exclosure      District (11051101)
             (Prop50)
    37988   Cowbell Enduro       Upper Lake Ranger     Completed
             Special Use Permit   District (11050854)
    41540   Coyote Meadow        Summit Ranger         Completed
             Restoration          District (11051653)
    47097   Crest Forest Fire    Arrowhead Ranger      Completed
             Station #30          District (11051251)
             Expired Permit
             Reissuance
    45498   Day Fire Salvage     Big Valley Ranger     Completed
                                  District (11050954)
    45445   Deer Crossing Camp   Pacific Ranger        Completed
             Permit Re-issue      District (11050355)
    37895   Desert Water Agency  San Jacinto Ranger    Completed
             Permit Renewal       District (11051255)
    42979   Dinkey Creek Inn     High Sierra Ranger    Completed
             Permit Renewal       District (11051552)
    44897   Duff Creek Aquatic   Sierra National       Completed
             Organism Passage     Forest All Units
             (AOP) Project        (11051500)
    46474   Eagle Lake           Eagle Lake Ranger     Completed
             Recreation Area      District (11050658)
             Windthrow and
             Hazard Removal
    45335   Elliot Meadow        American River        Completed
             Restoration          Ranger District
                                  (11051754)
    45388   Etsel Water Tank     Mendocino National    Completed
             Relocation           Forest All Units
                                  (11050800)
    46887   Fallon Naval Sea     Beckwourth Ranger     Completed
             Cadets Land          District (11051101)
             Navigation Course
    46698   Feather River        R5--Pacific           Completed
             Canyon Services      Southwest Region
             District SUP         All Units
             Amendment--Tobin     (11050000)
    46151   Ferretti OHV         Groveland Ranger      Completed
             Restoration          District (11051654)
    46542   Finley Lake Turtle   Almanor Ranger        Completed
             Structures           District (11050651)
    43919   Fort Goff Cemetery   Happy Camp Ranger     Completed
             Special Use Permit   District (11050552)
    46712   Foster Apiary        Mendocino National    Completed
             Special Use Permit   Forest All Units
             Renewal              (11050800)
    46209   Fun Factory          Modoc National        Completed
                                  Forest All Units
                                  (11050900)
    46746   Gantry and Live      Eldorado National     Completed
             Sign Installation    Forest All Units
                                  (11050300)
    46763   Georgetown           Eldorado National     Completed
             Recreational         Forest All Units
             Facility Fire        (11050300)
             Recovery Project
    40142   Glass Mountain       Mono Ranger District  Completed
             Escarpment Sage-     (11050451)
             Grouse Habitat
             Enhancement
    45846   Gobbler Fire         Cajon Ranger          Completed
             Reforestation        District (11051253)
    40860   Goff Fire Fuels      Happy Camp Ranger     Completed
             Reduction            District (11050552)
    45466   Gold Arrow Camp      High Sierra Ranger    Completed
             Leach Field          District (11051552)
             Expansion
    44691   Goosenest Ranger     Goosenest Ranger      Completed
             District Over Snow   District (11050557)
             Vehicle Trail and
             Trailhead
             Maintenance
    46230   Gray Eagle Lodge     Beckwourth Ranger     Completed
             Well and Leach       District (11051101)
             Field
    45696   Haiwee Creek and     Inyo National Forest  Completed
             Division Creek       All Units
             Flood Damage         (11050400)
             Reconstruction
    43301   Hall Water           Happy Camp Ranger     Completed
             Transmission         District (11050552)
             Pipeline Special
             Use Permit Renewal
    46114   Hammerhorn Lake      Mendocino National    Completed
             Improvements         Forest All Units
                                  (11050800)
    46745   Happiness Is         Eldorado National     Completed
             Installation         Forest All Units
                                  (11050300)
    44355   Happy Valley Aspen   Beckwourth Ranger     Completed
             and Meadow           District (11051101)
             Restoration
             Project
    46478   Hat Creek Blowdown   Hat Creek Ranger      Completed
             and Hazard Tree      District (11050653)
             Removal
    45695   Hat Creek Work       Hat Creek Ranger      Completed
             Center Fire Hazard   District (11050653)
             Reduction Project
    46454   High Sierra Ranger   High Sierra Ranger    Completed
             District OHV         District (11051552)
             Special Use Events
             of 2015
    46475   Highway 44           Eagle Lake Ranger     Completed
             Windthrow and        District (11050658)
             Hazard Tree
             Removal
    42021   Homewood Mountain    Lake Tahoe Basin Mgt  Completed
             Resort 20 Year Ski   Unit (11051900)
             Slope Permit
             Reissuance
    45685   Homewood Mountain    Lake Tahoe Basin Mgt  Completed
             Resort Snowcat       Unit (11051900)
             Tours
    47613   Hughes Pond          Feather River Ranger  Completed
             California Red-      District (11051103)
             Legged Frog (CRLF)
             Critical Habitat
             Restoration
             Project
    45874   Huntington Heliport  High Sierra Ranger    Completed
             Hazard Abatement     District (11051552)
             Project
    45305   Huntington Lake      High Sierra Ranger    Completed
             Resort Permit        District (11051552)
             Reissue to New
             Owners
    45970   Indian Valley        Yuba River Ranger     Completed
             Outpost SUP          District (11051753)
             Reissue
    47388   Ingalls Underburn    Beckwourth Ranger     Completed
                                  District (11051101)
    45587   Installation of      White Mountain        Completed
             three dust           Ranger District
             monitoring cameras   (11050453)
             at Laws, Santa
             Rita, and Olancha/
             Sage Flat.
    44123   Issue Special Use    American River        Completed
             Permit to PCWA for   Ranger District
             Passive Repeater     (11051754)
    43917   Judith Blind Road    Happy Camp Ranger     Completed
             Right of Way         District (11050552)
             Special Use Permit
             Renewal
    33149   Kern River Valley    Kern River Ranger     Completed
             Gun Association      District (11051354)
    46762   King Fire            Eldorado National     Completed
             Plantation Re-       Forest All Units
             establishment        (11050300)
    44826   Kingsbury Stinger    Lake Tahoe Basin Mgt  Completed
             Trail                Unit (11051900)
             Reconstruction and
             BMP Upgrade
             Project
    41579   Kral Orchard SUP     Yuba River Ranger     Completed
                                  District (11051753)
    46233   Lake Davis Trail     Beckwourth Ranger     Completed
             Phase 2 Reroute      District (11051101)
    45541   Lakes Basin Paved    Mammoth Ranger        Completed
             Path--Lake George    District (11050452)
             Connector
    46000   Lassen Day Fire      Hat Creek Ranger      Completed
             Salvage              District (11050653)
    44378   Lava Spring Aspen    Beckwourth Ranger     Completed
             and Spring           District (11051101)
             Enhancement
             Project
    44965   Lloyd Meadow Road    Western Divide        Completed
             Hazard Tree          Ranger District
             Felling              (11051352)
    40757   Long Valley OHV      Summit Ranger         Completed
             Restoration          District (11051653)
    47168   Lorenzen--Haskins    Mt. Hough Ranger      Completed
             Creek Water          District (11051102)
             Association
             Amendment
    45724   Los Angeles          Mount Whitney Ranger  Completed
             Department of        District (11050454)
             Water & Power
             Stream Measuring
             Stations
    43021   M6 Maintenance and   Upper Lake Ranger     Completed
             Stream Crossing      District (11050854)
             Upgrades
    45920   Madrone Wetland Co-  Yuba River Ranger     Completed
             op Mitigation        District (11051753)
             Project
    44660   Mammoth Abondoned    Mammoth Ranger        Completed
             Mine Lands Project   District (11050452)
    41756   Mammoth Creek Road   Mammoth Ranger        Completed
             Reroute and Stream   District (11050452)
             Stabilization
    42414   MCCT Segment--       Calaveras Ranger      Completed
             Mosquito Lake to     District (11051652)
             Pacific Valley
    46115   McIssac Road Use     Mendocino National    Completed
             Permit               Forest All Units
                                  (11050800)
    41430   Mi-Wok OHV           Mi-Wok Ranger         Completed
             Restoration          District (11051651)
    45294   Mile High Roadside   Sierra National       Completed
             Hazard Salvage       Forest All Units
             Project              (11051500)
    47273   Mill Creek           Scott River Ranger    Completed
             Watershed Roads      District (11050555)
             Shaded Fuel Break
    44944   Miller Water         Mendocino National    Completed
             Development          Forest All Units
             Special Use Permit   (11050800)
    45493   Mills Placer         Beckwourth Ranger     Completed
             Exploration          District (11051101)
             Project
    47033   Misery Hill Trail    Weaverville Ranger    Completed
             Project              District (11051456)
    43293   Moffatt Water        Happy Camp Ranger     Completed
             Transmission         District (11050552)
             Pipeline Special
             Use Permit Renewal
    43012   Mollie Clayton       Bass Lake Ranger      Completed
             Cabin Removal        District (11051551)
             Project
    43854   Monterey Trails--On- Monterey Ranger       Completed
             Going Level 1 and    District (11050751)
             Level 2
             Maintenance
    45338   Moody Ridge Fuel     American River        Completed
             Reduction Project    Ranger District
                                  (11051754)
    47132   ``Moonlight Fire     Mt. Hough Ranger      Completed
             Restoration, Non-    District (11051102)
             Motorized Trail
             Maintenance
             (RECM52) Peters
             Creek''
    46506   Mosquito Allotment   American River        Completed
             2015 Range           Ranger District
             Improvements         (11051754)
    43430   Mountain Fire        San Jacinto Ranger    Completed
             Reforestation        District (11051255)
             Project
    46820   Mud Lake Baker       Mt. Hough Ranger      Completed
             Cypress              District (11051102)
             Restoration
             Project
    47127   NCPA                 Stanislaus National   Completed
             Telecommunications   Forest All Units
             Link                 (11051600)
    38098   NEON Flux Tower at   High Sierra Ranger    Completed
             Lower Teakettle      District (11051552)
    38096   NEON Flux Tower at   High Sierra Ranger    Completed
             Soaproot Saddle      District (11051552)
    40830   North District       Mi-Wok Ranger         Completed
             Motorized Trails     District (11051651)
    46595   North Fork Salmon    Salmon River Ranger   Completed
             River Telephone      District (11050554)
             Line Replacement
    45417   Oak Creek Mudflow    Mount Whitney Ranger  Completed
             Oak Tree             District (11050454)
             Restoration Study
    45443   Oregon Fire Salvage  Shasta Trinity        Completed
             and Reforestation    National Forest All
                                  Units (11051400)
    33026   Osa Meadow           Kern River Ranger     Completed
             Restoration          District (11051354)
             Project
    46906   Outfitting and       Beckwourth Ranger     Completed
             Guiding Special      District (11051101)
             Use Permit Renewal
    44603   Pacific Bell (AT&T)  Tahoe National        Completed
             Master Special Use   Forest All Units
             Permit Reissuance    (11051700)
    45055   Pacific Power &      Goosenest Ranger      Completed
             Light Company        District (11050557)
             Water Transmission
             Pipeline Special
             Use Permit Renewal
    44859   Patton Mill Fuel     Grindstone Ranger     Completed
             Break                District (11050853)
    43298   Pavan Water          Happy Camp Ranger     Completed
             Transmission         District (11050552)
             Pipeline Special
             Use Permit Renewal
    46555   Pendola Fire         Feather River Ranger  Completed
             Restoration          District (11051103)
             Project
    45316   Pilgrim Plantations  McCloud Ranger        Completed
             Insect and Disease   District (11051461)
             Project
    26697   Pine Cove Fuelbreak  San Jacinto Ranger    Completed
             Maintenance          District (11051255)
    45290   Ponderosa            High Sierra Ranger    Completed
             Telephone--High      District (11051552)
             Sierra Ranger
             Station New
             Service
    45288   Ponderosa            High Sierra Ranger    Completed
             Telephone--Verizon   District (11051552)
             Service at
             Huntington Condos
    47216   Ponderosa Telephone  Sierra National       Completed
             Co. conduit space    Forest All Units
             lease and new        (11051500)
             fiber optic cable
             to Goat Mountain
    46363   Ponderosa Telephone  High Sierra Ranger    Completed
             New Electronic       District (11051552)
             Cabinet at Camp
             Sierra
    46258   Ponderosa Telephone  High Sierra Ranger    Completed
             New Service to       District (11051552)
             Camp Sierra Lot 16
    45332   Ponderosa Telephone  High Sierra Ranger    Completed
             New Service to       District (11051552)
             Camp Sierra Lot 41
    47274   Red Bank Off-        Salmon River Ranger   Completed
             channel Habitat      District (11050554)
             Ground Water
             Monitoring
    47225   Reece Water          Happy Camp Ranger     Completed
             Transmission         District (11050552)
             Pipeline
    46908   Reissue Special Use  Sierra National       Completed
             Permit to            Forest All Units
             Lakeshore Resort     (11051500)
     8979   Renew Pacific        Yuba River Ranger     Completed
             Bell's expired       District (11051753)
             phone line
             easements and
             special-use
             permits--CE
    47125   Research Permit,     Inyo National Forest  Completed
             Dr. Jill Mateo       All Units
                                  (11050400)
    45422   Revised Shirley      Sequoia National      Completed
             Fire Salvage And     Forest All Units
             Forest Restoration   (11051300)
             Project
    46138   Reynolds OHV         Groveland Ranger      Completed
             Development          District (11051654)
    45802   Rich Fire Spotted    Mt. Hough Ranger      Completed
             Owl and Goshawk      District (11051102)
             Protected Activity
             Center Restoration
             Project
    47483   Rim 2016 Volunteer   Groveland Ranger      Completed
             Planting             District (11051654)
    45860   Rim Fire Habitat     Stanislaus National   Completed
             Improvement          Forest All Units
                                  (11051600)
    45861   Rim Fire             Stanislaus National   Completed
             Rehabilitation       Forest All Units
                                  (11051600)
    36614   Riverside County     San Jacinto Ranger    Completed
             Pinyon Pines         District (11051255)
             Transfer Station
             Permit Renewal
    44771   Salt Creek           Grindstone Ranger     Completed
             Conservation Camp    District (11050853)
             Special Use Permit
    44364   Santa Anita Dam      Los Angeles River     Completed
             Spillway             (11050151)
             Modification and
             Facility
             Maintenance
             Project
    45282   SCE China Peak 12kV  High Sierra Ranger    Completed
             Project              District (11051552)
    45811   SCE Microwave Tree   Kern River Ranger     Completed
             Removal Project      District (11051354)
    47272   Scott Bar Mountain   Scott River Ranger    Completed
             Ridgeline Shaded     District (11050555)
             Fuel Break
    43911   Scott Bar Mountain   Scott River Ranger    Completed
             Underburn and        District (11050555)
             Habitat
             Improvement
             Project
    46180   Seneca weeper dams   Ojai Ranger District  Completed
             maintenance          (11050755)
             project
    45315   Shasta-McCloud       McCloud Ranger        Completed
             Management Unit      District (11051461)
             Over Snow Vehicle
             Trail Grooming and
             Snowmobile
             Facility
             Maintenance
    45404   Shepherd Pass Trail  Mount Whitney Ranger  Completed
             Repair and           District (11050454)
             Reconstruction
    45718   Sierra Bella Mutual  Kern River Ranger     Completed
             Water Company        District (11051354)
             Special Use Permit
             Renewal
    46083   Sierra Institute     Mendocino National    Completed
             Special Use Permit   Forest All Units
                                  (11050800)
    46155   Sierra Tel Business  Sierra National       Completed
             Systems              Forest All Units
             communications use   (11051500)
             lease
    47163   Sierra Telephone     Bass Lake Ranger      Completed
             Company Fiber        District (11051551)
             Optic Cable
             Installation to
             Emerald Cove Camp
    47297   Sierra Telephone     Bass Lake Ranger      Completed
             Company Inc.         District (11051551)
             telephone line
             replacement at the
             Forest Service
             Jerseydale
             Workcenter
    47422   Sierra Telephone     Bass Lake Ranger      Completed
             Westfall Station     District (11051551)
             Carrier Site and
             Fiber Optic Cable
    46161   Silver Peak          Inyo National Forest  Completed
             Communications       All Units
             Tower                (11050400)
             Reconstruction,
             Lease Reissuance
             and Communication
             Site Designation
    45703   SMUD Hazard Tree     Eldorado National     Completed
             Removal Project      Forest All Units
                                  (11050300)
    44759   Snowmobile Trail     Mammoth Ranger        Completed
             Grooming on the      District (11050452)
             Inyo National
             Forest
    46116   Solar System at      Mendocino National    Completed
             Soda Creek           Forest All Units
                                  (11050800)
    45453   Sourdough Hill       Eldorado National     Completed
             Communication Site   Forest All Units
             Authorization Re-    (11050300)
             issue
    47234   South Alma Salvage   Mt. Hough Ranger      Completed
                                  District (11051102)
    32323   South Fork Rubicon   Pacific Ranger        Completed
             Area Resortation     District (11050355)
             Project
    46310   Southern California  Los Padres National   Completed
             Gas Company's Line   Forest All Units
             8109 Pipeline        (11050700)
             Exposure Repair
             Project--Phase 2
    44111   Special Use          Truckee Ranger        Completed
             Authorization        District (11051757)
             Issuance for
             Expired Outfitter
             and Guide Permits
    46259   Spring Creek Tract   High Sierra Ranger    Completed
             Well                 District (11051552)
    44778   Squirrel Creek Mine  Beckwourth Ranger     Completed
             Exploration          District (11051101)
             Project
    47688   Storrie Fire         Mt. Hough Ranger      Completed
             Restoration Upper    District (11051102)
             North Fork Road
             Improvement
             (HYDS72)
    45938   Swift Creek          Weaverville Ranger    Completed
             Watershed Trails     District (11051456)
             Re-Route Project
    45293   Term Extensions      High Sierra Ranger    Completed
             District Ranger      District (11051552)
             Authority
    45292   Term Extensions      High Sierra Ranger    Completed
             Forest Supervisor    District (11051552)
             Authority
    46722   Trail 1 Restoration  Mendocino National    Completed
                                  Forest All Units
                                  (11050800)
    44239   Tsasdi Resort Dock,  Shasta Lake Ranger    Completed
             Road & Waterline     District (11051458)
             Permits Transfer
    40318   Twombly Road         Kern River Ranger     Completed
             Special Use Permit   District (11051354)
             Renewal
    45291   UC Merced New        High Sierra Ranger    Completed
             Repeater             District (11051552)
    46610   UCR Deep Canyon      San Jacinto Ranger    Completed
             Research Station     District (11051255)
             Permit Reissuance
             in Pinyon Crest
             Sect 26
    46843   Upgrade of           Bass Lake Ranger      Completed
             Telecommunication    District (11051551)
             Lines at Jack L
             Boyd Organization
             Camp
    45658   Verizon Fiber Optic  White Mountain        Completed
             Cable Placement      Ranger District
             and Permit           (11050453)
             Amendment
    45448   Volcano Telephone    Amador Ranger         Completed
             Company Special      District (11050351)
             Use Permit
             Amendment
    44029   Warner Mountain      Modoc National        Completed
             Obsidian             Forest All Units
             Management Project   (11050900)
    44229   Wetland Weed         Devils Garden Ranger  Completed
             Treatment            District (11050955)
    47126   Willow Beetle        White Mountain        Completed
             Research Permit--    Ranger District
             Dr. Elizabth         (11050453)
             Dahlhoff
    47501   Wisseman Mine        Bass Lake Ranger      Completed
             Restoration          District (11051551)
             Project
    43297   Yeager Water         Happy Camp Ranger     Completed
             Transmission         District (11050552)
             Pipeline Special
             Use Permit Renewal
    46943   Yosemite Outfitters  Sierra National       Completed
             Permit Issuance      Forest All Units
                                  (11051500)
    19616   Yosemite Sugar Pine  Bass Lake Ranger      Completed
             Railroad Permit      District (11051551)
             Reissue
------------------------------------------------------------------------
               Region: R6--Pacific Northwest Region (1106)
                          Decision Doc Type: DM
     NEPA Decision Signed Date Range: 10/01/2014 through 09/30/2015
                          Project Simple Format
                           Projects Found: 174
------------------------------------------------------------------------
    43995   Chiwawa PUD          Wenatchee River       Completed
             Hatchery Building    Ranger District
             Improvements CE      (11061707)
    42931   2013 Special Use     Central Coast Ranger  Completed
             Authorization        District/Oregon
             Projects (reissue    Dunes National
             9 authorizations)    Recreation Area
                                  (11061208)
    44539   2014 Corvallis-to-   Central Coast Ranger  Completed
             the-Sea Trail        District/Oregon
             Authorization        Dunes National
                                  Recreation Area
                                  (11061208)
    44767   2014 Recreation      Crescent Ranger       Completed
             Residence CE--       District (11060102)
             Second Batch
    44520   2014 Sweet Home      Sweet Home Ranger     Completed
             White Oak            District (11061803)
             Enhancement
             Project
    47046   2015 Recreation      Crescent Ranger       In Progress
             Residence            District (11060102)
             Projects--Odell
             Lake
    47038   2015 Recreation      Crescent Ranger       Completed
             Residences           District (11060102)
             Projects--Crescent
             Lake
    47066   53 Road Pre-         North Fork John Day   Completed
             Commercial           Ranger District
             Thinning Project     (11061405)
    36205   7422' Peak Radio     Methow Valley Ranger  Completed
             Repeater             District (11061704)
    46283   Air Thin Project     McKenzie River        Completed
                                  Ranger District
                                  (11061801)
    47649   Alsea Guard Station  Central Coast Ranger  Completed
                                  District/Oregon
                                  Dunes National
                                  Recreation Area
                                  (11061208)
    45326   Annie Creek Snowcat  Klamath Ranger        Completed
             Grooming Shelter     District (11060213)
    46744   Antelope 2015 Fire   Prairie City Ranger   Completed
             Lookout Viewing      District (11060404)
             Area Maintenance
    44360   Aquatic Invasive     R6--Pacific           Completed
             Species order to     Northwest Region
             prevent the spread   All Units
             or introduction of   (11060000)
             aquatic invasive
             species
    46648   Aquatic Resource     Mt. Baker Ranger      Completed
             Protection Project   District (11060501)
    45688   Asotin Telephone     Wallowa Valley        Completed
             Company dba TDS      Ranger District
             Telecom Special      (11061602)
             Use Permit
    47741   Backcountry          Methow Valley Ranger  Completed
             Restoration          District (11061704)
             Treasured
             Landscapes
    43948   Bayview Campground   Mt. Baker Ranger      Completed
             Redevelopment and    District (11060501)
             Expansion
    45044   Beaver-friendly      Hebo Ranger District  Completed
             Culvert Management   (11061201)
    45889   Bingham Fire Dozer   Detroit Ranger        Completed
             Line                 District (11061804)
             Rehabilitation
    39132   Bird Track TSI and   La Grande Ranger      Completed
             Maintenance Burn     District (11061606)
    44356   Bitter Lick Creek    High Cascades Ranger  Completed
             Instream             District (11061024)
             Restoration
             Project
    45797   Bridge 99 Fire       Sisters Ranger        Completed
             Personal Use         District (11060105)
             Firewood Project
    45603   Brimstone Salvage    Methow Valley Ranger  Completed
                                  District (11061704)
    47081   Brown Mtn Western    Republic Ranger       Completed
             Spruce Budworm       District (11062104)
             control spraying
    45334   Brown's Cr. and      Bend/Fort Rock        Completed
             Arnold Ice Cave      Ranger District
             Post Fire            (11060101)
             Restoration
    41206   Bull Run             Whitman Ranger        Completed
             Subwatershed         District (11061631)
             Restoration
             Project Phase I
    46961   CEC Suttle-Sherman   Sisters Ranger        Completed
             Line Replacement     District (11060105)
             Project
    46530   Century Link Wagon   Sisters Ranger        Completed
             Wheel Road Fiber     District (11060105)
             Installation
    47387   Chelan County        Wenatchee River       Completed
             Public Utility       Ranger District
             District (CCPUD)     (11061707)
             Pole Access and
             Maintenance CE
    46689   Chetco River Permit  Gold Beach Ranger     Completed
             Re-issuance          District (11061026)
    46965   Cispus River Adult   Cowlitz Ranger        Completed
             Fish Release         District (11060305)
             Structure
    44442   Cispus Side Channel  Cowlitz Ranger        Completed
             Restoration          District (11060305)
    47094   City of Detroit      Detroit Ranger        Completed
             Root Rot Timber      District (11061804)
             Sale
    45242   Clackamas County     Zigzag Ranger         Completed
             Waterline            District (11060609)
             Installation
    46403   Colville National    Colville National     Completed
             Forest Whitebark     Forest All Units
             Pine Enhancement     (11062100)
             Project
    47389   Cooks Meadow Trail   Mt. Hood National     Completed
             Relocation Project   Forest All Units
                                  (11060600)
    46191   Cottage Grove        Cottage Grove Ranger  Completed
             Deception Fire       District (11061501)
             Planting
    44719   Cove Water Pipeline  La Grande Ranger      Completed
             Replacement          District (11061606)
             Project
    43947   Cub Thin Project     McKenzie River        Completed
                                  Ranger District
                                  (11061801)
    42418   Cultus Lake and      Bend/Fort Rock        Completed
             Lava Lake Resort     Ranger District
             Special Use Permit   (11060101)
    46406   Culvert Removal in   Hebo Ranger District  Completed
             an Unnamed Salmon    (11061201)
             River Tributary
    43237   CWU Geologic         Cle Elum Ranger       Completed
             Monitoring Station   District (11061703)
    47106   Deception Fire       Middle Fork Ranger    Completed
             Reforestation        District (11061810)
    47002   Delta A Cabin        McKenzie River        Completed
             Expansion            Ranger District
                                  (11061801)
    46317   Delta A Cabin        McKenzie River        Completed
             Improvements         Ranger District
                                  (11061801)
    47494   Delta A Septic       McKenzie River        Completed
             Repair (#4)          Ranger District
                                  (11061801)
    44992   Deschutes Valley     Crooked River Natl    Completed
             Water District--     Grassland
             Opal Springs         (11060705)
             Special Use Permit
    46846   Developed            Emigrant Creek        Completed
             Campground Hazard    Ranger District
             Tree Removal         (11060402)
    39481   Disposal of Felled   Cle Elum Ranger       On Hold
             Hazard Trees in      District (11061703)
             Developed
             Recreation Sites
             (2012 through
             2016)
    45903   Dog Field Trials     Ochoco National       Completed
             Project              Forest All Units
                                  (11060700)
    47129   Dosewallips: Forest  Hood Canal Ranger     Completed
             Road 2610-012        District (11060901)
             Repair and Forest
             Road 2610-010
             Maintenance Level
             Reduction
    44645   Dumars Spring        Whitman Ranger        Completed
                                  District (11061631)
    44764   Early-Seral Open     Olympic National      Completed
             Wildlife Habitat     Forest All Units
             Enhancements         (11060900)
    43692   East Sheep FS Road   La Grande Ranger      Completed
             5184 Project         District (11061606)
    44087   Edwards Waterline    Walla Walla Ranger    Completed
             Special Use Permit   District (11061406)
             Renewal
    47406   Fall Mountain        Blue Mountain Ranger  Completed
             Communication Site   District (11060401)
             New Lease Term
    46788   Fender Mill          Methow Valley Ranger  Completed
             Infiltration         District (11061704)
             Gallery SUP
    45982   Five Mile Fire       Hells Canyon NRA      Completed
             Salvage Project      (11061604)
    41258   Five Points Creek    La Grande Ranger      Completed
             Large Woody Debris   District (11061606)
             and Planting
             Project
    39842   Forest Plan          Umpqua National       Completed
             Amendment for        Forest All Units
             Unique and Mosaic    (11061500)
             Habitats
    46201   Fourth of July       Newport Ranger        Completed
             Creek Restoration    District (11062103)
    45058   Fritillaria          Rogue River-Siskiyou  Completed
             gentneri             National Forest All
             Reintroduction and   Units (11061000)
             Augmentation
    46009   FS RD 250 Berm       Three Rivers Ranger   Completed
             Replacement          District (11062112)
    46108   FS Rd. 2050110 (O    Republic Ranger       Completed
             Brien Creek Road)    District (11062104)
             Reciprocal Rights-
             of-Way Exchanges
    46911   Goat Creek           Methow Valley Ranger  Completed
             Restoration          District (11061704)
             Project
    44148   Granite Culvert      Whitman Ranger        Completed
             Replacement          District (11061631)
    46643   Hard Creek Bridge    Mt. Baker Ranger      Completed
             Replacement          District (11060501)
    46425   Hat Point Road       Hells Canyon NRA      Completed
             Thinning Project     (11061604)
    46410   Hebo 2015 Non-Key    Hebo Ranger District  Completed
             Road Maintenance     (11061201)
             Tree Removal
    47405   Hebo Pre-commercial  Hebo Ranger District  Completed
             Thin Project         (11061201)
    41362   Herren Commercial    Heppner Ranger        Completed
             Thin                 District (11061402)
    47453   Humbug Flats Trail   Detroit Ranger        Completed
             #3336 Reroute        District (11061804)
    44131   Instream Log         Mount St. Helens      Completed
             Placement on Lewis   National Volcanic
             River and Little     Monument (11060301)
             Creek
    45270   Issuance of          Willamette National   Completed
             Priority Use         Forest All Units
             Outfitter and        (11061800)
             Guiding Special
             Use Permits
    46655   Karamip Rd Plowing   Republic Ranger       Completed
             Permit               District (11062104)
    46054   Knapp Water          Sisters Ranger        Completed
             Diversion            District (11060105)
             Restoration:
             Indian Ford Creek
    41834   Knecht FLPMA Forest  Sullivan Lake Ranger  Completed
             Road Specia Use      District (11062105)
             Permit
    41833   Knecht Water System  Sullivan Lake Ranger  Completed
             Special Use Permit   District (11062105)
    41262   Ladd Canyon TSI and  La Grande Ranger      Completed
             RMEF Elk Habitat     District (11061606)
             Enhancement
             Project
    45932   Lady Creek Water     Zigzag Ranger         Completed
             System Replacement   District (11060609)
    45327   Lake of the Woods    Klamath Ranger        Completed
             ODOT Highway         District (11060213)
             Maintenance
             Station
    46537   Lake Sutherland      Pacific Ranger        Completed
             Water District       District South
             Permit Reissuance    (11060903)
    46010   Lambert Creek        Republic Ranger       Completed
             Restoration          District (11062104)
    44055   Langdon Lake Water   Walla Walla Ranger    Completed
             Cooperative Permit   District (11061406)
             Renewal
    47108   Legendary Mining     Emigrant Creek        Completed
             Plan of Operations   Ranger District
                                  (11060402)
    45524   Liberty Mountain     Cle Elum Ranger       Completed
             Owner's              District (11061703)
             Association Road
             Use Permit
    44926   Lost Driveway        Methow Valley Ranger  Completed
             Hazard Fuels         District (11061704)
             Reduction
    45633   McKay Creek          Ochoco National       Completed
             Floodplain Habitat   Forest All Units
             Improvement          (11060700)
             Project
    40864   Meadow Enhancement   Detroit Ranger        Completed
                                  District (11061804)
    46780   Meadow Lakes         Sisters Ranger        Completed
             Western White Pine   District (11060105)
             Blister Rust
             Pruning
    46747   Meissner Nordic      Bend/Fort Rock        Completed
             Trail Reroute        Ranger District
                                  (11060101)
    46560   Metolius Windigo     Sisters Ranger        Completed
             Trail                District (11060105)
             Reconstruction
    46079   Microwave Project    Naches Ranger         Completed
                                  District (11061708)
    46199   Middle Fork Trail    Middle Fork Ranger    Completed
             Improvements         District (11061810)
             Project
    46175   Midstate Finley      Bend/Fort Rock        Completed
             Butte Road Project   Ranger District
                                  (11060101)
    46292   Moose Creek and      Sweet Home Ranger     Completed
             Quartzville          District (11061803)
             Dispersed Sites
             Project
    46752   Mountain Top PCT     Bend/Fort Rock        Completed
             and Research         Ranger District
             Project              (11060101)
    46751   Mrazek Trail         Bend/Fort Rock        Completed
             Reroute (Post Two    Ranger District
             Bulls)               (11060101)
    44476   MRRS Thin Project    McKenzie River        Completed
                                  Ranger District
                                  (11061801)
    44996   Mt. Bachelor         Bend/Fort Rock        Completed
             Mountain Bike        Ranger District
             Trails               (11060101)
    46419   Mt. Bachelor Power   Bend/Fort Rock        Completed
             Line Special Use     Ranger District
             Permit Re-issuance   (11060101)
    47146   Mt. Bachelor Small   Bend/Fort Rock        Completed
             Projects             Ranger District
                                  (11060101)
    43950   Muskee Thin          McKenzie River        Completed
                                  Ranger District
                                  (11061801)
    43994   Natapoc              Wenatchee River       Completed
             Communication Site   Ranger District
             Improvements CE      (11061707)
    46528   Odell Butte          Deschutes National    Completed
             Communication Site   Forest All Units
             Lease Renewals       (11060100)
    46165   Odell Lake Resort    Crescent Ranger       Completed
             Permit Renewal       District (11060102)
    47015   OHV Trail 46         McKenzie River        Completed
             Reroute              Ranger District
                                  (11061801)
    43685   Okanogan PUD         Methow Valley Ranger  Completed
             Underground          District (11061704)
             Powerline
             Extension
    47049   Onion Mountain Fire  Wild Rivers Ranger    Completed
             Salvage              District (11061022)
    44091   Oregon Department    Walla Walla Ranger    Completed
             of Transportation    District (11061406)
             Storage Area
             Permit Renewal
    46921   Oregon Department    Prairie City Ranger   Completed
             of Transportation    District (11060404)
             Temporary De-Icer
             Containment Area
    45772   ``Oregon Water       Bend/Fort Rock        Completed
             Resources            Ranger District
             Department Stream    (11060101)
             Gauge
             Decommissioning
             and Relocation
             Project''
    47496   OTEC Special Use     Whitman Ranger        Completed
             Permit Amendment,    District (11061631)
             Buried Power Line
             Installation
    46600   OTEC Starkey         La Grande Ranger      Completed
             Powerline            District (11061606)
             Relocation Special
             Use Permit
    42575   PacifiCorp Gold      Naches Ranger         Completed
             Hill Repeater        District (11061708)
    45049   PacifiCorp Power     Siskiyou Mountains    Completed
             Line Special Use     Ranger District
             Re-Authorization     (11061020)
    46851   Peggy Creek          Willamette National   Completed
             Disposal Site        Forest All Units
             Expansion            (11061800)
    46390   Peshastin Creek      Wenatchee River       Completed
             Culvert              Ranger District
             Replacement          (11061707)
             Project
    47334   Pine Telephone       Whitman Ranger        Completed
             System Water Gulch   District (11061631)
             Fiber Optic line
    44078   Pinical Vegetation   Walla Walla Ranger    Completed
             Management Project   District (11061406)
    42351   Pioneer Bridle       Zigzag Ranger         Completed
             Trail CE             District (11060609)
    46307   Ponderosa Mountain   Deschutes National    Completed
             Men, Kokanee Power   Forest All Units
             of Oregon, and       (11060100)
             Sporthill Special
             Use Permit
             Renewals
    47133   Portland General     Zigzag Ranger         Completed
             Electric (PGE)       District (11060609)
             Buried Line
             Replacement near
             Summit Ski Area CE
    47135   Portland General     Mt. Hood National     Completed
             Electric (PGE)       Forest All Units
             Regulator            (11060600)
             Replacement at Mt.
             Hood Meadows Ski
             Area CE
    46645   Private Driveway     Mt. Baker Ranger      Completed
             Easement             District (11060501)
    46905   Qwest dba            Bend/Fort Rock        Completed
             CenturyLink          Ranger District
             Foundation Repair--  (11060101)
             Antelope
             Communications
             Site
    45738   Qwest dba            Bend/Fort Rock        Completed
             CenturyLink QC       Ranger District
             Wampus Butte Fiber   (11060101)
             Optic Line
    46428   Re-route of Road     Sweet Home Ranger     Completed
             2041                 District (11061803)
    43855   Recreation Special   Bend/Fort Rock        Completed
             Use Permits          Ranger District
             Reissuances 2014     (11060101)
    45746   Revised L Street     Rogue River-Siskiyou  Completed
             Conveyance           National Forest All
                                  Units (11061000)
    42410   Sandy River Trail    Mt. Hood National     Completed
             Reconstruction       Forest All Units
                                  (11060600)
    47110   Sawtooth Wheel       Mount St. Helens      Completed
             Track Restoration    National Volcanic
                                  Monument (11060301)
    46189   Scott Creek Cabin    McKenzie River        Completed
             Septic Repair        Ranger District
                                  (11061801)
    44887   Seattle City Light   Newport Ranger        Completed
             PIT Project          District (11062103)
    46590   Shelter Cove Resort  Crescent Ranger       Completed
             Permit Renewal       District (11060102)
    46777   Shuttle permits--    Gold Beach Ranger     Completed
             Rogue and Chetco     District (11061026)
             Rivers
    46854   Skibowl Mountain     Zigzag Ranger         Completed
             Bike Trail           District (11060609)
             Addition
    46947   Skookum Campground   Middle Fork Ranger    Completed
             Bridges              District (11061810)
    45238   Special Use          Hebo Ranger District  Completed
             Authorization        (11061201)
             Renewal 2014
    41544   Str8 Thinning        Detroit Ranger        Completed
             Restoration          District (11061804)
    42123   Sulphur Creek        Darrington Ranger     Completed
             Campground           District (11060502)
             Restoration
    46903   Summit Prairie Pre-  Prairie City Ranger   Completed
             Commercial           District (11060404)
             Thinning
    48224   Sunflower Planting   Umatilla National     Completed
                                  Forest All Units
                                  (11061400)
    47522   Swakane Canyon       Entiat Ranger         Completed
             Fault                District (11061705)
             Investigation
    46926   Table Mountain Tree  Cle Elum Ranger       Completed
             Planting             District (11061703)
    46802   TDS Fiber Optic      Bend/Fort Rock        Completed
             Line Installation    Ranger District
             VZW                  (11060101)
    46959   Three Fingers        Darrington Ranger     Completed
             Lookout              District (11060502)
             Maintenance
    43862   Threemile Creek      Klamath Ranger        Completed
             Bull Trout           District (11060213)
             Restoration
    46653   Tilly Jane           Hood River Ranger     Completed
             Hazardous Fuels      District (11060606)
             Reduction
    46531   Tollgate Fiber       Sisters Ranger        Completed
             Optic Line           District (11060105)
             Replacement
    46198   Tombstone            North Fork John Day   Completed
             Commercial           Ranger District
             Thinning Project     (11061405)
    45456   TWC Corp. Temporary  Lakeview Ranger       Completed
             Access Routes        District (11060202)
    44627   Twenty-Five Mile     Chelan Ranger         Completed
             Project              District (11061702)
    44398   Twentyeight Mile     White River Ranger    Completed
             Creek Steelhead      District (11060507)
             Acclimation Pond
             Special Use Permit
    46333   Two Bulls Fire       Bend/Fort Rock        Completed
             Reforestation        Ranger District
                                  (11060101)
    45107   Two Bulls Timber     Bend/Fort Rock        Completed
             Salvage Project      Ranger District
                                  (11060101)
    46515   University of        Olympic National      Completed
             Washington Rain      Forest All Units
             Gauge Permit         (11060900)
    45683   Upper Deschutes      Bend/Fort Rock        Completed
             Riparian             Ranger District
             Restoration          (11060101)
    46337   USFWS Cabin--Septic  Klamath Ranger        Completed
             and Restroom         District (11060213)
             Addition
    47004   Verbenone Beetle     Malheur National      Completed
             Anti-Aggregant       Forest All Units
             Application          (11060400)
    44553   Verizon Lease        Bend/Fort Rock        Completed
             Renewal Antelope     Ranger District
             Communication Site   (11060101)
    44552   Verizon Lease        Bend/Fort Rock        Completed
             Renewal              Ranger District
             Improvements at      (11060101)
             Spring River
             Communications
             Site
    47048   Vista Towers         Bend/Fort Rock        Completed
             Communications       Ranger District
             Facility at Sugar    (11060101)
             Pine Butte
    46527   Walker Mountain      Deschutes National    Completed
             Communication Site   Forest All Units
             Communication Use    (11060100)
             Lease Renewals
    43988   Wallowa Mountains    Wallowa Valley        Completed
             Mechanical Fuels     Ranger District
             Piling Project       (11061602)
    37259   Weden Creek Trail    Darrington Ranger     Completed
             Flood Repairs        District (11060502)
    44837   Wenatchee-Chiwawa    Wenatchee River       Completed
             Irrigation Ditch     Ranger District
             Weir Replacement     (11061707)
             CE
    46938   Westfir Water        Middle Fork Ranger    Completed
             Intake Project       District (11061810)
    47077   Weyco Skyko-Foss     Mt. Baker-Snoqualmie  Completed
             Road Easement        National Forest All
                                  Units (11060500)
    31043   White Chuck Bench    Darrington Ranger     Completed
             Trail Repair and     District (11060502)
             Reconstruction
    43200   Whitman Range        Wallowa-Whitman       Completed
             Improvement          National Forest All
             Project              Units (11061600)
    46384   Wildlife Habitat     McKenzie River        Completed
             Enhancement and      Ranger District
             Restoration          (11061801)
             Projects 2015
    45333   ZZZ Reforestation    Bend/Fort Rock        Completed
             Project              Ranger District
                                  (11060101)
------------------------------------------------------------------------
                   Region: R8--Southern Region (1108)
                          Decision Doc Type: DM
     NEPA Decision Signed Date Range: 10/01/2014 through 09/30/2015
                          Project Simple Format
                           Projects Found: 208
------------------------------------------------------------------------
    45631   2014 Forest Wide     National Forests In   Completed
             Red-Cockaded         Florida All Units
             Woodpecker Habitat   (11080500)
             Improvement
             Project
    45774   2014 Lake Dorr       Seminole Ranger       Completed
             Watershed            District (11080505)
             Restoration
    47669   2015 Buncombe Horse  Enoree Ranger         Completed
             Trail and Enoree     District (11081201)
             Passage of the
             Palmetto Trail
             Relocation Work.
    46785   2015 Gravel Pit      Calcasieu Ranger      Completed
             Illegal Trail        District (11080602)
             Reclamation C122 &
             C125
    46860   2015 Mena Oden Farm  Mena Ranger District  Completed
             Bill Thinning        (11080907)
    45829   2015 Shoal Creek     Shoal Creek Ranger    Completed
             Ranger District      District (11080105)
             Midstory Removal
    45848   2015 Siviculture     Mena Ranger District  Completed
             Activities           (11080907)
    46456   2015 WHI Midstory    Jessieville Ranger    Completed
                                  District (11080905)
    47037   Alpine Unauthorized  Stearns Ranger        Completed
             OHV Trail Closure    District (11080216)
             Project
    45525   Alta Mesa Raven      Sam Houston Ranger    Completed
             Forest #4 Well       District (11081304)
    46924   Amendment of         St. Francis Ranger    Completed
             Recreation           District (11081007)
             Residence Permit
             STF0065
    45586   Amendment to         St. Francis Ranger    Completed
             Recreation           District (11081007)
             Residence Permit
             STF0124
    46029   Amendment to         Chickasawhay Ranger   Completed
             Singing River        District (11080705)
             Power Ass. Special
             Use Permit
    47076   American             Conasauga Ranger      Completed
             Competitive Trail    District (11080301)
             Horse Assoc. Event
    45901   AP Fiscal Year 2015  Andrew Pickens        Completed
             Controlled Burning   Ranger District
                                  (11081202)
    45489   Appalachian Trail    Cheoah Ranger         Completed
             Relocation at Swim   District (11081102)
             Bald
    47461   Arkansas Forestry    Jessieville Ranger    Completed
             Commission--Amend    District (11080905)
             existing Permit
    47472   Arkansas Game &      Jessieville Ranger    Completed
             Fish Permit          District (11080905)
             Renewal for
             Communication Site
    47478   Arkansas State       Jessieville Ranger    Completed
             Police               District (11080905)
             Communication Site
             Permit Renewal
    45655   Arkansas Traveler    Jessieville Ranger    Completed
             100 Mile Run         District (11080905)
    45492   Aska Trail           Blueridge Ranger      Completed
             Improvements         District (11080304)
    46923   Atlantic Coast       George Washington     Completed
             Pipeline Alternate   and Jefferson
             Routes Survey        National Forest All
             Permit               Units (11080800)
    46038   Atlantic Coast       George Washington     Completed
             Pipeline, LLC        and Jefferson
             Surveys Permit       National Forest All
                                  Units (11080800)
    47258   Avery Access         Homochitto Ranger     Completed
             Request              District (11080704)
    45509   Bankhead             Bankhead Ranger       Completed
             Compartment 30       District (11080101)
             Midstory Removal
             Project
    43990   Bay Springs          Bienville Ranger      Completed
             Telephone Company    District (11080701)
    46415   BDR Family           Angelina Ranger       Completed
             Partnership Ltd.     District (11081301)
             Private Road
             Special Use Permit
    46153   Berkeley Electric    Francis Marion        Completed
             Co-op Permit Re-     Ranger District
             issuance             (11081205)
    45299   Berrytown Road       Homochitto Ranger     Completed
             Relocation           District (11080704)
    47117   Big Ivy Trail        Appalachian Ranger    Completed
             Maintenance          District (11081108)
    42311   Big Ridge            Tellico Ranger        Completed
             Prescribed Burn      District (11080404)
    44875   Black Jack Oil       Homochitto Ranger     Completed
             HOM0026 permit       District (11080704)
             renewal
    47497   Bonnerdale Burn CE   Womble Ranger         Completed
                                  District (11080910)
    45628   Broad River          Francis Marion and    Completed
             Riparian Wetland     Sumter National
             Restoration          Forest All Units
             Project              (11081200)
    45624   Broad River          Francis Marion and    Completed
             Riparian Wetlands    Sumter National
             Project              Forest All Units
                                  (11081200)
    45817   Brushy Mountain,     Jessieville Ranger    Completed
             Compartment 645,     District (11080905)
             Middle North Fork,
             and Potato Hill
             Prescribed Burns
    45482   Buck Creek           Tusquittee Ranger     Completed
             Watershed            District (11081109)
             Improvement
             Project
    46222   Caseyville Road      Homochitto Ranger     Completed
             Bridge Replacement   District (11080704)
    47510   Cat35 Amendment #9   Winn Ranger District  Completed
             AT&T Fiber Optic     (11080604)
             Upgrade to CCA
    47063   Catahoula Ranger     Kisatchie National    Completed
             District TSI by      Forest All Units
             Hand Tools FY 2015   (11080600)
    36081   Catawba Falls Phase  Grandfather Ranger    Completed
             II: Trail            District (11081105)
             Improvements & Dam
             Removal
    46656   Cedar Creek Timber   Glenwood and Pedlar   Completed
             Stand Improvement    Ranger Districts
                                  (11080813)
    45192   Cherokee Mountain    Watauga Ranger        Completed
             (midstory)           District (11080406)
    44170   Chestnut Run         Glenwood and Pedlar   Completed
             Vegetation Project   Ranger Districts
                                  (11080813)
    46298   China Creek Trail    National Forests In   Completed
             Relocation           North Carolina All
                                  Units (11081100)
    45890   Citico Realty        Stearns Ranger        Completed
             Company Special      District (11080216)
             Use Authorization
             Renewal
    45162   City of Havelock,    Croatan Ranger        Completed
             Water Well Pad       District (11081103)
             Expansion
    42853   Coast EPA--Hwy. 15   De Soto Ranger        Completed
             Tie-Line             District (11080702)
    41020   Columbia Gas         Glenwood and Pedlar   Completed
             Pipeline             Ranger Districts
             Replacement--Littl   (11080813)
             e Cedar Creek
    45693   Commercial Filming/  Talladega Ranger      Completed
             Wallis Visuals LLC   District (11080106)
             (Michael Walters)
             FY2014
    45216   Communications Site  Conasauga Ranger      Completed
             Hazardous Fuels      District (11080301)
             Reduction.
    45122   Compartment 30       Sam Houston Ranger    Completed
             Wildlife Habitat     District (11081304)
             Improvement
             Project
    46117   Currahee Mountain    Chattooga River       Completed
             Communications       Ranger District
             Site                 (11080306)
    46133   Currahee Mountain    Chattooga River       Completed
             Communications       Ranger District
             Site SUP             (11080306)
    46460   Delaney Flat         Boston Mountain       Completed
                                  Ranger District
                                  (11081005)
    46325   Delta Tract          Enoree Ranger         Completed
             Grassland            District (11081201)
             Prescribed Burning
             Project on the
             Enoree Ranger
             District
    46892   Dicks Creek          Blueridge Ranger      Completed
             Dispersed Camping    District (11080304)
             Improvements
    35036   Disposal of the      Blueridge Ranger      Completed
             Toccoa Work Center   District (11080304)
             Complex in Blue
             Ridge, GA
    45922   District-wide Trail  Chattooga River       Completed
             Maintenance          Ranger District
                                  (11080306)
    47445   Ditch Bay Habitat    Wakulla Ranger        Completed
             Improvement          District (11080506)
             Project
    44957   Divide Forest        Conasauga Ranger      Completed
             Health Thinning      District (11080301)
             Project.
    47479   Driveway             Jessieville Ranger    Completed
             Authorization--E     District (11080905)
             Crumpton
    45958   Dry Run Stream       Mount Rogers          Completed
             Restoration          National Recreation
                                  Area (11080814)
    47393   Duke Energy          Wakulla Ranger        Completed
             Amendment 6, Pole    District (11080506)
             Replacements on
             CPS and JA Lines.
    45555   Duke Energy JA Line  Wakulla Ranger        Completed
             pole replacements    District (11080506)
             and culvert
             repairs
    45433   Dwight Collett       Redbird Ranger        Completed
             Special Use          District (11080217)
             Authorization
    45784   Eagle Nest Electric  Calcasieu Ranger      Completed
             Power line           District (11080602)
             Installation
    45686   East Fork Burn       Cold Springs Ranger   Completed
             Block                District (11080903)
    45519   Eastex Telephone Co- Sam Houston Ranger    Completed
             Op Inc. SUP          District (11081304)
             Amendment: Butch
             Arthur Rd. & FM
             945
    47412   Elkins Lake          Sam Houston Ranger    Completed
             Wildland Urban       District (11081304)
             Interface Project
    46495   Emerald Ash Borer    Cherokee National     Completed
             Research             Forest All Units
                                  (11080400)
    47382   Entergy Powerline    Magazine Mountain     Completed
             Special Use Permit   Ranger District
             Amendment1           (11081006)
    47391   Erosion Control      Womble Ranger         Completed
             Project              District (11080910)
    47553   Fall 2015            Blueridge Ranger      Completed
             Recreation Events.   District (11080304)
    45825   Farnor Land          Unaka Ranger          Completed
             Exchange             District (11080405)
    42164   Fishers Chapel       Conasauga Ranger      Completed
             Project              District (11080301)
    46773   Fitness Trail        Enoree Ranger         Completed
                                  District (11081201)
    46907   FL Gas Ground Bed    Wakulla Ranger        Completed
             Project              District (11080506)
    27391   Flat Mountain Road,  Nantahala Ranger      Completed
             SR 1544, NCDOT       District (11081111)
             Project
    44197   Flatwoods Job Corps  George Washington     Completed
             Conservation         and Jefferson
             Center Municipal     National Forest All
             Sewer Line           Units (11080800)
    47217   Flintlock Power      Uwharrie Ranger       Completed
             line Installation    District (11081110)
    45477   Franklin Amateur     National Forests In   Completed
             Radio Tower at       North Carolina All
             Cowee Bald           Units (11081100)
    46779   Full Moon 25K and    Winona Ranger         Completed
             50K Run Event        District (11080911)
    47278   FY 2015 Road Stream  Blueridge Ranger      Completed
             Crossing             District (11080304)
             Improvement
             Projects
    45494   FY14 Trail Re-       Blueridge Ranger      Completed
             routes               District (11080304)
    45267   FY15 Dormant Season  Blueridge Ranger      Completed
             Prescribed Burn      District (11080304)
             Planning Project
    44937   FY15 Prescribed      Conasauga Ranger      Completed
             Burning Project      District (11080301)
    45929   FY15 Uwharrie        Uwharrie Ranger       Completed
             Prescribed Burn      District (11081110)
             Project
    45997   FY15 Womble Trail    Womble Ranger         Completed
             Relocation           District (11080910)
    45441   FY 2015-2016 Oak     Eastern Divide        Completed
             Enhancement and      Ranger District
             Pre-commercial       (11080811)
             thinning treatment
             Project
    45968   Georgia aster        Enoree Ranger         Completed
             mastication          District (11081201)
             project
    45115   GM Water Supply      Sabine Ranger         Completed
             Corp. Water          District (11081307)
             Pipeline Right-of-
             Way Special Use
             Permit Reissuance
    42287   Granville Freeman    Bienville Ranger      Completed
             Access               District (11080701)
    43932   Green Mountain       Watauga Ranger        Completed
             Project              District (11080406)
    46606   Hartford Waterline   Unaka Ranger          Completed
             SUP                  District (11080405)
    47353   Hayworth 4x4 Tours   Unaka Ranger          Completed
             Special Use Permit   District (11080405)
    45692   High Noon            Talladega Ranger      Completed
             Entertainment        District (11080106)
             Special Use Permit
    45584   Highland Telephone   Stearns Ranger        Completed
             Cooperative          District (11080216)
             Special Use
             Authorization
    44664   Huff Hollow, Glade   Mount Rogers          Completed
             Mountain, and        National Recreation
             Crawfish             Area (11080814)
             Prescribed Burns
    45630   Hughes and Coxs      Francis Marion and    Completed
             Creek Gully          Sumter National
             Restoration          Forest All Units
             Project              (11081200)
    45900   Jake Bull New Trail  Blueridge Ranger      Completed
             Construction         District (11080304)
    45077   Johnson Tract        Calcasieu Ranger      Completed
             Proposed Research    District (11080602)
             Thinning C-58
    45653   Junior Murders       Jessieville Ranger    Completed
             Special Use          District (11080905)
             Reauthorization
    46742   Justin Hatton        Angelina Ranger       Completed
             Private Road         District (11081301)
             Special Use Permit
    46339   Katy Branch Rx       Cherokee National     Completed
             (Admin Change)       Forest All Units
                                  (11080400)
    47734   Kentucky Utilities   London Ranger         Completed
             Permit Activity--    District (11080214)
             Mt. Victory Power
             Transmission Tower
             Replacement
    44962   Keown Falls Trail    Conasauga Ranger      Completed
             Reroute              District (11080301)
    47188   Kyle Welch Access    Bienville Ranger      Completed
                                  District (11080701)
    46018   Lake Resort Special  Womble Ranger         Completed
             Use                  District (11080910)
    46418   Lanelle Johnsey      Sabine Ranger         Completed
             Private Road         District (11081307)
             Special Use Permit
             project
    46154   Laura Lynn and       Francis Marion        Completed
             Herbert Tyler        Ranger District
             Orvin Easement       (11081205)
    44786   Lee Forest Stand     Lee Ranger District   Completed
             Improvement          (11080804)
    46968   Linda Burnett        Angelina Ranger       Completed
             Private Road and     District (11081301)
             Powerline Project
    45196   Lower Higgin's       Watauga Ranger        Completed
             Creek Access/        District (11080406)
             Trailhead Parking
    47035   Manual and           Enoree Ranger         Completed
             Mechanical           District (11081201)
             Vegetation
             Treatments in the
             Indian Creek
             Project Area
    42014   Marie Ybarra         Sabine Ranger         Completed
             Private Road         District (11081307)
             Special Use Permit
    45248   Massanutten,         Lee Ranger District   Completed
             Tuscarora--Bear      (11080804)
             Wallow Trails
    45699   Maumelle River       Jessieville Ranger    Completed
             Prescribed Burn      District (11080905)
    46252   McDowell Private     Womble Ranger         Completed
             Road Special Use     District (11080910)
             Permit
    45592   MCWA-- White Oak     Kiamichi Ranger       Completed
             Prescribe Burn       District (11080906)
    45496   Morganton Point      Blueridge Ranger      Completed
             Electric Expansion   District (11080304)
    46573   Morton 3D Seismic    Bienville Ranger      Completed
             Proposal             District (11080701)
    46185   Mountain Valley      George Washington     Completed
             Pipeline, LLC        and Jefferson
             Surveys Permit       National Forest All
                                  Units (11080800)
    47017   National             Oakmulgee Ranger      Completed
             Environmental        District (11080104)
             Observatory
             Network (NEON)
             Special Use
             Permit--Amendment
             #1
    47400   National Modular     Chattooga River       Completed
             Airborne Fire        Ranger District
             Fighting System      (11080306)
             (MAFFS) Training
             Exercise
    47211   Native Species       Uwharrie Ranger       Completed
             Restoration          District (11081110)
    46981   NATRC Trail Ride     Kisatchie Ranger      Completed
                                  District (11080603)
    40284   NCDOT Bridge #237/   Grandfather Ranger    Completed
             SR 1362              District (11081105)
    40287   NCDOT Bridge #84/    Appalachian Ranger    Completed
             SR1349               District (11081108)
    44999   Network USA Fiber    Winn Ranger District  Completed
             Optic Cable Permit   (11080604)
    45125   NFSR 601 Culvert     Talladega Ranger      Completed
                                  District (11080106)
    46195   North New Road Run   George Washington     Completed
             Prescribed Burn      and Jefferson
                                  National Forest All
                                  Units (11080800)
    46216   North Zone           George Washington     Completed
             Reforestation--Mar   and Jefferson
             shall Run and        National Forest All
             Slate Rock           Units (11080800)
    45191   Otherside Forest     Watauga Ranger        Completed
             Health Project       District (11080406)
    45189   Otherside Rx Burn    Watauga Ranger        Completed
                                  District (11080406)
    46017   Ouachita Outfitter   Womble Ranger         Completed
             Inc. Special Use     District (11080910)
             Permit
    38211   Owl Creek Trail      Bankhead Ranger       Completed
             System--Re-route     District (11080101)
    21434   Pilot Ridge Road,    Grandfather Ranger    Completed
             SR 1515, NCDOT       District (11081105)
             Project
    45667   Polk County          Ocoee Ranger          Completed
             Communications       District (11080403)
             Tower
    47118   Poplar Boat Launch   Appalachian Ranger    Completed
             Improvements         District (11081108)
    46281   Porter Creek         Fourche Ranger        Completed
             Prescribed Burning   District (11080904)
    47091   Proposed Changes on  Oconee Ranger         Completed
             Oconee Ranger        District (11080308)
             District Motor
             Vehicle Use Map.
    45272   PRTC Fiber Optic     London Ranger         Completed
             Line Replacement     District (11080214)
             2014
    46756   Pruet Production     Conecuh Ranger        Completed
             Oil Wells            District (11080103)
    40698   Ratcliff Lake Dam    Davy Crockett Ranger  Completed
             repair               District (11081303)
    44602   Rebecca and Page     Stearns Ranger        Completed
             Cline Special Use    District (11080216)
             Authorization
    47601   Reissuance of        De Soto Ranger        Completed
             Special Use Permit   District (11080702)
             to Gulf South
             Pipeline Co.
    44785   Relocation of North  Lee Ranger District   Completed
             Mtn Trail            (11080804)
    47056   Renewal of Matthew   National Forests In   Completed
             Rhea Weir Special    North Carolina All
             Use Permit           Units (11081100)
    45197   Rich Mountain        Watauga Ranger        Completed
                                  District (11080406)
    45193   Rock Creek Camp      Unaka Ranger          Completed
             Store                District (11080405)
    46461   Ruby Project         Boston Mountain       Completed
                                  Ranger District
                                  (11081005)
    47214   Rudolph Abandoned    Uwharrie Ranger       Completed
             Mine Closure         District (11081110)
    46019   Singleton Easement   Womble Ranger         Completed
                                  District (11080910)
    43378   Slope Stabilization  National Forests In   Completed
             on I-40, NCDOT       North Carolina All
             Project              Units (11081100)
    47354   Smokey Mountain      Unaka Ranger          Completed
             Adventures 4x4       District (11080405)
             Tours Special Use
             Project
    45399   Soil and Water       Chattooga River       Completed
             Watershed            Ranger District
             Restoration          (11080306)
             Projects--Charlie'
             s Creek/Midway
             Road
    46944   Soldier Bay Fuel     National Forests In   Completed
             Reduction Project    Florida All Units
                                  (11080500)
    45016   Southwestern Bell    Angelina Ranger       Completed
             Telephone Company    District (11081301)
             Special Use Permit
             Reissuance
    47359   Southwestern Bell    Sabine Ranger         Completed
             Telephone Company    District (11081307)
             Special Use Permit
             Reissuance
    44682   Special Use          Chickasawhay Ranger   Completed
             Amendment for AT&T   District (11080705)
             inground fiber
             optic cable
    44667   Special Use          Mount Rogers          Completed
             Authorization        National Recreation
             Renewal for          Area (11080814)
             Existing Hayfields
             on the Mount
             Rogers NRA
    44680   Special Use Road     Chickasawhay Ranger   Completed
             (Breland)            District (11080705)
    43345   Special Use Road     Chickasawhay Ranger   Completed
             (McCardle)           District (11080705)
    43346   Special Use Road     Chickasawhay Ranger   Completed
             (Nicholson)          District (11080705)
    47180   Special Use Road     Chickasawhay Ranger   Completed
             (Palmer)             District (11080705)
    44022   Special Use Road     Chickasawhay Ranger   Completed
             (Perry)              District (11080705)
    46190   Spring/Summer BRRD   Blueridge Ranger      Completed
             Recreation Events    District (11080304)
    46917   Stroud Petroleum     Homochitto Ranger     Completed
             (Barlow-USA 25-3     District (11080704)
             #1, Graves-USA 25-
             12 #1)
    46094   Stroud Petroleum 25- Homochitto Ranger     Completed
             3 #3                 District (11080704)
    46694   Stuart Lake Fish     Catahoula Ranger      Completed
             Habitat              District (11080601)
             Enhancement
    46331   Sullivan Co          Watauga Ranger        Completed
             Communication        District (11080406)
             Tower
    46840   Summer Recreation    Blueridge Ranger      Completed
             Events CE            District (11080304)
    46601   Swamp Chestnut Oak   Francis Marion        Completed
             Orchard              Ranger District
             Mastication          (11081205)
    46122   Talquin Electric     Apalachicola Ranger   Completed
             Cooperative, INC.    District (11080501)
             State road 20
             power-line
             realignment and
             upgrade.
    45553   Talquin Electric     Wakulla Ranger        Completed
             Cooperative, INC.    District (11080506)
             Springhill New
             Underground Line
             Amendment #17
             WAK25
    46863   TASS (Tellico Area   Tellico Ranger        In Progress
             Service System)      District (11080404)
             water lines
    44821   Telepak Networks     De Soto Ranger        Completed
             Fiber Optic Cable    District (11080702)
             Along Hwy. 49
             North
    45893   Thunder Rock 100     Ocoee Ranger          Completed
                                  District (11080403)
    45353   Tiak Plantation      Kiamichi Ranger       Completed
             Thinnings Project    District (11080906)
             (HFRA)
    43178   Todd Lake Dam        North River Ranger    Completed
             Rehabilitation       District (11080802)
    41411   Towee Falls Baptist  Tellico Ranger        Completed
             Church Land          District (11080404)
             Exchange
    45896   Tributary to South   National Forests In   Completed
             Toe River Stream     North Carolina All
             Restoration          Units (11081100)
             Project
    45247   Tuscarora-Hawk       Lee Ranger District   Completed
             Trail                (11080804)
    46140   Tuskegee NF          Tuskegee Ranger       Completed
             Rxburning            District (11080107)
    45105   Unauthorized Road    Long Cane Ranger      Completed
             Obliteration         District (11081203)
    46036   Upper Passage        George Washington     Completed
             Stream Habitat       and Jefferson
             Enhancement          National Forest All
                                  Units (11080800)
    46740   Upper West Armuchee  Conasauga Ranger      Completed
             Creek Watershed--    District (11080301)
             Soil and Water
             Improvement
             Project--CE
    46984   US Army Corp of      Kisatchie Ranger      Completed
             Engineers soil       District (11080603)
             sample
    46985   Vietnam Tactical     Kisatchie Ranger      Completed
             Reenactment          District (11080603)
    45818   West Bear Den,       Jessieville Ranger    Completed
             Vanderslice South,   District (11080905)
             and Compartment
             612
    46717   Western Carolina     Francis Marion and    Completed
             Rural Telephone      Sumter National
             Cooperative          Forest All Units
                                  (11081200)
    42320   Wildcat Prescribed   Tellico Ranger        Completed
             Burn                 District (11080404)
    45071   Wildlife Habitat     Sam Houston Ranger    Completed
             Improvement          District (11081304)
             Prescribed Burning
             in Compartments
             11, 12, 30, and
             36.
    45043   Wildlife Habitat     Sam Houston Ranger    Completed
             Improvement          District (11081304)
             Prescribed Burning
             in Compartments
             18, 19, and 20.
    44998   Wildlife Habitat     Sam Houston Ranger    Completed
             Improvement          District (11081304)
             Prescribed Burning
             in Compartments
             38, 44, 54, and
             104
    45880   Wildlife Management  Long Cane Ranger      Completed
             Activities           District (11081203)
    46239   Wildlife Management  Long Cane Ranger      Completed
             Activities II        District (11081203)
    45194   William's Mine       Unaka Ranger          Completed
                                  District (11080405)
    45656   Williams Junction    Jessieville Ranger    Completed
             VFD Communication    District (11080905)
             Site
    47456   Windstream permit    Jessieville Ranger    Completed
             amendment            District (11080905)
    46743   Wolf Laurel AT Relo  Cherokee National     Completed
             Project              Forest All Units
                                  (11080400)
    45536   XTO Energy Inc.--    Sabine Ranger         Completed
             Loa #1HB Gas         District (11081307)
             Pipeline Special
             Use Permit
             Amendment
    46899   XTO Energy Inc.      Angelina Ranger       Completed
             Hawks Gas Pipeline   District (11081301)
             Special Use Permit
             Amendment
    47498   XTO Energy Inc.      Sabine Ranger         Completed
             Maranon #H1 and      District (11081307)
             Orinoco #B1 Gas
             Wells
    45560   XTO Energy Inc. Ob   Sabine Ranger         Completed
             #H1 Access Road      District (11081307)
             and Gas Pipeline
             Special Use Permit
    44471   XTO Energy, Inc.--   Sabine Ranger         Completed
             La Plata #1H Gas     District (11081307)
             Well, Pipeline,
             and Access Road
    43983   XTO Energy, Inc.--   Sabine Ranger         Completed
             Tiber #1H Gas        District (11081307)
             Well, Pipeline,
             and Access Road
------------------------------------------------------------------------
                    Region: R9--Eastern Region (1109)
                          Decision Doc Type: DM
     NEPA Decision Signed Date Range: 10/01/2014 through 09/30/2015
                          Project Simple Format
                           Projects Found: 290
------------------------------------------------------------------------
    46110   05--Chamberlain      Mio Ranger District   Completed
             Forest Service       (11090405)
             Road Use
    46111   05 Rec Event--       Mio Ranger District   Completed
             Oscoda County        (11090405)
             Riverfest Event
    47386   06 Recreation        Huron Shores Ranger   Completed
             Event--Black Bear    District (11090406)
             Bicycle Tour
    47503   10 Year Bear Guide   Blackduck Ranger      Completed
             Permit, Huotari      District (11090301)
    43548   2014 Bergland and    Ottawa National       Completed
             Ontonagon Special    Forest All Units
             Use Reissues         (11090700)
    45944   2014 Great Divide    Great Divide Ranger   Completed
             Access Requests      District (11091302)
    44006   2014 LaCroix         LaCroix Ranger        Completed
             Reissues             District (11090906)
    43634   2014 North Zone      Ottawa National       Completed
             Special Use          Forest All Units
             Permits              (11090700)
    45538   2014 Red Pine        Chequamegon/Nicolet   Completed
             Salvage              National Forest All
                                  Units (11091300)
    45257   2014 Reissuance of   Eagle River-Florence  Completed
             Special use          Ranger District
             permits: Eagle       (11091303)
             River-Florence
    45256   2014 Reissuance of   Lakewood-Laona        Completed
             Special Use          Ranger District
             Permits: Lakewood-   (11091304)
             Laona
    47429   2015 Lakewood-Laona  Lakewood-Laona        Completed
             Snowmobile Trail     Ranger District
             Widening Project     (11091304)
    46369   2015 Pine River      Huron Shores Ranger   Completed
             Bank Stabilization   District (11090406)
             Project
    44808   2015 Pipeline        Lakewood-Laona        Completed
             Rehabilitation       Ranger District
             Erosion Control      (11091304)
             Site 2
    45935   2015 Road-Stream     Great Divide Ranger   Completed
             Crossing Repair      District (11091302)
             and Maintenance
    46834   2015 Strecok         Lakewood-Laona        Completed
                                  Ranger District
                                  (11091304)
    47045   2015 WPS Electric    Eagle River-Florence  Completed
             Utility Project--    Ranger District
             Knapp Road and WI    (11091303)
             70.
    47154   2015 WPS Electric    Lakewood-Laona        Completed
             Utility Project--    Ranger District
             Pine Lake Road/      (11091304)
             Sawyer Lake Road,
             WI 52
    46072   9 Day Trail Ride     Hidden Springs        Completed
             Recreation Event     Ranger District
                                  (11090804)
    44106   Air Force--PFOA/     Huron Shores Ranger   Completed
             PFOS Remediation     District (11090406)
             Project
    46571   Alcona Canoe Livery  Huron Shores Ranger   Completed
             Special Use          District (11090406)
             Authorization
             Renewal for
             Storage Yard
             Permit
    44879   Alger Delta Cable    Hiawatha National     Completed
             Installation         Forest All Units
                                  (11091000)
    47492   Allotment            Midewin National      Completed
             Establishment for    Tallgrass Prairie
             E11 Tract            All Units
                                  (11091500)
    46131   Alvwood II Woodcock  Blackduck Ranger      Completed
             Habitat              District (11090301)
             Improvement
             Project
    45807   Ameritech/SBC        Hoosier National      Completed
             Global Permit        Forest All Units
             Renewal              (11091200)
    47560   AND-TRO Water, Inc.  Hoosier National      Completed
                                  Forest All Units
                                  (11091200)
    41627   Androscoggin Ranger  Androscoggin Ranger   Completed
             District Education   District (11092202)
             and Wellness Trail
    46194   Atlantic Broadband   Cheat Ranger          Completed
             (PENN) Telephone     District (11092101)
             and Fiber Optic
             Special Use Permit
    47198   Atlantic Coast       Monongahela National  Completed
             Pipeline             Forest All Units
             Alternative Route    (11092100)
             Site Survey
             Testing Special
             Use Permit
             GBR205003 Amend3
    45864   Atlantic Coast       Monongahela National  Completed
             Pipeline Site        Forest All Units
             Survey Testing       (11092100)
             Special Use Permit
    45171   Au Train Lake Lot 8  Munising Ranger       Completed
             Well Replacement     District (11091003)
    46975   Au Train Township    Munising Ranger       Completed
             Ballfield Special    District (11091003)
             Use Permit Renewal
    45311   B.S. Road Permit     Shawnee National      Completed
                                  Forest All Units
                                  (11090800)
    47610   Balancing Rock       Ironton Ranger        Completed
             Horse Trail          District (11091403)
             Reroute
    46697   Barry Conservation   Androscoggin Ranger   Completed
             Camp Improvements    District (11092202)
    46225   Basswood Drive ORV   Baldwin/White Cloud   Completed
             Damage Restoration   Ranger District
             Project              (11090401)
    46433   Bayfield Electric    Washburn Ranger       Completed
             Co-op Power Line     District (11091305)
             Removal
    45707   Becker Special Use   Ava/Cassville/Willow  Completed
             Road Access          Springs Ranger
                                  District (11090521)
    45897   Bena Bike Trail      Blackduck Ranger      Completed
                                  District (11090301)
    45094   Big 4 Wetland        Wayne National        Completed
             Enhancement          Forest All Units
                                  (11091400)
    47539   Black River North    Bessemer Ranger       Completed
             Country Trail        District (11090702)
             Project
    46786   Blythefield Hills    Munising Ranger       Completed
             Baptist Church       District (11091003)
             Youth Group Trip
             (Special Use
             Permit)
    47323   Bodette and Cannon   Rochester Ranger      Completed
             Road Access          District (11092005)
             Special Use
             Permits Project
    44163   Bog Pond Snowmobile  Pemigewasset Ranger   Completed
             Trail Relocation     District (11092204)
    46394   Bower Trout Portage  Gunflint Ranger       Completed
                                  District (11090902)
    45076   Bradford FY14        Bradford Ranger       Completed
             Special Use          District (11091903)
             Renewals
    46978   Brayton Creek/       Baldwin/White Cloud   Completed
             Cleveland Road       Ranger District
             stream crossing      (11090401)
    45805   Brian and Patricia   Hoosier National      Completed
             Martin Road Permit   Forest All Units
                                  (11091200)
    43395   Brickey Slab         Potosi/Fredericktown  Completed
             Crossing             Ranger District
             Replacement          (11090505)
    46305   Brushy Hollow Water  Potomac Ranger        Completed
             Assoc. Reissue       District (11092105)
             Special Use Permit
             (POT204001)
    43924   Buchanan Private     Cadillac/Manistee     Completed
             Road Permit          Ranger District
                                  (11090403)
    46028   Buck Club Road Assn  Deer River Ranger     Completed
             FR3368 Permit        District (11090303)
    44383   Buffalo Pike         Hoosier National      Completed
                                  Forest All Units
                                  (11091200)
    47196   BV Waterline         Hidden Springs        Completed
                                  Ranger District
                                  (11090804)
    46665   Carr Private Road    Baldwin/White Cloud   Completed
             Permit               Ranger District
                                  (11090401)
    47064   Cedar Lake           Shawnee National      Completed
             Shoreline            Forest All Units
             Stabilization        (11090800)
    45249   Central Crossings    Ava/Cassville/Willow  Completed
             Fire Department      Springs Ranger
             Special Use Permit   District (11090521)
    46695   Century Link         Blackduck Ranger      Completed
             Telephone Line       District (11090301)
    45978   Charles and Gaetane  Huron Shores Ranger   Completed
             Watson Private       District (11090406)
             Road Permit
    46302   Cheat-Potomac        Potomac Ranger        Completed
             Ranger District      District (11092105)
             Multiple
             Recreation
             Facilities &
             Related Granger-
             Thye Concessions
             SUP
    46380   Chequamegon          Washburn Ranger       Completed
             Communications       District (11091305)
             Cooperative Inc.
             Ino Tower
             generator project
    46308   Chesapeake Media 1,  Huron-Manistee        Completed
             LLC                  National Forest All
                                  Units (11090400)
    43546   Chik-Wauk Proposal   Gunflint Ranger       Completed
                                  District (11090902)
    43670   Christensen Forest   Ottawa National       Completed
             Road Special Use     Forest All Units
             Permit               (11090700)
    45957   Cisco Lake and       Washburn Ranger       Completed
             Nymphia Lake Road    District (11091305)
             Maintenance:
             Culverts
    45940   Cold-water Streams   Great Divide Ranger   Completed
             Riparian             District (11091302)
             Restoration
    45243   Consumer's Energy    Baldwin/White Cloud   Completed
             Private Road         Ranger District
             Permit Reissuance    (11090401)
    44986   Cottle Road ROW      Gauley Ranger         Completed
             Special Use Permit   District (11092102)
             (GAU206003).
    45500   Cranberry Mtn        Gauley Ranger         Completed
             Nature Center and    District (11092102)
             Summit Lake
             Improvements
    45936   Crystal Lake Fish    Great Divide Ranger   Completed
             Habitat              District (11091302)
             Improvement
    46272   Cystic Fibrosis      Cadillac/Manistee     Completed
             Foundation Extreme   Ranger District
             Hike                 (11090403)
    46296   Deer Creek Dam       Hoosier National      Completed
             Permit               Forest All Units
                                  (11091200)
    46977   Delta County EMS     Hiawatha National     Completed
             Radio Repeater       Forest All Units
             Install on FS        (11091000)
             Tower
    46074   Dennison Hollow      Hidden Springs        Completed
             Burn Expansion       Ranger District
                                  (11090804)
    45295   Doubtfire Salvage    Lakewood-Laona        Completed
                                  Ranger District
                                  (11091304)
    46335   Douglas Phelps       Houston/Rolla/Cedar   Completed
             Private Road         Creek Ranger
             Permit               District (11090503)
    40375   Dukes Snowmobile     Munising Ranger       Completed
             Trail                District (11091003)
    47000   E Lake Road          Blackduck Ranger      Completed
             Association Road     District (11090301)
             Permit
    45836   Eagle Nest Lodge     Deer River Ranger     Completed
             Replace Cabins 4     District (11090303)
             and 6
    46388   Earth Treks Inc.     Potomac Ranger        Completed
             and Wild Guyde       District (11092105)
             Adventures LLC.
             Special Use
             Permits
             Reauthorization
    45796   Eddington Creek      Cadillac/Manistee     Completed
             Head-cut Repair      Ranger District
                                  (11090403)
    47001   Edgren Shed & Porch  Blackduck Ranger      Completed
             Project              District (11090301)
    44866   Enbridge 1359 Site   Hiawatha National     Completed
             and Road             Forest All Units
             Construction         (11091000)
    44870   Enbridge 1373 Test   Hiawatha National     Completed
             Wells Installation   Forest All Units
                                  (11091000)
    44213   Enbridge Integrity   Rapid River Ranger    Completed
             Dig MP 1369.9115     District (11091001)
    47434   Enervest Permit:     Wayne National        Completed
             Gum Sump, Elkins,    Forest All Units
             and Bradley          (11091400)
             Pipelines
    45159   Everett and Linda    Houston/Rolla/Cedar   Completed
             Anderson Special     Creek Ranger
             Use Permit           District (11090503)
    44204   Finger Lakes         Hector Ranger         Completed
             Runners Club         District (11092003)
             Special Use
             Authorization
    44678   Flambeau and Dead    Chequamegon/Nicolet   Completed
             Horse Motorized      National Forest All
             Trail                Units (11091300)
             Reconstruction
    45937   Forest Lodge Cow     Great Divide Ranger   Completed
             Pasture Prescribed   District (11091302)
             Burn
    42616   Forest Plan          Mark Twain National   Completed
             Amendment for        Forest All Units
             Threatened,          (11090500)
             Endangered, and
             Sensitive Species
    46068   Forest-wide          White Mountain        Completed
             Driveway Permit      National Forest All
             Reissuance           Units (11092200)
    46181   Four 10 Year Bear    Blackduck Ranger      Completed
             Guide Permits        District (11090301)
    46413   Froehlich Priority   Hoosier National      Completed
             Use Outfitter        Forest All Units
             Guide Permit         (11091200)
    46549   Fun Promotions 10K   Cadillac/Manistee     Completed
             & 15K Running        Ranger District
             Event                (11090403)
    46895   FY15 Allegheny       Allegheny National    Completed
             Reservoir Fish       Forest All Units
             Habitat              (11091900)
             Improvement
             Project
    45669   Gary Purple Private  Houston/Rolla/Cedar   Completed
             Road Permit          Creek Ranger
                                  District (11090503)
    45670   Gary Purple Private  Houston/Rolla/Cedar   Completed
             Road Permit          Creek Ranger
                                  District (11090503)
    44622   Gunflint Mixed       Gunflint Ranger       Completed
             Trail/Road           District (11090902)
             Recreation Use
             Project
    41798   Hamburg Hill Trail   Shawnee National      Completed
             of Tears             Forest All Units
             Enhancements         (11090800)
    46039   Hapgood Nature       Manchester Ranger     Completed
             Trail Improvements   District (11092002)
    45309   Hardin County Main   Hidden Springs        Completed
             Street: Ozark Tour   Ranger District
                                  (11090804)
    47673   Harrisville          Huron Shores Ranger   Completed
             Administrative       District (11090406)
             Site Conveyance
    46891   Hecla Water          Ironton Ranger        Completed
             Transmission         District (11091403)
             Amendment #6
    45582   Hemlock Wooly        Hector Ranger         Completed
             Adelgid              District (11092003)
             Suppression
             Project
    44878   Hiawatha Telephone   Hiawatha National     Completed
             Company Cable        Forest All Units
             Installation         (11091000)
    37612   High Bridge North    Cadillac/Manistee     Completed
             Country Trail        Ranger District
             Reroute              (11090403)
    46030   Highway 150 Road     Hoosier National      Completed
             Widening Permit      Forest All Units
                                  (11091200)
    41620   Hoff Road Ditch      Midewin National      Completed
             Maintenance          Tallgrass Prairie
             Project              All Units
                                  (11091500)
    45835   Holt FR2308 Road     Deer River Ranger     Completed
             Permit               District (11090303)
    47016   Holt Road/Thrasher   Eagle River-Florence  Completed
             Road Temporary       Ranger District
             Reroute              (11091303)
    45471   Hoosier Energy       Hoosier National      Completed
             Temporary Permit     Forest All Units
                                  (11091200)
    46538   Horseback Riding     Huron Shores Ranger   Completed
             Recreation Events--  District (11090406)
             Mio, Harrisville
             and Tawas Ranger
             Districts
    46301   Horseshoe            Cheat Ranger          Completed
             Recreation Area      District (11092101)
             Facilities and
             Related Granger-
             Thye Concessions
             Special Use Permit
    45210   Howell County PWSD3  Ava/Cassville/Willow  Completed
             Special Use Permit   Springs Ranger
                                  District (11090521)
    46457   Hwy 63 CWPP Project  Washburn Ranger       Completed
                                  District (11091305)
    45245   Indian Kitchen       Hidden Springs        Completed
             Lodge Outfitter/     Ranger District
             Guide Special-Use    (11090804)
             Permit
    45172   Intercounty          Houston/Rolla/Cedar   Completed
             Electric             Creek Ranger
             Cooperative          District (11090503)
             Association
             Special Use Permit
    45100   IUOA 5 year          Hoosier National      Completed
             Priority Use         Forest All Units
             Outfitter/Guide      (11091200)
             Permit
    45152   J. Zabotrtsky        Kawishiwi Ranger      Completed
             Special Use Permit   District (11090905)
    46894   Joel D. King         Huron Shores Ranger   Completed
             Private Road         District (11090406)
             Special Use Permit
    46031   John Ingles Special  Ironton Ranger        Completed
             Uses Right-of-Way    District (11091403)
             Road Permit
    44306   Jon Nichols Number   Ava/Cassville/Willow
             2 Special Use Road   Springs Ranger
                                  District (11090521)
                                  Completed
    45949   Jump River Electric  Great Divide Ranger   Completed
             Rebuild              District (11091302)
    42006   Kenyon Hollow        Ava/Cassville/Willow  Completed
             Haying Allotment,    Springs Ranger
             Prescribed Burn,     District (11090521)
             and Cedar Control
             Project
    37657   Kevin Woodward       Gunflint Ranger       Completed
             Access Proposal      District (11090902)
    45745   KGM Contractors      LaCroix Ranger        Completed
             Access               District (11090906)
    44208   Killington Bike      Rochester Ranger      Completed
             Trails               District (11092005)
    44446   Kinderhook Horse     Athens Ranger         Completed
             Trail Expansion      District (11091401)
    47071   Kinkaid Lake         Mississippi Bluffs    Completed
             Shoreline            Ranger District
             Stabilization 2      (11090802)
    46671   Koralewsi Private    Mio Ranger District   Completed
             Road Authorization   (11090405)
    45190   Lake County LAU1126- Laurentian Ranger     Completed
             09                   District (11090901)
    45475   Lake Sherwood Boat   White Sulphur Ranger  Completed
             Rental Concession    District (11092106)
    46431   Lakewood Southeast   Chequamegon/Nicolet   Completed
             Additional Burn      National Forest All
             Unit                 Units (11091300)
    47373   Lakewood-Laona       Chequamegon/Nicolet   Completed
             Programmatic         National Forest All
             Salvage              Units (11091300)
    41111   Lewis Hay            Ironton Ranger        Completed
             Cultivation Permit   District (11091403)
    46349   Little Seeker ASL    Marienville Ranger    Completed
             Trail Realignment    District (11091902)
    46767   Little Willow        Medford-Park Falls    Completed
             Access Roads         Ranger District
             Permit               (11091301)
    46534   Loda Lake            Baldwin/White Cloud   Completed
             Wildflower           Ranger District
             Sanctuary            (11090401)
             Boardwalk Removal
             and Replacement
             Project
    44008   Lookout Mountain     Laurentian Ranger     Completed
             Single Track         District (11090901)
             Mountain Bike
             Trails
    46550   Lujenida Portage     Tofte Ranger          Completed
             Reroute              District (11090907)
    47355   Lydick West TFPA     Blackduck Ranger      Completed
             Project              District (11090301)
    45308   M.M. Road Permit     Mississippi Bluffs    Completed
                                  Ranger District
                                  (11090802)
    46709   Marciniak Private    Baldwin/White Cloud   Completed
             Road Special Use     Ranger District
             Permit               (11090401)
    41982   Marienville          Marienville Ranger    Completed
             Wildlife Habitat     District (11091902)
             Enhancement
             Project
    44985   Mays Road Right-Of-  Gauley Ranger         Completed
             Way Special Use      District (11092102)
             Permit (GAU206002)
    45776   McKean County Bat    Bradford Ranger       Completed
             Cave Gate            District (11091903)
    46636   Mentor Partners      Baldwin/White Cloud   Completed
             Hungerford           Ranger District
             Generator            (11090401)
             Installation
    45833   Meyer FR 2153        Deer River Ranger     Completed
             Permit               District (11090303)
    43328   Michael D. Rose      Huron Shores Ranger   Completed
             Private Road         District (11090406)
             Special Use Permit
    45470   Mill Brook           Pemigewasset Ranger   Completed
             Connector            District (11092204)
             Snowmobile Trail
             Relocation
    45806   Minard Run Oil Co.   Bradford Ranger       Completed
             Special Use          District (11091903)
             Stickney Pipeline
    47263   Mingus Cemetery      Hoosier National      Completed
             Special Use Permit   Forest All Units
                                  (11091200)
    43529   MNDNR LAC1076-53     LaCroix Ranger        Completed
                                  District (11090906)
    43530   MNDNR LAU1070-27     Laurentian Ranger     Completed
                                  District (11090901)
    44649   MNDNR LAU1070-30     Laurentian Ranger     Completed
                                  District (11090901)
    43531   MNDNR LAU1071-49     Laurentian Ranger     Completed
             reroute              District (11090901)
    46979   Moccasin Lake Lot 2  Hiawatha National     Completed
             Septic Replacement   Forest All Units
                                  (11091000)
    44745   Mondeaux Avenue      Chequamegon/Nicolet   Completed
             Electric Line        National Forest All
             Rebuild              Units (11091300)
    46693   Monongahela Power    Monongahela National  Completed
             Electrical           Forest All Units
             Powerline Reissue    (11092100)
             Special Use Permit
             (GBR205002)
    45892   Mosquito Creek       Lakewood-Laona        Completed
             Crossings            Ranger District
                                  (11091304)
    46304   Mountain Water       Potomac Ranger        Completed
             Assoc. Reissue       District (11092105)
             Special Use Permit
             (POT205004)
    43279   Mower Tract Trail    Greenbrier Ranger     Completed
             Construction         District (11092103)
    44752   Mt. Tecumseh         Pemigewasset Ranger   Completed
             Communication Site   District (11092204)
             Special Use Permit
    46696   Mt. Washington       Androscoggin Ranger   Completed
             Invasive Dandelion   District (11092202)
             Removal
    47036   Multi-year Fish      Washburn Ranger       Completed
             Habitat Management   District (11091305)
             Project
    46920   Nixon Guided         Cadillac/Manistee     Completed
             Hunting 5 Year       Ranger District
             Permit               (11090403)
    47320   Norske Trail         Middlebury Ranger     Completed
             Relocation           District (11092001)
    45963   North Country Trail  Ottawa National       Completed
             Bridge Project       Forest All Units
                                  (11090700)
    46795   North Itasca         Deer River Ranger     Completed
             Powerline            District (11090303)
             amendment
    44984   North Zone Green     Middlebury Ranger     Completed
             Mountain Power       District (11092001)
             Special Use Permit
    45933   Northern Great       Northern Great Lakes  Completed
             Lakes Visitor        Visitor Center
             Center Restoration   (11091318)
             Projects
    42971   Northern New         Androscoggin Ranger   Completed
             Hampshire Bird Dog   District (11092202)
             Club Special Use
             Permit Renewal
    45939   Northland Education  Great Divide Ranger   Completed
             and Research SUP     District (11091302)
    46657   Nummerdor Driveway   Cadillac/Manistee     Completed
             Construction         Ranger District
                                  (11090403)
    45165   Ohio Power Company   Ironton Ranger        Completed
             Amendments           District (11091403)
    44069   Old Runway Red Pine  Mio Ranger District   Completed
             and Alder CE         (11090405)
    46789   Olson Private        Blackduck Ranger      Completed
             Driveway Permit      District (11090301)
    46865   Onion Creek          Kenton Ranger         Completed
             Unauthorized Road    District (11090704)
             Decommission
    45085   Outfitter/Guide      Huron-Manistee        Completed
             Special Use          National Forest All
             Authorizations       Units (11090400)
             Issuance/
             Reissuance
    43365   Overstory Removal    Sault Ste. Marie      Completed
                                  Ranger District
                                  (11091004)
    46501   Oyster Private Road  Deer River Ranger     Completed
             Permit               District (11090303)
    45741   Palmquist Special    Bessemer Ranger       Completed
             Use, Slate River     District (11090702)
             Access
    47462   Petersen Stair       Deer River Ranger     Completed
             Project              District (11090303)
    47252   Pine Grove Lodge     Deer River Ranger     Completed
             Residence            District (11090303)
    46835   Pine Lake            Lakewood-Laona        Completed
             Association Dock     Ranger District
             SUP                  (11091304)
    45403   Pine River KW        Huron Shores Ranger   Completed
             Opening              District (11090406)
             Maintenance
             Project
    45789   Plum Creek Special   Iron River Ranger     Completed
             Use, Ponozzo Road    District (11090703)
    45781   Polar Bear Plunge    White Sulphur Ranger  Completed
             (CYAC) Recreation    District (11092106)
             Event Special Use
             Permit
    45597   Potlatch FR2710 and  Deer River Ranger     Completed
             2710A Road Permit    District (11090303)
    45601   Private Road 8491    Houston/Rolla/Cedar   Completed
             Road User            Creek Ranger
             Association          District (11090503)
             Private Road
             Permit
    43452   Private Road         Salem Ranger          Completed
             Special Use Permit   District (11090507)
             Amendment SAL15502-
             1
    47536   Private Road         Potosi/Fredericktown  Completed
             Special Use Permit   Ranger District
             FRT106               (11090505)
    47585   Private Road         Potosi/Fredericktown  Completed
             Special Use Permit   Ranger District
             POT15102             (11090505)
    45264   Private Road         Potosi/Fredericktown  Completed
             Special Use Permit   Ranger District
             POT339-1             (11090505)
    46862   Private Road         Potosi/Fredericktown  Completed
             Special Use Permit   Ranger District
             POT360               (11090505)
    47581   Private Road         Potosi/Fredericktown  Completed
             Special Use Permit   Ranger District
             POT365               (11090505)
    47175   Private Road         Potosi/Fredericktown  Completed
             Special Use Permit   Ranger District
             POT370               (11090505)
    45260   Private Road         Salem Ranger          Completed
             Special Use Permit   District (11090507)
             SAL232
    47590   Private Road         Salem Ranger          Completed
             Special Use Permit   District (11090507)
             SAL236
    47148   Rainbow Springs SUP  Ava/Cassville/Willow  Completed
                                  Springs Ranger
                                  District (11090521)
    45102   Ransburg Scout       Hoosier National      Completed
             Reservation          Forest All Units
             Private Road/Trail   (11091200)
             SU Permit
    45266   Recreation Special   Potosi/Fredericktown  Completed
             Use Permit           Ranger District
             POT23502             (11090505)
    47708   Recreation Special   Potosi/Fredericktown  Completed
             Use Permit           Ranger District
             POT24602             (11090505)
    47583   Recreation Special   Potosi/Fredericktown  Completed
             Use Permit POT366    Ranger District
                                  (11090505)
    47707   Recreation Special   Potosi/Fredericktown  Completed
             Use Permit POT368    Ranger District
                                  (11090505)
    47709   Recreation Special   Potosi/Fredericktown  Completed
             Use Permit POT373    Ranger District
                                  (11090505)
    47587   Recreation Special   Potosi/Fredericktown  Completed
             Use Permit POT374    Ranger District
                                  (11090505)
    47535   Recreation Special   Potosi/Fredericktown  Completed
             Use Permit Renewal   Ranger District
             POT369               (11090505)
    44981   Reid 20 Year         Baldwin/White Cloud   Completed
             Private Road         Ranger District
             Permit               (11090401)
    40331   8Reissuance of the   Mio Ranger District   Completed
             Enbridge Energy,     (11090405)
             Limited
             Partnership
             Special Use
             Authorization0
    42377   Reissuance Special   Kawishiwi Ranger      Completed
             Use Permits that     District (11090905)
             Expire on 12/31/
             2014
    46432   Revised Lake         Eagle River-Florence  Completed
             Habitat              Ranger District
             Restoration          (11091303)
             Project
    46663   Rich Private Road    Deer River Ranger     Completed
             Permit               District (11090303)
    47030   Richey Private &     Deer River Ranger     Completed
             Forest Road Permit   District (11090303)
    46993   Rothstein; MSU;      Mio Ranger District   Completed
             Biomass Research     (11090405)
    45991   Sawdust Lake         Washburn Ranger       Completed
             Stewardship          District (11091305)
             Project
    46303   Secondary Access     Wayne National        Completed
             Butcher #1-A Well    Forest All Units
                                  (11091400)
    46619   Seely Private Road   Baldwin/White Cloud   Completed
             Special Use Permit   Ranger District
                                  (11090401)
    46387   Seneca High          Potomac Ranger        Completed
             Adventure            District (11092105)
             Christian Camp
             Special Use Permit
             Reauthorization
    43396   Silver Mines         Potosi/Fredericktown  Completed
             Recreation Area      Ranger District
             Hazard Mitigations   (11090505)
    44468   SIP Permit           Hoosier National      Completed
             Consolidation        Forest All Units
                                  (11091200)
    45747   SIP/PSCI-Larry       Hoosier National      Completed
             Wilson Permit        Forest All Units
                                  (11091200)
    41852   Snow Valley C7       Manchester Ranger     Completed
             Snowmobile Trail     District (11092002)
             Relocation
    46681   Snowmobile Trail 70  Great Divide Ranger   Completed
             Re-route             District (11091302)
    43196   Soo Line Trail FSR   Walker Ranger         Completed
             3036 Reroute         District (11090305)
             Project
    42967   South Pond Road      Androscoggin Ranger   Completed
             Association          District (11092202)
             Special Use Permit
             Renewal
    44117   South Pond Road      Androscoggin Ranger   Completed
             Association          District (11092202)
             Special Use Permit
             Renewal
    46864   Special Use Permit   Potosi/Fredericktown  Completed
             POT119               Ranger District
                                  (11090505)
    46386   Special Use Permit   Potosi/Fredericktown  Completed
             POT14502             Ranger District
                                  (11090505)
    46870   Special Use Permit   Potosi/Fredericktown  Completed
             POT26101             Ranger District
                                  (11090505)
    44857   Springer Spaniel     Hector Ranger         Completed
             Field Trial          District (11092003)
             Special Use
    46342   Spruce Knob-Seneca   Potomac Ranger        Completed
             Rocks Telephone &    District (11092105)
             Fiber Optic
             Reissue Special
             Use Permit
             (POT205006 &
             POT205007)
    44021   St. Louis County     LaCroix Ranger        Completed
             LAC1601-55           District (11090906)
    42953   St. Louis County     Laurentian Ranger     Completed
             LAU1002-48           District (11090901)
    43697   St. Louis County     Laurentian Ranger     Completed
             LAU1002-56           District (11090901)
    44650   St. Louis County     Laurentian Ranger     Completed
             LAU1002-57           District (11090901)
    45831   Stephen Ballard      Cadillac/Manistee     Completed
             Private Property     Ranger District
             Access Road          (11090403)
    47425   Stout Red Pine       Huron Shores Ranger   Completed
             Salvage and          District (11090406)
             Reforestation
             Project
    45120   Strecok Private      Lakewood-Laona        Completed
             Land Access SUP      Ranger District
                                  (11091304)
    44982   Switzer 20 Year      Baldwin/White Cloud   Completed
             Private Road         Ranger District
             Permit               (11090401)
    36436   Tarsi Special Use    Iron River Ranger     Completed
             Proposal, Net        District (11090703)
             River
    45994   Taylor Electric      Medford-Park Falls    Completed
             Cooperative Red      Ranger District
             Pine Road Line       (11091301)
             Installation
    45480   Tea Creek Phase II   Marlinton Ranger      Completed
                                  District (11092104)
    46382   Temporary Road       Potosi/Fredericktown  Completed
             Special Use Permit   Ranger District
             POT357               (11090505)
    47537   Temporary Road       Potosi/Fredericktown  Completed
             Special Use Permit   Ranger District
             POT363               (11090505)
    47032   Temporary Road       Potosi/Fredericktown  Completed
             Special Use Permit   Ranger District
             POT364               (11090505)
    47176   Temporary Road       Salem Ranger          Completed
             Special Use Permit   District (11090507)
             SAL238
    46607   The Iosco County     Huron Shores Ranger   Completed
             Stockpile Permit     District (11090406)
             Special Use
             Authorization
             Renewal
    45306   The Southern         Shawnee National      Completed
             Illinois Fat Tire    Forest All Units
             Festival             (11090800)
    45570   Timber Ridge         Hidden Springs        Completed
             Outpost and Cabins   Ranger District
             Outfitter Guide      (11090804)
             Permit
    46099   TK Ranch Campground  Hidden Springs        Completed
                                  Ranger District
                                  (11090804)
    44623   Tofte Mixed Trail/   Tofte Ranger          Completed
             Road Recreation      District (11090907)
             Use Project
    47047   Top Notch Triathlon  Pemigewasset Ranger   Completed
                                  District (11092204)
    46350   Tour de Lumberjack   Huron Shores Ranger   Completed
             Bike Event           District (11090406)
    47227   U.S. Fast Track      Ava/Cassville/Willow  Completed
             Special Use Road     Springs Ranger
             Access               District (11090521)
    45179   Union Baptist        Ironton Ranger        Completed
             Church Road Permit   District (11091403)
    47546   Union Chapel Church  Cheat Ranger          Completed
             Road ROW/CHT205003   District (11092101)
    44872   Upper Peninsula      Hiawatha National     Completed
             Power Company        Forest All Units
             Underground          (11091000)
             Electric Cable
             Installation
    43933   Upper River Road     Cadillac/Manistee     Completed
             Trailhead for the    Ranger District
             North Country        (11090403)
             Trail
    45512   US Geological        Baldwin/White Cloud   Completed
             Service Stream       Ranger District
             Gauge Permit         (11090401)
             Reissuance
    46224   USA Merrill 1-18A    Baldwin/White Cloud   Completed
             Production           Ranger District
             Facility             (11090401)
             Construction
    40592   Utilities District   Brownstown Ranger     Completed
             of Western Indiana   District (11091202)
             Buried Power Line
             Permit Renewal
    46377   Utility Special Use  Potosi/Fredericktown  Completed
             Permit Amendment     Ranger District
             POT400405-2          (11090505)
    47573   Utility Special Use  Potosi/Fredericktown  Completed
             Permit Amendment     Ranger District
             POT400405-4          (11090505)
    46603   Vavala SUA Road ROW  Allegheny National    Completed
                                  Forest All Units
                                  (11091900)
    45838   Voyageurs Classic    Deer River Ranger     Completed
             Sled Dog Race        District (11090303)
    45314   W. Timber Haul       Hidden Springs        Completed
                                  Ranger District
                                  (11090804)
    43477   Waiska River Road    St. Ignace Ranger     Completed
             (FS 3352) Spile      District (11091005)
             Dams Removal
    45012   Ward Chittendon      Kawishiwi Ranger      Completed
             Special Use Permit   District (11090905)
    46638   Washburn Challenge   Pemigewasset Ranger   Completed
             Special Use Permit   District (11092204)
    30149   West Fork            Salem Ranger          Completed
             Bottomland           District (11090507)
             Restoration
             Project
    44891   West Side Road       Chequamegon/Nicolet   Completed
             Permit Renewals      National Forest All
             2014                 Units (11091300)
    46883   Westphal Special     Cadillac/Manistee     Completed
             Use Forest Road      Ranger District
             Permit               (11090403)
    46073   Westside Openlands   Mississippi Bluffs    Completed
             Burn Expansion       Ranger District
                                  (11090802)
    40737   Wheatlake/DeYoung    Baldwin/White Cloud   Completed
                                  Ranger District
                                  (11090401)
    46637   White Mountain       Pemigewasset Ranger   Completed
             Triathlon Special    District (11092204)
             Use Permit
    44090   Wilbur Creek Trail   Huron Shores Ranger   Completed
             Bridge Replacement   District (11090406)
    43261   Wild River Valley    Androscoggin Ranger   Completed
             Trail Repairs        District (11092202)
    45128   William Makela       Kawishiwi Ranger      Completed
             Special Use Permit   District (11090905)
    45839   Williams Narrows     Deer River Ranger     Completed
             Resort Permit        District (11090303)
    43675   Wisconsin Central    Ottawa National       Completed
             Railroad Special     Forest All Units
             Use Reissue          (11090700)
    45580   Woodford SnoBusters  Manchester Ranger     Completed
             Groomer Access       District (11092002)
             Trail Special Use
             Re-issue
    45581   Woodford SnoBusters  Manchester Ranger     Completed
             Hot Dog Roast and    District (11092002)
             Special People
             Ride Recreation
             Event Special Use
             Re-issue
    46667   Wright Private Road  Baldwin/White Cloud   Completed
             Permit               Ranger District
                                  (11090401)
    45862   WV DOH Bartow Road   Monongahela National  Completed
             Stabilization S.P.   Forest All Units
             38-220-3.30          (11092100)
             Special Use Permit
    47143   WV DOH Cass          Monongahela National  Completed
             Rockfall Relocate    Forest All Units
             Road GBR202004       (11092100)
    45549   WVDOH Fishing Hawk   Greenbrier Ranger     Completed
             Bridge S.P. 42-22-   District (11092103)
             13.19 special use
             permit (GBR202001)
    44855   Youth Pioneer Event  Hector Ranger         Completed
             Special Use          District (11092003)
    46816   Zito Media Fiber     Bradford Ranger       Completed
             Optic Line Special   District (11091903)
             Use
------------------------------------------------------------------------
                    Region: R10--Alaska Region (1110)
                          Decision Doc Type: DM
     NEPA Decision Signed Date Range: 10/01/2014 through 09/30/2015
                          Project Simple Format
                           Projects Found: 51
------------------------------------------------------------------------
    44598   2014 Special Use     Cordova Ranger        Completed
             Permit Renewals      District (11100420)
    48215   2015 Capitol         Seward Ranger         Completed
             Christmas Tree       District (11100430)
    45370   2015 Hecla Greens    Admiralty National    Completed
             Creek Mining         Monument (11100534)
             Company Surface
             Exploration Annual
             Work Plan
    45778   2015 Herbert Gold    Juneau Ranger         Completed
             Project              District (11100533)
    46150   ADF&G (Fisheries)    Tongass National      Completed
             Unuk River Work      Forest All Units
             Camp Amendment 2     (11100500)
    44103   ADFG Tent Platform   Wrangell Ranger       Completed
             CE                   District (11100522)
    45615   AEL&P Snettisham     Juneau Ranger         Completed
             Powerline Weather    District (11100533)
             Monitoring Station
    45761   Alaska Alpine        Seward Ranger         Completed
             Adventures Ski       District (11100430)
             Touring in Summit
             Lake Area
    48065   Alyeska Pipelines    Cordova Ranger        Completed
             Service Company      District (11100420)
             Hinchinbrook
             Island
             Communications
             Site Reissue
    46799   Anan Creek Partial   Wrangell Ranger       Completed
             Barrier Falls        District (11100522)
             Modification
    41008   Anan Trail           Wrangell Ranger       Completed
             Maintenance          District (11100522)
             (gravel)
    45770   ANM JRD Isolated or  Admiralty National    Completed
             Pre-ANILCA Cabin     Monument (11100534)
             Permit Renewals
             2015
    30073   Auk Village Rec      Juneau Ranger         Completed
             Area Parking         District (11100533)
             Improvement
    45028   CAC Gravina          Cordova Ranger        Completed
             Exploration          District (11100420)
             Project
    45252   City of Cordova      Cordova Ranger        Completed
             Sewer Line Reissue   District (11100420)
    45821   Claude Point         Tongass National      Completed
             Isolated Cabin SUA   Forest All Units
             Renewal              (11100500)
    47602   Daycare Association  Thorne Bay Ranger     Completed
             Special Use Permit   District (11100554)
    47020   Egg Island Wetland   Cordova Ranger        Completed
             Enhancement          District (11100420)
             Project
    47507   GCI Fiber-optic      Cordova Ranger        Completed
             Cable Installation   District (11100420)
             within Existing
             Utility Corridor
    46269   Granite Creek        Glacier Ranger        Completed
             Campground           District (11100410)
             Streambank
             Stabilization and
             Fisheries
             Enhancement
             Project
    46041   Green Power          Juneau Ranger         Completed
             Development LLC--    District (11100533)
             Permit extension
             for stream gauging
             station
    45067   He'en Latinee        Juneau Ranger         Completed
             Meteorological       District (11100533)
             Development
    46992   Hope Highway Non-    Seward Ranger         Completed
             System Road          District (11100430)
             Project
    45687   Italio River         Yakutat Ranger        Completed
             Adventures O/G       District (11100535)
             Camp move
    46453   Jackpot Lakes        Glacier Ranger        Completed
             Habitat              District (11100410)
             Enhancement
    46284   Jerome Lake Trickle- Seward Ranger         Completed
             dam Removal          District (11100430)
    46215   Kensington 2015      Juneau Ranger         Completed
             Annual Exploration   District (11100533)
             Plan
    45617   Ketchikan            Tongass National      Completed
             Snowmobile Club      Forest All Units
             Cabin SUA Renewal    (11100500)
    45110   Knowles Head         Cordova Ranger        Completed
             Restoration          District (11100420)
             Thinning
    45331   Lonesome Dove        Cordova Ranger        Completed
             Outfitters           District (11100420)
             Assigned Site
    45637   Lower Tawah Access   Yakutat Ranger        Completed
             Trail                District (11100535)
    46309   Mitkof Island Deer   Petersburg Ranger     Completed
             Habitat              District (11100521)
             Enhancement
    45727   Naukati Boat Launch  Thorne Bay Ranger     Completed
             Access Area          District (11100554)
    43253   Oyster Farms Permit  Wrangell Ranger       Completed
             Renewal 2015-2019    District (11100522)
    45343   Petersburg Ranger    Petersburg Ranger     Completed
             District Riparian    District (11100521)
             Thinning
    44690   Portage Valley       Glacier Ranger        Completed
             Waterfowl and Fish   District (11100410)
             Habitat
             Improvement
             Project
    44835   Reissue Four         Petersburg Ranger     Completed
             Special Use          District (11100521)
             Authorizations on
             the Petersburg
             Ranger District
    45803   Reissue Special Use  Tongass National      Completed
             Authorization for    Forest All Units
             USCG Differential    (11100500)
             GPS facility at
             Level Island
    46166   Russian River        Seward Ranger         Completed
             Firearm              District (11100430)
             Restriction--Fores
             t Order
    47010   San Juan Creek       Cordova Ranger        Completed
             Habitat              District (11100420)
             Improvement
    45625   Saw Ridge FAA        Ketchikan--Misty      Completed
             Communication Site   Ranger District
             SUA                  (11100552)
    35861   Scott Shelly         Glacier Ranger        Completed
             Private Road         District (11100410)
             Special Use Permit
             Renewal
    45748   Slippery Fishpass    Petersburg Ranger     Completed
             Modification         District (11100521)
    45168   Southern Prince of   Craig Ranger          Completed
             Wales Pre-           District (11100551)
             commercial
             Thinning
    45018   TelAlaska Telephone  Seward Ranger         Completed
             and Fiberoptic       District (11100430)
             Special Use Permit
             Reissue
    45879   Tenakee Peril        Sitka Ranger          Completed
             Strait Thinning      District (11100531)
             Project
    46237   Thorne Bay Sort      Thorne Bay Ranger     Completed
             Yard Mineral         District (11100554)
             Material Sale--
             Phase 1
    42914   Two temporary        Sitka Ranger          Completed
             sawmills at False    District (11100531)
             Island and Corner
             Bay.
    47509   Weise and Wolfe      Cordova Ranger        Completed
             Isolated Cabin       District (11100420)
             Reissue
    45877   Wrangell District    Wrangell Ranger       Completed
             Thinning             District (11100522)
    46569   Zarembo Minerals     Wrangell Ranger       Completed
             Investigation 2015-  District (11100522)
             2016
------------------------------------------------------------------------
 Region: Forest Products Lab (1111); International Institute of Tropical
    Forestry (1112); Rocky Mountain Research Station (1122); Northern
   Research Station (1124); Pacific Northwest Research Station (1126);
  Pacific Southwest Research Station (1127); Southern Research Station
      (1133); Northeastern Area--State and Private Forestry (1142)
                          Decision Doc Type: DM
     NEPA Decision Signed Date Range: 10/01/2014 through 09/30/2015
                          Project Simple Format
                            Projects Found: 1
------------------------------------------------------------------------
    39236   NEON Flux Tower at   San Joaquin ER All    Completed
             San Joaquin          Units (11271000)
             Experimental Range
------------------------------------------------------------------------

                             [attachment 3]

                       Project Search Constraints
   (This report contains the best available information at the time the
                          data was published.)
------------------------------------------------------------------------
  Project                                                 Overall NEPA
    No.         Project Name     Lead Management Unit    Process Status
------------------------------------------------------------------------
                   Region: R1--Northern Region (1101)
                          Decision Doc Type: DN
     NEPA Decision Signed Date Range: 10/01/2014 through 09/30/2015
                          Project Simple Format
                           Projects Found: 23
------------------------------------------------------------------------
    38515   Barnyard South       North Fork Ranger     Completed
             Sheep                District (11011753)
    42483   Bottom Canyon        Fernan Ranger         Completed
             Project              District (11010403)
    37993   Burnt Fork, Hogan    Beartooth Ranger      Completed
             Crk On/Off, Rock     District (11010802)
             Crk, Sage Crk and
             Proposed Red Butte
             Allotments
             Rangeland Project
    39057   Colette Mine Stream  Lochsa/Powell Ranger  Completed
             Restoration          District (11011755)
             Project
    36615   Darby Lumber Lands   Darby Ranger          Completed
             Watershed            District (11010302)
             Improvement and
             Travel Management
             Project
    47237   East Yellowstone     Medora Ranger         Completed
             Trail NFSR 7901      District (11011807)
             Road Improvements
    37369   Elkhorn Gravel Pit   Medora Ranger         Completed
                                  District (11011807)
    40785   Hellroaring          Bonners Ferry Ranger  Completed
                                  District (11010407)
    33676   Highwood Mountains   Judith Ranger         Completed
             Range                District (11011504)
    44559   International        Dakota Prairie        Completed
             Western Company      Grasslands All
             water pumping        Units (11011800)
             facility and
             associated
             utilities
    42170   Little Belt          Lewis And Clark       Completed
             Mountains Hazard     National Forest All
             Tree Removal         Units (11011500)
    33857   Little Snowy         Musselshell Ranger    Completed
             Mountains            District (11011506)
             Restoration
    43096   Lolo First 50 Road   Nez Perce-Clearwater  Completed
             Decommissioning      National Forest All
             Project              Units (11011700)
    38754   Martin Creek         Tally Lake Ranger     Completed
             Resource             District (11011008)
             Management Project
    43633   Nelson Bike Shuttle  Superior Ranger       Completed
             Special Use Permit   District (11011607)
             Request
    42542   O'Keefe Grazing      Missoula Ranger       Completed
             Allotment            District (11011603)
             Management Plan
             Revision
    40176   Selway Bank          Nez Perce-Clearwater  Completed
             Stabilization        National Forest All
                                  Units (11011700)
    45224   Stillwater Mining    Custer Gallatin       Completed
             Company's Benbow     National Forest All
             Exploration Portal   Units (11011100)
             & Support
             Facilities Plan of
             Operations
    38517   Strychnine Pine      Palouse Ranger        Completed
                                  District (11011752)
    41100   Sweet Grass          Yellowstone Ranger    Completed
             Integrated           District (11011104)
             Resource
             Resiliency and
             Restoration
    30894   Trapper Creek        Wise River Ranger     Completed
             Vegetation           District (11010202)
             Management
    42843   Treasured            Sandpoint Ranger      Completed
             Landscapes           District (11010406)
             Recreation
             Projects
    44946   True Oil Red Wing    Mckenzie Ranger       Completed
             Creek Master         District (11011808)
             Development Plan
------------------------------------------------------------------------
                Region: R2--Rocky Mountain Region (1102)
                          Decision Doc Type: DN
     NEPA Decision Signed Date Range: 10/01/2014 through 09/30/2015
                          Project Simple Format
                           Projects Found: 34
------------------------------------------------------------------------
    41619   Basalt to Gypsum     West Zone/Sopris      Completed
             Motorized            Ranger District
             Singletrack          (11021503)
    45800   Beaver Park          Divide Ranger         Completed
             Reservoir Special    District (11020904)
             Use Permit
    44493   Billy Creek Timber   Powder River Ranger   Completed
             Sale                 District (11020201)
    39610   Cain Creek Land      Nebraska National     Completed
             Exchange             Forest All Units
                                  (11020700)
    40222   Carbon Power and     Laramie Ranger        Completed
             Light Powerline      District (11020605)
             Clearing along
             Highway 130
    24022   CDOT Highway 133     West Zone/Sopris      Completed
             Debris Dump Site     Ranger District
             and Placita          (11021503)
             Roadside
             Landscaping
    41474   Cherokee Park        Canyon Lakes Ranger   Completed
             Project              District (11021005)
    42510   Coulton Floyd II     Hahns Peak/Bears      Completed
             Timber &amp; Fuels   Ears Ranger
             Management           District (11020603)
             Analysis
    44272   Crossons-Longview    South Platte Ranger   In Progress
             Environmental        District (11021211)
             Assessment Forest
             Restoration
             Project
    38671   Dillon Ranger        East Zone/Dillon      Completed
             District Outfitter   Ranger District
             Guides Additional    (11021510)
             Use
    32444   East Aspen Metro     West Zone/Aspen       Completed
             District Mosquito    Ranger District
             Control              (11021501)
    40959   Forest Health--      Mancos/Dolores        Completed
             Burnt Ridge Aspen    Ranger District
             Management Project   (11021305)
    43000   Forest Health--      Columbine Ranger      Completed
             Fosset Gulch/        District (11021308)
             Northern HDs
             Ecosystem
             Restoration
             Project
    40708   Jewel Cave           Hell Canyon Ranger    Completed
             Withdrawal           District (11020303)
    45401   Lazy Beaver Claim--  Northern Hills        Completed
             Placer Mining Plan   Ranger District
             of Operations        (11020308)
    46127   Long Creek Project   Wind River Ranger     Completed
                                  District (11021405)
    41420   Long Park AMP        Yampa Ranger          Completed
                                  District (11020601)
    25720   Pikes Peak RD 10     Pikes Peak Ranger     Completed
             Year Priority        District (11021209)
             Outfitter & Guide
             Permits
    44517   Pine Ridge           Nebraska National     Completed
             Landscape            Forest All Units
             Restoration          (11020700)
             Project
    38657   Piney 2012 Project   East Zone/Holy Cross  Completed
                                  Ranger District
                                  (11021507)
    45735   Poage Lake Spruce    Divide Ranger         Completed
             Beetle Salvage       District (11020904)
             Project
    40812   Rangeland            Hahns Peak/Bears      Completed
             Management in the    Ears Ranger
             Whiskey Creek        District (11020603)
             Analysis Area
             (formerly the
             Dudley Analysis
             Area).
    45736   Roads--Chub Draw     Pagosa Ranger         Completed
             and Gordon Creek     District (11021306)
             Gravel Pit Reentry
             and Expansion
    43903   Roaring Fork Stream  Rio Grande National   Completed
             Restoration          Forest All Units
             Project              (11020900)
    45402   Robey #1 Claim--     Northern Hills        Completed
             Placer Mining Plan   Ranger District
             of Operations        (11020308)
    44643   Snowmass Ski Trail   White River National  Completed
             Enhancements and     Forest All Units
             High Alpine          (11021500)
             Chairlift
             Replacement
    36896   Summit Huts--New     East Zone/Dillon      Completed
             Hut Construction     Ranger District
             and Associated       (11021510)
             Access Trail and
             Parking Lot
    30294   Tennessee Creek      Leadville Ranger      Completed
             Vegetation           District (11021201)
             Management Project
    45161   Town of Mountain     Norwood Ranger        Completed
             Village Waterline    District (11020405)
             Extension Project
    40865   Upper Colorado       Sulphur Ranger        Completed
             Forest Health and    District (11021008)
             Fuels Reduction
             Project
    45513   Willett Creek,       Bighorn National      Cancelled
             Forest Service       Forest All Units
             Road (FSR) 226 Re-   (11020200)
             route Project
    47194   Willett Creek,       Bighorn National      Completed
             Forest Service       Forest All Units
             Road 226 Reroute     (11020200)
             Project
    41481   Willow Creek         Parks Ranger          Completed
             Analysis Project     District (11020604)
    43154   Wilson Peak Land     Grand Mesa            Completed
             Exchange             Uncompahgre and
                                  Gunnison National
                                  Forest All Units
                                  (11020400)
------------------------------------------------------------------------
                 Region: R3--Southwestern Region (1103)
                          Decision Doc Type: DN
     NEPA Decision Signed Date Range: 10/01/2014 through 09/30/2015
                          Project Simple Format
                           Projects Found: 15
------------------------------------------------------------------------
    41041   APS NO1 Youngs to    Flagstaff Ranger      Completed
             Mormon Lake 69kV     District (11030408)
             Power Line
      184   Burro Forest         Reserve Ranger        Completed
             Restoration          District (11030606)
             Project
    46027   Chino Small Grazing  Chino Valley Ranger   Completed
             Allotments           District (11030901)
    43268   Dragoon Allotment    Douglas Ranger        Completed
             Livestock Water      District (11030501)
             Pipeline Project
    36969   El Rito Canyon       El Rito Ranger        Completed
             Landscape            District (11030202)
             Restoration
             Project
    44934   Energen Resources    Jicarilla Ranger      Completed
             Corporation Oil      District (11030203)
             and Gas Production
             Facility Special
             Use Authorization
    26496   Grazing Permit       Nogales Ranger        Completed
             Reauthorization,     District (11030502)
             Lake Allotment
    42876   Larson Forest        Black Mesa Ranger     Completed
             Restoration          District (11030102)
             Project
    34153   Magdalena Travel     Magdalena Ranger      Completed
             Management Project   District (11030303)
    41543   Plan of Operations   Globe Ranger          Completed
             for Imerys Perlite   District (11031202)
             Mine
    43312   Restoration of Rio   Black Range Ranger    Completed
             Grande Cutthroat     District (11030602)
             Trout in the
             Animas Creek
             Watershed
    36849   Santa Fe Municipal   Espanola Ranger       Completed
             Watershed Pecos      District (11031006)
             Wilderness
             Prescribed Burn
    42214   Spring Creek (Oak    Red Rock Ranger       Completed
             Creek Aquatic        District (11030406)
             Species
             Protection)
    39533   Springerville/       Springerville Ranger  Completed
             Alpine Trailhead     District (11030106)
             Environmental
             Assessment
    42814   Walnut Creek Center  Chino Valley Ranger   Completed
             for Education and    District (11030901)
             Research and
             Southwest
             Experimental
             Garden Array
------------------------------------------------------------------------
                 Region: R4--Intermountain Region (1104)
                          Decision Doc Type: DN
     NEPA Decision Signed Date Range: 10/01/2014 through 09/30/2015
                          Project Simple Format
                           Projects Found: 31
------------------------------------------------------------------------
    44545   Atwood Dam Repair    Ashley National       Completed
             Project              Forest All Units
                                  (11040100)
    38011   Ballpark Road Re-    Lost River Ranger     Completed
             Location             District (11041304)
    43169   Black Canyon CDT     Ashton/Island Park    Completed
             (Continental         (11041552)
             Divide Trail)
    41469   Cart Creek           Vernal Ranger         Completed
             Watershed Roads      District (11040102)
             Improvement
             Project
    42438   Centennial--Seligma  Ely Ranger District   Completed
             n Mine Plan          (11041709)
    21302   Cumo Exploration     Idaho City Ranger     Completed
             Project              District (11040203)
             (previously listed
             as Cumo 2007
             Project)
    44874   Dry Ridge            Montpelier Ranger     Completed
             Exploration          District (11041553)
    41401   East Walker          Bridgeport Ranger     Completed
             Landscape Habitat    District (11041702)
             Improvement
             Project
    40233   East Zone Minerals   Escalante Ranger      Completed
             Source Sites         District (11040704)
    38334   Ely Ranger District  Ely Ranger District   Completed
             Wilderness           (11041709)
             Management Plan
    44115   Green Springs        Ely Ranger District   Completed
             Exploration          (11041709)
             Project
    45873   Jackson Hole         Jackson Ranger        Completed
             Mountain Resort      District (11040304)
             Suite of Projects
    41247   Kilgore, North Area  Dubois Ranger         Completed
                                  District (11041551)
    41873   Mill Creek Dam       Salt Lake Ranger      Completed
             Removal and          District (11041901)
             Restoration
             Project
    40164   Moon Lake Boat Ramp  Roosevelt Ranger      Completed
                                  District (11040103)
    45605   Multi-use Visitor    Powell Ranger         Completed
             Path                 District (11040703)
    40313   North Elk Ridge      Monticello Ranger     Completed
             Forest Health        District (11041005)
             Project
    45097   North Heber Salvage  Heber-Kamas Ranger    Completed
             Project              District (11041903)
    34413   North Island Park    Ashton/Island Park    Completed
             WUI                  (11041552)
    37616   Old Mill WUI         Spring Mountains      Completed
             Hazardous Fuels      National Recreation
             Treatment            Area (11041705)
    36593   Overland Pass        Ruby Mountains        Completed
             Habitat              Ranger District
             Improvement          (11041707)
             Project
    37386   Sawyer Point         Cedar City Ranger     Completed
             Vegetation           District (11040702)
             Treatment
    46245   South Central Utah   Powell Ranger         Completed
             Telephone            District (11040703)
             Association
             Special Use
             Project
    42811   Stoddard Creek       Dubois Ranger         Completed
             Recreation Plan      District (11041551)
    35803   Teeple Springs       Fremont River Ranger  Completed
             Vegetation           District (11040802)
             Management Project
    42807   Thomas Draw Road     Dubois Ranger         Completed
             637 Bypass           District (11041551)
    46148   Toms Creek           Ashton/Island Park    Completed
             Powerline            (11041552)
    44514   Town of Manila Land  Flaming Gorge Ranger  Completed
             Conveyance--Manila   District (11040101)
             Landfill
    41548   Upper Provo          Heber-Kamas Ranger    Completed
             Watershed            District (11041903)
             Restoration
             Project.
    36586   Ward Mt.             Ely Ranger District   Completed
             Interagency          (11041709)
             Landscape
             Restoration and
             Fuels Reduction
             Project
    40734   West Slope Wildland- Moab Ranger District  Completed
             Urban Interface      (11041004)
             Hazardous Fuels
             Reduction Project
------------------------------------------------------------------------
               Region: R5--Pacific Southwest Region (1105)
                          Decision Doc Type: DN
     NEPA Decision Signed Date Range: 10/01/2014 through 09/30/2015
                          Project Simple Format
                           Projects Found: 38
------------------------------------------------------------------------
    42834   29 Milestone         Eldorado National     Completed
             Residence Removal    Forest All Units
                                  (11050300)
    45965   8Bald Fire Salvage   Lassen National       Completed
             and Restoration0     Forest All Units
                                  (11050600)
    39344   Bald Mountain        High Sierra Ranger    Completed
             Project              District (11051552)
    35610   Baron Ranch Trail    Santa Barbara Ranger  Completed
             Connector            District (11050754)
    40396   Bloody Run Sub-      Yuba River Ranger     Completed
             Watershed Forest     District (11051753)
             Health Improvement
             Project
    39216   Cabin Removal and    Ojai Ranger District  Completed
             Restoration          (11050755)
    33698   Carr-Tucker          Doublehead Ranger     Completed
             Allotments Water     District (11050956)
             Development
             Projects
    45698   Cedar Creek Falls    Palomar Ranger        Completed
             Visitor Use Permit   District (11050253)
             System
             Modification
    41607   Cleveland National   Cleveland National    Completed
             Forest Invasive      Forest All Units
             Weed Management      (11050200)
             Plan
    40398   Coleman Thinning     Yuba River Ranger     Completed
             Project              District (11051753)
    40981   Discovery Placer     Beckwourth Ranger     Completed
             Exploration          District (11051101)
             Project
    41631   Dry Creek Project    Truckee Ranger        Completed
                                  District (11051757)
    41661   Eagle Bird Mine      Yuba River Ranger     Completed
             Claim Group          District (11051753)
             Project
    45962   Eiler Fire Salvage   Lassen National       Completed
             and Restoration      Forest All Units
                                  (11050600)
    38566   Feather River        Almanor Ranger        Completed
             Allotment            District (11050651)
             Livestock Grazing
             Management
             Project--Name
             Change
    45636   8French Fire         Bass Lake Ranger      Completed
             Recovery and         District (11051551)
             Reforestation
             Project0
    39787   Geraldine Mining     Feather River Ranger  Completed
             Plan of Operations   District (11051103)
    32113   Gordon Hill          Gasquet Ranger        Completed
             Vegetation           District/Smith
             Management Project   River NRA
                                  (11051051)
    40385   Hayden Project       Beckwourth Ranger     Completed
                                  District (11051101)
    34802   Historic Facilities  Lake Tahoe Basin Mgt  Completed
             BMP Retrofit         Unit (11051900)
    37551   Incline Lake Dam     Lake Tahoe Basin Mgt  Completed
             Project              Unit (11051900)
    38745   Laguna Water System  Descanso Ranger       Completed
             Improvement          District (11050254)
    38743   Lake Morena          Descanso Ranger       Completed
             Community Defense    District (11050254)
             Project
    46674   Liberty Utilities    Beckwourth Ranger     Completed
             619 Power Line       District (11051101)
             Maintenance
             Project
    45313   Little Deer Project  Goosenest Ranger      Completed
                                  District (11050557)
    38544   Little Truckee Fish  Truckee Ranger        Completed
             Habitat              District (11051757)
             Improvement
             Project
    41939   McKesick Peak and    Beckwourth Ranger     Completed
             Ferris Fields        District (11051101)
             Allotments Project
    40910   Neilsen Grazing      Placerville Ranger    Completed
             Allotment            District (11050356)
             Management Plan
    42264   Parks-Eddy           Mt. Shasta Ranger     Completed
             Watershed            District (11051459)
             Restoration
    44035   Perez Pipeline       Doublehead Ranger     Completed
             Extension            District (11050956)
    35104   PG&amp;E Herbicide   Plumas National       Completed
             Vegetation           Forest All Units
             Management Program   (11051100)
    44112   Pioneer Invasive     Eagle Lake Ranger     Completed
             Plant Treatment      District (11050658)
             Project
    42877   Sierra Front OHV     White Mountain        Completed
             Restoration          Ranger District
                                  (11050453)
    44911   TCRCD Hazardous      Almanor Ranger        Completed
             Fuels Reduction      District (11050651)
    45961   Upper Pine Creek     Eagle Lake Ranger     Completed
             Boundary Fence       District (11050658)
    41757   Watershed            American River        Completed
             Restoration Near     Ranger District
             Pagge Creek and      (11051754)
             the Sugar Pine
             Staging Area
    40832   West Calaveras Thin  Calaveras Ranger      Completed
             Plantation Health    District (11051652)
             Improvement
    25380   Westside Plantation  Shasta Trinity        Completed
             Project              National Forest All
                                  Units (11051400)
------------------------------------------------------------------------
               Region: R6--Pacific Northwest Region (1106)
                          Decision Doc Type: DN
     NEPA Decision Signed Date Range: 10/01/2014 through 09/30/2015
                          Project Simple Format
                           Projects Found: 48
------------------------------------------------------------------------
    44960   1136 Spur Road       Hebo Ranger District  Completed
             Project              (11061201)
    40719   Accessible Fishing   Tonasket Ranger       Completed
             Docks Project        District (11061709)
    43087   Annie Restoration    Tonasket Ranger       Completed
             (AR) Project         District (11061709)
    45739   Bailey Butte Fire    Lookout Mountain      Completed
             Project              Ranger District
                                  (11060701)
    41022   Big Mosquito         Blue Mountain Ranger  Completed
                                  District (11060401)
    38013   Bluejay Vegetation   Chiloquin Ranger      Completed
             Restoration          District (11060212)
             Project
    44624   Bonaparte Lake and   Tonasket Ranger       Completed
             Lost Lake            District (11061709)
             Campground
             Projects
    38487   Buck Tule            Detroit Ranger        Completed
                                  District (11061804)
    41511   Cascadia Day Use     Sweet Home Ranger     Completed
             Forest Plan          District (11061803)
             Amendment and Site
             Development
    42821   Central Malheur      Emigrant Creek        Completed
             Allotment            Ranger District
                                  (11060402)
    46234   Central Oregon       Redmond Air Center    Completed
             Interagency          (11060106)
             Dispatch Center
             Building Lease
    43726   Chewuch River        Methow Valley Ranger  Completed
             Restoration RM 13-   District (11061704)
             15.5
    43264   Cool Soda            Sweet Home Ranger     Completed
                                  District (11061803)
    43484   Crooked Mud Honey    Lakeview Ranger       Completed
                                  District (11060202)
    42153   Deer Jasper          Three Rivers Ranger   Completed
             Restoration          District (11062112)
             Project
    43646   Dry Restoration      Naches Ranger         Completed
                                  District (11061708)
    32129   Elk 16               Prairie City Ranger   Completed
                                  District (11060404)
    37320   Grove Thin           Clackamas River       Completed
                                  Ranger District
                                  (11060605)
    44548   Hansen Creek         North Bend Ranger     Completed
             Vegetation Project   District (11060505)
    43733   Indian Ford Creek    Sisters Ranger        Completed
             Restoration          District (11060105)
             Project
    44567   Izee Allotment       Emigrant Creek        Completed
             Management Plan      Ranger District
                                  (11060402)
    32816   Junction Vegetation  Bend/Fort Rock        Completed
             Management Project   Ranger District
                                  (11060101)
    40686   Lava Restoration     Hood River Ranger     Completed
                                  District (11060606)
    21280   Little Dean Fuels    Whitman Ranger        Completed
             Vegetation           District (11061631)
             Management
    45715   Mt. Baker Ranger     Mt. Baker-Snoqualmie  Completed
             District             National Forest All
             Geothermal Consent   Units (11060500)
             to Lease Project
    30232   Newberry Geothermal  Bend/Fort Rock        Completed
             Consent to Lease     Ranger District
             Project              (11060101)
    43665   North Fork Mill      Hood River Ranger     Completed
             Creek Revised        District (11060606)
    46300   North Pine Creek     Hells Canyon NRA      Completed
             Channel              (11061604)
             Restoration
    41044   Queets Vegetation    Pacific Ranger        Completed
             Management           District South
                                  (11060903)
    42639   Red Butte Cinder     Bend/Fort Rock        Completed
             Pit Expansion        Ranger District
                                  (11060101)
    41515   Renshaw Vegetation   Sullivan Lake Ranger  Completed
             Management Project   District (11062105)
             EA
    28900   Research Natural     Bend/Fort Rock        Completed
             Area                 Ranger District
             Establishment--Hea   (11060101)
             dwaters of the
             Cultus River
    28899   Research Natural     Bend/Fort Rock        Completed
             Area                 Ranger District
             Establishment--Kat   (11060101)
             suk Butte
    28897   Research Natural     Bend/Fort Rock        Completed
             Area                 Ranger District
             Establishment--Man   (11060101)
             y Lakes
    28898   Research Natural     Bend/Fort Rock        Completed
             Area                 Ranger District
             Establishment--Wec   (11060101)
             hee Butte
    42022   Riparian Weed        Willamette National   Completed
             Treatment Project    Forest All Units
                                  (11061800)
    42664   Science and          Gifford Pinchot       Completed
             Learning Center at   National Forest All
             Coldwater Camp       Units (11060300)
    39933   South Nestucca       Hebo Ranger District  Completed
             Restoration          (11061201)
             Project
    46112   South Summit Forest  Methow Valley Ranger  Completed
             and Fuels II         District (11061704)
    42769   Stevens Pass Phase   Mt. Baker-Snoqualmie  Completed
             3                    National Forest All
                                  Units (11060500)
    33407   Sucker Creek Legacy  Wild Rivers Ranger    Completed
             Roads and Trails     District (11061022)
             Project
    46147   Trout habitat        Newport Ranger        Completed
             Restoration          District (11062103)
             Program Fish
             Habitat
             Improvements
             Programmatic EA
    25671   Umpqua National      Umpqua National       Completed
             Forest Travel        Forest All Units
             Management Plan      (11061500)
    40801   Wenaha Wild and      Pomeroy Ranger        Completed
             Scenic River         District (11061404)
             Comprehensive
             River Management
             Plan
    45021   West Branch LeClerc  Sullivan Lake Ranger  Completed
             Creek Watershed      District (11062105)
             Restoration
    45208   White King/Lucky     Lakeview Ranger       Completed
             Lass Mines           District (11060202)
             Withdrawal
             Extension
    40194   Willow Sump          North Umpqua Ranger   Completed
             Invasive Plant       District (11061506)
             Project
    42301   Wolf Project         Emigrant Creek        Completed
                                  Ranger District
                                  (11060402)
------------------------------------------------------------------------
                   Region: R8--Southern Region (1108)
                          Decision Doc Type: DN
     NEPA Decision Signed Date Range: 10/01/2014 through 09/30/2015
                          Project Simple Format
                           Projects Found: 41
------------------------------------------------------------------------
    45473   2015 Gypsy Moth      George Washington     Completed
             Slow the Spread      and Jefferson
             Project              National Forest All
                                  Units (11080800)
    44473   Amaranthine          Talladega Ranger      Completed
             Environmental        District (11080106)
             Assessment
    45300   Amendment to the     St. Francis Ranger    Completed
             Original             District (11081007)
             Environmental
             Assessment for the
             Louisiana Purchase
             Baseline Trail
    46170   Bee Ridge            Pleasant Hill Ranger  Completed
                                  District (11081004)
    43056   Big Brushy           Mena Ranger District  Completed
             Campground           (11080907)
    42157   BNF Rush Creek/NFSR  Bankhead Ranger       Completed
             263 Culvert          District (11080101)
             Replacement
             Project
    38850   C63 Project          Angelina Ranger       Completed
                                  District (11081301)
    30460   Camp Livingston      Catahoula Ranger      Completed
             Ecosystem            District (11080601)
             Management Project
    38856   Cane Pole Multiple   Nantahala Ranger      Completed
             Resource             District (11081111)
             Management Project
    42106   Caney Shortleaf      Caney Ranger          Completed
             Restoration          District (11080606)
             Project
    43592   Christopher          Womble Ranger         Completed
             Mountain             District (11080910)
             Restoration
             Project
    43233   Columbia Co. and     National Forests In   Completed
             Plum Creek Land      Florida All Units
             Exchange             (11080500)
    44038   Compartment 112      Sam Houston Ranger    Completed
             Longleaf Pine        District (11081304)
             Restoration
             Project
    44637   Fariview Campground  R8--Southern Region   Completed
             Decommission         All Units
             Project              (11080000)
    45239   Forest Health EA     Seminole Ranger       Completed
                                  District (11080505)
    46077   Forest Supervisor's  Daniel Boone          Completed
             Closure Orders       National Forest All
                                  Units (11080200)
    41944   Georgia Aster and    Enoree Ranger         Completed
             Shortleaf Pine       District (11081201)
             Management
    43526   Giant Cane           Enoree Ranger         Completed
             Restoration          District (11081201)
             Project on the
             Enoree Ranger
             District
    40077   Grandfather          Grandfather Ranger    Completed
             District             District (11081105)
             Restoration Burns
    42468   Greater Collier      Bankhead Ranger       Completed
             Watershed Forest     District (11080101)
             Health and
             Restoration
             Project
    42473   Horn Mountain        Talladega Ranger      Completed
             Communication        District (11080106)
             Tower
    45629   Howard Creek         Francis Marion and    Completed
             Restoration          Sumter National
             Project              Forest All Units
                                  (11081200)
    43611   Locust Gap           Pleasant Hill Ranger  Completed
                                  District (11081004)
    40207   London Fuels         London Ranger         Completed
             Treatment            District (11080214)
    42570   Mount Ida Watershed  Womble Ranger         Completed
             Restoration          District (11080910)
             Management Project
    39772   NFsAL Indiana Bat    National Forests in   Completed
             Forest Plan          Alabama All Units
             Amendment            (11080100)
    42090   Nickleson Branch     Oden Ranger District  Completed
                                  (11080908)
    41436   Oconee Range         Oconee Ranger         Completed
             Allotment            District (11080308)
    45858   Pipeline Northwest   Oakmulgee Ranger      Completed
             Restoration Plan     District (11080104)
    43274   Pleasant Hill        Pleasant Hill Ranger  Completed
             Wildlife Habitat     District (11081004)
             Improvement
    40286   Potato Hill          Fourche Ranger        Completed
             Mountain             District (11080904)
    43562   Road/trail           Conasauga Ranger      Completed
             decommissioning      District (11080301)
             and trail seasonal
             closures
    44925   Shoal Creek Road     Shoal Creek Ranger    Completed
             Access               District (11080105)
    46503   Southern Creek       Mena Ranger District  Completed
             Ouachita River       (11080907)
    40305   Spirits Project      Boston Mountain       Completed
                                  Ranger District
                                  (11081005)
    40500   Suppression of       National Forests In   Completed
             Southern Pine        Texas All Units
             Beetle               (11081300)
             Infestations in
             Wildernesses in
             the National
             Forests in Texas.
    41170   Three Knob Project   Bayou Ranger          Completed
                                  District (11081003)
    43553   Upper Kisatchie      Kisatchie Ranger      Completed
             Bayou Sub            District (11080603)
             Watershed Project
    44143   US 17, NCDOT         National Forests In   Completed
             Project              North Carolina All
                                  Units (11081100)
    44366   Watson Hill LLC      Long Cane Ranger      Completed
             Vegetation           District (11081203)
             Management and
             Timber Sale
             Project
    33235   Wolf Pen Gap 2011    Mena Ranger District  Completed
             Project              (11080907)
------------------------------------------------------------------------
                    Region: R9--Eastern Region (1109)
                          Decision Doc Type: DN
     NEPA Decision Signed Date Range: 10/01/2014 through 09/30/2015
                          Project Simple Format
                           Projects Found: 33
------------------------------------------------------------------------
    46076   2015 Gypsy Moth      Athens Ranger         Completed
             Slow the Spread      District (11091401)
             Project
    43438   Administrative       White Mountain        Completed
             Radio Repeater       National Forest All
             Improvement          Units (11092200)
             Project
    41796   Ameren Powerline     Shawnee National      Completed
             Reconstruction       Forest All Units
             Project              (11090800)
    44135   Bigelow-Newaygo      Baldwin/White Cloud   Completed
             Project              Ranger District
                                  (11090401)
    41621   Bison Introduction   Midewin National      Completed
             and Grazing          Tallgrass Prairie
                                  All Units
                                  (11091500)
    43807   Black Locust         Cadillac/Manistee     Completed
             Fuelwood EA          Ranger District
                                  (11090403)
    41633   Boyden Brook Road    Rochester Ranger      Completed
             Decommission,        District (11092005)
             Watershed
             Restoration and
             Trail Relocation
             Project
    43303   Briggs and Bridge    Mio Ranger District   Completed
             KW and Hazardous     (11090405)
             Fuels Project
    45414   Chequamegon Salvage  Chequamegon/Nicolet   Completed
             and Restoration      National Forest All
                                  Units (11091300)
    40660   Cook County Land     Superior National     Completed
             Exchange             Forest All Units
                                  (11090900)
    42959   Eureka Gravel        Washburn Ranger       Completed
             Source Development   District (11091305)
             Project
    39955   Fremont-Pineknot     Doniphan/Eleven       Completed
             East Restoration     Point Ranger
             Project              District (11090523)
    42945   Gardner Land-for-    Mio Ranger District   Completed
             Land Exchange        (11090405)
    41839   Gilmore Aspen        Middlebury Ranger     Completed
             Management Project   District (11092001)
    33106   Glen Ellis Falls     Androscoggin Ranger   Completed
             Day Use Area Site    District (11092202)
             Improvement
             Project
    44672   Hunters Creek Road   Hoosier National      Completed
             Right-of-Way         Forest All Units
             Conveyance           (11091200)
    40494   Jakes Rocks Epic     Bradford Ranger       Completed
             Mountain Bike        District (11091903)
             Trail
    39573   Knutson Dam          Blackduck Ranger      Completed
             Improvement          District (11090301)
             Project
    43639   Laurentian           Deer River Ranger     Completed
             Vegetation           District (11090303)
             Managment Project
    44286   Morgan Lake          Eagle River-Florence  Completed
             Campground ATV       Ranger District
             Designation          (11091303)
    45310   North Fork Access    Ava/Cassville/Willow  Completed
                                  Springs Ranger
                                  District (11090521)
    40841   Pearl Project        Kawishiwi Ranger      Completed
                                  District (11090905)
    37233   Phragmites           Shawnee National      Completed
             Eradication          Forest All Units
                                  (11090800)
    43270   Ramsey Branch        Hidden Springs        Completed
             Hardwood             Ranger District
             Restoration          (11090804)
    42975   Red Pine Thinning    Ottawa National       Completed
             Project              Forest All Units
                                  (11090700)
    44674   Sell Special Use     Hoosier National      Completed
             Permit               Forest All Units
                                  (11091200)
    42197   SEMO Grazing         Doniphan/Eleven       Completed
             Allotments Project   Point Ranger
                                  District (11090523)
    44591   Shingobee            Walker Ranger         Completed
             Vegetation           District (11090305)
             Management Project
    45228   Smithers RAPRA       Hiawatha National     Completed
             Special Use Permit   Forest All Units
             Reissuance           (11091000)
    45814   Supplement to the    Pemigewasset Ranger   Completed
             Green Peak           District (11092204)
             Expansion and
             Trail Construction
             at Waterville
             Valley Ski Resort
    45339   Sweetwater Non-      Baldwin/White Cloud   Completed
             Motorized Winter     Ranger District
             Trail                (11090401)
    28198   Upper Greenbrier     Greenbrier Ranger     Completed
             North                District (11092103)
    41909   Windy Project        Tofte Ranger          Completed
                                  District (11090907)
------------------------------------------------------------------------
                    Region: R10--Alaska Region (1110)
                          Decision Doc Type: DN
     NEPA Decision Signed Date Range: 10/01/2014 through 09/30/2015
                          Project Simple Format
                           Projects Found: 16
------------------------------------------------------------------------
    45109   Anan Floating Dock   Wrangell Ranger       Completed
                                  District (11100522)
    45851   Baranof Island       Sitka Ranger          Completed
             Brewing Company      District (11100531)
             Special Forest
             Products Permit
             for the Harvest of
             Spruce Tips
    43521   Davidson Creek       Juneau Ranger         Completed
             Falls Fish Passage   District (11100533)
    45795   Hard Labor Mining    Seward Ranger         Completed
             Plan of Operations   District (11100430)
    47104   Ice Box Mining Plan  Seward Ranger         Completed
             of Operations        District (11100430)
    41219   Kruzof Island        Sitka Ranger          Completed
             Outfitter Guide EA   District (11100531)
    43699   Lena Beach           Juneau Ranger         Completed
             Recreation Area      District (11100533)
             Renovation
    45010   Margaret Wildlife    Ketchikan--Misty      Completed
             Observation          Ranger District
             Enhancements         (11100552)
    37050   Mendenhall Glacier   Juneau Ranger         Completed
             Recreation Area      District (11100533)
             Planning
    29099   8Mitkof Island0      Petersburg Ranger     Completed
                                  District (11100521)
    43147   Sand Trail Parking   Cordova Ranger        Completed
             Area Construction    District (11100420)
             Project
    47105   Three D mining plan  Seward Ranger         Completed
             of operations        District (11100430)
    45794   Timberline & Stormy  Seward Ranger         Completed
             Mining Plan of       District (11100430)
             Operations
    43698   West Glacier Spur    Juneau Ranger         Completed
             Road Area            District (11100533)
             Enhancements
    45887   White Rock Mining    Seward Ranger         Completed
             Plan of Operations   District (11100430)
    45711   Wood Bison Project-- Glacier Ranger        Completed
             Supplemental EA      District (11100410)
------------------------------------------------------------------------

                             [attachment 4]

                       Project Search Constraints
   (This report contains the best available information at the time the
                          data was published.)
------------------------------------------------------------------------
  Project                                                 Overall NEPA
    No.         Project Name     Lead Management Unit    Process Status
------------------------------------------------------------------------
                   Region: R1--Northern Region (1101)
                         Decision Doc Type: ROD
     NEPA Decision Signed Date Range: 10/01/2014 through 09/30/2015
                          Project Simple Format
                           Projects Found: 10
------------------------------------------------------------------------
    29614   Cedar-Thom           Superior Ranger       Completed
                                  District (11011607)
    33829   Como Forest Health   Darby Ranger          Completed
             Project (FHP)        District (11010302)
    40648   Crooked River        Nez Perce-Clearwater  Completed
             Valley               National Forest All
             Rehabilitation       Units (11011700)
             Project
    25807   6East Deer Lodge     Pintler Ranger        Completed
             Valley Landscape     District (11010208)
             Restoration
             Management0
    34594   8East Reservoir0     Libby Ranger          Completed
                                  District (11011405)
     9850   Forest Plan          Kootenai National     Completed
             Revision             Forest All Units
                                  (11011400)
    41368   8Greater Red Lodge   Beartooth Ranger      Completed
             Vegetation and       District (11010802)
             Habitat Management
             Project0
    38916   6Greater Sage-       Beaverhead-Deerlodge  Completed
             grouse Management    National Forest All
             Direction--Beaverh   Units (11010200)
             ead--Deerlodge
             National Forest0
      894   Idaho Panhandle and  Idaho Panhandle       Completed
             Kootenai National    National Forest All
             Forest, Forest       Units (11010400)
             Plan Revision
    45758   Lower Orogrande      Nez Perce-Clearwater  Completed
                                  National Forest All
                                  Units (11011700)
------------------------------------------------------------------------
                Region: R2--Rocky Mountain Region (1102)
                         Decision Doc Type: ROD
     NEPA Decision Signed Date Range: 10/01/2014 through 09/30/2015
                          Project Simple Format
                           Projects Found: 13
------------------------------------------------------------------------
    46080   8Greater Sage-       Medicine Bow-Routt    Completed
             grouse Management    National Forest All
             Direction--Medicin   Units (11020600)
             e Bow NF and
             Thunder Basin
             National
             Grassland0
    43846   WRNF Wild and        White River National  Completed
             Scenic River         Forest All Units
             Suitability Study    (11021500)
    30774   Black Hills          Black Hills National  Completed
             National Forest      Forest All Units
             and Thunder Basin    (11020300)
             National
             Grasslands Power
             230 Kv Line
    34685   Cumbres Vegetation   Conejos Peak Ranger   Completed
             Management Project   District (11020903)
    38944   Gore Creek           Yampa Ranger          Completed
             Restoration          District (11020601)
    38134   6Greater Sage-       Douglas and Thunder   Completed
             grouse               Basin Ranger
             Conservation         District (11020609)
             Measures--Thunder
             Basin NG Plan
             Amendment0
    38913   8Greater Sage-       Medicine Bow-Routt    Completed
             grouse Management    National Forest All
             Direction--Routt     Units (11020600)
             NF0
    19692   Invasive Plant       Medicine Bow-Routt    Completed
             Management EIS for   National Forest All
             the Medicine Bow--   Units (11020600)
             Routt NFs and
             Thunder Basin NG
    37026   Middle Bald          Canyon Lakes Ranger   Completed
             Mountain Area        District (11021005)
             Communication Site
    41812   Pawnee National      Arapaho and           Completed
             Grassland Oil and    Roosevelt National
             Gas Leasing          Forests All Units
             Analysis             (11021000)
     6719   Shoshone Forest      Shoshone National     Completed
             Plan Revision        Forest All Units
                                  (11021400)
    40682   Vail Mountain        East Zone/Holy Cross  Completed
             Recreation           Ranger District
             Enhancements         (11021507)
    35945   8Village at Wolf     Rio Grande National   Completed
             Creek Access         Forest All Units
             Project0             (11020900)
------------------------------------------------------------------------
                 Region: R3--Southwestern Region (1103)
                         Decision Doc Type: ROD
     NEPA Decision Signed Date Range: 10/01/2014 through 09/30/2015
                          Project Simple Format
                            Projects Found: 4
------------------------------------------------------------------------
    27239   Apache-Sitgreaves    Apache-Sitgreaves     Completed
             NFs Revised Land &   National Forests
             Resource             All Units
             Management Plan      (11030100)
    34857   Four-Forest          Coconino National     Completed
             Restoration          Forest All Units
             Initiative EIS:      (11030400)
             Kaibab and
             Coconino
    31102   Prescott National    Prescott National     Completed
             Forest Revision of   Forest All Units
             Land and Resource    (11030900)
             Management Plan
    10919   Special-Use Permits  Safford Ranger        Completed
             for Occupancy of     District (11030504)
             Recreation
             Residences at Old
             Columbine and
             Turkey Flat,
             Safford
------------------------------------------------------------------------
                 Region: R4--Intermountain Region (1104)
                         Decision Doc Type: ROD
     NEPA Decision Signed Date Range: 10/01/2014 through 09/30/2015
                          Project Simple Format
                            Projects Found: 8
------------------------------------------------------------------------
    27442   8Golden Hand #1 and  Payette National      Completed
             #2 Lode Mining       Forest All Units
             Claims Plan of       (11041200)
             Operations [81]0
    38914   6Greater Sage-       Bridger-Teton         Completed
             grouse Management    National Forest All
             Direction--Bridger-  Units (11040300)
             Teton National
             Forest0
    38918   8Greater Sage-       Humboldt-Toiyabe      Completed
             grouse Management    National Forest All
             Direction--Humbold   Units (11041700)
             t-Toiyabe National
             Forest0
    38922   6Greater Sage-       R4--Intermountain     Completed
             grouse Management    Region All Units
             Direction--Idaho0    (11040000)
    38915   8Greater Sage-       R4--Intermountain     Completed
             grouse Management    Region All Units
             Direction--Utah0     (11040000)
    17068   Hooper Springs       Soda Springs Ranger   Completed
             Transmission Line    District (11041555)
    42401   Panels F and G       Soda Springs Ranger   Completed
             Lease and Mine       District (11041555)
             Plan Modification
             Project at Smoky
             Canyon Mine
    33793   Upper North Fork     North Fork Ranger     Completed
             HFRA Ecosystem       District (11041307)
             Restoration
             Project
------------------------------------------------------------------------
               Region: R5--Pacific Southwest Region (1105)
                         Decision Doc Type: ROD
     NEPA Decision Signed Date Range: 10/01/2014 through 09/30/2015
                          Project Simple Format
                            Projects Found: 6
------------------------------------------------------------------------
    28599   California Pacific   Lake Tahoe Basin Mgt  Completed
             Electricity          Unit (11051900)
             Company 625 and
             650 Electrical
             Line Upgrade
             Project
    30324   6Harris Vegetation   McCloud Ranger        Completed
             Management0          District (11051461)
    43163   Heavenly Epic        Lake Tahoe Basin Mgt  Completed
             Discovery Project    Unit (11051900)
    45952   King Fire            Eldorado National     Completed
             Restoration          Forest All Units
                                  (11050300)
    35130   Southern California  Cleveland National    Completed
             National Forests     Forest All Units
             Land Management      (11050200)
             Plan Amendment
    15504   Tule River           Western Divide        Completed
             Reservation          Ranger District
             Protection Project   (11051352)
------------------------------------------------------------------------
               Region: R6--Pacific Northwest Region (1106)
                         Decision Doc Type: ROD
     NEPA Decision Signed Date Range: 10/01/2014 through 09/30/2015
                          Project Simple Format
                            Projects Found: 6
------------------------------------------------------------------------
    34220   10C Designated       Siuslaw National      Completed
             Routes Project       Forest All Units
                                  (11061200)
    38873   Bannon,Aeneas,Revis  Tonasket Ranger       Completed
             and Tunk--revised    District (11061709)
             grazing allotment
             plan for 4
             allotments.
    22404   D-Bug Hazard         Diamond Lake Ranger   Completed
             Reduction Timber     District (11061503)
             Sale Project
    34208   Invasive Plant       Mt. Baker-Snoqualmie  Completed
             Management           National Forest All
                                  Units (11060500)
    30717   Lower Imnaha         Hells Canyon NRA      Completed
             Rangeland Analysis   (11061604)
    35614   Malheur National     Malheur National      Completed
             Forest Site-         Forest All Units
             Specific Invasive    (11060400)
             Plants Treatment
------------------------------------------------------------------------
                   Region: R8--Southern Region (1108)
                         Decision Doc Type: ROD
     NEPA Decision Signed Date Range: 10/01/2014 through 09/30/2015
                          Project Simple Format
                            Projects Found: 2
------------------------------------------------------------------------
    44310   Chester County       Francis Marion and    Completed
             Stream and           Sumter National
             Riparian             Forest All Units
             Restoration/         (11081200)
             Enhancement
             Project
    31884   Revised Land and     George Washington     Completed
             Resource             and Jefferson
             Management Plan      National Forest All
             for the George       Units (11080800)
             Washington
             National Forest
------------------------------------------------------------------------
                    Region: R10--Alaska Region (1110)
                         Decision Doc Type: ROD
     NEPA Decision Signed Date Range: 10/01/2014 through 09/30/2015
                          Project Simple Format
                            Projects Found: 2
------------------------------------------------------------------------
    14556   Navy Timber Sale     Wrangell Ranger       Completed
                                  District (11100522)
    23483   Resurrection Creek   Seward Ranger         Completed
             Restoration Phase    District (11100430)
             II
------------------------------------------------------------------------

                             [attachment 5]
    1/8/2016: Based on data available in PALS and CARA
    This report shows all USFS Projects in FY 2015 that received at 
least one objection letter and a draft or a final decision exists 
(total 100).

------------------------------------------------------------------------
  Project    Project                       Decision    Decision   Decis.
    No.        Name      Region     LMU      Name    Signed Date   Type
------------------------------------------------------------------------
    33238   Flint             1   Beaverh
             Foothill              ead-
             s                     Deerlo
             Vegetati              dge
             on                    Nation
             Manageme              al
             nt                    Forest
             Project               All
                                   Units
                                   (11010
                                   200)
    30894   Trapper           1   Wise     Trapper    12/01/2014  DN
             Creek                 River    Creek
             Vegetati              Ranger   Vegetat
             on                    Distri   ion
             Manageme              ct       Managem
             nt                    (11010   ent
                                   202)     Project
    35069   Butte             1   Butte    Butte      10/09/2015  DN
             Highland              Ranger   Highlan
             Mine                  Distri   d Mine
             Haul                  ct       Haul
             Road                  (11010   Road
                                   204)
    25807   East Deer         1   Pintler  East       03/30/2015  ROD
             Lodge                 Ranger   Deerlod
             Valley                Distri   ge
             Landscap              ct       Valley
             e                     (11010   Landsca
             Restorat              208)     pe
             ion                            Restora
             Manageme                       tion
             nt                             Managem
                                            ent
                                            Project
    21183   Bitterroo         1   Bitterr
             t                     oot
             National              Nation
             Forest                al
             Travel                Forest
             Manageme              All
             nt                    Units
             Planning              (11010
                                   300)
    36615   Darby             1   Darby    Darby      07/02/2015  DN
             Lumber                Ranger   Lumber
             Lands                 Distri   Lands
             Watershe              ct       Watersh
             d                     (11010   ed
             Improvem              302)     Imp.and
             ent and                        Travel
             Travel                         Mgt.
             Manageme                       Project
             nt                             Decisio
             Project                        n Memo
    33829   Como              1   Darby    Como       07/14/2015  ROD
             Forest                Ranger   Forest
             Health                Distri   Health
             Project               ct       Project
             (FHP)                 (11010   Record
                                   302)     of
                                            Decisio
                                            n
    42483   Bottom            1   Fernan   Bottom     08/11/2015  DN
             Canyon                Ranger   Canyon
             Project               Distri   Project
                                   ct
                                   (11010
                                   403)
    40785   Hellroari         1   Bonners  Decision   08/04/2015  DN
             ng                    Ferry    Notice
                                   Ranger   and
                                   Distri   FONSI
                                   ct       for the
                                   (11010   Hellroa
                                   407)     ring
                                            Project
    41368   Greater           1   Beartoo  Greater    05/19/2015  ROD
             Red                   th       Red
             Lodge                 Ranger   Lodge
             Vegetati              Distri   Vegetat
             on and                ct       ion and
             Habitat               (11010   Habitat
             Manageme              802)     Managem
             nt                             ent
             Project                        Project
    38754   Martin            1   Tally    Martin     06/29/2015  DN
             Creek                 Lake     Creek
             Resource              Ranger   Resourc
             Manageme              Distri   e
             nt                    ct       Managem
             Project               (11011   ent
                                   008)     Project
                                            Decisio
                                            n
                                            Notice
    27201   Gallatin          1   Custer   Gallatin   11/02/2015  DN
             Forest                Gallat   Forest
             Plan                  in       Plan
             Amendmen              Nation   Amendme
             t to                  al       nt to
             Remove                Forest   Remove
             or                    All      or
             Replace               Units    Replace
             Outdated              (11011   Outdate
             Manageme              100)     d
             nt                             Managem
             Directio                       ent
             n (Clean                       Directi
             Up                             on
             Amendmen                       (Clean
                                            Up
                                            Amendme
                                            n
    41100   Sweet             1   Yellows  Sweetgra   05/21/2015  DN
             Grass                 tone     ss
             Integrat              Ranger   Restora
             ed                    Distri   tion
             Resource              ct       and
             Resilien              (11011   Resilie
             cy and                104)     ncy
             Restorat                       Project
             ion
    24091   Divide            1   Helena
             Travel                Ranger
             Plan                  Distri
                                   ct
                                   (11011
                                   202)
    30355   Stonewall         1   Lincoln
             Vegetati              Ranger
             on                    Distri
             Project               ct
                                   (11011
                                   204)
    11743   Montanore         1   Kootena
             Project               i
                                   Nation
                                   al
                                   Forest
                                   All
                                   Units
                                   (11011
                                   400)
    33676   Highwood          1   Judith   Arrowhea   09/25/2015  DN
             Mountain              Ranger   d
             s Range               Distri   Allotme
                                   ct       nt DN
                                   (11011
                                   504)
    33676   Highwood          1   Judith   Highwood   09/25/2015  DN
             Mountain              Ranger   Allotme
             s Range               Distri   nt DN,
                                   ct
                                   (11011
                                   504)
    33676   Highwood          1   Judith   Little     09/25/2015  DN
             Mountain              Ranger   Belt
             s Range               Distri   Cr.,Mar
                                   ct       tin
                                   (11011   Cr.,She
                                   504)     d
                                            Cr.,Tho
                                            mas
                                            Corner
                                            &
                                            Yendric
                                            k
                                            Allotme
                                            nts DN
    29614   Cedar-            1   Superio  Cedar-     02/25/2015  ROD
             Thom                  r        Thom
                                   Ranger
                                   Distri
                                   ct
                                   (11011
                                   607)
    38021   Clear             1   Nez      Clear      12/17/2015  ROD
             Creek                 Perce-   Creek
             Integrat              Clearw   Integra
             ed                    ater     ted
             Restorat              Nation   Restora
             ion                   al       tion
             Project               Forest   Project
                                   All
                                   Units
                                   (11011
                                   700)
    40648   Crooked           1   Nez      Crooked    07/21/2015  ROD
             River                 Perce-   River
             Valley                Clearw   Valley
             Rehabili              ater     Rehabil
             tation                Nation   itation
             Project               al       -Final
                                   Forest   Record
                                   All      of
                                   Units    Decisio
                                   (11011   n
                                   700)
    45758   Lower             1   Nez      Lower      04/24/2015  ROD
             Orogrand              Perce-   Orogran
             e                     Clearw   de
                                   ater     Record
                                   Nation   of
                                   al       Decisio
                                   Forest   n
                                   All
                                   Units
                                   (11011
                                   700)
    38517   Strychnin         1   Palouse  Decision   04/13/2015  DN
             e Pine                Ranger   Notice
                                   Distri   and
                                   ct       Finding
                                   (11011   of No
                                   752)     Signifi
                                            cant
                                            Impact-
                                            -Strych
                                            nine
                                            Pine
    38515   Barnyard          1   North    Barnyard   07/08/2015  DN
             South                 Fork     South
             Sheep                 Ranger   Sheep
                                   Distri
                                   ct
                                   (11011
                                   753)
    30774   Black             2   Black    Teckla-    05/18/2015  ROD
             Hills                 Hills    Osage-
             National              Nation   Rapid
             Forest                al       City
             and                   Forest   230 kV
             Thunder               All      Transmi
             Basin                 Units    ssion
             National              (11020   Line
             Grasslan              300)     Project
             ds Power
             230 Kv
             Line
    43154   Wilson            2   Grand    Wilson     09/03/2015  DN
             Peak                  Mesa     Peak
             Land                  Uncomp   Land
             Exchange              ahgre    Exchang
                                   and      e
                                   Gunnis
                                   on
                                   Nation
                                   al
                                   Forest
                                   All
                                   Units
                                   (11020
                                   400)
    30090   Steamboat         2   Hahns    Steamboa   10/01/2015  DN
             Front                 Peak/    t Front
                                   Bears    Hazardo
                                   Ears     us
                                   Ranger   Fuels
                                   Distri   Reducti
                                   ct       on
                                   (11020   Project
                                   603)
    40812   Rangeland         2   Hahns    Rangelan   07/30/2015  DN
             Manageme              Peak/    d
             nt in                 Bears    Managem
             the                   Ears     ent in
             Whiskey               Ranger   the
             Creek                 Distri   Whiskey
             Analysis              ct       Creek
             Area                  (11020   analysi
             (formerl              603)     s area
             y the
             Dudley
             Analysis
             Area).
    39610   Cain              2   Nebrask  Cain       07/02/2015  DN
             Creek                 a        Creek
             Land                  Nation   Land
             Exchange              al       Exchang
                                   Forest   e
                                   All
                                   Units
                                   (11020
                                   700)
    35945   Village           2   Rio      Final      05/21/2015  ROD
             at Wolf               Grande   Record
             Creek                 Nation   of
             Access                al       Decisio
             Project               Forest   n
                                   All      Village
                                   Units    at Wolf
                                   (11020   Creek
                                   900)     Access
                                            Project
    41812   Pawnee            2   Arapaho  Decision   02/09/2015  ROD
             National              and      for the
             Grasslan              Roosev   Pawnee
             d Oil                 elt      Nationa
             and Gas               Nation   l
             Leasing               al       Grassla
             Analysis              Forest   nd Oil
                                   s All    and Gas
                                   Units    Leasing
                                   (11021   Analysi
                                   000)     s
    42285   Eldora            2   Boulder  Eldora     10/01/2015  ROD
             Mountain              Ranger   Mountai
             Resort                Distri   n
             Ski Area              ct       Resort
             Projects              (11021   Ski
                                   001)     Area
                                            Project
                                            s
    18244   Colorado          2   Boulder
             State                 Ranger
             Highway               Distri
             7                     ct
             Recreati              (11021
             on                    001)
             Improvem
             ents
             Plan
    41474   Cherokee          2   Canyon   Decision   05/26/2015  DN
             Park                  Lakes    Notice
             Project               Ranger   and
                                   Distri   Finding
                                   ct       of No
                                   (11021   Signifi
                                   005)     cant
                                            Impact:
                                            Cheroke
                                            e Park
                                            Project
    37026   Middle            2   Canyon   Middle     12/17/2014  ROD
             Bald                  Lakes    Bald
             Mountain              Ranger   Mountai
             Area                  Distri   n Area
             Communic              ct       Communi
             ation                 (11021   cation
             Site                  005)     Site
                                            Record
                                            of
                                            Decisio
                                            n
    43000   Forest            2   Columbi  Fosset     01/05/2015  DN
             Health--              ne       Gulch/
             Fosset                Ranger   Norther
             Gulch/                Distri   n HD's
             Northern              ct       Ecosyst
             HDs                   (11021   em
             Ecosyste              308)     Restora
             m                              tion
             Restorat                       Project
             ion
             Project
    29938   White             2   White    White      12/03/2015  ROD
             River                 River    River
             National              Nation   Nationa
             Forest                al       l
             Oil and               Forest   Forest
             Gas                   All      Oil and
             Leasing               Units    Gas
             Environm              (11021   Leasing
             ental                 500)     Environ
             Impact                         mental
             Statemen                       Impact
             t                              Stateme
                                            nt
    42876   Larson            2   Black    Larson     08/13/2015  DN
             Forest                Mesa     Forest
             Restorat              Ranger   Restora
             ion                   Distri   tion
             Project               ct       Project
                                   (11030
                                   102)
    34153   Magdalena         3   Magdale  Magdalen   09/30/2015  DN
             Travel                na       a
             Manageme              Ranger   Travel
             nt                    Distri   Managem
             Project               ct       ent
                                   (11030   Project
                                   303)
    34857   Four-             3   Coconin  Record     04/17/2015  ROD
             Forest                o        of
             Restorat              Nation   Decisio
             ion                   al       n for
             Initiati              Forest   the
             ve EIS:               All      Four-
             Kaibab                Units    Forest
             and                   (11030   Restora
             Coconino              400)     tion
                                            Initiat
                                            ive
    43534   Angell            3   Flagsta  Angell     11/20/2015  DN
             Grazing               ff       Allotme
             Alltomen              Ranger   nt
             t                     Distri   Finding
                                   ct       of No
                                   (11030   Signifi
                                   408)     cant
                                            Impact
                                            and
                                            Decisio
                                            n
                                            Notice
    46027   Chino             3   Chino    Hitt       09/29/2015  DN
             Small                 Valley   Wash
             Grazing               Ranger   Grazing
             Allotmen              Distri   Allotme
             ts                    ct       nt
                                   (11030   Managem
                                   901)     ent
    46027   Chino             3   Chino    Old Camp   09/29/2015  DN
             Small                 Valley   Grazing
             Grazing               Ranger   Allotme
             Allotmen              Distri   nt
             ts                    ct       Managem
                                   (11030   ent
                                   901)
    46027   Chino             3   Chino    Quartz     09/29/2015  DN
             Small                 Valley   Wash
             Grazing               Ranger   Grazing
             Allotmen              Distri   Allotme
             ts                    ct       nt
                                   (11030   Managem
                                   901)     ent
    46027   Chino             3   Chino    Yolo       09/29/2015  DN
             Small                 Valley   South
             Grazing               Ranger   Grazing
             Allotmen              Distri   Allotme
             ts                    ct       nt
                                   (11030   Managem
                                   901)     ent
    44049   Bighorn           3   Tonto
             Sheep                 Nation
             Populati              al
             on                    Forest
             Manageme              All
             nt                    Units
             Project               (11031
                                   200)
    33162   Labarge           4   Kemmere  LaBarge    12/14/2015  DN
             Vegetati              r        Vegetat
             on                    Ranger   ion
             Restorat              Distri   Restora
             ion                   ct       tion
                                   (11040   Project
                                   301)
    40734   West              4   Moab     West       05/08/2015  DN
             Slope                 Ranger   Slope
             Wildland-             Distri   Wildlan
             Urban                 ct       d Urban
             Interfac              (11041   Interfa
             e                     004)     ce
             Hazardou                       Hazardo
             s Fuels                        us
             Reductio                       Fuels
             n                              Reducti
             Project                        on
                                            Project
    40313   North Elk         4   Montice  North      11/18/2014  DN
             Ridge                 llo      Elk
             Forest                Ranger   Ridge
             Health                Distri   Forest
             Project               ct       Health
                                   (11041   Project
                                   005)
    34565   La Sal            4   Montice
             Mines                 llo
             Complex               Ranger
                                   Distri
                                   ct
                                   (11041
                                   005)
    29417   Thompson          4   Challis-
             Creek                 Yankee
             Modified              Fork
             Plan of               Ranger
             Operatio              Distri
             ns for                ct
             Mine                  (11041
             Expansio              302)
             n
    46552   Hughes            4   North    Hughes     11/04/2015  DN
             Creek #2              Fork     Creek
             Placer                Ranger   Placer
             Testing               Distri   Project
                                   ct       #2
                                   (11041
                                   307)
    40683   Greater           4   Humbold
             Sage                  t-
             Grouse                Toiyab
             Bi-State              e
             Distinct              Nation
             Populati              al
             on                    Forest
             Segment               All
             Forest                Units
             Plan                  (11041
             Amendmen              700)
             t
    38743   Lake              5   Descans  Lake       01/09/2015  DN
             Morena                o        Morena
             Communit              Ranger   Communi
             y                     Distri   ty
             Defense               ct       Defense
             Project               (11050
                                   254)
    31457   Lava              5   Big
             Hazardou              Valley
             s Fuels               Ranger
             Reductio              Distri
             n                     ct
             Project               (11050
                                   954)
    25380   Westside          5   Shasta   Westside   02/19/2015  DN
             Plantati              Trinit   Plantat
             on                    y        ion
             Project               Nation   Project
                                   al       Decisio
                                   Forest   n
                                   All      Notice
                                   Units
                                   (11051
                                   400)
    42264   Parks-            5   Mt.      Decision   12/19/2014  DN
             Eddy                  Shasta   Notice
             Watershe              Ranger   Parks
             d                     Distri   Eddy
             Restorat              ct       Watersh
             ion                   (11051   ed
                                   459)     Restora
                                            tion
                                            Project
    30324   Harris            5   McCloud  Harris     11/13/2014  ROD
             Vegetati              Ranger   Vegetat
             on                    Distri   ion
             Manageme              ct       Managem
             nt                    (11051   ent
                                   461)     Project
    37551   Incline           5   Lake     Incline    01/02/2015  DN
             Lake Dam              Tahoe    Lake
             Project               Basin    Dam
                                   Mgt      Project
                                   Unit
                                   (11051
                                   900)
    28599   Californi         5   Lake     Californ   07/22/2015  ROD
             a                     Tahoe    ia
             Pacific               Basin    Pacific
             Electric              Mgt      Electri
             ity                   Unit     city
             Company               (11051   Company
             625 and               900)     625 and
             650                            650
             Electric                       Electri
             al Line                        cal
             Upgrade                        Line
             Project                        Upgrade
                                            Project
    30232   Newberry          6   Bend/    Newberry   10/09/2014  DN
             Geotherm              Fort     Geother
             al                    Rock     mal
             Consent               Ranger   Consent
             to Lease              Distri   to
             Project               ct       Lease
                                   (11060   Project
                                   101)
    30232   Newberry          6   Bend/    Newberry   10/10/2014  DN
             Geotherm              Fort     Geother
             al                    Rock     mal
             Consent               Ranger   Consent
             to Lease              Distri   to
             Project               ct       Lease
                                   (11060   Project
                                   101)     Decisio
                                            n
                                            Notice
    32816   Junction          6   Bend/    Junction   06/30/2015  DN
             Vegetati              Fort     Vegetat
             on                    Rock     ion
             Manageme              Ranger   Managem
             nt                    Distri   ent
             Project               ct       Decisio
                                   (11060   n
                                   101)     Notice
    38724   Sisters           6   Sisters
             Communit              Ranger
             y Trails              Distri
                                   ct
                                   (11060
                                   105)
    43246   Antelope          6   Chemult  Sagebrus   05/23/2014  DM
             Grazing               Ranger   h Draw
             Allotmen              Distri   Drift
             ts AMP                ct       Fence
                                   (11060   Jamison
                                   211)     Meadow
                                            Range
                                            Fence
                                            and N
                                            Moffat
                                            Fence
    38013   Bluejay           6   Chiloqu  Bluejay    05/20/2015  DN
             Vegetati              in       Vegetat
             on                    Ranger   ion
             Restorat              Distri   Managem
             ion                   ct       ent
             Project               (11060   Project
                                   212)
    31895   Yamsi             6   Chiloqu
             Grazing               in
             Allotmen              Ranger
             t                     Distri
                                   ct
                                   (11060
                                   212)
    35614   Malheur           6   Malheur  Malheur    09/11/2015  ROD
             National              Nation   Nationa
             Forest                al       l
             Site-                 Forest   Forest
             Specific              All      Site-
             Invasive              Units    Specifi
             Plants                (11060   c
             Treatmen              400)     Invasiv
             t                              e
                                            Plants
                                            Treatme
                                            nt
    41022   Big               6   Blue     Big                DN
             Mosquito              Mounta   Mosquit
                                   in       o
                                   Ranger   Project
                                   Distri   Decisio
                                   ct       n
                                   (11060   Notice
                                   401)     and
                                            Finding
                                            of No
                                            Signifi
                                            cant
                                            Impact
    42301   Wolf              6   Emigran  Decision   07/23/2015  DN
             Project               t        Notice
                                   Creek    for
                                   Ranger   Wolf
                                   Distri   Vegetat
                                   ct       ion
                                   (11060   Managem
                                   402)     ent
                                            Project
                                            EA
    32129   Elk 16            6   Prairie  Final      09/14/2015  DN
                                   City     Decisio
                                   Ranger   n
                                   Distri   Notice
                                   ct       and
                                   (11060   Finding
                                   404)     of No
                                            Signifi
                                            cant
                                            Impact
    37320   Grove             6   Clackam  Grove      10/20/2014  DN
             Thin                  as       Thinnin
                                   River    g
                                   Ranger
                                   Distri
                                   ct
                                   (11060
                                   605)
    40686   Lava              6   Hood     Lava       04/29/2015  DN
             Restorat              River    Restora
             ion                   Ranger   tion
                                   Distri   Final
                                   ct       Decisio
                                   (11060   n
                                   606)     Notice
                                            and
                                            Finding
                                            of No
                                            Signifi
                                            cant
                                            Impact
    43665   North             6   Hood     North      01/16/2015  DN
             Fork                  River    Fork
             Mill                  Ranger   Mill
             Creek                 Distri   Creek
             Revised               ct       Revised
                                   (11060   Decisio
                                   606)     n
                                            Notice
    41044   Queets            6   Pacific  Queets     09/18/2015  DN
             Vegetati              Ranger   Vegetat
             on                    Distri   ion
             Manageme              ct       Managem
             nt                    South    ent
                                   (11060
                                   903)
    34220   10C               6   Siuslaw  Oregon     01/29/2015  ROD
             Designat              Nation   Dunes
             ed                    al       NRA
             Routes                Forest   Designa
             Project               All      ted
                                   Units    Routes
                                   (11061   Record
                                   200)     of
                                            Decisio
                                            n
    40473   Millwrigh         6   Central  Millwrig   08/29/2014  DN
             t Beaver              Coast    ht-
             Landscap              Ranger   Beaver
             e                     Distri   Landsca
             Manageme              ct/      pe
             nt                    Oregon   Managem
             Project               Dunes    ent
                                   Nation   Project
                                   al       -Covere
                                   Recrea   d by
                                   tion     ARBO II
                                   Area
                                   (11061
                                   208)
    40473   Millwrigh         6   Central  Millwrig   08/29/2014  DN
             t Beaver              Coast    ht-
             Landscap              Ranger   Beaver
             e                     Distri   Landsca
             Manageme              ct/      pe
             nt                    Oregon   Managem
             Project               Dunes    ent
                                   Nation   Project
                                   al       -No
                                   Recrea   Effect
                                   tion     on Coho
                                   Area     Salmon
                                   (11061
                                   208)
    36365   Loafer            6   Diamond  Decision   05/08/2013  DN
             Timber                Lake     Notice
             Sale                  Ranger   and
             Project               Distri   FONSI
                                   ct       for the
                                   (11061   Loafer
                                   503)     Timber
                                            Sale
                                            Project
                                            EA
    30717   Lower             6   Hells    Lower      09/03/2015  ROD
             Imnaha                Canyon   Imnaha
             Rangelan              NRA      Rangela
             d                     (11061   nd
             Analysis              604)     Analysi
                                            s
    43087   Annie             6   Tonaske  Annie      07/30/2015  DN
             Restorat              t        Restora
             ion (AR)              Ranger   tion
             Project               Distri   Project
                                   ct
                                   (11061
                                   709)
    43264   Cool Soda         6   Sweet    Cool       05/15/2015  DN
                                   Home     Soda
                                   Ranger
                                   Distri
                                   ct
                                   (11061
                                   803)
    38487   Buck Tule         6   Detroit  Final      07/31/2015  DN
                                   Ranger   Decisio
                                   Distri   n
                                   ct       Notice/
                                   (11061   Finding
                                   804)     of No
                                            Signifi
                                            cant
                                            Impact
                                            Buck
                                            Tule
                                            Project
    41515   Renshaw           6   Sulliva  Renshaw    04/14/2015  DN
             Vegetati              n Lake   Vegetat
             on                    Ranger   ion
             Manageme              Distri   Managem
             nt                    ct       ent
             Project               (11062   Project
             EA                    105)
    42153   Deer              6   Three    Deer       11/06/2014  DN
             Jasper                Rivers   Jasper
             Restorat              Ranger   Restora
             ion                   Distri   tion
             Project               ct       Project
                                   (11062   Environ
                                   112)     mental
                                            Assessm
                                            ent
    43562   Road/             8   Conasau  Road/      06/12/2015  DN
             trail                 ga       Trail
             decommis              Ranger   Decommi
             sioning               Distri   ssionin
             and                   ct       g and
             trail                 (11080   Seasona
             seasonal              301)     l
             closures                       Closure
                                            Project
    30460   Camp              8   Catahou  Camp       08/04/2015  DN
             Livingst              la       Livings
             on                    Ranger   ton
             Ecosyste              Distri   Ecosyst
             m                     ct       em
             Manageme              (11080   Managem
             nt                    601)     ent
             Project                        Project
    42925   Gilmore           8   Glenwoo  Gilmore    11/16/2015  DN
             Hollow                d and    Hollow
             Vegetati              Pedlar   Vegetat
             on                    Ranger   ion
             Project               Distri   Project
                                   cts
                                   (11080
                                   813)
    41170   Three             8   Bayou    Three      01/06/2015  DN
             Knob                  Ranger   Knob
             Project               Distri   Project
                                   ct
                                   (11081
                                   003)
    44803   Laurel            8   Nationa
             Creek                 l
             Property              Forest
             Owners                s In
             Associat              North
             ion                   Caroli
             Access                na All
             Across                Units
             National              (11081
             Forest                100)
             System
             Lands
    44038   Compartme         8   Sam      DN/FONSI   06/23/2015  DN
             nt 112                Housto   Compart
             Longleaf              n        ment
             Pine                  Ranger   112
             Restorat              Distri   Longlea
             ion                   ct       f Pine
             Project               (11081   Restora
                                   304)     tion
                                            Project
    42945   Gardner           9   Mio      Decision   07/12/2015  DN
             Land-for-             Ranger   Notice
             Land                  Distri   & FONSI
             Exchange              ct       for
                                   (11090   Gardner
                                   405)     Land-
                                            for-
                                            Land
                                            Exchang
                                            e
    42975   Red Pine          9   Ottawa   Red Pine   12/05/2014  DN
             Thinning              Nation   Thinnin
             Project               al       g
                                   Forest   Project
                                   All      Decisio
                                   Units    n
                                   (11090   Notice
                                   700)
    41909   Windy             9   Tofte    Windy      03/20/2015  DN
             Project               Ranger   Project
                                   Distri   Decisio
                                   ct       n
                                   (11090   Notice
                                   907)     and
                                            Finding
                                            of No
                                            Signifi
                                            cant
                                            Impact
    45711   Wood             10   Glacier  Wood       04/10/2015  DN
             Bison                 Ranger   Bison
             Project-              Distri   Project
             -Supplem              ct       Supplem
             ental EA              (11100   ental
                                   410)     EA
    23483   Resurrect        10   Seward   Resurrec   07/30/2015  ROD
             ion                   Ranger   tion
             Creek                 Distri   Creek
             Restorat              ct       Phase
             ion                   (11100   II:Stre
             Phase II              430)     am
                                            Restora
                                            tion &
                                            Hope
                                            Mining
                                            Co Plan
                                            of Ops
    45109   Anan             10   Wrangel  Anan       05/08/2015  DN
             Floating              l        Wildlif
             Dock                  Ranger   e
                                   Distri   Observa
                                   ct       tory
                                   (11100   Floatin
                                   522)     g Dock
                                            and
                                            Trail
                                            Safety
                                            Improve
                                            ments
    14556   Navy             10   Wrangel  Navy       08/11/2015  ROD
             Timber                l        Timber
             Sale                  Ranger   Sale
                                   Distri   Record
                                   ct       Of
                                   (11100   Decisio
                                   522)     n
    37050   Mendenhal        10   Juneau   Final DN   07/06/2015  DN
             l                     Ranger   and
             Glacier               Distri   FONSI
             Recreati              ct       MGRA
             on Area               (11100   Plan
             Planning              533)     Revisio
                                            n for
                                            Commerc
                                            ial
                                            Service
                                            s
------------------------------------------------------------------------

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
